<html>
<title> - ALIGNING FEDERAL SURFACE TRANSPORTATION POLICY TO MEET 21ST-CENTURY NEEDS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  ALIGNING FEDERAL SURFACE TRANSPORTATION POLICY TO MEET 21ST-CENTURY 
                                 NEEDS

=======================================================================

                                (116-7)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation                            
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-675 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cbbba48ba8beb8bfa3aea7bbe5a8a4a6e5">[email&#160;protected]</a>                                       


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  


                  Subcommittee on Highways and Transit

           ELEANOR HOLMES NORTON, District of Columbia, Chair

EDDIE BERNICE JOHNSON, Texas         RODNEY DAVIS, Illinois
STEVE COHEN, Tennessee               DON YOUNG, Alaska
JOHN GARAMENDI, California           ERIC A. ``RICK'' CRAWFORD, 
HENRY C. ``HANK'' JOHNSON, Jr.,      Arkansas
Georgia                              BOB GIBBS, Ohio
JARED HUFFMAN, California            DANIEL WEBSTER, Florida
JULIA BROWNLEY, California           THOMAS MASSIE, Kentucky
FREDERICA S. WILSON, Florida         MARK MEADOWS, North Carolina
ALAN S. LOWENTHAL, California        ROB WOODALL, Georgia
MARK DeSAULNIER, California          JOHN KATKO, New York
SALUD O. CARBAJAL, California        BRIAN BABIN, Texas
ANTHONY G. BROWN, Maryland           DAVID ROUZER, North Carolina
ADRIANO ESPAILLAT, New York          MIKE BOST, Illinois
TOM MALINOWSKI, New Jersey           DOUG LaMALFA, California
GREG STANTON, Arizona                BRUCE WESTERMAN, Arkansas
COLIN Z. ALLRED, Texas               LLOYD SMUCKER, Pennsylvania
SHARICE DAVIDS, Kansas               PAUL MITCHELL, Michigan
ABBY FINKENAUER, Iowa                MIKE GALLAGHER, Wisconsin
JESUS G. ``CHUY'' GARCIA, Illinois   GARY J. PALMER, Alabama
ANTONIO DELGADO, New York            BRIAN K. FITZPATRICK, Pennsylvania
CHRIS PAPPAS, New Hampshire          TROY BALDERSON, Ohio
ANGIE CRAIG, Minnesota               ROSS SPANO, Florida
HARLEY ROUDA, California             PETE STAUBER, Minnesota
GRACE F. NAPOLITANO, California      CAROL D. MILLER, West Virginia
ALBIO SIRES, New Jersey              GREG PENCE, Indiana
SEAN PATRICK MALONEY, New York       SAM GRAVES, Missouri (Ex Officio)
DONALD M. PAYNE, Jr., New Jersey
DANIEL LIPINSKI, Illinois
DINA TITUS, Nevada
STACEY E. PLASKETT, Virgin Islands
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia, and Chair, Subcommittee on Highways and 
  Transit:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Rodney Davis, a Representative in Congress from the State of 
  Illinois, and Ranking Member, Subcommittee on Highways and 
  Transit:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     6
    Prepared statement...........................................     7

                               WITNESSES

Hon. Ron Nirenberg, Mayor, City of San Antonio, Texas, on behalf 
  of the National League of Cities:

    Oral statement...............................................     9
    Prepared statement...........................................    11
Roger Millar, PE, FASCE, FAICP, Secretary, Washington State 
  Department of Transportation, on behalf of the American 
  Association of State Highway and Transportation Officials:

    Oral statement...............................................    13
    Prepared statement...........................................    15
Darran Anderson, Director of Strategy and Innovation, Texas 
  Department of Transportation, on behalf of the Texas Innovation 
  Alliance:

    Oral statement...............................................    23
    Prepared statement...........................................    25
John Kevin ``Jack'' Clark, Executive Director, Transportation 
  Learning Center:

    Oral statement...............................................    27
    Prepared statement...........................................    29
Therese W. McMillan, Executive Director, Metropolitan 
  Transportation Commission, on behalf of the Association of 
  Metropolitan Planning Organizations:

    Oral statement...............................................    36
    Prepared statement...........................................    38
Al Stanley, Vice President, Stanley Construction Company, Inc., 
  on behalf of The Associated General Contractors of America:

    Oral statement...............................................    42
    Prepared statement...........................................    44
Michael Terry, President and CEO, Indianapolis Public 
  Transportation Corporation (IndyGo), on behalf of the American 
  Public Transportation Association (APTA):

    Oral statement...............................................    50
    Prepared statement...........................................    52

                       SUBMISSIONS FOR THE RECORD

Report, ``A Preventable Crisis: The Costs of a Hudson River Rail 
  Tunnel Shutdown,'' submitted for the record by Hon. Espaillat..    78
Report, ``Planning Ahead: County Planning, Land Use and Zoning 
  Strategies for Affordable Housing,'' submitted for the record 
  by Hon. Garcia.................................................    81
Letter of February 1, 2019, from Mark W. Mitchell, Mayor, City of 
  Tempe, AZ, et al., submitted for the record by Hon. Stanton....    95
Letter of March 13, 2019, from Shailen P. Bhatt, President and 
  CEO, Intelligent Transportation Society of America, submitted 
  for the record by Hon. Norton..................................   101
Letter of March 11, 2019, from James D. Ogsbury, Executive 
  Director, Western Governors' Association, submitted for the 
  record by Hon. Norton..........................................   103
Letter of May 7, 2019, and Congestion Maps, from Tori Emerson 
  Barnes, Executive Vice President, Public Affairs and Policy, 
  U.S. Travel Association, submitted for the record by Hon. 
  Norton.........................................................   107

                                APPENDIX

Questions from Hon. Peter A. DeFazio for Hon. Ron Nirenberg......   113
Questions from Hon. Peter A. DeFazio for Roger Millar, PE, FASCE, 
  FAICP..........................................................   114
Questions from Hon. Mark Meadows for Roger Millar, PE, FASCE, 
  FAICP..........................................................   118
Questions from Hon. Peter A. DeFazio for Darran Anderson.........   118
Questions from Hon. Mark Meadows for Darran Anderson.............   121
Questions from Hon. Peter A. DeFazio for John Kevin ``Jack'' 
  Clark..........................................................   122
Questions from Hon. Peter A. DeFazio for Therese W. McMillan.....   126
Questions from Hon. Peter A. DeFazio for Al Stanley..............   128
Questions from Hon. Mark Meadows for Al Stanley..................   128
Questions from Hon. Peter A. DeFazio for Mike Terry..............   132
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                             March 8, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Highways and Transit
    FROM:   Staff, Subcommittee on Highways and Transit
    RE:       Subcommittee Hearing on ``Aligning Federal 

Surface Transportation Policy to Meet 21st Century Needs''

                                PURPOSE

    The Subcommittee on Highways and Transit will meet on 
Wednesday, March 13, 2019, at 10 a.m. in HVC 210, Capitol 
Visitor Center, to receive testimony on ``Aligning Federal 
Surface Transportation Policy to Meet 21st Century Needs.'' The 
purpose of the hearing is to examine if and how Federal-aid 
highway and Federal transit programs and policies need to 
change in order to meet current and future transportation 
challenges. The Subcommittee will hear from representatives of 
the American Association of State Highway and Transportation 
Officials, the National League of Cities, the American Public 
Transportation Association, the Association of Metropolitan 
Planning Organizations, the Associated General Contractors of 
America, the Transportation Learning Center, and the Texas 
Innovation Alliance.

                               BACKGROUND

THE FEDERAL ROLE IN SURFACE TRANSPORTATION INVESTMENT

    The Federal Government has continued its strong role in 
surface transportation investment, in partnership with States, 
since the 1916 Federal Aid Roads Act. The enactment of the 
landmark Federal-Aid Highway Act of 1956 (1956 Act) (P.L. 84-
627) made significant Federal investment in America's system of 
roads and bridges. This Act established formula grant programs 
to distribute Federal surface transportation funds to States 
through specific eligible categories. The 1956 Act also 
established a dedicated funding mechanism through the Highway 
Trust Fund (HTF). Secure funding, along with a long-term 13-
year authorization, gave States the certainty and continuity 
needed to develop and begin construction on the Interstate 
System and other surface transportation projects.
    Congress has enacted a number of authorization bills in the 
decades following the passage of the 1956 Act to modify the 
Federal-aid highway program, create the Federal transit 
program, provide ongoing funding to States for the construction 
and maintenance of the Nation's surface transportation network, 
and extend the highway-related taxes deposited into the HTF. 
Congress has sustained the pattern of long-term, multi-year 
authorization bills to continue steady, predictable funding 
levels to facilitate project planning and construction. Since 
1991, major authorization bills include: the Intermodal Surface 
Transportation Efficiency Act of 1991 (ISTEA) (P.L. 102-240) 
enacted in 1991, the Transportation Equity Act for the 21st 
Century (TEA-21) (P.L 105-178) enacted in 1998, the Safe, 
Accountable, Flexible, Efficient Transportation Equity Act: A 
Legacy for Users (SAFETEA-LU) (P.L. 109-59) enacted in 2005, 
and the Moving Ahead for Progress in the 21st Century Act (MAP-
21) (P.L. 112-141) enacted in 2012.
    Most recently, Congress enacted the Fixing America's 
Surface Transportation Act (FAST Act) (P.L 114-94), on December 
4, 2015. The FAST Act provided $281 billion in funding for 
highway, transit, and highway safety programs and reauthorized 
those programs for 5 years. The FAST Act is set to expire on 
September 30, 2020. In the 116th Congress, a priority for the 
Subcommittee on Highways and Transit is developing and enacting 
a bill to reauthorize Federal highway, public transit, and 
highway safety programs.

HIGHWAY TRUST FUND SOLVENCY

    Federal surface transportation investments are funded 
through Federal excise taxes levied on motor fuels and on 
related products such as tires and freight trucks, which are 
deposited into the HTF. Congress has not adjusted the motor 
fuel excise taxes since 1993, and the purchasing power of these 
taxes have fallen over 40 percent in the last 25 years. 
Improved vehicle fuel efficiency has further eroded Federal 
revenues. As a result, revenues coming into the HTF have not 
kept pace with expenditures from authorized programs.
    Congress has had to transfer $144 billion from the General 
Fund and other funds to keep the HTF solvent since 2008. The 
Congressional Budget Office (CBO) estimates that over the next 
10 years, the HTF will fall $159 billion short based on 
continuing currently authorized highway, transit, and safety 
program levels. An additional $5 billion is necessary to ensure 
that there is a prudent balance in the HTF, which brings the 
shortfall to $164 billion. This does not include any higher 
investment levels to meet growing surface transportation needs. 
Without a solvent HTF, Congress cannot enact a long-term, 
multi-year authorization bill.

CONDITION OF OUR SURFACE TRANSPORTATION NETWORK

    According to Congressional Budget Office (CBO) data, from 
2003 to 2017 Federal spending on infrastructure, including 
surface transportation programs, decreased by nearly 20 
percent, adjusted for inflation.\1\ This reduction has resulted 
in a growing backlog of investment needs. One in three 
interstate bridges have repair needs, and nearly 9 percent of 
the Nation's bridges are structurally deficient.\2\ One out of 
every five miles of highway pavement is in poor condition 
nationwide, and more than two out of every five miles of 
America's urban interstates are congested.\3\
---------------------------------------------------------------------------
    \1\ CBO report, ``Public Spending on Transportation and Water 
Infrastructure, 1956 to 2017'' October 2018.
    \2\ ARTBA Bridge Report, 2018.
    \3\ ASCE Report Card, 2017.
---------------------------------------------------------------------------
    The American Society of Civil Engineers (ASCE) has 
identified a more than $1 trillion gap in current surface 
transportation funding in order to fix what we have, meet 
future needs, and restore our global competitiveness. 
Similarly, according to the U.S. Department of Transportation's 
(DOT) 2015 Conditions & Performance Report, there is an $836 
billion backlog of unmet capital investment needs for highways 
and bridges. DOT estimates that all levels of government need 
to invest approximately $143 billion per year to improve the 
conditions and performance of our roads and bridges. We need to 
invest $37.3 billion per year at all levels of government to 
improve the conditions and performance of all roads. The cost 
of bringing the Nation's rail and bus transit systems into a 
state of good repair is estimated at $90 billion, and we would 
need to invest $26.4 billion per year to accommodate the high-
growth scenario of future transit ridership. We currently 
underinvest by approximately $9.5 billion per year at all 
levels of government on transit capital investments.

MEETING 21ST CENTURY CHALLENGES

    The next surface transportation reauthorization bill will 
only continue to facilitate economic growth, ensure global 
competitiveness, and create jobs, including family supporting 
jobs, if Congress makes the necessary investments in the 
Nation's surface transportation system. Congress will also need 
to ensure that Federal surface transportation programs can 
address current and future challenges. In the coming decades, 
our transportation system will come under immense pressure and 
face significant challenges. America's population is expected 
to grow to approximately 400 million by 2051.\4\ Freight 
volumes will continue to soar as freight tons are expected to 
increase by 40 percent over the next 30 years.\5\ The 
Transportation Research Board's recent report on the future of 
the Interstate System concluded that the Interstate System must 
be preserved and rehabilitated, while also renewed and 
modernized to adapt to the Nation's changing demographic, 
economic, climate, and technological landscape.\6\ This hearing 
is the Subcommittee's first step of its process to develop a 
long-term surface transportation reauthorization bill. The 
hearing will provide an opportunity for Members to consider 
potential changes to Federal surface transportation policies 
and programs in order to address current and future challenges. 
Witness testimony is likely to touch on the following areas:
---------------------------------------------------------------------------
    \4\ U.S. Census Bureau, ``Projections of the Size and Composition 
of the U.S. Population: 2014 to 2060,'' 2015.
    \5\ U.S. DOT, Bureau of Transportation Statistics, ``DOT Releases 
30-Year Freight Projections,'' 2016.
    \6\ Transportation Research Board, ``Renewing the National 
Commitment to the Interstate Highway System: A Foundation for the 
Future,'' 2018.
---------------------------------------------------------------------------
    <bullet>  Strengthening the model of a Federal, State, and 
local partnership,
    <bullet>  Improving roads, bridges, and public transit 
systems,
    <bullet>  Moving people and goods safely and more 
efficiently and reducing congestion,
    <bullet>  Harnessing innovation and incorporating 
technology to improve mobility,
    <bullet>  Ensuring a qualified transportation workforce,
    <bullet>  Building stronger and more resilient 
infrastructure, and
    <bullet>  Improving project delivery and protecting the 
environment.

                              WITNESS LIST

    <bullet>  The Honorable Ron Nirenberg, Mayor, city of San 
Antonio, on behalf of the National League of Cities
    <bullet>  Mr. Roger Millar, Secretary, Washington State 
Department of Transportation, on behalf of the American 
Association of State Highway and Transportation Officials
    <bullet>  Mr. Darran Anderson, Director of Strategy and 
Innovation, Texas Department of Transportation, on behalf of 
the Texas Innovation Alliance
    <bullet>  Mr. Jack Clark, Executive Director, 
Transportation Learning Center
    <bullet>  Ms. Therese W. McMillan, Executive Director, 
Metropolitan Transportation Commission, on behalf of the 
Association of Metropolitan Planning Organizations
    <bullet>  Mr. Al Stanley, Vice President, Stanley 
Construction Company, Inc., on behalf of the Associated General 
Contractors of America
    <bullet>  Mr. Michael Terry, President and CEO, IndyGo--
Indianapolis Public Transportation Corporation, on behalf of 
the American Public Transportation Association

 
  ALIGNING FEDERAL SURFACE TRANSPORTATION POLICY TO MEET 21ST-CENTURY 
                                 NEEDS

                              ----------                              


                       WEDNESDAY, MARCH 13, 2019

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room HVC-210, Capitol Visitor Center, Hon. Eleanor Holmes 
Norton (Chair of the subcommittee) presiding.
    Ms. Norton. It is time for us to come to order and begin.
    I ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    Finally, we are having the first hearing of our 
Subcommittee on Highways and Transit. I particularly look 
forward to collaborating with my good friend, the ranking 
member, Mr. Davis, and with Members on both sides of the aisle.
    Bear in mind that this subcommittee and full committee have 
the reputation for being the most bipartisan in the Congress. 
There is a reason for that. We are dealing with what everybody 
wants.
    The enthusiasm about our subcommittee is clear. This 
subcommittee is larger than almost all of the other full 
committees in the House. Everybody wanted to get on board. I 
think what that does is signal the importance of the underlying 
subject matter.
    We, of course, are at the end--at least by 2020--of the 
FAST Act. The FAST Act was written by all of us. I was very 
pleased to work with Mr. Graves and with Mr. Shuster. I intend 
to run this subcommittee in the same bipartisan way. We need 
everybody.
    The FAST Act was a significant achievement because it was 
the first full authorization act in 10 years. The chief problem 
for us--and perhaps it remains a problem--is that we had to do 
a 6-year bill in 5 years, because there was no increase in 
funding.
    We have a tall and very different order this time. 
Obviously, we have got to maintain what we have, and we have 
not done a good job of doing that. But at the same time, we 
have got to modernize our entire system. And there are entirely 
new--at least for the subcommittee--issues: climate change, you 
can't build roads or transit the way you used to, with climate 
change bearing upon us.
    So we regard this as a transformational moment in our work, 
as we try to figure out how do you move people and goods, in 
what amounts to a new era for transportation and infrastructure 
than even a few years ago.
    The challenge is huge, and it means that infrastructure at 
every level and all modes of transportation have to be looked 
at anew, and not in the way we looked at it even at the last 
reauthorization.
    The importance of this bill, I supposed, is seen by the 
priority it has been given. It is H.R. 2. You know, there is 
H.R. 1 and there is H.R. 2. It means that this bill is 
important to the entire country.
    We will not be able to do a bill worthy of the American 
people if we think the way we did last time, or if we pit one 
mode against another. What we need now is adaptable 
infrastructure that has to work together, particularly to avoid 
congestion.
    This committee has to lead in accommodating one mode of 
transportation that will get people from one place to another, 
and they then may need another mode of transportation. So we 
will be depending not only on the usual modes of 
transportation--transit and autos--driving, that is--but we 
will be looking closely at biking and expediting walking, and 
even scooting, which I love to talk about.
    [Laughter.]
    Ms. Norton. Would love to do.
    Indeed, while this hearing is important, I am very 
interested in holding subcommittee hearings on these 
alternative modes of travel.
    Transit investment is indeed a more critical part than it 
was at the last reauthorization. The Committee on Ways and 
Means has already begun leading. Some on the other side of 
their aisle talked about something I thought we had laid to 
rest some time ago, and that is that we are to stop funding 
transit with Federal dollars. Are they crazy? We need more 
transit. That is clean energy. I can't imagine it, and we are 
not going to go down that road again. It shut down this 
committee the last time it was raised.
    The future of the Highway Trust Fund cannot be avoided. But 
when we talked about transit--before I get to that, when we 
talked about transit I recalled that from the last--from one of 
the last hearings we had people from rural areas--I remember 
the director of the Tennessee Department of Transportation 
indicated how important transit was to all the counties of 
Tennessee, and we better not just talk about that as an urban 
matter.
    In the last authorization--technology was a very small part 
of our bill, or even our discussion. It is a major part of what 
we have to do if we are serious about our crippled congestion, 
and if we are serious about doing something about it. There are 
troubling signs of slippage in the skill of our labor pool. We 
will be having hearings on that matter.
    The Committee on Ways and Means has already met to discuss 
the solvency of the Highway Trust Fund. I won't get into that.
    The debate goes on, but whatever happens with funding, we 
must do our work to get a bill by 2020 for the American people.
    [Ms. Norton's prepared statement follows:]
                                 <F-dash>
    Prepared Statement of Hon. Eleanor Holmes Norton, a Delegate in 
  Congress from the District of Columbia, and Chair, Subcommittee on 
                          Highways and Transit
    Welcome to the first hearing of the Subcommittee on Highways and 
Transit. I look forward to collaborating with my Ranking Member, Mr. 
Davis, and Members on both sides of the aisle.
    Our Subcommittee, at 56 Members, is larger than almost all (18 of 
21) full Committees in Congress. It is good that we have so much 
interest--because we have a hefty agenda. Moving a surface 
transportation authorization bill is the top priority of the 
Subcommittee this Congress. The FAST Act expires at the end of 
September 2020, and the Members of this Subcommittee are responsible 
for developing the next bill.
    Today's hearing is the first step in the authorization process. We 
will hear from stakeholders at different levels of government and the 
private sector who will advise us on which areas of Federal highway and 
transit policy warrant a fresh look.
    In this authorization, we need to restore and maintain the roads, 
bridges, and transit systems we have, particularly at a time when the 
changing climate threatens the longevity of these assets. We need to 
modernize so that transportation policy evolves and reaps the benefits 
of technology. We must also transform our transportation network to 
move people and goods more safely and efficiently.
    I represent the District of Columbia, a densely populated city 
that--along with Maryland, Virginia, and the Federal government--
provides a transportation system for over six million people. 
Congestion, transit woes, and deteriorating bridges are challenges my 
region faces on a daily basis. These same challenges are found across 
the country.
    Today, we have with us the Mayor of the nation's fastest growing 
city--San Antonio, Texas, who will share his story of tackling 
congestion and delivering mobility.
    We can't achieve these goals if we continue to think in outdated 
ways, by pitting one mode against another. We will need adaptable 
infrastructure that can accommodate any mode of transportation that 
will get a person from here to there--driving, transit, biking, 
walking, even scooting. We must direct investment to the most efficient 
and effective solutions.
    Transit investment is a crucial part of this equation. At last 
week's infrastructure hearing before the Committee on Ways and Means, 
some Members on the other side of the aisle raised the tired argument 
that we should stop funding transit with Federal dollars. We have heard 
the argument that transit funding only helps urban areas. Access to 
transit is critical for every American--including in rural areas. For 
colleagues new to the Subcommittee, allow me to quote from testimony we 
heard in two hearings last Congress.
    In a hearing on the future of the Highway Trust Fund, Mr. Jack 
Schroerer, the Director of the Tennessee DOT stressed the critical role 
transit plays in providing accessibility in rural areas. He stated: 
``In Tennessee, we fund transit in all 95 counties . . . it is an 
integral part of our rural areas to get people to the doctor and 
hospitals . . . Almost all that money is Federal dollars, comes from 
FTA, and we put it to good use, and people in our rural counties use it 
a lot.''
    At a separate hearing, we heard Julia Castillo, head of the Heart 
of Iowa Regional Transit Agency testify on the importance of public 
transit options in rural Iowa. Ms. Castillo stated in her testimony: 
``People who live in more rural areas need the same types of services 
as those in urban areas and even though it may be more challenging and 
sometimes more expensive, we need to find ways in which to efficiently 
meet those needs so their independence, freedom, quality of life and 
ability to grow and prosper where they live is not compromised.''
    In the next authorization, we must also harness technology and 
innovation. Innovation has the power to address crippling congestion 
problems. It has the promise of saving lives and ushering in dramatic 
safety gains. And it has the ability to seamlessly connect people to a 
choice of transportation options. But these gains can only be realized 
if we find the right balance in public policy to protect consumers, 
workers, and taxpayers while spurring innovation. This Committee must 
play a strong role in finding and supporting that balance.
    We must also ensure that we have a skilled labor pool to take on 
the challenge of building 21st-century infrastructure. In a long-term 
reauthorization bill, we must prioritize investing in human capital and 
worker training. We must also ensure a level playing field for women 
and minority contractors. I'm pleased to welcome Al Stanley who is here 
today on behalf of the Associated General Contractors of America. Mr. 
Stanley, we welcome your insight into industry needs and best practices 
on workforce development. Thank you for being here today.
    Of course, our Subcommittee cannot get a bill to the President's 
desk without finding the means to pay for these investments. For that, 
we need the Committee on Ways and Means to act to raise Federal 
revenue. It is time for Congress to step up and address the solvency of 
the Highway Trust Fund. I am pleased that the Ways and Means Committee 
took the first step and held a hearing on this pressing issue last 
week.
    As the funding debate goes on, we must do our work on this 
Subcommittee and develop a sound plan that directs investment to 
projects and priorities that will move our country forward. Thank you 
to the witnesses for sharing your ideas on that front this morning. I 
look forward to your testimony.

    Ms. Norton. Now I am going to ask the ranking member to 
make his opening statement at this time.
    Mr. Davis. Well, thank you, Madam Chair, and it is a 
pleasure to be able to have this opportunity to work with you. 
I am very thankful to our leader, Ranking Member Graves, for 
giving me this opportunity to chair this--to be the ranking 
member of this subcommittee. Sorry about that. Sometimes old 
habits are hard to break.
    I really want to thank, too, my good friend and the 
chairman of the full committee, Peter DeFazio. I have got a 
great working relationship with the chairman, and our years 
that we have served together on this committee.
    And he is--he and also Chair--Madam Chairman Holmes Norton, 
they want to work with us. They want to get things done. And 
that is really where I think this committee can rise above, and 
this subcommittee can rise above the partisan politics that we 
see kind of take over what is happening here in Washington.
    You know, you mention the size of this subcommittee. It is 
actually six times the size of the full committee I serve on 
that I am the full committee ranking member of, the Committee 
on House Administration. But it also shows the importance of 
where we are as a nation, when it comes to reinvesting and 
rebuilding our crumbling roads and infrastructure. And if this 
subcommittee is any indication, this will be where that 
bipartisan agreement comes from.
    As everyone here knows, the FAST Act that provided $281 
billion for Federal surface transportation programs expires at 
the end of September of 2020. Madam Chair and I, along with 
Chairman DeFazio and Ranking Member Graves, we will work 
together to develop a long-term strategy on how to address our 
Nation's infrastructure needs. But it has got to be a 
bipartisan bill to put a reauthorization forward.
    With this being our first hearing on reauthorization, I 
think it is important to note how critical this bill is to 
ensuring a good quality of life for all Americans, and to 
supporting our economy.
    This bill, surface reauthorization bill, will allow the 
Federal Government to continue its longstanding role in 
infrastructure investment. But we have got some big challenges 
and some opportunities before us. Now let me highlight a few of 
them.
    First, the Highway Trust Fund is not able to meet our 
surface transportation needs as they stand today, let alone our 
future needs. Congress and the administration must come 
together and find a way to shore up the Highway Trust Fund, 
providing sustainable funding for our Nation's infrastructure 
needs.
    Second, while our current system has significant needs, we 
must also begin to prepare for the future. Underinvestment has 
taken its toll on the system's ability to move people and also 
freight. We face increasing congestion, delays, and safety 
issues. Not only is adequate infrastructure investment 
important to mobility, it also creates jobs and allows our 
economy to prosper.
    Third, as this process moves forward, it is essential we 
find ways to build more efficiently so we can stretch the 
Federal dollar. We need to identify and attack hidden project 
costs by streamlining the project delivery process and reducing 
burdensome regulations. And this committee has a history of 
doing so.
    And lastly, by incorporating technologies and other 
innovations, we have the opportunity to increase safety and 
efficiency in our entire surface transportation system.
    I believe we can look forward to and I believe we can do 
these things and come to an agreement. And I look forward to 
working with my colleagues on these very important issues.
    And I want to take an opportunity to say thank you to each 
of the witnesses that are here today, too. And I look forward 
to your testimony.
    [Mr. Davis's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
    from the State of Illinois, and Ranking Member, Subcommittee on 
                          Highways and Transit
    As everyone here knows, the FAST Act, which provided $281 billion 
for federal surface transportation programs, expires on September 30, 
2020. Chairwoman Norton and I, along with Chairman DeFazio and Ranking 
Member Graves, will work together to develop a long-term, bipartisan 
bill to reauthorize surface transportation programs.
    With this being our first hearing on reauthorization, it is 
important to note how critical this bill is to ensuring a good quality 
of life for all Americans and to supporting the U.S. economy. The 
surface transportation reauthorization bill will allow the federal 
government to continue its long-standing role in infrastructure 
investment. But we have some big challenges and opportunities before 
us. Let me highlight a few of them.
    First, the Highway Trust Fund is not able to meet our surface 
transportation needs as they stand today, let alone our future needs. 
Congress and the Administration must come together and find a way to 
shore-up the Highway Trust Fund, providing sustainable funding for our 
Nation's surface transportation programs.
    Second, while our current surface transportation system has 
significant needs, we must also begin to prepare for the future. 
Underinvestment has taken its toll on the system's ability to move 
people and freight--we face increasing congestion, delays, and safety 
issues. Not only is adequate infrastructure investment important to 
mobility, it also creates jobs and allows our economy to prosper.
    Third, as the reauthorization process moves forward, it is 
essential that we find ways to build more efficiently--to stretch the 
federal dollar. We need to identify and attack hidden project costs by 
streamlining the project delivery process and reducing burdensome 
regulations.
    And lastly, by incorporating technologies and other innovations, we 
have the opportunity to increase safety and efficiency in our surface 
transportation system.
    In closing, to quote the greatest band of the 90's and 2000's, ``if 
today was your last day, and tomorrow was too late,'' can we reach an 
agreement on reauthorization? I believe we can and look forward to 
working with my colleagues this Congress to achieve this goal.

    Mr. Davis. And I yield back.
    Ms. Norton. Thank you very much. I am going to go to the--

    Mr. DeFazio. No, Madam Chair.
    Ms. Norton. I am going to go to----
    Mr. DeFazio. Thanks.
    Ms. Norton. If he will let me.
    [Laughter.]
    Ms. Norton. To the chairman of the full committee, Mr. 
DeFazio.
    Mr. DeFazio. Thank you. First, I would like to give you 
this, Eleanor [giving a box to Ms. Norton]. I am a bit pressed 
for time, and I will miss some of your testimony because I have 
to have my third call in 3 days with the FAA about 737s.
    So just briefly, we have a little cognitive dissonance this 
week. We have the President's budget, which again proposes, you 
know, cuts pretty much across the board in transportation, on 
one hand, but then talks about the fairy dust of leveraging 
$200 billion of Federal money into $1 trillion of investment, 
something we all know is impossible. It was part of the plan 
last year by D.J. Gribbin, which I am not aware of a single 
Member of Congress supporting, because it was so fanciful. It 
was based in so-called asset recycling, privatization, tolling, 
whatever.
    We need to do something real, and it is long overdue. We 
held the first hearing in the full committee on the cost of 
inaction, doing nothing. And now we are going to start talking 
about how we fund and move forward with the longer term bill.
    You know, CRs hurt, in terms of construction. States will 
delay major projects if we are in CR mode, because they don't 
know what the long-term prospect is for a major project. I was 
one of the few Democrats to vote against the so-called Recovery 
Act, because it was all based in shovel-ready projects, running 
out and putting down pavement on top of pavement, as opposed to 
addressing some of the major deficiencies in the system, the 
bridges, or whatever you wanted to address with real 
investment, where you get secondary and tertiary employment 
effects. Contractors didn't buy any new equipment, because they 
knew it was a 1-year thing to go out and put down a little bit 
of pavement. So the manufacturers of equipment didn't get the 
orders, and so on and so on, down the line.
    We need a long-term vision. We need long-term funding. The 
Committee on Ways and Means did hold a hearing last week, the 
first hearing, substantive hearing, by that committee on 
infrastructure funding, in almost a decade. So that is 
progress.
    But again, people wanted to fall to easy solutions. Oh, all 
we need is an investment bank. Or, oh, let's go to vehicle 
miles traveled tomorrow. We can't and we won't. As far as a 
private investment bank goes, we have already got TIFIA. Yes, 
if you want to have a private investment bank, that is great. 
But you are still competing for the same 12 percent of the 
projects that can fund a revenue stream to repay those 
projects. That means we have got another 88 percent of need 
here.
    There is no transit system in the world that makes money. 
So we can't pretend that we are going to suddenly have massive 
private investment in rebuilding the $100 billion of deficit we 
need just to bring existing transit up to a state of good 
repair, which would attract a lot more riders, let alone 
building out new transit options for people.
    So, you know, we are here to make the case. We know the 
policies we need, we know we need more investment. We have to 
make the case to America, we have to make the case to this 
administration, we have to make the case to some of our 
colleagues here in Congress, that you can't just paper this 
over again.
    The FAST Act papered it over. They pretended to, you know, 
create money. We are actually borrowing money to put in the 
trust fund right now. We are not admitting it because we had 
illusory phoney pay-fors that the Republicans stuck in the 
bill. But it was status quo funding. That was not adequate.
    I did, after a long battle, get a provision in the bill 
that says any additional real funds allocated by Congress will 
immediately flow through the policies in this bill. So we don't 
have to have a lengthy authorization fight to get some money 
out there soon.
    We are, at the same time, working on a long-term 
reauthorization, which, as Eleanor said, will be iterative. It 
is going to be the first 21st-century authorization, and it 
will be different than the repetitive things we have done, 
building on the Eisenhower legacy, which was a great legacy. 
But it is time to move on to more progressive things.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Norton and Ranking Member Davis, for holding this 
hearing. Without question, the most imperative work this Subcommittee 
will undertake in the 116th Congress is crafting a surface 
transportation authorization bill.
    Although the deadline when highway and transit programs expire--
September 2020--may seem a comfortable distance on the Congressional 
calendar, we don't have time to spare. We must find a solution 
immediately to a very real and very looming funding crisis in order to 
make reauthorization possible.
    We are just one week away from the official start of spring--and 
the start of the construction season in many parts of the country. 
Thanks to the FAST Act, States and local governments go into this 
construction season with certainty when it comes to highway and transit 
investments. That will not be the case for much longer. Planning 
projects, signing contracts, and hiring workers will all grind to a 
halt next year if Congress fails to enact a reauthorization bill.
    When we get too close to the wire on passing an authorization--or 
when the amount or availability of Federal funding becomes uncertain 
with Continuing Resolutions and government shutdowns--it has real 
effects on stalling highway and transit projects. Earlier this year, we 
saw evidence of this, when Oklahoma announced that 45 projects were 
being delayed due to the government shutdown. In the spring of 2015, as 
Congress was beginning its process to develop the FAST Act, several 
States announced they would delay the start of projects over 
uncertainty about whether and when Federal funds would come.
    Last week, the Committee on Ways and Means held a hearing on 
finding a sustainable solution to highway and transit funding. The 
hearing demonstrated once again that there is near unanimous support 
among stakeholders for finding real revenues. The U.S. Chamber of 
Commerce, the AFL-CIO, and the American Trucking Associations were all 
in firm agreement that the cost of inaction to businesses, workers, and 
the economy is real. Even more importantly, the unequivocal willingness 
of the business community to pay higher user fees in order to have 
better infrastructure is equally real. This is consistent with the 
message this Committee has heard from stakeholders for years.
    It is time for this clear willingness to translate into action by 
Congress to do the right thing and raise real revenues. At the hearing, 
many Republican members of the Committee advocated for private 
investment, pushing State and local governments to do more on their 
own, and stripping transit out of the Highway Trust Fund. Let me be 
clear--this is the opposite of raising real revenue. This lowest-
common-denominator mentality does nothing to address structurally 
deficient bridges, crippling congestion, or the need to build more 
resilient infrastructure. In fact, it does the opposite by cementing 
underinvestment as a strategy.
    I see plenty of opportunity in the upcoming surface transportation 
bill to improve highway and transit programs. We can save time and 
money in project delivery through smarter design, increased 
accountability, and tougher procurement rules. We can learn from and 
reward State innovation, and we can provide more local control over 
transportation dollars. We can harness the power of technologies to 
reduce congestion and increase safety. We can invest in electrification 
and other strategies to reduce greenhouse gas emissions. And with every 
dollar, we can create and sustain more good-paying American jobs and 
support U.S. manufacturing.
    But all of that will only become a reality if we get serious about 
finding the money and come to agreement that there is no time to wait. 
Thank you, Madam Chair, and I look forward to the testimony.

    Mr. DeFazio. So, with that, I have to go take a call from 
the Administrator, but I will be back. Thank you very much, I 
appreciate it.
    Ms. Norton. I want to thank our distinguished chairman for 
giving me a gavel. There is nothing more precious than having 
your own gavel. And it even has my name on it. So I appreciate 
that very much, sir.
    [Applause.]
    Ms. Norton. As I think was mentioned, this hearing is being 
held here. This is not our hearing room. Our hearing room will 
be available in May. Therefore, you will see our Members having 
to come all the way over from, usually, Rayburn.
    For example, I have another very important committee 
meeting going on right now. I just can't go, so I regret that. 
But Members will come in when they can, and we understand.
    We really have here a cross-section of witnesses to open 
today's hearing, so that we begin to get the lay of the land.
    We have the mayor of the city of San Antonio--the fastest 
growing city, I believe, in the United States--Mayor Ron 
Nirenberg.
    Mr. Roger Millar, who is the secretary of the Washington 
State Department of Transportation, is here on behalf of the 
American Association of State Highway and Transportation 
Officials.
    We have Darran Anderson, the director of strategy and 
innovation at the Texas Department of Transportation, but he is 
here on behalf of the Texas Innovation Alliance--a very 
important new area for us.
    Jack Clark, the executive director of the Transportation 
Learning Center.
    Therese McMillan, executive director of the Metropolitan 
Transportation Commission on behalf of the Association of 
Metropolitan Planning Organizations.
    Al Stanley, vice president of Stanley Construction Company 
on behalf of Associated General Contractors of America.
    And Michael Terry, who is president and CEO of IndyGo, 
Indianapolis Public Transportation Corporation, here on behalf 
of the American Public Transportation Association.
    So we will start with Mr. Nirenberg. But before we begin, 
we would like Mr. Carson, my good friend from Indianapolis, to 
introduce Mr. Terry, who is a constituent from his own 
district.
    Mr. Carson. Thank you, your excellency, Chairwoman Norton, 
and to Ranking Member Davis, for allowing me to speak today. I 
am going to have to leave. I know this isn't my committee, but 
I have another commitment.
    I am honored to introduce a friend and fellow Hoosier, Mike 
Terry. Congressman Pence knows Mr. Terry, as well.
    IndyGo is the Indianapolis Public Transportation 
Corporation. It is our largest transportation provider in the 
great Hoosier State, and it has been led by Mike Terry since 
2009. And Madam Chair, under his great leadership, IndyGo was 
awarded funding under the Obama administration to build the 
first green bus rapid transit program in the country.
    Despite the current administration's recommendations to 
terminate this funding, Mike's steady leadership helped win a 
voter initiative that added State funding to this transit 
program, and he worked with our congressional delegation to 
secure the appropriations needed to build an innovative system 
that we believe will be a smart model for other mid-sized 
cities.
    Mr. Terry, thank you for your leadership and for testifying 
today to share your thoughts with my colleagues.
    I yield back, Madam Chair.
    Ms. Norton. Thank you, Mr. Carson.
    Without objection, our witnesses' full statements will be 
included in the record.
    Since your testimony, your entire testimony, will be made a 
part of the record, we ask that you limit your oral testimony 
to 5 minutes.
    Mayor Nirenberg, you may proceed.

 TESTIMONY OF HON. RON NIRENBERG, MAYOR, CITY OF SAN ANTONIO, 
   TEXAS, ON BEHALF OF THE NATIONAL LEAGUE OF CITIES; ROGER 
     MILLAR, PE, FASCE, FAICP, SECRETARY, WASHINGTON STATE 
    DEPARTMENT OF TRANSPORTATION, ON BEHALF OF THE AMERICAN 
  ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS; 
  DARRAN ANDERSON, DIRECTOR OF STRATEGY AND INNOVATION, TEXAS 
DEPARTMENT OF TRANSPORTATION, ON BEHALF OF THE TEXAS INNOVATION 
   ALLIANCE; JOHN KEVIN ``JACK'' CLARK, EXECUTIVE DIRECTOR, 
TRANSPORTATION LEARNING CENTER; THERESE W. MCMILLAN, EXECUTIVE 
DIRECTOR, METROPOLITAN TRANSPORTATION COMMISSION, ON BEHALF OF 
  THE ASSOCIATION OF METROPOLITAN PLANNING ORGANIZATIONS; AL 
STANLEY, VICE PRESIDENT, STANLEY CONSTRUCTION COMPANY, INC., ON 
 BEHALF OF THE ASSOCIATED GENERAL CONTRACTORS OF AMERICA; AND 
     MICHAEL TERRY, PRESIDENT AND CEO, INDIANAPOLIS PUBLIC 
TRANSPORTATION CORPORATION (INDYGO), ON BEHALF OF THE AMERICAN 
            PUBLIC TRANSPORTATION ASSOCIATION (APTA)

    Mr. Nirenberg. Good morning, Chair Norton, Ranking Member 
Davis, and members of the subcommittee. I am Ron Nirenberg, the 
mayor of San Antonio, Texas, the Nation's seventh largest and 
fastest growing city in the United States. I am honored to be 
here today on behalf of the residents of San Antonio and also 
the National League of Cities, the Nation's oldest and largest 
network of cities, towns, and villages across America.
    Right now there are over 2,000 local officials here in DC 
meeting with their Members of Congress to emphasize a simple 
message: Invest in America's infrastructure.
    America's cities and local leaders are ready to work with 
this committee to reauthorize our essential transportation 
programs. We believe that investing in infrastructure should be 
Congress' top priority this year.
    As mayors, we are tasked with fixing everything under the 
sun, from street maintenance and congestion to air quality and 
pollution. And as fellow Texan, President Lyndon B. Johnson, 
once remarked, ``When the burdens of the Presidency seem 
unusually heavy, I always remind myself it could be worse. I 
could be a mayor.''
    The challenges that cities and towns must confront are 
great and growing, but so are the opportunities for investment 
and innovation. We believe that the greatest opportunity in 
front of this committee is to partner and to collaborate with 
America's mayors and the National League of Cities to address 
our shared infrastructure priorities. We believe that Congress 
should focus on three key areas: modern mobility, regional 
connectivity, and safety.
    Cities believe the mobility of our citizens should be the 
new measure of success in the next reauthorization. This focus 
on mobility is to move people in the most efficient, effective, 
and safest way possible. Today the transportation marketplace 
is undergoing a technological revolution. It is unmistakable. 
From ridesharing to e-scooters, entrepreneurs are innovating to 
meet the demand for more and better transit options. We believe 
in supporting innovation with responsible rules of the road, 
and by investing in infrastructure that is durable and 
adaptable to the future.
    In San Antonio we are working on a framework for modern 
mobility called ConnectSA. This initiative builds off past 
community planning efforts around land use, buses, bikes, and 
roads. The goal is to integrate all of our infrastructure 
investments to achieve a more efficient transportation network 
that moves people more safely and more effectively. ConnectSA 
will leverage first- and last-mile technology, build an 
advanced rapid transit network over 500 square miles on 
dedicated lanes, and improve the bus system for more frequent 
ridership. We have a menu of local revenue options to fund this 
investment, but a Federal partnership is absolutely necessary 
for success.
    Our cities are rapidly growing, and we have to provide more 
transit choices to alleviate traffic congestion and to grow our 
economy. The U.S. is now the most congested developed nation in 
the world, with Americans spending an entire workweek each year 
stuck in traffic. And San Antonio, by 2040, will add another 
million more people. And with the additional cars we will lose 
yet another workweek in traffic. We have to be proactive in 
addressing this challenge.
    The fastest growing region in the Nation is the 74-mile 
corridor anchored by Austin and San Antonio. Achieving the full 
economic potential of this mega-region requires investing in 
regional connectivity and reducing congestion. Current 
congestion risks this growth coming to a grinding halt. By 2040 
the Interstate 35 corridor between San Antonio and Austin will 
exceed or rival Dallas-Fort Worth. We are working with our 
metropolitan planning organizations to expand capacity and 
utilize technology, and a regional rail line continues to hold 
enormous promise. We need a Federal partner that invests in 
regional connectivity to expand our economy.
    Finally, a transportation system is only as effective as it 
is safe. In addition to modern mobility and regional 
connectivity, safety is a top priority for our cities. This is 
an ongoing crisis that deserves more attention. Cities--along 
with our health professionals, safety workers, transportation 
leaders--believe that zero is the only acceptable number of 
deaths on our roads. So we are all working towards Vision Zero 
efforts. Saving lives on our Nation's roads is a shared 
priority.
    Additional funding for safety nets that are both data-
driven and evidence-based would make our transportation system 
much safer. The cities and mayors of America are here to be 
your partners on progress for surface transportation. We urge 
you to make investing and infrastructure, modern mobility, 
regional connectivity, and safety your top priority. America's 
economy will only move as well as its transportation system. 
And our children and grandchildren's quality of life depends on 
us making bold decisions together.
    Thank you, and I look forward to answering your questions.
    [Mr. Nirenberg's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Ron Nirenberg, Mayor, City of San Antonio, 
           Texas, on behalf of the National League of Cities
    Good morning, Chair Norton, Ranking Member Davis and Members of the 
Subcommittee:
    I am Ron Nirenberg, Mayor of San Antonio, Texas, the nation's 
seventh largest city and the fastest growing city in the U.S. I am 
honored to be here today on behalf of the city of San Antonio and the 
National League of Cities (NLC), the nation's oldest and largest 
network of cities, towns and villages across America.
                    rebuild america's infrastructure
    Cities are ready to work with this Committee to increase 
infrastructure investment and to reauthorize our essential 
transportation programs. In fact, right now there are over 2,000 local 
officials in D.C. here to meet with their Members of Congress to 
reiterate that infrastructure must be Congress' top priority this year. 
We ask that this Committee work with local leaders to forge a 
bipartisan path forward.
    Local leaders want to play a larger role in rebuilding America's 
infrastructure in collaboration with our Federal and state partners. 
Every day, city leaders hear from our citizens, and they're quick to 
tell us--they want modern mobility options that are efficient, 
reliable, cost-effective, and safe. From budget commitments to bonding 
to ballot initiatives, local officials have shown that when given the 
opportunity to leverage Federal investments in our regions and give our 
citizens the mobility they want, we will follow through.
    Today, you have asked for our feedback on aligning our 
transportation policy to meet cities' needs across the country. We 
believe strongly the U.S. needs to shape its transportation approach 
for the future with both our growing megaregions and our small towns in 
mind. Cities like San Antonio are growing rapidly along with congestion 
that demands new approaches, not just more lanes. We should all be 
equally invested in bridging the urban-rural divide in our country 
because investing in what connects every American is a predictor of 
success for both rural and urban areas. To accomplish this, local 
leaders encourage Congress to focus on three key areas: investing in 
mobility, regional connectivity, and data-driven safety programs.
                      invest in citizens' mobility
    Cities believe the mobility of our citizens should be our new 
measure of success in the next reauthorization. Cities of all sizes are 
not only piloting technology-driven solutions with their partners but 
are harnessing new mobility options in their existing pain points and 
throughout their regions. Without a doubt, we also acknowledge these 
new mobility options are not replacing our existing strategic 
transportation investments. In fact, they are more important than ever 
because innovators are leveraging them. Ride hailing use our roads and 
curb space. Rapid buses move on dedicated road lanes. Bikeshare and 
scooters use bike lanes and transit exchange points. Traffic management 
solutions leverage our city signs, lights and broadband. Investing in 
mobility is about committing to innovation and building off our 
strategic assets.
    In San Antonio, we are embracing this strategy. We are building a 
framework for modern mobility called ConnectSA. We are focused on 
better access for all our citizens by leveraging innovative transit 
options and improving traffic flow through our city. Our goal is to 
seamlessly integrate last-mile options like scooters and bikes and to 
invest in reliable and frequent buses for an advanced rapid transit 
network while we manage congestion to accommodate our future growth.
    Local officials also recognize that innovation is currently not 
equally distributed. However, if Congress could right-sized Federal 
programs for urban, growing and small communities, new mobility models 
could move more quickly into small and medium communities. Communities 
of all sizes see tremendous value in right-sizing technology and 
mobility models to allow greater on-demand service for both seniors, 
workers heading to major employers, and for late-shift workers to have 
a dependable ride home. Investing in mobility like this could change 
the lives of so many of our residents at home.
                    invest in regional connectivity
    The U.S. is now the most congested developed country in the world, 
with Americans spending an entire work week each year stuck in traffic. 
More than two out of every five miles of the nation's urban interstates 
are congested, and most of them flow straight through our major urban 
cores. Creating and sustaining a transportation network that works--a 
platform for commerce and human interaction--is one of the oldest and 
most important functions of government.
    The fastest growing region in the Nation is the 74-mile corridor 
anchored by San Antonio and Austin. This is the western half of the 
Texas Triangle, and America's next great metropolis. We have all the 
elements of a successful metro economy: world-class universities, an 
educated and expanding workforce, a burgeoning tech community, 
relatively affordable land and a business friendly environment. 
Achieving the full economic potential of this San Antonio-Austin mega-
region requires investing in connectivity to reduce congestion. Current 
congestion risks this growth coming to a grinding halt. By 2040, the 
Interstate 35 coordinator population will rival the Dallas-Fort Worth 
area's current size. We are working with our metropolitan planning 
organizations to expand capacity and utilize technology, and a regional 
rail line continues to hold enormous promise.
    We need a Federal partner that invests in the essential 
connectivity options that will keep our regions growing. A regionally 
driven strategy can build partnerships and bold solutions that fit each 
area's needs. One size will not fit all, but no one is better equipped 
to evaluate and prioritize than those on the ground at the local and 
regional level. New programs, Federal Surface Transportation Block 
Grants, Transit New Starts, Transportation Alternatives, multimodal 
Transportation Investment Generating Economic Recovery (TIGER) and 
Better Utilizing Investments to Leverage Development (BUILD) grants, 
and smaller grants like Mobility on Demand will all be critical to a 
future of innovative mobility and regional cooperation.
    Demand for these grants far exceeds the amount of available funds. 
Each year, USDOT sees many times more applications for BUILD grants 
than they have funds available which should be a startling statistic if 
we are committed to meeting America's intermodal needs for the future.
                      invest in data-driven safety
    In the U.S., crashes and collisions on the roadways are the leading 
cause of death for people between the ages of 5 and 24 and the cause of 
over 2.5 million injuries. Cities--along with our health professionals, 
our public safety workers, our transportation leaders--believe that 
zero is the only acceptable number of deaths on our roads. In the Road 
to Zero coalition, we are proud to be joined by over 900 partners to:
    <bullet>  Double down on what works through proven, evidence-based 
strategies
    <bullet>  Advance life-saving technology in vehicles and 
infrastructure
    <bullet>  Prioritize safety by adopting a safe-systems approach and 
creating a positive safety culture
    Cites, like San Antonio, are leading Vision Zero efforts, but 
saving lives on the nation's roads is a joint responsibility. 
Additional funding to safety efforts that are both data-driven and 
corridor-driven, taking systems-based approaches, and deploying 
technical experts across regions could drive results.
                               conclusion
    In closing, this reauthorization's transportation investment could 
bring new mobility, connectivity and safety to our hometowns. Cities 
believe that Congress must continue to be a steady Federal investment 
partner in infrastructure through the Highway Trust Fund, and it has 
become an economic and safety risk to not adequately fund a multimodal 
transportation system. We encourage Congress to set a new revenue 
course for the future that also course corrects our policies to 
leverage the innovation happening in transportation and invest in the 
mobility for our citizens.
    Cities are ready to step up and be a true partner in these efforts. 
I look forward to any questions you might have.

    Ms. Norton. Thank you, Mayor Nirenberg.
    Mr. Millar, secretary of the Washington State Department of 
Transportation, on behalf of the American Association of State 
Highway and Transportation Officials, you may proceed for 5 
minutes.
    Mr. Millar. Thank you, Chair Norton and Ranking Member 
Davis, for inviting me to participate in this hearing. I am 
Roger Millar, the secretary of the Washington State Department 
of Transportation.
    Today it is my honor, on behalf of the State of Washington 
and AASHTO, which represents the transportation departments of 
all 50 States, Washington, DC, and Puerto Rico--so it is my 
honor to present on their behalf.
    I am going to focus my comments today on strengthening the 
Federal-State-local partnership model, improving the delivery 
of projects to save time and money, utilizing innovation to 
address mobility challenges, including safety, state of good 
repair, congestion, and universal access, and supporting good 
jobs in a qualified transportation workforce.
    As the Congress considers FAST Act reauthorization, AASHTO 
urges that you retain the current highway and transit program 
framework. This includes retaining the current mass transit 
account within the Highway Trust Fund and retaining relative 
distributions. Additionally, we strongly recommend that Federal 
funds continue to be provided through the existing formula-
based structure directly to the States. And we urge Congress to 
enact a revenue solution for the Highway Trust Fund, and to 
address the $7.6 billion rescission of unobligated contract 
authority that is scheduled to take effect July 1, 2020.
    States are eager to find ways to improve the delivery of 
projects to save time and money, while properly engaging 
diverse stakeholders and protecting the environment. Over the 
past several decades, significant progress has been made 
towards the goal of improving project delivery, including 
through provisions in SAFETEA-LU, MAP-21, and the FAST Act.
    As you all know, NEPA is not a permit you apply for. It is, 
rather, a broad, transparent environmental review and 
decisionmaking process.
    In Washington State, 90 percent of our projects in our last 
three major transportation packages since 2005 have been 
delivered on or ahead of schedule and on or under budget. So 
project delivery has not been a problem in Washington State.
    In Washington State, 94 percent of our projects are already 
excluded from NEPA through the use of categorical exclusions. 
The project types that we invest in have been proven to not 
negatively impact communities or the environment.
    For our large projects that require detailed NEPA 
documents, we find that the robust community and agency 
involvement we participate in and lead upfront leads to better 
outcomes, adherence to budget and schedule, and broad 
acceptance and support for the projects.
    Each State DOT has its own experience. Speaking on behalf 
of all the AASHTO members I can tell you that some of our 
States believe the NEPA process still takes too long and is too 
costly.
    Federal programs should support State DOTs that take 
innovative approaches to improving mobility. We continue to 
evolve from highway builders of the last century to stewards of 
the 21st-century multimodal transportation system.
    At WSDOT we recognize that we can't build our way out of 
congestion, and so we are instead focused on an actionable path 
forward in a congested world with limited resources. We are 
working on innovative approaches that encompass cooperative, 
automated transportation, mobility on demand, transportation 
system management and operations, transportation demand 
management, addressing the complex relationship between 
transportation and land use, providing a more complete suite of 
multimodal transportation choices, and making targeted 
investments in roadway capacity.
    We are using managed lanes and congestion pricing, where 
appropriate, to improve mobility and move more people on the 
infrastructure we have in place. We are making investments in 
items like ramp meters and variable speeds message signs to 
improve our capacities.
    We are expanding our nationally recognized commute trip 
reduction program to address travel modes other than the 
commute, because we find that today only 16 percent of our 
total traffic is commute traffic. The rest of it is people 
going about their business in different ways.
    Finally, State DOTs need a well-trained and diverse 
workforce to deliver 21st-century transportation programs. The 
Washington State DOT expects to lose a significant number of 
our employees through retirement in the next 5 years, including 
31 percent of our maintenance staff and 41 percent of our 
engineers. If you look at our Washington State ferries, the men 
and women who drive our boats, 75 percent of them are eligible 
to retire in the next 5 years. And that is not a license you 
pick up down at the DMV.
    We also have significant gaps in our available workforce 
for our contractor and consulting partners. State DOTs can't 
deliver our programs without qualified personnel. So Congress 
should continue to support important programs like STEM 
education, on-the-job training, supportive services, and 
disadvantaged business enterprise supportive services to help 
us bring the people we need to the workforce to deliver the 
program.
    In conclusion, we remain committed to assisting Congress in 
the development of strategies to ensure long-term economic 
growth, and enhance quality of life through robust, multimodal 
transportation investments.
    Thank you again for the honor and the opportunity to 
testify today.
    [Mr. Millar's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Roger Millar, PE, FASCE, FAICP, Secretary, 
    Washington State Department of Transportation, on behalf of the 
   American Association of State Highway and Transportation Officials
                              introduction
    Chairman Norton, Ranking Member Davis, and Members of the 
Subcommittee, thank you for the opportunity to provide the perspective 
of the nation's state departments of transportation on aligning Federal 
surface transportation policy to meet twenty-first century needs.
    My name is Roger Millar, and I serve as Secretary of the Washington 
State Department of Transportation (WSDOT), and as a member of the 
Board of Directors and Chair of the Council on Public Transportation of 
the American Association of State Highway and Transportation Officials 
(AASHTO). Today it is my honor to testify on behalf of the great State 
of Washington and AASHTO, which represents the transportation 
departments of all 50 States, Washington, DC, and Puerto Rico.
    I joined WSDOT as Deputy Secretary in October 2015 and was 
appointed Secretary of Transportation in August 2016. I've spent over 
40 years working in the transportation industry at the local and state 
level and in the private sector. The prominent theme that has run 
through my career has been planning and implementing transportation 
systems that are not ends unto themselves; but rather the means toward 
economic vitality, environmental stewardship, social equity, public 
health, and aesthetic quality.
    I oversee an agency that is the steward of Washington State's 
multimodal transportation system and responsible for ensuring that 
people and goods move safely and efficiently. In addition to building, 
maintaining, and operating the state highway system, WSDOT operates the 
largest ferry system in the Nation, sponsors the Amtrak Cascades 
intercity passenger rail service, owns and operates 16 airports, and 
owns a 300-mile short-line freight rail system. We work in partnership 
with others to maintain and improve local roads, railroads and 
airports, as well as to support mobility options such as public 
transportation, bicycle, and pedestrian programs.
    Having this important conversation on the future direction of 
Federal surface transportation policy could not be timelier in light of 
the discussion around an infrastructure package and pending 
reauthorization of the Fixing America's Surface Transportation (FAST) 
Act. Given the ever-increasing pace of change in our world--through 
technological advances, workforce challenges, demographic changes, 
environmental instability, and economic uncertainty--there is 
tremendous opportunity to make Federal policy more proactive, flexible, 
and adaptable.
    State DOTs have already taken signification action in modernizing 
our policy and technical development at AASHTO, with our Board of 
Directors approving a reorganization of the AASHTO committee structure 
in 2016. This was the culmination of an 18-month effort led by a 
committee of state DOT CEOs and senior DOT officials. This modernized 
committee structure is inclusive of all disciplines, addresses state-
identified priorities and emerging issues, and is intended to be more 
efficient and nimbler in its decisionmaking.
    Perhaps the hallmark of this change is putting all modes of 
transportation on equal footing when it comes to policymaking. AASHTO 
now formulates transportation policy through its six modal councils--
active transportation, aviation, highways and streets, public 
transportation that I now chair, rail transportation, and water 
transportation--plus a special committee on freight, which I chaired 
until recently, all of which support the new AASHTO Transportation 
Policy Forum as the holistic policymaking body for the Association.
    My remarks today center around the following key points:
    <bullet>  Strengthening the Federal/State/local partnership model
      <bullet>  The current Federal program structure for highway and 
transit programs must be preserved.
      <bullet>  Congress needs to enact a permanent revenue solution 
for the Highway Trust Fund.
    <bullet>  Improving the delivery of projects to save time and money
      <bullet>  States are eager to find ways to improve the delivery 
of projects to save time and money, while properly engaging diverse 
stakeholders in program and project development, upholding 
environmental safeguards and providing resiliency.
    <bullet>  Utilizing innovation to address mobility challenges, 
including safety, state of good repair, congestion, and universal 
access
      <bullet>  Federal programs should support state DOTs that take 
innovative approaches to transportation system management, demand 
management, and improved mobility.
      <bullet>  The Federal program must support and provide sufficient 
flexibility to allow state DOTs to harness innovation and technology.
    <bullet>  Supporting good jobs and a qualified transportation 
workforce
      <bullet>  Congress should continue to fund programs that support 
the development of a diverse and robust workforce suitable for staffing 
the development and delivery of twenty-first century transportation 
programs.
    As you examine what works well and what doesn't, I urge you to make 
sure that policies that work effectively are not discarded or nullified 
in the name of major reform.
        strengthening the federal/state/local partnership model
The current Federal program structure for highway and transit programs 
        must be preserved.
    The state DOTs have the utmost appreciation for your Subcommittee's 
leadership, along with your House and Senate peers in partner 
committees to shepherd the FAST Act in December 2015. This legislation 
has ensured much-needed funding stability in the federally supported 
passenger rail, freight, safety, highway, and transit programs through 
2020.
    To further build on the Federal surface transportation's solid 
foundation, we believe that it is time for all transportation 
stakeholders--led by Congress and the President--to begin work on 
reauthorizing the FAST Act now. We are extremely grateful for the work 
of this Subcommittee in that regard. We need to ensure a smooth 
transition upon the FAST Act's expiration on September 30, 2020, 
without the need for disruptive extensions of the program.
    As part of the work of AASHTO's Transportation Policy Forum, we are 
currently in the process of gathering expert input from our wide range 
of technical and modal committees comprising leaders from all state 
DOTs. We're also seeking our industry partners' input during this 
process prior to our formal adoption later next year, in order to 
maximize the inclusivity of perspectives in our policy recommendations 
to come.
    As FAST Act reauthorization gets under way, AASHTO urges Congress 
to retain the current highway and transit program framework as the core 
foundation on which modernizing policy improvements can be made. This 
means not only retaining the current Mass Transit Account within the 
Highway Trust Fund (HTF) and their relative distributions of receipts 
in place since 1983, but also maintaining the current maximum non-
Federal match ratios for both highway and transit programs. 
Furthermore, we strongly recommend that Federal funds continue to be 
provided through the existing formula-based program structure directly 
to states rather than looking at untested new approaches that will 
require more time and oversight.
    For over one hundred years, we as a nation have enjoyed the fruits 
of the Federal Government's highly successful partnership with state 
DOTs to build and maintain our surface transportation system. Beginning 
with the Federal-aid Road Act of 1916 establishing the foundation of a 
federally funded, state-administered highway program that has been 
well-suited to a growing and geographically diverse nation like ours, 
Federal investment in all modes of transportation have allowed states 
and their local partners to fund a wide range of projects that serve 
the interest of the Nation as a whole.
    The Federal surface transportation program's inherent flexibility 
defers project selection and investment decisionmaking to state and 
local governments. And these important decisions are based on extensive 
public input from local communities and businesses to address their 
unique needs and ensure goods get access to a larger market than ever 
before. Formula programs remain the optimal approach to serve all 
corners of our country, improving mobility and quality of life in 
urban, suburban, and rural areas.
Congress needs to enact a permanent revenue solution for the Highway 
        Trust Fund.
    I'm sure you have already heard these numbers, but they bear 
repeating. The investment backlog for transportation infrastructure 
continues to increase--reaching $836 billion for highways and bridges 
and $122 billion for transit according to the US Department of 
Transportation's (USDOT) 2015 Conditions and Performance report. 
Similarly, the American Society of Civil Engineers, upon whose Board of 
Direction I sit, has identified a $1.1 trillion funding gap for surface 
transportation between 2016 and 2025. It is also telling to look where 
our nation stands relative to global peers in infrastructure quality 
and economic competitiveness. The 2018 Global Competitiveness Report 
rankings from the World Economic Forum on infrastructure quality has 
listed the United States at just ninth place overall.
    Yet at the same time, in order to simply maintain the current HTF 
spending levels adjusted for inflation after the FAST Act, Congress 
will need to identify $114 billion in additional HTF receipts to 
support a 6-year bill through 2026. All the while the purchasing power 
of HTF revenues has declined substantially mainly due to the flat, per-
gallon motor fuel taxes that have not been adjusted since 1993, losing 
over half of its value in the last quarter century. Doubling the 
Federal gas tax today would bring us back the purchasing power of that 
tax in 1993. Catching up to late-twentieth century Federal investment 
levels will not keep the United States competitive moving forward into 
the twenty-first century.
    These dire trends mean that absent a revenue fix by 2020, the HTF 
is expected to experience a significant cash shortfall leading to an 
estimated 51 percent drop in Federal highway obligations from the year 
before, or from $47 billion to $23 billion, and a zeroing out of 
Federal obligations from the Mass Transit Account in 2021 and 2022. In 
the past, such similar shortfall situations have led to the possibility 
of a reduction in Federal reimbursements to states on existing 
obligations, leading to serious cash-flow problems for states and 
project delays. Simply put, this is a devastating scenario that we must 
do all we can to avoid.
    In addition to the massive cash shortfall issue facing the HTF, the 
FAST Act included a $7.6 billion rescission of unobligated highway 
contract authority to take effect on July 1, 2020, as a means to bring 
the spending baseline back to the 2015 level on paper. Unfortunately, 
the contract authority rescission is a budgetary artifice that at best 
impedes the flexibility of state DOTs to meet their individual 
infrastructure needs by disrupting transportation planning and timely 
delivery of projects; and at worst, the cumulative effect of 
rescissions--with over $22 billion enacted since 2002--can wipe out the 
entire balance of contract authority held by states which will lead to 
hard funding cuts to Federal dollars authorized under the FAST Act.
    We in the transportation industry do everything in our power to 
build important projects as fast as possible, but due to the nature of 
large capital programs, the lack of stable, predictable funding from 
the HTF makes it nearly impossible for state DOTs to plan for large 
projects that need a reliable flow of funding over multiple years. 
Transportation projects large and small around the country will be put 
at risk near the expiration of the FAST Act if Congress fails to 
address both the impending HTF shortfall and repeal of the FAST Act 
rescission.
    Such delays have serious economic consequences both in the short- 
and long-term, as these projects employ thousands of companies and 
hundreds of thousands of workers every year. More importantly, these 
projects are what connect the traveling public to the many facets of 
their lives. Once completed, they help stimulate economic growth and 
improve quality of life in every community where they are built.
    Federal funding currently covers approximately 20 percent of 
WSDOT's budget. We use the vast majority of our Federal funds to 
preserve the National Highway System. While the Federal fuel tax has 
not been raised since 1993, Washington state has increased its Motor 
Vehicle Fuel Tax by over 26 cents since 2003 to a total of 49.4 cents. 
While our state legislature has stepped up to the plate to address the 
need for transportation investment in Washington, those investments 
have not adequately provided for the preservation of our roads, 
bridges, ferries, train sets, and aviation infrastructure. Our current 
annual unfunded preservation need is approximately $700 million.
    Predictable funding from the Federal Government to maintain the 
National Highway System in a state of good repair is necessary if we 
are to compete effectively in a global economy. Washington is one of 
the most trade-centric states in the Nation, with almost $600 billion 
in annual trade-related economic activity. Preserving our 
transportation system in a state of good repair and managing the 
capacity of that system effectively are essential to moving products to 
market. In the next decade, with current funding levels, we are likely 
to see bridges closed, speed limits reduced, and routes not adequately 
preserved, significantly impacting the ability of businesses to compete 
globally.
    Based on FY 2018 ending balances, the Federal Highway 
Administration (FHWA) projects Washington State will be faced with a 
$117 million rescission in 2020. If rescinded, we would be left with no 
apportionment balances at the end of the FAST Act.
    We must take advantage of the short window of time we have right 
now to head off the dual threat of a HTF funding cliff and a large 
rescission in 2020. If we miss this opportunity for action, the 
extremely costly and disruptive scenario for transportation programs 
all around the country will become all but inevitable.
       improving the delivery of projects to save time and money
States are eager to find ways to improve the delivery of projects to 
        save time and money, while properly engaging diverse 
        stakeholders in program and project development, upholding 
        environmental safeguards and providing resiliency.
    Over the past several decades, significant progress has been made 
toward the goal of improving the delivery of transportation projects. 
This progress has been spurred by streamlining measures enacted in the 
Safe, Accountable, Flexible, Efficient Transportation Equity Act: A 
Legacy for Users (SAFETEA-LU), Moving Ahead for Progress in the 21st 
Century Act (MAP-21), and the Fixing America's Surface Transportation 
(FAST) Act.
    Several of the streamlining measures involve the National 
Environmental Policy Act (NEPA) and project delivery. Successful 
measures that WSDOT uses every day:
    <bullet>  New and revised NEPA categorical exclusions (CEs) to 
expedite routine activities and projects that don't impact the 
environment;
    <bullet>  Expanded programmatic agreements with FHWA; and
    <bullet>  Combined documents that all Federal agencies can use for 
their decisionmaking.
    In Washington, we've benefited from each of these improvements. 
Because the NEPA process is scalable, the vast majority (94 percent) of 
work in our state is excluded from NEPA through the use of CEs. Since 
2005, approximately 90 percent of WSDOT capital projects have been 
delivered on or ahead of schedule and on or under budget.
    As you know, NEPA is not a permit; rather it is a broad, 
transparent environmental review and decisionmaking process. Our 
biggest multimodal projects do require detailed analysis under NEPA. 
Even for these large projects, we find the robust community and agency 
involvement up front leads to better outcomes, adherence to budget and 
schedule, and broader acceptance and support.
    Each state DOT has its own experience. Speaking on behalf of all 
AASHTO members, I can tell you that even with the improvements to 
USDOT's NEPA processes, many feel it still takes too long and is too 
costly.
    AASHTO has outlined the following ideas for future streamlining:
    <bullet>  Continue to expand programmatic agreements within USDOT 
and with the Federal resource and regulatory agencies;
    <bullet>  Extend the use of USDOT agency NEPA CE's to other Federal 
agencies when they are engaged in transportation related activities; 
and
    <bullet>  Make the current NEPA assignment more efficient for those 
states who are able to use that option.
    Multiple laws and regulations are considered in the NEPA process, 
or as we say they fall ``under the NEPA umbrella.'' To achieve further 
streamlining, focus must be paid to not only making continued 
improvement in the NEPA process itself, but also in making the NEPA 
process work more efficiently with other Federal requirements, all 
while remaining responsible stewards of taxpayer resources and both 
human and natural environments.
    To make the NEPA process work more smoothly with other substantive 
environmental requirements, USDOT and state DOTs should work with 
Federal environmental agencies to develop programmatic approaches to 
streamline environmental processes.
    In Washington, we have a great example of approach. In January of 
this year, we started implementing a new programmatic agreement for 
Section 106 of the National Historic Preservation Act. Our partners on 
this are FHWA and its Western Federal Lands office, Federal Transit 
Administration (FTA), the Advisory Council on Historic Preservation, 
and the state historic preservation office in consultation with 34 
federally recognized tribes. As a result, my staff is able to undertake 
Section 106 compliance on behalf of FHWA and FTA.
    Programmatic agreements greatly reduce the time and cost needed to 
meet environmental requirements, while maintaining resource protection 
and consultation. But development of these agreements requires time and 
resources. To ensure success in developing programmatic agreements, it 
is essential that adequate Federal resources be dedicated to this 
effort, both within the USDOT and within Federal resource agency 
budgets.
    Under current NEPA regulations, each Federal agency adopts its own 
list of CEs applicable to actions that the agency carries out. If 
multiple Federal agency approvals are needed for the same project, and 
only one agency has an applicable CE, then that agency can issue a CE, 
but the other Federal agencies must prepare an Environmental 
Assessment, slowing down the process unnecessarily. While an existing 
law allows any USDOT agency to use any other USDOT's agency's CE, this 
authority has two important limitations: (1) applies only to USDOT 
multimodal projects, and (2) it does not apply to agencies outside the 
USDOT. Allowing CEs to be interchangeable between Federal agencies 
could significantly streamline projects. I have two scenarios where 
this would expedite and simplify approvals while still protecting the 
environment.
    <bullet>  First scenario: If the US Army Corps of Engineers is the 
only Federal agency involved in a state funded transportation project 
(bridge replacement), allow the Corps to apply a CE from FHWA's CE 
list.
    <bullet>  Another scenario: If there are multiple Federal approvals 
needed for a project, allow the other agencies to defer to the NEPA 
lead. At present, if a roadway project requires a new lease or land 
purchase from a Federal land management agency (National Park Service, 
US Forest Service, BLM), that agency can't use FHWA's CEs. Instead, 
they have to do an environmental assessment for the property action.
    Regarding the formal assignment of NEPA, I need to point out that 
this voluntary program is not an option for all state DOTS. This is due 
to state laws and/or different experiences in each state DOT. That 
said, AASHTO members support the effort to improve the program for 
those states that both desire them and are willing to be held 
responsible for Federal authorities.
    Currently, Alaska, California, Florida, Ohio, Texas, and Utah are 
participating in the NEPA assignment program made available to all 
states in MAP-21. Based on their collective experience, specific 
changes that will make this program both more efficient and attractive 
to interested states include:
    <bullet>  Simplifying the assignment application and audit 
processes;
    <bullet>  Allowing states to assume all of the responsibilities of 
the USDOT with respect to engineering and other activities related to 
environmental review, consultation, permitting or other action required 
under any Federal environmental law for project review or approval;
    <bullet>  Allowing states in this program to be solely responsible 
for the development of their policies, guidance and procedures so long 
as Federal laws and the USDOT requirements and guidance are met;
    <bullet>  Removing the pre-condition for a state to have taken on 
NEPA assignment for highways prior to being able to take on NEPA 
assignment for rail and transit projects; and
    <bullet>  Adding NEPA assignment authority to Title 49 to allow 
states to assume the Federal NEPA responsibilities of any USDOT modal 
administration.
    For state DOT's without NEPA assignment, like WSDOT, we have 
successfully negotiated programmatic NEPA agreements. These agreements 
allow the state DOT to carry out routine interagency coordination 
tasks, while maintaining regular communication with USDOT. USDOT 
retains responsibility for all final decisions. Often these 
programmatic agreements eliminate confusion, redundancy and frees up 
USDOT's limited staff resources. We view this as a model for other FHWA 
approvals.
    AASHTO has identified a number of areas where Congress could 
provide states with additional assignment authority to make 
determinations in lieu of seeking FHWA approval. Examples include 
Federal funds obligation management, project agreements, right-of-way 
acquisition, preventive maintenance, repayment of preliminary 
engineering and right-of-way costs, and credits toward non-Federal 
share, among many other possible areas of current Federal oversight. 
This kind of authority would reduce time-consuming processes while 
preserving the intent and integrity of Federal policy.
    To foster the development and testing of new, innovative practices 
and approaches aimed at expediting project delivery while maintaining 
environmental protections, we ask Congress to consider establishing a 
project delivery innovation program.
    Thanks to the states' partnership with FHWA, we're currently 
working on a limited version of such an innovation program through 
Special Experimental Project--or SEP-16. Under this initiative which in 
the past has yielded innovations in contracting and public-private 
partnerships, FHWA is soliciting proposals for delegation of various 
FHWA responsibilities directly to States. There is a wide range of 
potential applications if SEP-16 criteria can be met. Some possible 
examples include:
    <bullet>  States approving modifications to Stewardship and 
Oversight agreements without preapproval by FHWA, subject to FHWA's 
ongoing oversight of the State's compliance with Federal requirements;
    <bullet>  States taking the full responsibility for approving a new 
or modified access point on the Interstate System; and
    <bullet>  States developing a definition for ``high-risk'' 
Interstate projects that allows States to assume the full range of 
responsibilities for these efforts.
    Another innovative practices example WSDOT has embraced is the 
design-build project delivery method as a ``tool in the toolbox.'' For 
some projects, design-build can bring innovations to solve challenges 
more quickly and more cost-effectively. WSDOT is one of many state DOTs 
that are using design-build more often. We have learned a lot since our 
first design-build project in 2001, and we've had some great successes. 
Last year, we used design-build to replace the Wildcat Bridge on U.S. 
12 in Yakima County. By using design-build, the creativity the private-
sector designer brought to the table resulted in the project being 
completed with just 17 days of substantial construction, over 13 months 
ahead of schedule and saved the Department a third of the budgeted cost 
($3.7 million of $12 million budgeted).
    In addition to efficiently delivering our projects, we need 
resources to build more resilient infrastructure. Many of our existing 
assets were not designed to meet today's needs, or to withstand the 
changes we expect in the future. In addition, we know more today than 
we did in the 1950's and 1960's when much of the national 
transportation network was completed. We need to retrofit and we need 
to build in resilience. We're also working to manage stormwater so that 
our communities are protected from flood events and water-borne 
pollutants.
    In Washington, we're burdened with thousands of undersized 
culverts, built to the Federal standard at the time of construction, 
that prevent adult salmon from reaching upstream habitat and/or prevent 
juvenile salmon from migrating downstream. Our culverts contribute to 
the decline of salmon runs--which in turn, impacts the economy and 
cultural heritage of the Pacific Northwest. In response to longstanding 
obligations under treaties between the Federal Government and Pacific 
Northwest Native American tribes, we are now under a Federal court 
order to fix enough culverts to open up 90 percent of the blocked 
habitat by 2030 at an estimated cost of over $3 billion.
utilizing innovation to address mobility challenges, including safety, 
         state of good repair, congestion, and universal access
Federal programs should support state DOTs that take innovative 
        approaches to transportation system management, demand 
        management, and improved mobility.
    At WSDOT, we are focused on an actionable path forward in a 
congested world with limited resources. The Practical Solutions Goal in 
our Strategic Plan calls for collaborating with our partners to address 
transportation problems/ opportunities within available resources, 
making the right investments in the right locations at the right time. 
It acknowledges that we are stewards of a complex transportation system 
with a route network that is essentially complete. We have an 
obligation to the people we serve to bring our multimodal 
transportation system to a state of good repair, to make sure that it 
operates safely, that it moves people, goods, and services as 
efficiently as possible, that we manage demand for limited and 
expensive system capacity, and that we, at times, add capacity to the 
system.
    WSDOT recently completed a high-level analysis of what highway lane 
capacity would be required for a person to be able to drive the posted 
speed limits, at all times, on the Interstates through the three most 
congested areas of the state (The Central Puget Sound, Vancouver, and 
Spokane). We determined that it would require an additional 451 lane 
miles of highway at an estimated cost of approximately $115 billion. 
Funding the construction of these facilities over a twenty-year period 
would require a $2.25 to $2.50 per gallon increase in the state gas 
tax. This analysis assumed no growth in population and employment and 
no induced demand and did not include the cost of accommodating the 
resulting increased traffic on other state highways and local roadways 
or of mitigating the environmental consequences of the investment.
    While additional capacity is sometimes the answer in specific 
locations, we acknowledge based upon the evidence above and the 
preponderance of data from other states that we cannot build our way 
out of congestion. We are instead working on innovative approaches to 
move forward in a congested environment that encompass transportation 
system management and operations, transportation demand management, 
addressing the relationships between transportation and land use, 
providing a more complete suite of multimodal transportation choices, 
and making targeted investments in roadway capacity. To make these 
changes requires a coordinated and leveraged approach. Flexibility and 
predictability in funding to develop and implement these programs will 
be more important to our success in the twenty-first century than 
capital investment made project-by-project without accompanying robust 
investment in the life cycle stewardship of the transportation system.
    Transportation system management and operation projects can be 
coordinated with transportation demand and active transportation 
projects to eliminate or at least delay the need for major system 
expansion. Funding from the Congestion Mitigation and Air Quality 
(CMAQ) program has been helpful to our efforts to support 
transportation demands management with innovative local projects. We 
are transitioning from 25 years of focus on employment at large 
worksites--our nationally recognized Commute Trip Reduction (CTR) 
program--to add smaller employers and other trips, including off peak 
trips. In addition, transportation system management and operation 
investments like transportation management centers, ramp meters, active 
transportation management systems, and variable speed limits signs can 
be used to improve the efficiency of our existing roadways and prepare 
us for the capabilities of new technology coming our way.
    We are also using managed lanes and congestion pricing where 
appropriate to improve mobility and move more people on the 
infrastructure we have in place. WSDOT has taken advantage of funding 
from past and current Federal programs including the 2007 USDOT 
Congestion Initiative and its Urban Partnership Agreements and the 
Value Pricing Pilot Program to help us explore and test these concepts. 
With our Interstate 405 Express Toll Lanes, launched in 2015, we are 
able to move 35 percent more vehicles in the peak hour when compared to 
a similar number of lanes and daily travel volumes on Interstate 5. 
These managed lanes also provide an attractive corridor for bus rapid 
transit systems and other public transportation investment.
The Federal program must support and provide sufficient flexibility to 
        allow state DOTs to harness innovation and technology.
    We are at a global inflection point in the transportation arena 
that is as significant as when the engine replaced the horse and buggy 
and Eisenhower's initiation of the National System of Interstate and 
Defense Highways. Today, there is dramatic change underway as the 
development and deployment of new technologies are resetting the 
relationships between the vehicles that transport people and goods and 
our multimodal transportation infrastructure. Our transportation 
systems are also responding to societal change, including a reduction 
in home-based commute trips as a percentage of the total demand on the 
system, a rapidly growing cohort of our population that do not possess 
driver's licenses, the urbanization of our metropolitan regions with an 
increased demand for walkable neighborhoods, a desire to maintain and 
enhance mobility in rural America, and an increased reliance on our 
transportation system for home delivery of retail goods and services. 
These and other factors are fundamentally changing the ways we move 
goods, services and people on our transportation system.
    Concrete, asphalt, and steel are no longer the only important 
materials for transportation agencies. They have been augmented by data 
as the new asset that will save lives, provide transportation choice 
and improved mobility to all of our citizens, enhance program and 
operational efficiency, protect our environment, and create jobs. It is 
important now, more than ever, that we not only optimize relationships 
at local, tribal, state and Federal levels to ensure our transportation 
system is a steward and not a bottleneck of continued innovation, but 
expand out partnerships with the private sector, who's value to 
shareholders and the public is also dependent upon a sustainable, 
efficient, and reliable transportation system.
    Technology creates new capabilities for transportation agencies to 
effectively manage and operate our roadways. The key to harnessing 
approaching technology is positioning and funding transportation 
agencies to leverage new technological opportunities.
    State DOTs continue to evolve from highway builders of the last 
century to stewards of multimodal twenty-first century transportation 
systems, and we see technological innovation as an important new tool 
in our nation's transportation toolbox as we strive to provide safe 
mobility and access to everyone.
    To better prepare for and leverage emerging technologies, AASHTO 
has recently established the Cooperative Automated Transportation (CAT) 
coalition, of which I serve as co-chair. The goals of this effort 
include creating a clearinghouse of connected and automated vehicle 
policy frameworks, bringing new multimodal mobility tools to our 
nation's communities, identifying funding opportunities and financing 
models to enable near-term investments, and developing model 
regulations that will facilitate near-term pilots and deployments.
    As the owners and operators of a significant portion of the 
multimodal transportation infrastructure throughout the country, state 
DOTs are at the forefront of preparing for deployment of new 
transportation technologies, including connected and automated vehicles 
(CAVs) and Mobility on Demand (MOD).
    Maintaining and preserving the current infrastructure in a state of 
good repair that meets the needs of current system users, while 
preparing for the benefits of the transformative technologies that are 
being introduced almost daily has given new meaning to workforce 
development and inclusionary collaboration within and between agencies. 
In response, many state DOTs are reorganizing or refocusing their 
project development and business processes to include preparing for 
multimodal trip planning and ticketing systems, vehicles equipped with 
Automated Driving System (ADS), and other innovations with the 
increasing ability to connect vehicles to each other and the 
infrastructure.
    While encouraging consistency in traditional roadway design and 
traffic control device investments can assist in deployment of new 
technologies, taking steps to improve roadway pavement markings and 
signage and protecting the 5.9 GHz spectrum currently reserved for 
transportation safety and connectivity purposes will have lasting near 
and long-term benefits for both CAV and MOD.
    State, tribal, and local governments remain the primary authority 
concerning operational safety of our transportation system, regardless 
of the technologies involved. For CAV this includes regulating the 
operation of motor vehicles after such vehicles have been constructed, 
the operators of those motor vehicles, as well as establishing the 
rules of the road on how motor vehicles can be safely operated on 
public roadways. I say this because your Subcommittee's assistance in 
helping to clarify Federal and non-Federal authority over motor vehicle 
``performance'' as Congress deliberates on nationwide CAV policy will 
be crucial to state, tribal, and local governments.
    For MOD this state, tribal, and local government role will 
encompass new protocols for partnerships between public infrastructure 
owners and operators and their counterparts in the private sector to 
ensure that all Americans benefit equally from MOD, that data is shared 
transparently between service providers, and that public investment in 
multimodal transportation infrastructure and services is optimized.
    Beyond the national-level efforts by AASHTO and its members, 
Washington State has also placed the development of an enabling, 
cooperative automated transportation policy at the forefront. Beginning 
with a Governor's Executive Order and followed by Legislative action, 
public and private sector decisionmakers and stakeholders from every 
corner of the state have partnered together to engage in spirited 
discussion that will impact all aspects of our profession, from 
redefining long-range planning policies to revisiting and realigning 
near-term project priorities. WSDOT is an active partner and leader in 
this effort while emphasizing an inclusive, multi-modal and integrated 
approach to automation and connectivity.
    For example, some of WSDOT's near-term priorities include:
    <bullet>  increased use of public rights of way for telecom 
partnerships;
    <bullet>  infrastructure investments in roadway pavement markings 
and signing;
    <bullet>  supporting our local transit systems and private partners 
in providing first and last mile connections to transit; and
    <bullet>  expanding infrastructure investments to enable use of the 
5.9 Ghz spectrum in a technology neutral manner.
     supporting good jobs and a qualified transportation workforce
Congress should continue to fund programs that support the development 
        of a diverse and robust workforce suitable for staffing the 
        development and delivery of twenty-first century transportation 
        programs.
    Inclusion and workforce development are two of the three goal areas 
of the WSDOT Strategic Plan. Like many states, Washington has an 
increasingly diverse population. By 2050 there will be no majority 
ethnic group in our state. We approach this demographic reality as an 
opportunity. A workforce with diverse backgrounds and perspectives to 
draw from will make Washington more competitive in the twenty-first 
century global marketplace. Through Inclusion, WSDOT is strengthening 
our commitment to diversity and engagement in all WSDOT business 
processes, functions and services to ensure every voice is heard. This 
goal has both an internal and an external focus to assure that we have 
an inclusive and diverse workforce while at the same time, meeting our 
Disadvantaged Business Enterprise goals and creating opportunities for 
underrepresented populations to do business with us.
    Like other AASHTO members, workforce development is a priority in 
Washington State. WSDOT expects to lose a significant number of our 
employees through retirement in the next 5 years, including 31 percent 
of our maintenance staff and 41 percent of our engineers. We also have 
a significant gap in the available workforce for our contractor and 
consultant partners. State DOTs can't deliver our programs without 
qualified personnel. WSDOT wants to be an employer of choice and is 
creating a modern work environment. We're proactively working to find 
the best possible talent for the agency, while taking steps to retain 
our quality workforce. As part of our Workforce Development goal, we 
listen and act on employee feedback and we provide training and other 
opportunities for development. At the same time, we evaluate systems to 
achieve and maintain competitive compensation.
    WSDOT and other AASHTO members appreciate Federal interest in and 
support for our inclusion and workforce development efforts. 
Initiatives that would benefit from increased Federal support include:
    <bullet>  Science, Technology, Engineering, Arts, and Math (STEAM) 
programs, including internships for high school and college students at 
state DOTs;
    <bullet>  On the Job Training Supportive Services (OJT/SS) programs 
to provide support (day care, transit fare, lunch money, etc.) to 
people seeking training to enter into apprenticeships in the 
transportation construction trades;
    <bullet>  Capacity Building Mentorship programs sponsored by State 
DOTs, the contracting community, and other agencies to bring 
disadvantaged business enterprises into the transportation sector;
    <bullet>  Programs like the Sustainability in Prisons Project that 
provide offenders the skills to work with state DOTs when they return 
to the community;
    <bullet>  Environmental Justice and Cultural Competency training 
for state DOT employees, managers, consultants, local agency partners, 
and others; and
    <bullet>  Flexible schedule and open office environment initiatives 
that improve state DOT employee work environments.
                               conclusion
    State DOTs remain committed to assisting Congress in the 
development of strategies to ensure long-term economic growth and 
enhanced quality of life through robust multimodal transportation 
investments. Just last month, hundreds of state DOT leaders from all 
corners of our country were only a few blocks away attending AASHTO's 
2019 Washington Briefing.
    Over 4 days of productive discussions, many of my colleagues were 
on Capitol Hill meeting with their respective congressional 
delegations. As they did then, and as I do again now, AASHTO and the 
State DOTs will continue advocating for the reaffirmation of a strong 
Federal-state partnership to address our surface transportation 
investment needs.
    Thank you again for the honor and opportunity to testify today, and 
I am happy to answer any questions.

    Ms. Norton. Thank you very much.
    Next is Mr. Darran Anderson, director of strategy and 
innovation at the Texas Department of Transportation, who is 
testifying on behalf of the Texas Innovation Alliance.
    You may proceed, Mr. Anderson.
    Mr. Anderson. Chairwoman Norton and Ranking Member Davis, 
thank you again for inviting me to be here today. Again, my 
name is Darran Anderson. I am the director of strategy and 
innovation at the Texas Department of Transportation, and I am 
speaking on behalf of the Texas Innovation Alliance today. I 
appreciate the opportunity to provide testimony before the 
subcommittee and to share our experience with the alliance.
    In short, the Texas Innovation Alliance is an action 
network of local, regional, and State agencies as well as 
research institutions who are galvanized to be a capability 
multiplier for mobility innovation. The mission of the 
alliance, which includes cities and regions across the State, 
is to strategically develop, launch, and sustain a portfolio of 
advanced mobility projects across the State of Texas to improve 
the lives, safety, and economic prospects of Texans.
    As Texas continues to grow, the alliance proactively 
develops tools beyond traditional infrastructure, including 
innovative technologies, policies, and processes. The alliance 
partners include our largest cities: Houston, Dallas, San 
Antonio, rapidly growing cities such as Fort Worth, Austin, El 
Paso, Arlington, and Frisco, and regional partners such as 
Bryan-College Station and the Coastal Bend area. The alliance 
is open to any Texas locality or region that is interested in 
pursuing mobility solutions, as well as our research 
institutions.
    Individually, communities have limited capacity and 
capability to develop mobility solutions and to prepare our 
infrastructure for the coming transformations. But together we 
have the ability to leverage our resources and our expertise 
and share across those cities and regions.
    Texas is at a pivotal moment, where the rate of population 
growth, infrastructure needs, and technological advancement are 
challenging our ability to provide quality mobility services. 
Texas population is expected to nearly double by the year 2050. 
It is critical that we manage this disruption proactively, 
rather than allow rapid urbanization to stifle our State's 
economy and reduce our quality of life.
    While the alliance is working well, the Federal Government 
continues to play a critical role in allowing for new 
technologies. We thank this committee for your work on MAP-21 
and the FAST Act to streamline programs and gain efficiencies 
at the Federal level. Texas has realized time and cost savings 
because of the flexibility afforded by converting 70 funding 
silos into today's 6 Federal highway programs, and by providing 
States the opportunity to assume responsibilities under the 
National Environmental Policy Act.
    The alliance is seeking to mirror those successes by not 
duplicating each other's initial innovation efforts, through 
sharing best practices between the alliance members, and 
through fostering an open exchange of what has and hasn't 
worked in their communities. The alliance partner members have 
demonstrated that local and regional governments are a key 
enabler to achieving our mobility goals, but the Federal 
authority to resource new technology in our core funding areas 
is critical.
    To help enable the best use of technology to improve 
transportation mobility, we offer these suggested improvements 
for consideration in reauthorizing the FAST Act.
    First, make technology eligible for Federal funding across 
all USDOT programs.
    Second, clarify that infrastructure-based ITS capital 
improvements equipment required for the implementation of 
Vehicle-to-Everything, or V2X, as well as advanced mobility 
improvements are eligible uses under the State transportation 
block grant program.
    And finally, when a public entity applies for 
transportation innovation grants with private-sector partners, 
we would like to have our proposal partners recognized by USDOT 
as sole-source contractors for the purposes of the grant, if 
awarded, rather than having to later need to also competitively 
bid to be part of that project after award, when they were part 
of the initial proposal.
    The current approach stymies, rather than promotes the use 
of public-private partnerships. I have included more details on 
these items in my written testimony.
    In 2017, Governor Greg Abbott signed the senate bill 2205 
in Texas, which cleared the way for driverless vehicles to 
legally operate on Texas roadways. Laws such as senate bill 
2205 encourage safe technology innovation in Texas.
    Additionally, TxDOT has coordinated programs that identify, 
research, review, and test emerging technologies, and those 
inform the focus of the Texas Innovation Alliance.
    As we usher in the next generation of technologies, an 
entrepreneurial approach is needed for States to take a 
leadership position, also to advance safety and the quality of 
life, to enable support for a 21st-century workforce, and to 
continue attracting and growing business.
    On behalf of the alliance I thank the committee for the 
opportunity to testify today regarding the work we are doing in 
Texas.
    [Mr. Anderson's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Darran Anderson, Director of Strategy and 
Innovation, Texas Department of Transportation, on behalf of the Texas 
                          Innovation Alliance
                              introduction
    Chairwoman Norton and Ranking Member Davis, thank you for inviting 
me to be here today. My name is Darran Anderson and I am the Director 
of Strategy and Innovation at the Texas Department of Transportation 
(TxDOT) and am here on behalf of the Texas Innovation Alliance 
(Alliance). I appreciate the opportunity to provide testimony before 
the subcommittee today, and to share our experience creating and 
organizing the Texas Innovation Alliance.
    In short, the Texas Innovation Alliance is an action network of 
local, regional, and state agencies, as well as research institutions 
who are galvanized to be a capability multiplier for mobility 
innovation. The mission of the Alliance is to strategically develop, 
launch, and sustain a portfolio of advanced mobility projects across 
the State of Texas, to improve the lives, safety, and economic 
prospects of Texans.
                   texas innovation alliance overview
    Building upon the momentum of the USDOT Smart City Challenge, the 
Texas Department of Transportation and the city of Austin issued a call 
to action in 2016. Metropolitan regions from around the state stepped 
forward, uniting as the Texas Innovation Alliance to address the 
state's most pressing mobility challenges.
    As Texas continues to grow, the Alliance proactively develops tools 
beyond traditional infrastructure, including innovative technologies, 
policies, and processes. Alliance partners include our largest cities--
Houston, Dallas, and San Antonio; small, but rapidly growing cities, 
such as Frisco; and regional partners, such as Bryan-College Station, 
and the Coastal Bend area. The Alliance is open to any Texas locality 
or region that is interested in pursuing mobility solutions (see 
Appendix A).
    Individually, communities have limited capacity and capability to 
develop mobility solutions and prepare our infrastructure for the 
coming transformations. Together, we have the ability to leverage our 
resources and expertise. In fact, as I speak the Alliance is working on 
submission of an application for the Federal Highway Administration's 
Automated Driving Systems Demonstration Grant. Texas partners within 
the Alliance are taking a collaborative approach in offering a robust 
and diverse set of data, use cases, and deployments to help guide 
national Automated Vehicle guidance and rulemaking.
    The Texas Innovation Alliance uniquely allows for this 
individualized problem identification and shared solutions. This 
enables Texas' cities and regions to connect with public and private 
sector partners; leverage investment to maximize impact at a lower 
cost; enable rapid deployment and sustainable solutions; develop best 
practices and lessons learned; and, build awareness and create unified 
communications.
    Texas is at a pivotal moment--where the rate of population growth, 
infrastructure needs, and technological advancement are challenging our 
ability to provide quality mobility services. With five of the nation's 
15 fastest growing cities located in Texas and the population expected 
to nearly double by the year 2050, it is critical that we manage this 
disruption proactively rather than allow rapid urbanization to stifle 
our state's economy.
                         how congress can help
    While the Alliance is working well from a grass roots basis with 
state assistance and the resources of our research partners, the 
Federal Government continues to play a critical role in allowing for 
new technologies. We thank this committee for your work on MAP-21 and 
the FAST Act to streamline programs and gain efficiencies at the 
Federal level. Texas has realized time and cost savings because of the 
flexibility afforded by converting 70 funding silos into today's six 
Federal highway programs, and by providing states the opportunity to 
assume responsibilities under the National Environmental Policy Act. 
The Alliance is seeking to mirror those successes by not duplicating 
efforts, through sharing best practices, and through fostering an open 
exchange of what has and hasn't worked in their communities.
    To help enable not only the Alliance's efforts, but for all cities, 
regions, and states seeking how to best use technology to improve 
transportation mobility, we offer these suggested improvements for 
consideration when reauthorizing the FAST Act:
    <bullet>  Make technology eligible for Federal funding across all 
USDOT programs.
    <bullet>  Clarify that infrastructure-based ITS capital 
improvements equipment required for the implementation of Vehicle-to-
Everything or V2X are an eligible use under the State Transportation 
Block Grant Program (STBGP). This would include:
      <bullet>  Data collection and analysis;
      <bullet>  Maintenance;
      <bullet>  Integration;
      <bullet>  Fiber and the data ecosystems to manage transportation 
operations; and,
      <bullet>  The costs associated with systems, software, and 
equipment required for V2X implementation.
    <bullet>  We also support policy under the State Transportation 
Block Grant Program (STBGP) that would provide funding eligibility for 
advanced mobility improvements to include data infrastructure and 
analysis, smart mobility improvements such as smart truck parking, 
smart work zones, smart pavements, mobility-on-demand platforms, smart 
fleet, and alternative vehicle charging infrastructure.
    <bullet>  Finally, when a public entity applies for discretionary 
grants, such as the Advanced Transportation and Congestion Management 
Technology Development grant with private sector partners, we would 
like to have our partners recognized by the Federal Highway 
Administration as sole source contractors for the purposes of the 
grant, if awarded. It is extremely difficult to bring in a private 
partner during the application process if they will later need to 
competitively bid to be part of the project. The current approach 
stymies, rather than promotes the use of Public-Private Partnerships.
  the nexus of txdot, its research partners, and the texas innovation 
                                alliance
    In 2017, Governor Greg Abbott signed Senate Bill 2205 which cleared 
the way for driverless vehicles to legally operate on Texas roadways. 
Laws such as SB 2205 ensure that rapidly evolving technology on the 
whole spectrum of operation remains safe on Texas roadways. To that 
end, TxDOT has a coordinated effort to research, review, and test 
emerging technologies that will someday have a great impact on the 
transportation network, thereby informing the focus of the Texas 
Innovation Alliance. This effort includes reliance on some of our other 
state technology leaders, such as:

         The Texas Connected and Automated Vehicle (CAV) Task Force was 
created in January by Governor Greg Abbott and is led by TxDOT. This 
task force will serve as a repository of information for all on-going 
Connected and Automated Vehicle projects in Texas and will facilitate 
progress in advancing CAV technology through hosting industry forums 
and reporting lessons learned through public and private entities' 
efforts to implement CAV technology.

         For example, the Southwest Research Institute, located in San 
Antonio, is working with other academic partners in Texas to 
collaborate with Texas' new CAV Task Force. The Institute is a leader 
in Connected and Automated Vehicle (CAV) research and technologies and 
has worked with USDOT and Texas universities to provide a full-service 
test track for these technologies.

         The State Transportation Innovation Council (STIC) along with 
TxDOT's Research Program contributes valued and innovative research 
ideas with the potential to bring solutions and opportunities to Texas. 
Areas of focus such as resiliency, improved traffic management systems, 
predictive analytics, as well as emerging technologies such as the 
impacts of artificial intelligence to TxDOT operations, and physical 
innovations or changes needed to accommodate autonomous and connected 
vehicles on our system are all research areas that inform the Alliance.

         The STIC also facilitates the rapid implementation of 
innovative technology and shares its deployment outcomes at all levels 
of state government and throughout the private and non-profit sector, 
including the Alliance, to ensure smart, efficient investment in Texas 
highway and transportation infrastructure.

         The Texas Technology Task Force is directed by the Texas State 
Legislature to explore all types of emerging technologies, including 
automated and connected vehicle technologies, and recommend those 
technologies on which TxDOT should concentrate for future use in Texas' 
infrastructure.
                               conclusion
    As we usher in the next generation of technologies, a paradigm 
shift has already begun in transportation. An entrepreneurial approach 
is needed for Texas to take a leadership position, enabling our state 
to support a 21st century workforce and to continue attracting and 
growing businesses.
    It is worthy to note that local leadership from the Alliance's 
regional team partners, including mayors, councilmembers, Metropolitan 
Planning Organization board members, and transit board members, have 
all emphasized that the local and regional governments are a key 
enabler to achieving our mobility goals, but that Federal authority to 
resource new technology in our core funding is extremely important.
    Additionally, our research partners such as those in the Texas 
Innovation Alliance, including the Southwest Research Institute, the 
Center for Transportation Research at the University of Texas at 
Austin, and the Texas A&M Transportation Institute are also key in 
identifying those technologies that will cause disruption and rapidly 
change our landscape.
    On behalf of the Texas Innovation Alliance, I thank the Committee 
for the opportunity to testify today regarding the work we are doing in 
Texas not only to explore technology and innovation to enhance 
mobility, but to bring them to fruition. With a people-first, problem-
based approach partners of the Texas Innovation Alliance are committed 
to working together to align local, regional, and state priorities for 
the benefit of our communities. Recognizing the value of collaboration, 
the Alliance stands together in pursuit of innovation and applies an 
entrepreneurial approach to be the leading model in developing new 
mobility solutions.
                               appendix a
    [Appendix A is retained in committee files and is available at 
http://ftp.dot.state.tx.us/pub/txdot-info/fed/federal-surface-
transportation.pdf, pages 6-7.]

    Ms. Norton. Thank you very much, Mr. Anderson. I know that 
two of our witnesses already have been from Texas. I don't know 
what you are trying to tell us here.
    [Laughter.]
    Ms. Norton. But we are listening.
    Next I am pleased to welcome Jack Clark, who is the 
executive director of the Transportation Learning Center.
    Mr. Clark?
    Mr. Clark. Thank you. Thank you, Madam Chair, and thank 
you, Ranking Member Davis, for the opportunity to be here 
today.
    As indicated, my name is Jack Clark. I represent the 
Transportation Learning Center. You have background on me and 
the organization in your written materials. I look forward to 
sharing more on that in the question period. But right now I 
want to focus on the core problem I am here to address, and the 
committee, I believe, needs to address, as well: the workforce 
crisis in public transportation.
    Approximately 400,000 people work in public transportation; 
90 percent of them are moving vehicles or maintaining those 
vehicles and the systems required to keep transit running.
    In every transit agency large and small, new technologies 
are changing the way work needs to be done. I share a small but 
revealing story from several years back when I was dealing with 
a general manager in a medium-sized transit agency completing a 
bus purchase. He heard from the vendor asking, ``How many 
laptops would you like,'' and he initially thought this was 
some kind of bonus for his office staff, until he realized that 
those laptops were key, essential tools for his bus mechanics. 
Those laptops diagnose and keep track of all sorts of problems 
in the engine, and they also keep track of advanced electronic 
and multiplex systems that have been common in buses for more 
than a decade.
    The skills needed for people maintaining railcars, 
signaling, electrical power systems, and other systems are even 
more advanced than what bus mechanics need to know. In the face 
of all those challenges, both the age and the skill mix, 
transit spends far too little on training.
    Taking a look simply at the percentage of payroll devoted 
to training, the Paris Metro, which is a one-to-one comparison, 
spends about 8 percent of its payroll. The Federal Highway 
Administration sets a goal of 3 percent of its payroll for its 
contractors should go to training. The average transit agency 
spends between 0.66 and 0.88 percent of its payroll on 
training.
    There are some bright spots. My organization works a lot to 
develop registered apprenticeship as a solution to the transit 
skills crisis. We think it makes a lot of sense. There is a lot 
of support for apprenticeship across both aisles in Congress, 
and now across two administrations. There is also a lot of 
support for apprenticeship around the world. It is simply a 
commonsense solution, which says there is technical training 
you can learn in a classroom and a lot you can learn in a very 
highly structured, on-the-job learning environment.
    And we are seeing some progress in some areas in developing 
those apprenticeship programs. We are also seeing some 
obstacles.
    I would note, just in passing, that while we are talking 
about a transit skills crisis here--and I note Associated 
General Contractors of America is also on this panel--we won't 
be hearing about a similar skills crisis on the highway 
construction side because registered apprenticeship works 
there. It is a system that the organized building trades and 
the contractors have developed for over a century, and it 
delivers a skilled workforce. It also delivers very highly 
developed pre-apprenticeship programs that allow opportunities 
for underrepresented populations to come into the workforce and 
into highly skilled jobs. Transit, and its apprenticeship 
programs, need to develop similar programs.
    The profile of the skilled worker in transit is still older 
white males. And it is both a moral imperative and a practical 
necessity that transit develop a more diverse workforce in its 
skilled ranks.
    I would note that the transit--the--other people noted 
this--the transit workforce is much older than the average 
workforce. The average transit worker is almost 51, compared to 
the average worker across all industries being about 40, 41, 
42. That means that the skill--the demographic crisis is quite 
severe.
    Thank you for your time. I have more in my written 
testimony. I would ask that you include human capital and 
specific metrics in human capital in reauthorization, authorize 
a national transit front-line workforce resource that could 
function like the National Transit Institute, and that the 
mandate that FTA work closely with other Federal agencies, 
particularly Department of Labor and Office of Career, 
Technical, and Adult Education, on workforce issues.
    And in all the work the Congress is doing, remember that 
workforce is a key part of what needs to happen in 
infrastructure. It is not going to happen without a skilled 
workforce. Thank you very much.
    [Mr. Clark's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of John Kevin ``Jack'' Clark, Executive Director, 
                     Transportation Learning Center
    Good morning. My name is Jack Clark. I serve as Executive Director 
of the Transportation Learning Center (the Center), a not for profit 
organization with offices in Silver Spring Maryland that does national 
work in transportation with a particular emphasis on the public 
transportation sector. The Center focuses its efforts on the challenge 
of improving training for frontline workers in public transit, the 
drivers, mechanics, technicians, cleaners and helpers who comprise 90 
percent of the transit workforce. Members of our Board of Directors 
include leaders in management and labor and some major advocates. 
Amalgamated Transit Union International President Larry Hanley serves 
as Chair of our Board. American Public Transportation Association 
President Paul Skoutelas and Community Transportation Association 
Executive Director Scott Bogren also serve on the Board.
    The Center practices labor-management partnership in its daily 
work. None of us involved in this work is naive. Labor and management 
do have and will continue to have major differences and conflicting 
interests, particularly on zero-sum issues such as how resources are 
distributed between hourly wages and other priorities an agency might 
have. Those conflicts are not going away; nor should they. Unions 
represent a very large share of public transit workers, and workers 
through their unions can, do and should pursue collective bargaining to 
advance their interests. Likewise, managers can, do and should use the 
process to assert their rights and interests.
    While recognizing the inevitable areas of conflict, the Center has 
benefited from an insight that former US Secretary of Labor Ray 
Marshall offered to its Board more than a decade ago. Dr. Marshall 
noted that in the broad picture of interactions between labor and 
management, conflict, particularly zero-sum conflict, comprises a small 
fraction of how the two sides can interact. In areas like safety for 
the riding public and for the workforce, labor and management should 
have common interests. Similarly, workers and managers share an 
interest in improving the overall quality of the riders' experience in 
transit; both want a strong and reliable system that serves the public 
well and can count on needed public support for ongoing and expanded 
funding.
    Dr. Marshall knows that even in those areas of shared interest, 
sharp conflict can and does arise. He was positing, and the Center's 
Board has generally accepted the concept that common interests do exist 
between labor and management. Building on those common interests can 
result in better outcomes for all.
    The Center bases its work on just such a common interest: training 
for the frontline workforce. A more skilled workforce clearly benefits 
managers. More skilled workers can get the job done faster and better. 
Improved training offers transit workers opportunities for upward 
mobility in their careers. Cleaners or helpers, for example, can become 
skilled mechanics. Training can also enhance skills, knowledge and 
abilities of highly experienced transit workers who need to learn how 
advancing technologies affect how they do their jobs. When really 
excellent training, developed and executed on a partnership basis, is 
implemented, the performance of the whole organization improves and the 
workplace moves to a new culture that values life-long learning.
    That ideal picture does occur occasionally. If that dynamic were 
the rule rather than the exception in public transit, the work of the 
Transportation Learning Center might not be needed.
    Sadly, adequate training for the frontline workforce remains rare 
in transit.
    One might posit that training does not occur because there is not a 
great need. To the contrary, transit is suffering through a skills 
crisis that will only become worse.
    Start by looking at just a simple and easily understood metric: the 
age of the workforce.
    For the economy as a whole, everyone comments on the problem of our 
aging workforce. Retirements of the baby boom generation no longer loom 
as a future issue to be confronted. It is happening now across the 
economy. Finding both the sheer number of workers required and filling 
the gap left by retirement of skilled workers concerns all employers.
    Consider, though, that for all occupations and industries in the 
US, the median age of workers is 42 years of age. In transportation and 
warehousing, the median age is over 44. The median age in bus service 
and urban transit is nearly 51.
Figure 1--Median Age of Workers for Selected Transportation Sectors
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    We see that the aging workforce issue, widely understood as a 
crisis for the overall economy, stands as an even larger challenge for 
transit.
    Looking at only the age distribution understates the workforce 
challenge for transit. About 400,000 people work in public 
transportation now. Of that figure, 90 percent currently work in the 
frontline occupations I referenced earlier. Because of retirements and 
other exits from transit employment, transit has a very large number of 
jobs to fill. In 2015, the Center helped research a major study for the 
US Department of Transportation, the US Department of Labor and the US 
Department of Education on the future of the transportation workforce. 
Based on data through 2014, the best estimate at that time was that 
transit needed to hire, train and retain approximately 126 percent of 
its current workforce over a 10-year period. No one has done the 
research to update those estimates, and we are halfway through the 10 
years. The Center works closely with a large number of transit 
locations. We know from daily experience in work with those locations 
that hiring and training a sufficient number of people provides a 
continuing challenge.
    Most of my testimony will address issues around technical training 
for skilled maintenance work, but I want to take a moment to address 
the issue of exits from transit employment other than retirements. In 
general, transit maintenance workers, particularly skilled maintenance 
staff, tend to stay in their jobs for a long time. For bus drivers, the 
picture is more complex.
    Hiring and retaining bus drivers poses a major challenge for the 
industry. Wages certainly are part of the problem. As the ``Fight for 
$15'' movement makes further gains, driving a bus at a starting wage of 
$15 per hour looks less attractive. Operator assaults, widely 
publicized in the areas where they happen, certainly discourage 
potential applicants from applying in the first place. I wish to state 
my strong support for H.R. 1139, legislation sponsored by 
Representative Napolitano and supported by transit labor. This 
legislation does not mandate any particular remedy for the problem of 
assault beyond identifying whether there is a need to address the 
problem, and if there is, bringing together workers and managers to 
develop a plan. H.R. 1139 also requires that data be collected and 
analyzed on a national level so that policymakers know what the scope 
of the problem is. Good data can drive good policy. Lack of data leads 
to bad guesses.
    I will return to the issue of operator training and retention in 
the context of national work the Center is doing on apprenticeship.
    As Members of Congress know, in a number of areas, transit service 
is expanding. That adds to the workforce challenge. In every transit 
agency, large and small, new technologies are changing the way work 
needs to be done. I share an amusing but revealing story from a 
conversation several years ago with a General Manager at a medium-sized 
agency. He was completing a procurement for a major bus purchase. In 
the final negotiations to close the deal, the bus vendor asked how many 
laptop computers the agency wanted to include. Delighted by this 
question, the General Manager thought he was getting some kind of bonus 
for his office staff until he realized that the laptops were a required 
tool for bus mechanics.
    Those laptop computers provide the basic diagnostic tool for bus 
maintenance. Complex electrical, electronic and multiplexing systems 
have been commonplace on transit buses for well more than a decade. 
Buses have hybrid systems that require training on high voltage 
electricity. Fully electric buses provide a growing proportion of bus 
purchases.
    For railcars, signaling, wayside and power equipment, even higher 
levels of skill are required to maintain systems properly.
    In some locations, training to deal with these advanced 
technologies occurs regularly and is done well. Sadly, once again, that 
is the exception, not the rule.
    A reasonable measure of the commitment to training by any employer 
is the percentage of payroll devoted to training. The Federal Highway 
Administration seeks a minimum of 3 percent of payroll devoted to 
training for projects it funds. High performance US firms often spend 
4-5 percent of payroll on training. In a direct transit comparison, the 
Paris Metro spends a bit more than 8 percent of payroll. A careful 
analysis in a study overseen by the Transit Cooperative Research 
Program shows that the average US transit agency spends between 0.66 
and 0.88 percent of payroll on training.
Figure 2--Public Transportation Training Investment
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Look at Federal funding for transit. Nearly all the money goes to 
physical capital while scant resources are devoted to the building the 
skills of people who will maintain that infrastructure.
Figure 3--Annual Federal Investment in Transit
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Note: Physical Capital Investment is based on the 2016 Federal capital 
funds from the 2018 APTA Fact Book. Human Capital Investment includes 
annualized funding for the 2015 FTA Innovative Workforce Development 
programs ($9.5 million over 2 years) and $5 million a year for the 
National Transit Institute in the FAST Act.

    Before closing out this testimony, I will review this discrepancy 
between physical and human capital and recommend action in the 
reauthorization of the FAST Act.
    Having cited multiple problems and shortcomings in transit 
training, I will highlight an approach that already shows great promise 
and can deliver sustainable results for training transit workers: 
registered apprenticeship.
    Quite simply, apprenticeship combines classroom instruction with 
on-the-job learning. Most workers learn most of their skills in 
practical application. For the highly technical aspects of maintenance, 
learning basic and advanced principles of electricity, for example, 
cannot be optional. Applying that learning under the guidance of more 
experienced workers reinforces and strengthens the apprentice's 
comprehension of the principles.
    The Center, under a grant from the US Department of Labor, is 
working to develop individual apprenticeship programs in a number of 
transit agencies. More broadly, the Center endeavors to make 
registered, joint labor-management apprenticeship programs the new norm 
for how the transit industry addresses the workforce and skills crisis.
    In the rest of the advanced industrial world, apprenticeship has 
established itself as the norm for training. Germany, which enjoys a 
substantial trade surplus in manufactured goods, relies heavily on 
apprenticeship to fill the ranks of its highly skilled workforce. In 
the US, apprenticeship has enjoyed bipartisan support from successive 
Administrations and from both parties in Congress.
    Specific to this subcommittee's jurisdiction, on the highway 
construction side, we are not seeing the dire skills shortages spelled 
out here for the transit workforce. Construction unions have more than 
a century of experience with joint apprenticeship programs, and those 
programs work well to address ongoing and future needs. Like all 
sectors of the economy, construction does face issues with an aging 
workforce as well as a need to diversify the pool of candidates 
qualifying for journey level jobs. There, too, the building trades 
joint apprenticeship programs are demonstrating the capacity to respond 
to the challenge. The Multi-Craft Core Curriculum (MC3), developed by 
the building trades apprenticeship directors, serves as a model for 
effective pre-apprenticeship training.
    Apprenticeship for skilled maintenance work in transit clearly 
makes sense. Well-structured apprenticeship with good mentoring and 
possibly with some pre-apprenticeship options can also help transit 
address some glaring problems in its workforce profile. Simply put, the 
skilled maintenance workforce in transit remains overwhelmingly male 
and nearly as overwhelmingly white. Transit cannot adequately address 
its workforce shortages unless it reaches out to the entire workforce. 
More inclusive outreach and training for the well-paid jobs the transit 
industry offers is a moral imperative; it is also a practical 
necessity.
Figure 4--Percentage of Women in the Workforce
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Figure 5--Employment in Transportation Jobs by Race
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Figure 6--Employment in Transportation Jobs by Ethnicity
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Source (Figure 4-6): Data Report on Transportation Workforce Needs by 
the U.S. Departments of Education, Transportation and Labor.

    Having identified apprenticeship as a promising approach, we return 
to the hard reality that training never rises to a priority level for 
transit. Bus maintenance is by far the largest maintenance craft. On 
the bus maintenance side, the Center has identified several small to 
midsize agencies that have a sincere interest in establishing an 
apprenticeship program but are severely handicapped because they do not 
have the time or resources to implement such a program. These agencies 
typically do not have a training department or have limited training 
staff barely able to keep pace with refresher and new technology 
training. Providing classroom instruction to apprentices, which 
constitutes about one-third of the program, becomes extremely difficult 
with such limited resources. Making matters worse is that nearly all 
agencies, large, medium and small, are lacking technicians, putting 
increased pressure on them to make buses road ready for revenue 
service. This pervasive condition makes it extremely difficult to spare 
senior technicians as mentors needed to provide apprentices with on the 
job training, which makes up the remaining and essential apprenticeship 
activity.
    The Center also works on developing apprenticeship for bus drivers 
(or as some locations call them, transit coach operators). That may 
seem counter-intuitive. After all, bus operators do not need to learn 
advanced electronics or similar technical material. Earlier in the 
testimony, I referred to high turnover among bus drivers. As noted, 
operator assaults play a role there. So does the ordinary and grinding 
routine of driving a bus. New hires work the least desirable shifts in 
the worst neighborhoods. Training focuses on earning the Commercial 
Driver's License and on how to handle a large vehicle in traffic. The 
larger challenge for people aspiring to be bus drivers is how to deal 
with the public. Turnover among new hires can be very high. One large 
city gave me an estimate that 50 percent of new hires were still 
driving a bus a year after completing training. Another city, which has 
paid a lot of attention to operator training, has about 60 percent 
retention over that 1-year period. These are not sustainable numbers.
    Operator apprenticeship started at Valley Transit Authority (VTA) 
in San Jose, California. The Amalgamated Transit Union (ATU) Local 265 
initiated the program, and its members played a large role in making it 
work. Mentors, selected by the union and approved by management, 
volunteer to work with new drivers. They offer their insights and 
experience, sometimes riding with the new driver, often by phone, a few 
times every year in a conference setting. By chance, VTA launched its 
pilot apprenticeship program at the same time as it ran a traditional 
class. Union and management agreed that the new program required 
additional resources so that only one cohort would benefit. Eighteen 
months later, VTA looked at the two cohorts. VTA does a lot better than 
most on retention as a general rule. More than 70 percent of driver 
trainees who started in the traditional class were still driving a bus 
for VTA. For the cohort that went through the full mentoring and 
apprenticeship, nearly 100 percent were driving a bus 18 months later.
    VTA also saw a rise in customer satisfaction, a drop in absenteeism 
and improved safety. Those are results we want to replicate across the 
transit industry. VTA and ATU Local 265 created a Joint Workforce 
Initiative (JWI) to oversee apprenticeship and training across all 
occupations. Once again, San Jose provides a model that should be 
replicated.
    By definition, apprenticeship takes places at the local level. 
Sharing across locations can help people learn and improve what they 
are doing. The Center has taken that cross-location learning a major 
step further. Bringing together subject matter experts from both labor 
and management and from different locations, the Center has developed 
Consortium work for delivery of instructor-ready courseware for rail 
car technicians, signals maintainers and transit elevator-escalator 
mechanics. Agencies, even large agencies, often lack the capacity to 
develop new and up-to-date courses on their own. Consortium material 
enhances the training department's ability to deliver courses.
    To recap, we have seen some data on the skills crisis facing public 
transit. Neither the transit agencies nor the Federal Government is 
addressing the need for training adequately.
    What, if any relevance, does all of this have for reauthorization.
    I would advance several recommendations:
    1.  Make human capital count by counting human capital. The FAST 
Act could require more attention to human capital. Dr. Beverly Scott, 
an experienced General Manager at several agencies and a major industry 
leader on workforce issues, proposes that the National Transit Data 
base be required to include basic workforce measures. She proposed this 
as part of rulemaking process on Transit Asset Management arguing that 
human capital needs to be assessed as much as physical capital. She 
notes that GAO as early as 2001 cited lack of a strategic approach to 
workforce as a major problem across all public sector entities. If 
agencies are required to report on human capital and know that it is a 
responsibility funders take seriously, then human capital will become a 
higher management priority. Elements of human capital she proposed to 
include in the National Transit Data Base:
      a.  Total Labor Cost (payroll, contingent and contract worker 
pay, benefits excluding consultants); % of Operating Expense;
      b.  Workforce Profile--# Total Employees (Full-Time/Part-Time), 
Major Job Classifications, ``Key Positions'' (industry-wide by mode), 
Average Age, Tenure, EEO Profile and Underutilization Target Groups--
annual progress;
      c.  Total # Annual Vacancies/3-Year Average (``new'' positions; 
attrition/turnover rates (including promotions)); by ``Key positions'';
      d.  5-Year Hire and Retirement Projections (Retirement 
``Eligibility'' and ``Likelihood'' based on historical agency 
experience);
      e.  Average Time to Fill Positions--``Key Positions'', by Major 
Job Classification;
      f.  Annual Absenteeism Data by Major Job Classification/Total and 
Agency Cost;
      g.  Total Training, Apprenticeship & Employee Development 
Investment; % of Budget;
      h.  Mandatory Employee Training/Completion Rates;
      i.  Annual Safety Training/Certification Completion Rates;
      j.  Employee/Passenger Injury Data (Human Factors primary; 
contributing factor);
      k.  Prepare a H.R. Risk Registry (5-Year Planning Horizon), which 
identifies major workforce challenges (current, emerging, and future) 
and plans to address.
    2.  Authorize funding (the Secretary shall, not the Secretary may) 
for a national resource center for frontline workforce training at a 
level equal to current funding for the National Transit Institute. 
Naturally, I propose that the Transportation Learning Center play that 
role. So long as the national workforce center must reflect both labor 
and management interests, must address diversity of the incoming 
technical workforce, must focus on apprenticeship, then the Center can 
compete for the designation. Win or lose, we will know that the issues 
that need to be addressed are addressed.
    3.  Require that USDOT coordinate workforce efforts with other 
Federal entities, particularly the US Department of Labor's National 
Office of Apprenticeship and the Office of Career, Technical, and Adult 
Education at the US Department of Education. In numerous instances, 
particularly at the state level, transit is excluded from Federal 
training funds because funds are reserved for private sector employers. 
As documented here, transit under-invests in training, largely because 
transit is underfunded. The jobs in transit offer career ladders and 
family sustaining wages. DOT should advocate with other Federal funders 
to maximize the opportunity for transit agencies to benefit from 
workforce funds.
    4.  This subcommittee and its members will help shape any Federal 
infrastructure package that may go well beyond the scope of the FAST 
Act and will almost certainly include funding for upgrading transit 
infrastructure. I am not addressing in this testimony how 
infrastructure will be financed, but I do want to emphasize that while 
infrastructure spending can and will create jobs, there needs to be 
corresponding increases in workforce funding to prepare people for 
those jobs.
    Thank you.

    Ms. Norton. I thank you for that reminder. There was a time 
when we thought these people just floated into this industry. 
That is not the case today.
    Next is Therese McMillan, executive director of the 
Metropolitan Transportation Commission on behalf of the 
Association of Metropolitan Planning Organizations.
    Ms. McMillan?
    Ms. McMillan. Thank you, Madam Chair. Good morning, my name 
is Therese McMillan. I am the executive director of the 
Metropolitan Transportation Commission, the federally 
designated MPO for the nine-county San Francisco Bay area. And 
in that role we not only conduct long-range planning and 
project prioritization for the bay area's 7 million residents, 
we also are the recipient of the Federal Transit Administration 
formula and Federal Highway Administration funds.
    Put simply, a strong Federal role in our Nation's 
multimodal transportation system has been essential for the 
entirety of our Nation's history. But transportation is not 
just about moving people and goods, as was noted. It is about 
access to opportunity and quality of life, and we believe it is 
time for the Federal Government to do more.
    We at MTC and the Nation's other MPOs look forward to 
working with you to reauthorize the FAST Act, to strengthen our 
economy, and create new opportunities for well-paying jobs that 
can rebuild our Nation's ailing transportation infrastructure, 
while continually striving to make travel both safer and more 
reliable within and across the Nation's diverse communities.
    The local State-Federal partnership model enshrined in the 
FAST Act is a model that works. In the bay area our local 
commitment to this model includes over $1.5 billion annually of 
sales tax and toll dollars dedicated to our multimodal 
transportation system. All are voter-approved. Even still, our 
residents recognize that more needs to be done as they continue 
to experience daily our congested roadways and increasingly 
aging and crowded transit systems.
    In 2017 our State legislature, committed to holding up its 
end of the partnership bargain, voting by a two-thirds majority 
a historic transportation funding package comprised of a wide 
array of user fees that generates over $5 billion annually. 
These funds are solely dedicated to rebuilding and improving 
California's streets, highways, and bridges, and public transit 
systems. And the cornerstone of that bill was restoring the gas 
tax to its purchasing power in 1994 and indexing it into the 
future.
    Providing for continued growth in the U.S. economy demands 
a much larger Federal commitment to the local-State-Federal 
partnership. As a member of the family of MPOs, we especially 
call upon Congress to expand the share of funds that are 
invested in the Nation's metropolitan areas, the engines of our 
Nation's economy. Two programs in particular have been vital to 
regions' ability to create solutions to challenges we face at 
the local level across the country.
    Specifically, the surface transportation block grant 
program, which we continue to call STP, and the congestion 
mitigation and air quality, or CMAQ program, enable the 
flexibility that creative solutions demand across very 
different communities.
    As an example, in the bay area we are now using this 
flexibility to direct STP and CMAQ dollars to cities and 
counties as an incentive to build more housing at or near 
existing transit stops and other transportation services. This 
strategy leverages Federal funds by enhancing significantly a 
transportation project's mobility and access benefits, 
encouraging those who can now live closer to transit and those 
projects to actually use it, which in turn helps to curb 
congestion and reduces longer auto trips and carbon emissions.
    Importantly, STP and CMAQ programs deliver funds to an 
array of projects that improve people's lives at a very local 
level, giving taxpayers more confidence and visible certainty 
about how Federal money is being spent and invested in their 
communities.
    Therefore, we urge you to invest more funds in STP, and to 
directly allocate those block grants to MPOs nationwide, so 
that their residents can benefit from projects selected at the 
regional level, consistent with priorities developed in the 
regional transportation plans.
    In addition we would ask you to restore the local 
distributed share of STP to a historic level of 62.5 percent, 
if not higher. Directing more dollars to metropolitan areas 
serves all of our interests. The bay area and other metro areas 
continue to drive national economic output, and in these areas 
new innovations are most often made and new technologies are 
being developed and deployed.
    As we look to the future, the field of transportation may 
be poised to undergo as much change in the next decade as any 
time since the automotive age. For those of us that have been 
in the transportation field our entire career, the pace of this 
change is astounding. Overnight, cities are finding their 
streets and sidewalks teeming with new e-bikes, or e-scooters, 
deployed by the latest shared mobility startups. In my home in 
the San Francisco Bay area, we are seeing these changes up 
close with the likes of Tesla, Uber, Lyft, Google's Waymo, 
Apple Car, Cruise Automation, and dozens more.
    And as with all technological breakthroughs, there are 
risks as well as benefits. Building the highway and 
communications platform necessary for a connected and 
autonomous future is a fundamental Federal responsibility we 
would urge this committee to take up.
    In addition to the technological change, we are preparing 
ourselves in the bay area region to be more resilient in the 
face of a changing climate and, in particular, sea level rise. 
One visible local example is State Highway 37, which travels 
through Marin, Solano, Napa, and Sonoma Counties in the north 
of our region. This 20-mile corridor is regularly backed up 
with traffic and too often shut down due to flooding during the 
winter season, including twice in the last few weeks. What is 
more, it is also highly vulnerable to complete inundation, due 
to sea level rise 30 years from now.
    Improvements for the project are designed to improve 
ecological enhancements upfront, in tandem with reducing the 
roadway flooding vulnerability. As this committee considers the 
future of the Federal transportation program, I would encourage 
you to prioritize projects like this that will help communities 
across the Nation adjust to a changing climate.
    In conclusion, Madam Chair and committee members, America's 
diverse metropolitan areas are prime to tackle the myriad 
mobility and related access challenges of the future, be they 
technical, financial, environmental, or societal in nature. We 
seek and ask a strong Federal partnership to help support the 
solutions to address those challenges. And in doing so, to 
seize the opportunities this country should extend to all of 
its people.
    Thank you for having me here today.
    [Ms. McMillan's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Therese W. McMillan, Executive Director, 
Metropolitan Transportation Commission, on behalf of the Association of 
                  Metropolitan Planning Organizations
                              introduction
    Good morning. My name is Therese McMillan. I am the Executive 
Director of the Metropolitan Transportation Commission (MTC), the 
federally-designated metropolitan planning organization (MPO) for the 
nine-county San Francisco Bay Area. In that role, we not only conduct 
long-range planning and project prioritization for the Bay Area's 7 
million residents, we also are the recipient of Federal Transit 
Administration formula and Federal Highway Administration funds.
    Put simply, a strong federal role in our nation's multimodal 
transportation system has been essential for the entirety of our 
nation's history. It is a core federal responsibility. But 
transportation is not just about moving people and goods around. It is 
about access to opportunity and quality of life and we believe it is 
time for the federal government to do more, much more.
    We at MTC and the nation's other MPOs look forward to working with 
Congress to reauthorize the Fixing America's Surface Transportation 
(FAST) Act--to strengthen our economy, to create new opportunities for 
well-paying jobs that can rebuild our nation's ailing transportation 
infrastructure, while continually striving to make travel both safer 
and more reliable within and across all of the nation's diverse 
communities.
                          bay area perspective
    With hundreds of miles of interstate freeway and rail lines, 
thousands of buses and rail cars, three international airports, a major 
West Coast seaport and a freight railhead that serves both urban and 
rural America, the Bay Area serves as a complex, multimodal hub, as 
well as a destination. Providing adequate funding to maintain, operate 
and expand this transportation system to meet the needs of today and 
tomorrow is an endless challenge. Local voters have contributed 
enormously to that endeavor, but we also depend greatly on 
contributions from our state and federal partners.
    The local/state/federal partnership model enshrined in the FAST Act 
is a model that works. In the Bay Area, our local commitment to this 
model includes over $1.5 billion annually of sales tax and toll dollars 
dedicated to our multi-modal transportation system--all voter-approved. 
Even still, our residents recognize that more resources are needed, as 
they continue to experience daily our congested roadways, and 
increasingly aging and crowded transit systems.
    In 2017 the California Legislature committed to holding up its end 
of the partnership bargain, voting to support--by a two-thirds 
majority--a historic transportation funding package comprised of a wide 
array of user fees that generates over $5 billion annually statewide. 
These funds are solely dedicated to rebuilding and improving 
California's streets, highways and bridges, and public transit systems. 
The cornerstone of the bill was restoring the gas tax to its purchasing 
power in 1994 and indexing it into the future.
    Though federal dollars account for only 10 percent of the Bay 
Area's total transportation investments--or $29 billion through 2040--
they are critical to delivering major projects that will improve 
connectivity between the region's population and job centers, and that 
will continue our outsized contribution to the nation's economic 
growth. Seven of the Bay Area's 10 largest transportation investments 
through 2040 have received or anticipate receiving billions in federal 
transit capital grants primarily from the FAST Act's Capital Investment 
Grant (CIG) program.\1\ Given the scope of these major projects, even 
with significant state and local matching funds, it is impossible to 
conceive of how these projects can be built without CIG funds. In 
addition, Bay Area transit operators are forecast to receive 
approximately $2.6 billion in FAST Act core formula funding through 
2020, which is prioritized for vitally-needed state of good repair 
projects. Additionally, as described in the next section, flexible FAST 
Act highway funding allows Bay Area cities and counties to invest in 
local transportation priorities that improve safety, spur economic 
development, encourage construction of affordable housing, and help the 
region meet climate change and air quality improvement goals.
---------------------------------------------------------------------------
    \1\ For the project list, see the ``Top 10'' Plan Bay Area Capital 
Projects graphic on page 4 of MTC and ABAG's 2019 Report to Congress 
(https://mtc.ca.gov/sites/default/files/2019_Report_to_Congress-MTC-
ABAG.pdf)
---------------------------------------------------------------------------
    Accordingly, we recommend that the FAST Act reauthorization grow 
the core highway and transit programs that have proven effective in 
delivering essential funds for states and regions to address their 
pressing capital investment and state of good repair needs.
  case for a bigger federal program/(flexible investment capacity for 
             regions and capital investment grant program)
Flexible Investment Capacity for Regions
    Providing for continued growth in the U.S. economy demands a much 
larger federal commitment to the local-state-federal partnership. As a 
member of the family of MPOs, we especially call upon Congress to 
increase federal investment flexibility directly available to the 
nation's metropolitan areas for local mobility needs, an investment 
strategy that serves all our interests.
    The Bay Area and other metro areas continue to drive national 
economic output, and it is in these areas where new innovations are 
most often made, and where new technologies are being developed and 
deployed. Flexible, metro-level funding allows for regions to implement 
creative solutions to address the myriad challenges that confront 
different communities across the nation. Two programs in particular 
have been vital to MTC's ability to create solutions to challenges we 
face at the local level. Specifically, the Surface Transportation Block 
Grant Program, which we continue to call STP, and the Congestion 
Mitigation and Air Quality--or CMAQ program, provide the flexibility 
that creative solutions demand across very different communities.
    As an example, in the Bay Area, where our housing crisis is 
contributing to record levels of traffic congestion, we are using this 
flexibility to direct STP and CMAQ dollars to cities and counties as an 
incentive to build more housing at or near existing transit stops and 
job centers. Cities and counties that approve new housing construction 
and adopt housing-supportive local plans are rewarded with additional 
federal funds that they may direct to a wide range of transportation 
projects, from Vision Zero safety improvements to local street and road 
maintenance. This strategy supports the Bay Area in making progress 
toward a number of our performance goals: transit and job center-
oriented development helps curb congestion and reduce longer auto trips 
to minimize on-road mobile source emissions and pavement wear and tear.
    Two unique elements of the STP and CMAQ programs enable MTC to 
effectively leverage these federal dollars. First, the programs' broad 
project eligibility helps these funds serve as an effective incentive, 
as locals are able to direct the funds to their highest priority 
projects. Second, because the funds are distributed at the metro area 
level, MPOs are able to invest these funds to provide innovative 
regional solutions that span jurisdictional boundaries. Projects such 
as the Clipper card (our multi-operator transit-fare payment card) or 
our regional bikeshare program are harder to pay for with funds that 
are awarded to specific transit operators or local jurisdictions for 
specific projects (if voter approved) or for mode-siloed investments.
    Importantly, the STP and CMAQ programs deliver funds to an array of 
projects that improve people's lives at a very local level--giving 
taxpayers more confidence and certainty about how federal money is 
being spent and invested in their communities. This combination of 
flexibility and accountability is the right way to meet the challenges 
before us now, and to adapt to the uncertain and rapid change we 
anticipate ahead.
    Therefore, we urge Congress to invest more funds in STP and to 
directly allocate these block grants to MPOs nationwide so that 
residents living outside of California--where suballocation is provided 
for in state law--can also benefit from projects selected at the 
regional level, consistent with the priorities developed in the 
regional transportation plans. In addition, we would ask you to restore 
the local distributed share of STP to its historic level of 62.5 
percent, if not higher.
Capital Investment Grant Program
    The Bay Area has developed an aggressive $26 billion investment 
plan to improve transit connectivity between the region's population 
and job centers. CIG funding--matched 2-to-1 by state and local 
dollars--is key to advancing priorities that will not only address 
critical regional core capacity and expansion needs, but will 
contribute to the nation's economic growth. For example, Caltrain, a 
vital link in the Bay Area's transportation network connecting San 
Francisco to San Jose and to the nation's most high-profile tech 
companies, secured a $647 million full funding grant agreement in 2017, 
accelerating an electrification project (PCEP) that has been in the 
works for more than two decades. PCEP will help create over $2.5 
billion in economic value and address one of the Bay Area's principal 
barriers to economic growth by relieving traffic on the increasingly 
congested Interstate 280 and U.S. Route 101 corridors. Modernizing 
Caltrain will put Americans to work and significantly increase rail 
commuting capacity to Silicon Valley, one of the most economically 
productive areas in the United States. In the coming years, Bay Area 
transit operators will be seeking more than $3 billion in new CIG 
commitments for the region's next generation of transit capacity 
projects, including Bay Area Rapid Transit (BART) Silicon Valley Phase 
II, Caltrain Downtown Extension and BART Transbay Corridor Core 
Capacity.
     change is coming (planning for uncertainty and investing in a 
          transformative and adaptive transportation network)
    As we look to the future, the field of transportation may be poised 
to undergo as much change in the next decade as it has at any time 
since the dawn of the automotive age. For those of us who have been in 
the transportation field our entire career, the pace of change is 
astounding. Overnight, cities find their streets and sidewalks teeming 
with new e-bikes or e-scooters deployed by the latest shared mobility 
start-up. In my home in the San Francisco Bay Area we are seeing these 
changes up close, with the likes of Tesla, Uber, Lyft, Google's Waymo, 
Apple Car, Cruise Automation and dozens more. And as with all 
technological breakthroughs, there are risks as well as benefits. 
Building the highway and communications platform necessary for a 
connected and autonomous future is a fundamental federal responsibility 
we would urge this committee to embrace.
    In addition to technological change, we are preparing ourselves in 
the region to be more resilient in the face of a changing climate, and 
in particular, sea-level rise. One visible local example is State 
Highway 37, which travels through Marin, Solano, Napa, and Sonoma 
counties. This 20-mile corridor is regularly backed up with traffic and 
too often shut down due to flooding during the winter season, including 
twice in the last few weeks. What's more, it is also highly vulnerable 
to complete inundation due to sea-level rise 30 years from now. 
Improvement projects are designed to provide ecological enhancements up 
front in tandem with reducing the roadway flooding vulnerability.
    As this committee considers the future of the federal 
transportation program, I would encourage you to support communities 
across the nation in making our transportation networks responsive to 
the technology-fueled transformation in how people and goods move, and 
to the changing climate.
Planning for an Uncertain Future
    New technologies are expected to transform how people will connect, 
travel and transport freight. Extreme weather and rising sea levels 
challenge us to adapt and develop more resilient infrastructure. Like 
states and regions throughout the nation, the Bay Area is grappling 
with how to best incorporate the uncertainties posed by climate change 
and transformative transportation technologies into our planning and 
near-term investment decisions.
    MTC has recently undertaken Horizon, a new effort to plan for--and 
help shape--a range of possible futures. By expanding beyond 
traditional long-range scenario planning, which holds fixed certain 
transportation and land-use assumptions, Horizon will help inform big 
questions facing the transportation industry, such as:
    <bullet>  How might automation help solve the first-mile/last-mile 
transit challenge, reducing barriers to transit ridership? What type of 
investments are needed to get us there?
    <bullet>  What roadway investments could maximize the opportunities 
associated with the shift to connected and autonomous vehicles, and 
expedite short-term safety benefits?
    <bullet>  How do we prepare or adapt our transportation systems to 
be resilient against rising sea levels?
    Ultimately, this effort is designed to enable planners to analyze a 
potential project's performance across a range of different futures and 
lead to better decision-making by policy makers with regard to project 
prioritization. Though the benefits may be significant, this planning 
effort requires substantial time and resources. Because it is a break 
from traditional planning, Horizon is a wholly separate effort that MTC 
will complete in advance of developing the region's federally mandated 
Metropolitan Transportation Plan update.
    This committee could consider expanding the scope of the long-range 
planning process to include new mobility-related technology 
considerations, and increase planning funds to help regions and states 
better address complexities around transformative transportation 
technologies and climate change. Increased planning funding will also 
support states and MPOs in fulfilling current performance-based 
planning mandates, which were added in the 2012 transportation 
authorization without a commensurate increase in planning resources. 
Importantly, we recommend retaining existing flexibility for planners 
to innovate, specifically in how they incorporate new mobility-related 
technology considerations into the planning process.
    The committee could also consider creating a pilot program to 
generate best practices for states and MPOs to be responsive to a new 
mobility paradigm and to uncertainties posed by climate change. The 
United States Department of Transportation could provide state and 
regional pilot program participants with tools (e.g., data sets and 
case studies) to incorporate the transportation system impacts of 
mobility-related technologies and to incorporate climate change 
considerations into transportation system performance evaluations.
Investing in a 21st Century Transportation Network
    Metro areas drive the nation's economy, house much of the nation's 
critical infrastructure and will be the test beds of large-scale 
deployment of new mobility-related technologies that are expected to 
transform how people and goods travel. These areas will require 
substantial investment to adapt our infrastructure to be resilient to a 
changing climate and to be responsive to a new mobility paradigm. 
Federally supported, near-term infrastructure improvements will provide 
the dual benefit of immediately mitigating carbon-emitting congestion 
while preparing our nation for the future. For example, a high-speed 
communications infrastructure backbone would support near-term 
congestion-reduction and air quality improvement strategies like smart 
traffic signal operations while laying the foundation for future 
vehicle-to-vehicle and vehicle-to-infrastructure communications.
    The committee should consider creating a new flexible program to 
make our transportation networks more resilient in the face of a 
changing climate and more responsive to the technology-fueled 
transformation in how people and goods move. To be most effective, the 
program should be highly flexible, mode-neutral and include formula and 
discretionary components. Eligible projects should include capital and 
operational investments that improve both near-term and long-term 
system safety and performance. Examples include programs to support 
deployment of autonomous vehicles, including vehicle-to-vehicle, 
vehicle-to-infrastructure and vehicle-to-everything (V2X) 
communications technologies; priced managed lanes; transportation 
demand management programs; strategic micro-transit investments; 
advanced parking freight delivery and incident management systems; 
alternative fuel charging infrastructure and other advanced 
technologies to support a clean transportation system; and climate 
mitigation/resiliency improvements. The formula component of the 
program should be allocated to large metropolitan planning 
organizations (MPOs), the nation's population and job centers with the 
most immediate needs. Discretionary grant funding should additionally 
support states, local governments, transit agencies and ports in 
efforts to upgrade freight corridors and other critical infrastructure. 
The discretionary component should have a rural set-aside to ensure 
such communities also have access to program funds.
    In lieu of a new program, the committee could also consider 
providing resources for 21st century transportation investments through 
existing FAST Act programs, including STP, a revised Nationally 
Significant Freight and Highway Projects program, and a significantly 
expanded and revised Advanced Transportation and Congestion Management 
Technologies Deployment program by expanding project eligibility within 
these programs.
    In conclusion, Madam Chair and Committee members, America's diverse 
metropolitan areas are primed to tackle the myriad mobility and related 
access challenges of the future--be they technical, financial, 
environmental or societal in nature. We ask for a strong federal 
partnership to help support the solutions required to address them--and 
in doing so, to seize the opportunities in this country that should 
extend to all of its people.
    Thank you.

    Ms. Norton. Thank you, Ms. McMillan.
    Al Stanley, vice president of the Stanley Construction 
Company, on behalf of the Associated General Contractors of 
America.
    You may proceed.
    Mr. Stanley. Chairwoman Norton, Ranking Member Davis, and 
members of the subcommittee, thank you for inviting me to be 
part of today's hearing. My name is Al Stanley, and I am a 
highway site work and civil construction builder from 
Huntsville, Alabama.
    Stanley Construction Company was established in 1961 by my 
father. At that time the major emphasis was on landscaping for 
residential and commercial clients, and there were only three 
employees. Today our company has grown into a diverse business 
enterprise, completing numerous commercial projects as well as 
State and Federal projects.
    I am here today representing the Associated General 
Contractors of America and currently serve on AGC's board of 
directors. I also served in 2009 as the president of Alabama 
AGC's State chapter. AGC is a national organization 
representing 26,000 businesses involved in every aspect of the 
construction industry.
    Madam Chairwoman, in AGC's written testimony we have 
pointed out the conditions and needs facing our Nation's 
transportation infrastructure, both urban and rural. As we 
approach the expiration of the FAST Act, Congress must address 
today's upkeep, maintenance, and expansion, while also looking 
to the transportation needs of the future.
    Choices must be made to advance transportation to the next 
level by modernizing the system by making the best use of 
available and upcoming technology. The transportation network 
is on the cusp of technological change that will impact how we 
plan, design, and build our projects; how we inventory and plan 
maintenance in our transportation assets; and how vehicles that 
use the system are driven, and how they interact with each 
other, with the infrastructure.
    Indeed, Madam Chairwoman, the future of transportation is 
exciting. However, nothing is guaranteed, and the gravest 
threat to the advancement of transportation infrastructure is 
the long-term solvency of the Highway Trust Fund.
    Shortly after the FAST Act expires, additional revenue of 
some $18 billion per year will be needed just to maintain 
current funding levels. Failure to address the funding's 
ongoing revenue shortfall undermines the ability to advance our 
infrastructure to the next level.
    AGC believes the Highway Trust Fund revenue sources should 
be real, reliable, dedicated, sustainable, and derived from 
users and beneficiaries of our surface transportation system. 
They should be sufficient to end the chronic shortfalls, and 
support increased investment, and they should be dedicated 
solely to surface transportation improvements. Increasing the 
Federal motor fuels tax is the simplest and most effective way 
to achieve this goal, but several other viable options do 
exist.
    AGC is part of the Mileage-Based User Fee Alliance. We 
believe that user fees based on road usage in the future is the 
most fairest way of collecting the revenue needed for road 
improvements and transportation technology advances. We urge 
you to continue supporting the State pilot programs that were 
initiated in the FAST Act, and hope that you will also 
institute a national trial program to advance the concept from 
the beta stage to reality.
    While the Federal Government fails to act, States continue 
to make significant commitments to investment and 
transportation infrastructure. Currently, in my own State of 
Alabama, the Governor's Rebuild Alabama plan increases funding 
for roads and bridges by raising the State's gasoline tax 10 
cents per gallon. The Federal Government must do their fair 
share, as States rely on Federal aid funding for the majority 
of their capital improvements.
    While funding is critically important, AGC also believes 
this legislation should improve project delivery by removing 
impediments that slow down planning and design and construction 
of needed infrastructure.
    AGC is very appreciative for the work this committee has 
done in helping enact bipartisan environmental reforms in MAP-
21 and in the FAST Act. But more can be done, and improvements 
upon those enacted reforms can be made. We have included some 
recommendations in our written testimony that has been 
submitted.
    In addition, we urge this committee to consider two issues 
that cause construction delays.
    First, transportation improvement projects that interface 
with railroad properties are often subject to significant 
restrictions and delays imposed by railroad owners. Obtaining 
fair and equitable railroad agreements, as well as ensuring 
that commitments are made in a timely manner are often a 
struggle, and add time and cost to transportation projects. My 
written testimony includes recommendations to improve this 
process.
    Second, relocating underground utilities and highway right-
of-way continues to be one of the leading causes of delay in 
completing projects. Underground utilities that are incorrectly 
marked poses a significant safety risk to workers, and can 
impact third-party business operations. AGC participates in the 
Common Ground Alliance that grew out of a study directed in 
TEA-21 to look at the issue of utility relocation. AGC 
encourages the CGA best practices be used more universally.
    In conclusion, the needs of our transportation 
infrastructure are clear. Now is the time to act in a 
bipartisan way to provide a stable and growing revenue source 
for the Highway Trust Fund, while enacting a surface 
transportation reauthorization that meets the need of our 
growing economy and our growing population, as well.
    Thank you for this opportunity to present our position, and 
we look forward to questions. Thank you.
    [Mr. Stanley's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Al Stanley, Vice President, Stanley Construction 
   Company, Inc., on behalf of The Associated General Contractors of 
                                America
    Chairwoman Norton, Ranking Member Davis and members of the House 
Transportation and Infrastructure Subcommittee on Highways and Transit, 
thank you for inviting me here today. My name is Al Stanley. I am a 
highway, site work and civil construction builder from Huntsville, 
Alabama. I am currently serving on the Board of Directors of the 
Associated General Contractors of America (AGC). AGC is a national 
organization representing 26,500 businesses involved in every aspect of 
construction activity in all 50 states, Puerto Rico and Washington, DC. 
AGC members build the highway, bridge, airports, transit systems, rail 
facilities and other transportation projects that keep America running.
    Infrastructure in general, and transportation infrastructure in 
particular, is an issue that has no partisan bounds. Transportation 
impacts our daily lives whether we live in rural American communities 
or in our great urban meccas. It impacts everything from our ability to 
get to work, the cost and availability of the products we rely on both 
in our personal lives and in our businesses, to the global 
competitiveness of our nation's economy.
          looking to the future while addressing today's needs
    The vision of transportation and political leaders in the mid-20th 
century to imagine and invest in the Interstate Highway System (IHS) 
has paid and will continue to pay significant benefits to generations 
of Americans. The IHS was the leading factor in America's growth since 
World War II and made the United States the world's economic leader 
that it is today. The IHS has grown to not only provide the primary 
corridors for passenger and freight movement within large urban centers 
and between metropolitan and rural areas but it also provides the 
necessary connections between state and local roads systems and other 
transportation modes including, railroads, marine ports, airports, and 
public transit.
    Today's transportation and political leaders are faced with new 
choices that can equally impact future generations. The first choice is 
to address the need for upkeep, maintenance and expansion of the 
existing transportation system to meet today's needs.
    But just as important, choices need to be made to advance 
transportation to the next level by modernizing the system making the 
best use of available and upcoming technology developments. The 
transportation network is on the cusp of technological change that will 
impact how we plan, design and build projects; how we inventory and 
maintain our transportation assets; and how vehicles that use the 
system are driven and how they interact with each other and with the 
infrastructure.
    Transportation investment drives these technology advances. 
Advances made in autonomous vehicle technology is driven by 
transportation needs and, once available commercially, will rely on a 
good transportation network to operate safely and efficiently.
    There has been a technology boom in transportation construction 
that is increasing productivity and enhancing quality. Contractors are 
making widespread use of drones, estimating and project management 
software, automated machine guidance systems on equipment, 3D modeling, 
paperless projects, e-construction, precast-slide in bridges and the 
list goes on. States are managing construction projects through e-
construction and keeping track of asset conditions through electronic 
models. Most of this technology is developed and manufactured in the 
United States. New materials and treatments are being developed to 
lengthen the life of the infrastructure once put in place.
    In the longer-term, these improvements will enhance economic 
competitiveness and improve quality of life by reducing travel delays 
and transportation costs, improving access and mobility, improving 
safety, and stimulating sustained job growth.
    AGC commends Congress for its leadership in enacting into law the 
Fixing America's Surface Transportation (FAST) Act in December 2015. 
The FAST Act provided 5 years of stability that our Federal-aid highway 
and transit programs had not seen since 2008. As we get closer to the 
expiration of the authorization, our nation's transportation 
infrastructure needs continue to grow. As a result of sustained 
economic growth, increased population, emerging technologies and aging 
infrastructure, it is critically important that the next 
reauthorization bill not only looks to the future but does not fail to 
address the needs that we are facing, and--in some cases--ignoring 
today.
the u.s. transportation infrastructure system's needs cannot sustain a 
                   status quo approach to investment
    Despite the importance of transportation investment to the U.S. 
economy, there remains a significant need for improvement and growth. 
The 2015 AASHTO Transportation Bottom Line Report found that annual 
investment in the nation's roads, highways and bridges needs to 
increase from $88 billion to $120 billion and from $17 billion to $43 
billion in the nation's public transit systems, to improve conditions 
and meet the nation's mobility needs. The investment backlog for 
transportation infrastructure continues to increase, reaching $836 
billion for highways and bridges and $122 billion for transit according 
to the U.S. Department of Transportation. The American Society of Civil 
Engineers (ASCE) has identified a $1.1 trillion funding gap for surface 
transportation between 2016 and 2025.
    The Road Information Program (TRIP) reports that increases in 
vehicle travel since 2000 have resulted in a significant increase in 
wear and tear on the nation's roads. Vehicle travel growth, which 
slowed significantly because of the Great Recession and the subsequent 
economic recovery, has since returned to pre-recession growth rates. 
From 2000 to 2016, vehicle travel in the U.S. increased by 16 percent. 
The rate of growth in vehicle miles of travel has accelerated since 
2013, increasing by 6 percent between 2013 and 2016. Travel by large 
commercial trucks, which place significant stress on paved road and 
highway surfaces, continues to increase at a rate approximately double 
the rate for all vehicles. And, it is anticipated to continue to grow 
at a significant rate through 2030. Travel by large commercial trucks 
in the U.S. increased by 29 percent from 2000 to 2016. The level of 
heavy truck travel nationally is anticipated to increase by 
approximately 56 percent from 2018 to 2045, putting greater stress on 
the nation's roadways.
    From coast to coast, major streets and freeways in most U.S. 
communities are showing significant signs of distress. Reports provided 
by the Federal Highway Administration (FHWA), based on data submitted 
annually by state departments of transportation on the condition of 
major state and locally maintained roads and highways show that forty-
four percent of America's major roads are in poor or mediocre 
condition. One-third of the nation's major urban roadways--highways and 
major streets that are the main routes for commuters and commerce--are 
in poor condition. These critical links in the nation's transportation 
system carry 70 percent of the approximately 3.2 trillion miles driven 
annually in America. Forty-five percent of America's major urban 
interstates experience congestion during peak hours.
    Based on Texas Transportation Institute calculations, TRIP 
estimates that traffic congestion in the U.S. in 2017 resulted in 7.3 
billion hours of delays--an average of 45 hours annually per commuter--
and costing the Nation $176 billion in the value of lost time and 
wasted fuel. The nation expects to add another 60 million people over 
the next 20 years. Meanwhile, the value of goods shipped annually (in 
inflation adjusted dollars) is expected to increase by 104 percent by 
2045--and by 91 percent for goods shipped by trucking. Without 
additional capacity, congestion can only be expected to increase. 
Americans rely heavily on motor vehicles for mobility. Travel in 
private vehicles accounts for 88 percent of all person miles of travel. 
Air travel accounts for 8 percent of all person miles of travel, while 
transit (including buses and trains) accounts for 1 percent.
    In fact, a 2017 global traffic congestion report by INRIX found 
that 16 out of the 100 most congested urban areas globally are in the 
U.S., with the most congested urban areas in order being Boston (8th), 
Washington, DC. (19th), Chicago (23d), New York (40th) and Los Angeles 
(47th).
    Driving on roads in need of repair costs U.S. motorists $130 
billion a year in extra vehicle repairs and operating costs, amounting 
to $599 per motorist. Nine percent or 54,259 of America's bridges are 
structurally deficient, meaning there is significant deterioration to 
the major components of the bridge. And most troubling, we have seen a 
significant increase in traffic fatalities, which have gone up 14 
percent between 2014 and 2017 from 32,675 to 37,133. And the traffic 
fatality rate on the nation's non-Interstate rural roads is nearly two-
and-a-half times higher than on all other roads.
    Our transportation infrastructure needs do not discriminate between 
rural and urban America. Many of the transportation challenges facing 
rural America are like those in urbanized areas. However, rural 
residents tend to be more heavily reliant on their limited 
transportation network--primarily rural roads and highways--than their 
counterparts in more urban areas. Residents of rural areas often must 
travel longer distances to access education, employment, retail 
locations, social opportunities and health services. America's rural 
heartland plays a vital role in our economy as home to a significant 
share of the nation's population, many of its natural resources, and 
popular tourist destinations. It is also the primary source of the 
energy, food and fiber that supports America's economy and way of life.
    US DOT reports that in 2015, 15 percent of the nation's major rural 
roads (arterials and collectors) were rated in poor condition, 21 
percent were rated in mediocre condition, 16 percent were rated in fair 
condition and 48 percent were rated in good condition. In 2016, 10 
percent of the nation's rural bridges were rated as structurally 
deficient.
    A concern in the rural areas of our country is motorist safety. As 
TRIP points out, ``The higher traffic fatality rate found on rural, 
non-Interstate routes is a result of multiple factors, including a lack 
of desirable roadway safety features, longer emergency vehicle response 
times, and the higher speeds traveled on rural roads compared to urban 
roads.'' Many of the safety deficiencies on rural roads can be fixed. 
These include narrow lanes, limited shoulders, sharp curves, exposed 
hazards, pavement drop-offs, steep slopes and limited clear zones along 
roadsides.
 the economic benefits of transportation infrastructure investment are 
                            well-documented
    The positive relationship between transportation capital 
investment, economic output and private sector productivity has been 
well documented for decades by business analysts, economists and the 
research community. A safe, reliable and efficient transportation 
network helps businesses increase access to labor and materials, 
increase market share and expand their customer base, reduce production 
costs, access global markets and foster innovation. A 2017 study 
performed for NAIOP--the Commercial Real Estate Development 
Association--by Professor Stephen Fuller of George Mason University 
found the $1.16 trillion in construction spending in 2016:
    <bullet>  Contributed $3.4 trillion to U.S. GDP.
    <bullet>  Generated $1.1 trillion in new personal earnings.
    <bullet>  Supported a total of 23.8 million jobs throughout the 
U.S. economy
    Enhancing critical transportation assets will boost the economy in 
the short-term by creating jobs in construction and related fields. In 
the longer-term these improvements will enhance economic 
competitiveness and improve the quality of life by reducing travel 
delays and transportation costs, improving access and mobility, 
improving safety, and stimulating sustained job growth.
  a sustainable, long-term solution to funding the highway trust fund 
                           must be a priority
    Prior to the expiration of the FAST Act next year, Congress must 
take the opportunity to fix the Highway Trust Fund and look at ways to 
enhance the existing Federal transportation infrastructure programs. 
While the FAST Act was a welcome reprieve from the uncertainty created 
by the many delays and short-term extensions of authorization that led 
up to its passage, it still left a great deal of uncertainty about 
future surface transportation investments. The FAST Act temporarily 
stabilized Federal highway and public transportation investment by 
transferring $70 billion from the general fund of the U.S. Treasury to 
supplement an estimated $208 billion in HTF revenue from existing 
sources over the 5-year duration of the bill.
    When the FAST Act expires, the Congressional Budget Office 
estimates that $159 billion in additional funding would be required to 
maintain current spending levels plus inflation from fiscal years 2022-
2029. Failing to address the fund's ongoing revenue shortfall leaves 
open the possibility of disruptive uncertainty for states and the 
construction industry once the FAST Act expires. Without an extension 
and new revenue, AASHTO estimates that states will see about a 50 
percent reduction in highway funding from FY 2020 to the following year 
and $47 billion to $23 billion in FY 2021. We urge you to act sooner 
rather than later. In the past failure to meet the deadline resulted in 
numerous short-term extensions that caused project cancellations, 
higher costs and delay of improvements affecting safety, efficiency and 
economic development.
    With the hope that the legislation will not just keep the country 
treading water but will instead provide the kind of investment needed 
to propel our economy into the future, AGC urges you to provide real, 
reliable, dedicated and sustainable revenue sources derived from the 
users and beneficiaries of the system for the Highway Trust Fund that 
supports increased Federal surface transportation investments. AGC's 
preferred method to address the solvency of the trust fund is an 
increase in the Federal motor fuels tax--something that has not been 
done since 1993. Recognizing the growing number of electric and hybrid 
vehicles, we also recommend Congress consider imposing an annual 
registration on electric and hybrid vehicles.
    In 2009, the National Surface Transportation Infrastructure 
Commission concluded that the U.S. needs a new approach to 
transportation infrastructure financing, stating that ``Direct user 
charges are the most viable and sustainable long-term, user pay option 
for the Federal Government.'' The commission recommended moving to a 
vehicle mile traveled (VMT) fee or mileage-based user fee (MBUF). The 
VMT is a user charge based on miles driven in a specific vehicle as 
opposed to the current excise tax on fuel consumed. At its simplest, 
the fee would be cents per mile. A VMT would ensure that all users are 
paying their ``fair share'' to keep roads and bridges in a state of 
good repair regardless of the type of vehicle they drive.
    To make it work on a national scale, a VMT system needs to be 
tested, piloted and refined at the state and local level. In the FAST 
Act Congress provided some $95 million to states to undertake pilot 
programs to look at implementation of a VMT fee. Thus far, 11 states 
have been awarded funds to enter into pilots, with many more states 
exploring VMTs. Many lessons are being learned from these pilots 
including privacy protection, equity by income, geography and vehicle 
type, cost of administration and complexity of implementation. If we 
are to transition to a VMT as an eventual replacement for the motor 
fuels tax it is imperative that a robust national pilot program is 
included in a reauthorization bill.
    Public Private Partnerships (P3s) have been given much emphasis in 
the past few years. Clearly, there is a place for P3s in addressing 
current and future transportation needs. P3s bring additional financing 
options to the table to address transportation needs that would not be 
there without Federal encouragement. In addition, P3s shift risk away 
from state DOTs and bring new players into the operations and 
maintenance mix. However, P3s are not the universal answer to the 
funding shortfall. Only certain types of projects are attractive to P3 
development. These are primarily revenue generating projects and 
largely in dense urban areas. While encouragement for P3s should 
continue, it must be understood that they are an enhancement and not 
alone the solution to the funding shortfall.
   continued federal, state and local partnership is critical to the 
             success of our national transportation system
    The partnership between Federal, state and local governments is 
critical to our transportation infrastructure. This partnership is as 
important as ever and must be continued for our country to meet the 
transportation needs of our growing economy. As such, state and local 
governments have taken it upon themselves to raise revenue to 
supplement their respective programs.
    According to the USDOT's 2015 Conditions and Performance report, 
state and local governments provided 80 percent of $217 billion 
invested in state and local road-related programs and 74 percent of $43 
billion invested in transit-related programs compared to 20 percent and 
26 percent, respectively, contributed by the Federal Government. States 
continue to make significant commitments to invest in transportation 
infrastructure as evidenced by successful enactment of transportation 
revenue packages in 33 states since 2012. Unfortunately, the Federal 
Government has not kept up its end of the bargain by failing to adjust 
the user fees that provide funding for much of our Federal surface 
transportation investments.
    Federal leadership and commitment are crucial ingredients for 
ensuring the continued success of this long-standing partnership. The 
certainty of Federal investments help state departments of 
transportation (DOTs) make needed investments in the major freight 
corridors that drive national and regional economic growth. The 1 
million miles of roadways eligible for the Federal aid highway program 
account for 25 percent of total miles but carry 84 percent of all 
traffic. The 48,000 miles of the Interstate Highway System, which is 
the backbone of the U.S. economy, carries 25 percent of all traffic, 
including over half of the miles driven by freight trucks delivering 
goods across the country. Federal investment also accounts for 82 
percent of rural and 64 percent of urban transit agency capital 
outlays, in infrastructure and rolling stock. Federal-aid funding 
remains critical to state-level capital investment in highways and 
bridges, averaging 52 percent of that state investment in recent years.
    Highway accessibility was ranked the No. 1 site selection factor in 
a 2017 survey of corporate executives by Area Development Magazine. 
Labor costs and the availability of skilled labor, which are both 
impacted by a site's level of accessibility, were rated second and 
third, respectively. Seventy-three percent of the $27.7 trillion worth 
of commodities shipped to and from sites in the U.S. is transported by 
trucks on the nation's highways. An additional 14 percent is delivered 
by rail, water, parcel, U.S. Postal Service or courier, which use 
multiple modes, including highways.
    The formula-based distribution of funds through the Federal-aid 
highway program has worked well over the years and should be 
maintained. In order to have a strong national system, it is important 
that all segments of the system receive support. The formula-based 
funding also garners political and public support. Support for transit 
investment has also come from the Highway Trust Fund. With the growing 
use of transit in many communities, the traditional 80-20 share of 
Highway trust Fund revenue between these two transportation modes 
should be maintained. However, additional revenue sources must be found 
to support transit infrastructure needs.
   further improving the environmental review and permitting process
    AGC is very appreciative for the work this committee has undertaken 
in helping enact bipartisan environmental reforms in MAP-21 and the 
FAST Act. But more work can be done and improvements upon those enacted 
reforms can be made.
    AGC members have pointed to a host of technical and procedural 
problems that government agencies face, in general, during document 
preparation and interagency reviews: they inevitably lead to 
inconsistencies in the environmental approval process, schedule delays 
and costs overruns. Such uncertainty spurs legal challenges, which can 
ultimately threaten the viability of the project. AGC has worked 
closely with the administration and supports its efforts to further 
improve the environmental review and permitting process. Additionally, 
we have shared our extensive environmental recommendations to the House 
and Senate in testimony or statements for the record.
    Three of these reforms that would have substantial positive impacts 
are:
    <bullet>  First, require a merger of the National Environmental 
Policy Act and Clean Water Act 404 permitting processes with the U.S. 
Army Corps of Engineers issuing permits at the end of the process, 
using the NEPA-generated information;
    <bullet>  Second, allow the monitoring, mitigation and other 
environmental planning work performed during the NEPA process, and 
included the final Environmental Impact Statement / Record of Decision, 
to satisfy Federal environmental permitting requirements, unless there 
is a material change in the project; and
    <bullet>  Third, develop a reasonable and measured approach to 
citizen suit reform to prevent misuse of environmental laws.
               improving project delivery decreases costs
    Transportation improvement projects also face delays from a host of 
third-party impacts that occur leading up to or during construction. 
There is much room for improvement in this arena.
Coordination with Railroads:
    Transportation construction projects that interface with railroad 
properties are often subject to significant restrictions and delays 
imposed by railroad owners. Obtaining fair and equitable railroad 
agreements as well as ensuring the commitments are made in a timely 
manner are often a struggle and add time and cost to transportation 
projects.
    AGC recommends that USDOT be authorized to establish consistent 
requirements, commitments, and timeframes with all public and private 
railroad owners to facilitate transportation work within and across 
railroad rights of way and provide USDOT the authority to enforce those 
provisions with the railroads. As such, we ask Congress to require 
USDOT to establish model agreements for standard activities conducted 
by the state DOTs in railroad right-of-way (and vice versa) and provide 
guidance on the establishment of agreements for special or more complex 
activities.
Utility Relocation:
    Relocating underground utilities in highway right-of-way, while 
undertaking road improvement projects, continues to be one of the 
leading causes of delay in completing projects once the construction 
phase has started. Underground utilities that are unmarked or 
incorrectly marked pose a significant safety risk to the construction 
workforce, DOT employees and the public. Damage to utility facilities 
can be costly to all parties to the contract and negatively impact the 
collaborative spirit on jobs and lead to litigation. Current rules 
allow for states to be reimbursed with Federal funds when the state 
pays for utility relocations for project construction. The Common 
Ground Alliance (CGA) is an outgrowth of a study conducted by USDOT--as 
directed by Congress--that has best practices in place nationwide to 
address these concerns.
    AGC believes there are measures that can be taken to improve this 
situation including:
    <bullet>  Allow utility relocation to take place after a preferred 
alternative is identified but prior to NEPA completion with appropriate 
limitations to ensure the integrity of the NEPA process.
    <bullet>  Encourage state DOT involvement in efforts such as the 
CGA to promote shared responsibilities for utility protection and 
adopting their recommended best practices.
    <bullet>  Grant authority for state DOTs to participate in their 
local one-call systems or develop in-house capabilities to locate DOT 
owned facilities within the right-of-way (ROW).
    <bullet>  Look for ways to encourage that utilities located in 
highway ROW participate in preconstruction meeting with the DOT and 
contractor.
    <bullet>  Look at ways to maintain a repository of electronic ``as 
built'' 3D data of completed highway improvement projects to begin 
compiling an index of utility locations for future road improvement 
uses.
Simplify Buy America Requirements:
    Buy America requirements have been part of the procurement process 
for construction projects funded through the Federal-aid highway and 
the Federal Transit Administration's (FTA) grant program since the 
early eighties. FHWA has applied Buy America requirements to steel and 
iron products.
    Generally, Buy America regulations require a domestic manufacturing 
process for steel and iron materials that are permanently incorporated 
into a federally assisted construction project. The requirement 
interprets domestic manufacturing process to include melting, rolling, 
cutting, welding, fabrication, and the process of applying a coating.
    The FTA is also subject to Buy America and requires that for 
manufactured products, regardless of the material they are made from, 
the manufacturing processes must take place in the United States and 
all components of the product must be of U.S. origin regardless of the 
origin of its subcomponents.
    While the industry has been able to meet these requirements and 
produce high quality projects Buy America requirements can 
significantly delay projects and add to overall cost because of their 
complexities.
    AGC recommendations for Buy America implementation include:
    <bullet>  Manufactured products that consist of 90 percent or more 
of steel should be U.S. produced. Waivers should be available for 
commercially available off-the-shelf (COTS) products with iron and 
steel components and manufactured products that contain a variety of 
different components made of a variety of different materials, 
including steel, and in different amounts.
    <bullet>  Small, incidental products such as bolts, screws, 
connectors, etc., should be considered de minimus and excluded from the 
requirements. The cost and time required to trace and document these 
products can far outweigh their de minimis financial impact to the 
project's total value.
    <bullet>  Allow for the minimum use exclusion as currently 
implemented by FHWA to increase from one tenth of 1 percent to 1 
percent or a ceiling of $20,000 from the current $2,500 limit.
    <bullet>  Buy America requirements should be limited to steel and 
iron products and not expanded to other construction products not 
generally manufactured, such as cement.
    <bullet>  The waiver application process with FHWA should be timely 
and should not become a barrier to efficient project delivery or 
related decisionmaking by the owner and contractor.
    <bullet>  Utility and railroad facilities relocated as part of a 
Federal-aid highway project should not be covered by the project.
    <bullet>  On FTA funded projects, the construction industry and 
grant recipients are looking for clearer and more consistent direction 
from the FTA. Clear cut guidance on how to categorize end products, 
components and subcomponents is needed. FTA needs to provide guidance 
clarifying how Buy America content in the end project, components, 
subcomponents and sub-sub components is to be determined. Directing FTA 
to develop a standardized audit or certification program for suppliers 
may help resolve these issues.
    <bullet>  A standardized template to assist suppliers in providing 
relevant product information and accurately calculating percentage 
costs might help, especially related to Rolling Stock materials.
                 building resilience in infrastructure
    In 2014, AGC was one of 21 building-related national organizations 
and professional societies to sign the Industry Statement on 
Resilience, which defines resilience based on National Research Council 
work as the ability to prepare and plan for, absorb, recover from, and 
more successfully adapt to adverse events. That group continues to look 
for ways to address the issue. But, simply put, in the design of 
infrastructure, resilience to natural disasters that hit in specific 
areas should be part of the design criteria. Retrofitting structures 
where possible should be considered. Resilient adaptation decisions for 
roadways can include elevation, decisions on bridge size and elevation, 
material choices, and drainage. Rebuilding substandard infrastructure 
is an opportunity to address resilience.
                               workforce
    Workforce shortages have been a problem facing many industries and 
the construction industry, in particular. AGC worked with FHWA and 
AASHTO on a highway construction worker pilot program to identify, 
train and place workers in highway construction careers. The Department 
of Labor cooperated in encouraging local and state work force 
development boards to participate as well. For the pilot program the 
group identified 12 areas, six states and six urban areas where the 
state DOT, FHWA Division office and the AGC chapter can work with the 
local or state Workforce Investment Board to identify individuals with 
the interest and motivation to work in highway construction. FHWA has 
made grant funds available to support these pilots. Using the lessons 
learned from these pilots and providing additional grant funding to 
support the initiatives could pay big dividends for workers looking for 
well paying career as well as supporting the workforce needed to 
deliver the transportation infrastructure projects.
                               conclusion
    Madam Chairperson, thank you again for convening today's hearing 
and for allowing AGC to participate. The role of our national 
transportation system in supporting U.S. competitiveness and our 
quality of life cannot be understated. Transportation impacts the daily 
lives of citizens and businesses in every state in the Union. The 
American public recognizes the need to improve our system and bring it 
back to world class status. A golden opportunity is before you. At a 
time when it seems there is little we all agree on infrastructure may 
prove to be the missing link. I urge you to take advantage of this 
opportunity.
    An important step Congress can take is to fix the Highway Trust 
Fund. Providing a reliable, dedicated and sustainable revenue source 
derived from the users and beneficiaries of the transportation system 
to not only address the annual shortage but allow for robust future 
investments is key. Please do not put off this debate until later. The 
longer you wait the more difficult the solution becomes. You have shown 
great leadership in not waiting until the new Congress convenes before 
holding this hearing. Continue that leadership and allow the 
legislation to move forward. Again, thank you for your time and 
consideration.

    Ms. Norton. Thank you very much, Mr. Stanley.
    And finally, Michael Terry, president and CEO of IndyGo, 
Indianapolis Public Transportation Corporation, on behalf of 
the American Public Transportation Association.
    You may proceed, sir.
    Mr. Terry. Thank you. I first wanted to thank Congressman 
Carson for his very kind introduction earlier.
    Chairwoman Norton, Ranking Member Davis, members of the 
Subcommittee on Highways and Transit, I just thank you for this 
opportunity to testify on behalf of the American Public 
Transportation Association. My name is Mike Terry, I am 
president and chief executive officer of IndyGo, which is the 
Indianapolis Public Transportation Corporation.
    IndyGo is the largest public transportation agency in the 
State of Indiana. Our service is 100 percent bus operations. As 
a county agency, we serve more than 820,000 people, operating 
approximately 160 vehicles over 400 square miles. Last year we 
invested in additional service frequency on our busiest routes, 
and we were able to increase monthly ridership by an average of 
4 percent.
    As this subcommittee considers what Federal policies should 
be modified in the next surface transportation authorization, 
APTA is in the process of consulting with its members and 
finalizing recommendations on how Federal public transportation 
policy can be enhanced to meet the needs of the 21st century.
    APTA's top legislative issue is ensuring the solvency of 
the Highway Trust Fund. We have long supported increased 
dedicated Federal revenues to the Highway Trust Fund. It has 
been more than 25 years since Congress last raised the Federal 
fuel taxes that primarily support the Highway Trust Fund, and 
the purchasing power of this revenue has decreased by more than 
40 percent over that time.
    APTA strongly supports the U.S. Chamber of Commerce's 
proposed plan of increasing the Federal motor vehicle fuel user 
fee by 5 cents per year for 5 years. We also support any other 
reasonable, bipartisan plan to increase dedicated revenues to 
the Highway Trust Fund, and we are ready to work with Congress 
to advance this critical priority.
    APTA continues to advocate for increased investment in 
public transportation from all levels of Government. But the 
Federal partnership remains absolutely critical. IndyGo can 
attest to the importance of ensuring a Federal role in public 
transportation. Our voters locally passed a local income tax 
referendum to support a transit plan that will provide expanded 
frequency of hours of service on our fixed-route bus network. 
Without a Federal partnership we would not be able to 
efficiently operate the increased local network in three rapid 
bus transit corridors. Several U.S. Department of 
Transportation grants have been critical in the success of this 
transit plan.
    The capital investment grants, the CIG, are vital public 
transportation investments for APTA members, including IndyGo. 
We received a Small Starts grant last year for our red line bus 
rapid transit, and we have two more projects in the CIG 
pipeline: our purple line and blue line BRTs. IndyGo is 
building an enhanced bus network that will upgrade to rapid 
service to ensure an even more seamless travel experience for 
our riders.
    The importance of public transportation capital program 
cannot be overemphasized. Unfortunately, the CIG program has 
shifted from an efficient public transportation capital program 
that can build good projects while protecting taxpayer dollars 
to a grant program that has requirements above and beyond that 
of comparable modes, such as highway grant programs.
    We believe Congress must change the program to make it more 
efficient. APTA anticipates endorsing a zero-base review of the 
CIG program to eliminate unnecessary statutory, regulatory, or 
policy requirements.
    APTA is leading the charge to support public transportation 
agencies' efforts to implement innovative mobility management 
strategies, including introducing cutting-edge technologies and 
integrating new service delivery approaches.
    At IndyGo we have embraced the new mobility paradigm. Many 
areas outside the core of Indianapolis are not developed in a 
way that is ideal for public transit. To better reach these 
sprawling neighborhoods, IndyGo is collaborating with the 
multisector collective to integrate multiple modes of transport 
to enhance access beyond where transit will be successful.
    We envision a connected, on-demand network of car-sharing, 
ride-hailing, bike-sharing, and other new mobility options to 
create first- and last-mile connections. Last year IndyGo 
partnered with Lyft and BlueIndy, which is an electric car-
share program, on a program to incentivize Indianapolis 
residents to utilize several mobility options into their daily 
lives to a great success.
    As president and CEO of IndyGo for the past decade, I have 
seen tangible, equitable, and very real benefits that public 
transportation provides to residents, communities, and our 
Nation. It is imperative that a continued Federal partnership 
with a dedicated source of funding remain a core principle of 
the next surface transportation authorization.
    Thank you very much, Chairwoman Norton, Ranking Member 
Davis, and other members of the committee. I look forward to 
answering your questions.
    [Mr. Terry's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Michael Terry, President and CEO, Indianapolis 
 Public Transportation Corporation (IndyGo), on behalf of the American 
                Public Transportation Association (APTA)
                              introduction
    Chairwoman Norton, Ranking Member Davis, and Members of the 
Subcommittee on Highways and Transit, on behalf of the American Public 
Transportation Association (APTA) and its more than 1,500 public- and 
private-sector member organizations, thank you for the opportunity to 
testify on Aligning Federal Surface Transportation Policy to Meet 21st 
Century Needs.
    My name is Michael Terry, and I am the President and Chief 
Executive Officer (CEO) of the Indianapolis Public Transportation 
Corporation, also known as IndyGo. I joined IndyGo in 2003 as the Vice 
President of Business Development and have served as President and CEO 
for more than a decade.
    IndyGo is the largest public transportation agency in the state of 
Indiana. Our service is 100 percent bus operations. As a county agency, 
we serve more than 820,000 people, operating approximately 160 vehicles 
over 400 square miles. Our paratransit service provides critical curb-
to-curb service for residents with disabilities anywhere in the county. 
We leverage Federal and local dollars to enhance frequency and grow 
capacity, reliability, and efficiency. Last year, we invested in 
additional service frequency on our busiest routes, and were able to 
increase monthly ridership by an average of 4 percent. We are grateful 
for the Federal and local partnerships that are making IndyGo's 
expansion possible.
    Today, I would like to share with the Subcommittee some of the 
important concepts that APTA is considering as we look to the next 
surface transportation authorization that will succeed the Fixing 
America's Surface Transportation Act (FAST Act) (P.L. 114-94). While 
APTA is still in the process of finalizing its recommendations, here 
are some important considerations for enhancing Federal public 
transportation policy:
The Solvency of The Highway Trust Fund
    APTA's top legislative issue is ensuring the solvency of the 
Highway Trust Fund. The backlog of transit state-of-good-repair needs 
is more than $90 billion and growing. APTA has long supported increased 
dedicated Federal revenues to the Highway Trust Fund for programs that 
support the national transportation network, cost-effectively address 
the problem of deferred maintenance, and enable public transportation 
agencies to meet growing demands for increased mobility.
    It has been more than 25 years since Congress last raised the 
Federal fuel taxes that primarily support the Highway Trust Fund, and 
the purchasing power of this revenue has decreased by more than 40 
percent over that time. Current revenues deposited into the Highway 
Trust Fund are insufficient to support the existing Federal highway and 
public transportation programs without significant general fund 
contributions. This status quo is unsustainable and tough choices need 
to be made by Congress.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Government Accountability Office (GAO) recognizes the urgency 
and critical importance of long-term, sustainable surface 
transportation funding. Last week, GAO noted, in its 2019 High-Risk 
Series report, that ``the nation's surface transportation system--
including highways, transit, maritime ports, and rail systems that move 
both people and freight--is under growing strain . . . the cost to 
repair and upgrade the system to meet current and future demand is 
estimated in the hundreds of billions of dollars.'' \1\ Although 
funding the nation's surface transportation system has been on GAO's 
High-Risk list for more than a decade, Congress has not provided the 
necessary resources or dedicated funding to address these critical 
issues.
---------------------------------------------------------------------------
    \1\ Government Accountability Office, HIGH-RISK SERIES: Substantial 
Efforts Needed to Achieve Greater Progress on High-Risk Areas, March 6, 
2019, 86-90.
---------------------------------------------------------------------------
    In January 2018, the U.S. Chamber of Commerce proposed a plan to 
increase the Federal motor vehicle fuel user fee by five cents per year 
over 5 years (Total: 25-cent increase). APTA strongly supports this 
plan and our Board of Directors has specifically endorsed it. We also 
support any other reasonable, bipartisan plan to increase dedicated 
revenues to the Highway Trust Fund. Our most important issue continues 
to be the long-term solvency of the Highway Trust Fund, and we stand 
ready to work with Congress to advance this critical priority.
Dedicated Federal Funding for Public Transportation
    Public transportation represents a $71 billion industry that 
directly employs 430,000 people and supports millions of private-sector 
jobs. Public transportation supports economic development, produces a 
safer, more efficient transportation system, connects people with jobs 
and employers with potential workers, and supports national priorities. 
APTA continues to advocate for increased investment in public 
transportation from all levels of government, but the Federal 
partnership remains absolutely critical. States and public 
transportation agencies need predictable Federal funding to support 
long-term planning and multi-year capital projects.
    Dedicated and sustained Federal funding for public transportation 
complements the unprecedented contributions already made by states and 
local governments to operate and maintain these services. In recent 
years, several states have raised motor fuel taxes and localities have 
raised other taxes that help pay for surface transportation, including 
public transportation. In 2018, voters approved 82 percent of transit 
ballot initiatives, which increased or secured revenues for public 
transit investment. However, the success of these local initiatives 
depends on a strong Federal partnership.
    IndyGo can attest to the importance of ensuring a Federal role in 
public transportation. In 2016, Marion County voters and leaders passed 
a local income tax referendum of 0.25 percent to support the 
implementation and operation of the Marion County Transit Plan (Transit 
Plan). The Transit Plan is transforming IndyGo by laying the foundation 
for expanded frequency and hours of service for our fixed-route local 
network, which will amount to a 70 percent increase in service. Without 
a Federal partner, we would not be able to effectively operate the 
increased local network and three rapid transit corridors that will 
provide this high-quality public transportation service. Several core 
capital improvements are necessary, and U.S. Department of 
Transportation grants have been critical to the success of our Transit 
Plan.
Capital Investment Grants
    Capital Investment Grants (CIG) are a vital public transportation 
investment for APTA members, including IndyGo. The CIG program provides 
grants for fixed-guideway investments, such as new and expanded 
subways, light rail, commuter rail, streetcars, bus rapid transit 
(BRT), and ferries. We are extremely grateful for Congress' continued 
recognition of the importance of the CIG program by providing 
appropriations higher than the $2.3 billion provided in the FAST Act in 
each of the past three fiscal years (Fiscal Years 2017-2019).
    IndyGo has accessed the critical CIG program to build an enhanced 
bus network--the Red Line. The Red Line received a Small Start grant, 
one of four categories of projects in the CIG program, in May 2018. 
IndyGo will operate full battery-electric BRT vehicles on these 
critical, high-volume corridors. Further, IndyGo also has two BRT 
projects in the CIG pipeline--the Blue Line Rapid Transit and the 
Purple Line Rapid Transit. These projects are along two corridors that 
currently are among IndyGo's most productive, frequent, high ridership 
routes. The BRT projects will upgrade service on the corridors to rapid 
service to ensure an even more seamless travel experience for our 
riders.
    The importance of this public transportation capital program cannot 
be overemphasized. Unfortunately, the CIG program has shifted from an 
efficient public transportation capital program that can build good 
projects while protecting taxpayer dollars to a grant program that has 
requirements above and beyond that of comparable modes--such as highway 
grant programs.
    We believe Congress must change the program to make it more 
efficient. Currently, CIG project sponsors must navigate a bureaucratic 
maze over multiple years to receive a grant agreement. Beginning with 
enactment of the Transportation Equity Act for the 21st Century (TEA 
21) in 1998, both Congress and the Federal Transit Administration (FTA) 
have repeatedly layered additional requirements on the CIG program. 
APTA anticipates endorsing a zero-based review of the CIG program to 
eliminate unnecessary statutory, regulatory or policy requirements.
    We urge Congress to adopt provisions that will strengthen the CIG 
program and ensure that these critical public transportation projects 
across the country are delivered in a timely manner.
Safety
    Safety is the public transportation industry's top priority. 
Research shows that modest increases in public transportation ridership 
in a metropolitan area can cut traffic fatalities by 40 percent. Today, 
traveling by public transportation is 10 times safer for passengers 
than traveling by car. Providing more and improved public 
transportation is one of the most powerful traffic safety tools that a 
community can employ to help reduce the more than 37,000 traffic deaths 
per year on our nation's roadways.
    Our members view safety as an essential and primary component to 
ensuring customer satisfaction and providing seamless service. The 
FTA's State Safety Oversight (SSO) Program outlines minimum safety 
requirements for passengers and agency employees. APTA is proud that 30 
states have achieved their SSO Program certifications well before the 
statutory deadline. The FTA is reviewing the final, multi-state 
certification (Metrorail Safety Commission) and we are very hopeful 
that the Commission will receive its certification prior to the April 
15, 2019 deadline.
    Moreover, our commuter railroads are committed to making rail 
travel even safer with full implementation of Positive Train Control 
(PTC). As a result of this commitment, some commuter railroads have 
completed PTC implementation and others are on the path to fully 
implement PTC by the end of 2020. While implementation of PTC is a 
critical safety overlay, the industry takes a comprehensive approach to 
safety that includes multiple essential safety countermeasures. Those 
measures include reducing operator fatigue, implementing new safety 
monitoring equipment like inward- and outward-facing cameras, 
addressing grade-crossing and trespassing incidents, and conducting 
rigorous safety audits.
    The public transportation industry has an incredibly strong safety 
record. We are grateful for the work that this Subcommittee has done to 
make our nation's surface transportation safer.
The Evolving Mobility Landscape
    Advances in technology have allowed vehicles to operate with 
increased autonomy and efficiencies. Data capabilities have evolved and 
enable effortless trip planning and streamline information sharing, and 
new business platforms have supported the explosion of ride-hailing and 
bike-sharing services. According to a recent APTA study, The 
Transformation of the American Commuter, 77 percent of Americans say 
public transportation is the backbone of a multi-transit lifestyle.\2\ 
APTA is leading the charge to support public transportation agencies' 
efforts to implement innovative mobility management strategies, 
including introducing cutting-edge technologies and integrating new 
service delivery approaches.
---------------------------------------------------------------------------
    \2\ American Public Transportation Association, The Transformation 
of the American Commuter, December 2018, 1-3.
---------------------------------------------------------------------------
    At IndyGo, we have embraced the new mobility paradigm. One of our 
core strategic principles is to advance mobility as a catalyst for 
success. Many areas outside the core of Indianapolis are not developed 
in a way that is ideal for public transit. Many suburban neighborhoods 
built in the 1960's through the 1990's are extremely car-centric in 
design--single family, detached homes on large lots in cul-de-sac 
developments. To better reach these sprawling neighborhoods, IndyGo is 
collaborating with a multi-sector collective to integrate multiple 
modes of transport to enhance access beyond where transit will be 
successful. We envision a connected, on-demand network of car sharing, 
ride hailing, bike sharing and other new mobility options to create 
first- and last-mile connections. For example, in fall 2018, IndyGo 
partnered with Lyft and BlueIndy (an electric car service) on a program 
to incentivize Indianapolis residents to utilize several mobility 
options into their daily lives. It was a great success. In addition, 
leveraging an FTA technical assistance grant, we are building a new 
account-based fare system, which in the future will serve as the 
financial infrastructure to facilitate seamless connections to other 
modes.
    IndyGo is an early adopter of electric bus technology. IndyGo has 
leveraged $10 million in Federal funding to acquire 21 fully electric 
vehicles, with operating costs one-fourth the amount of a traditional 
diesel bus. IndyGo plans to substantially upgrade its aging fleet (of 
which 44 percent have surpassed their useful life), replacing all of 
its diesel buses with electric vehicles by 2032. It will also install 
bus charging infrastructure along its routes. Another Federal grant was 
leveraged to install a solar array on the roof of its main garage. This 
solar infrastructure is generating enough power to offset the increased 
electric demand from charging requirements-13 of the existing 21 
electric bus fleet are being charged by the power generated by the 
solar array.
    Given the rapid changes in technology and mobility, public 
transportation has a key role in the transportation network. With an 
upcoming surface transportation authorization bill, Congress needs to 
ensure that public transportation agencies have the flexibility to meet 
changing mobility needs.
                               conclusion
    As President and CEO of IndyGo for the past decade, I have seen the 
tangible and very real benefits that public transportation provides to 
residents, communities, and our Nation. Public transportation not only 
spurs economic growth, but reduces congestion, improves air quality, 
saves time and money, and advances an equitable and better quality of 
life for our communities. It is imperative that a continued Federal 
partnership with a dedicated source of funding remains a core principle 
of the next surface transportation authorization act.
    On behalf of APTA, thank you for including us in this important 
discussion as the Subcommittee begins developing the next surface 
transportation bill. As APTA continues to move forward with finalizing 
its surface transportation authorization proposal, we very much welcome 
the opportunity to continue the conversation and stand ready to assist 
in advancing our mutual objectives.

    Ms. Norton. Thank you very much, Mr. Terry. We are now 
going to move on to Members' questions, and each will have 5 
minutes.
    Mr. Terry, I got a hold of your testimony where you 
indicated that you have, by adding service frequency, been able 
to get a 4-percent increase in ridership. Now, we see ridership 
going down in transit in other cities. Just by having more 
frequent service you got an increase in transit ridership? Is 
that the problem?
    Mr. Terry. I think that is one of the problems. It is 
actually focusing on where mass transit has the highest and 
best use, the highest productivity. In our realignment that we 
are doing, incorporating rapid transit as well as our regular 
bus network, people want reliable, dedicated, and frequent 
service. And we are finding increasing that frequency and 
expansion of hours of service, where people can rely on that, 
is increasing ridership.
    Ms. Norton. So it is not just trains should run on time, 
there should be more frequent trains. And then people will get 
off the road and get on the train.
    Mr. Terry. Yes, ma'am. That is the way we feel.
    Ms. Norton. Well, this is very important information.
    Ms. McMillan, I am interested in your testimony that speaks 
about expanding the share of funds which go to what you call 
the Nation's metropolitan areas. So who would control these 
funds? How would that work? Would there be conflicts among the 
parts of the region?
    Ms. McMillan. Well, and certainly I can speak in the bay 
area, where the funds do come to the Metropolitan 
Transportation Commission, as the MPO. But we work extremely 
closely with a bottoms-up approach with our cities and counties 
to determine how those funds would then be distributed----
    Ms. Norton. So who does that?
    Ms. McMillan [continuing]. If we are talking about STP----
    Ms. Norton. Who controls that? Who do you talk to if you 
are working on an area-ride basis--perfectly understandable, 
because of the way people cross county lines just to get to 
work or to shop. But who is in charge of deciding where the 
funds go?
    Ms. McMillan. The Metropolitan Transportation Commission, 
within our region, as the MPO, would ultimately be the one that 
would make this--but I would stress that on our board is 
represented the local entities of the counties and cities. And 
so getting their input about what the needs are, and then 
working with us to determine how to distribute those funds to 
the relative needs in the different areas of this county is 
very important.
    So I think that cooperation among us to determine how 
investments should be made, and particularly in those areas 
where a problem is not located in one city or another, but does 
cross, you know, boundaries, we need to recognize that the 
riding public often doesn't recognize those boundaries, and we 
need to come up with a solution, collectively, to address their 
overall journey, wherever that may start or end.
    Ms. Norton. Well, I would really also like to ask Mr. Clark 
and then maybe others of you--Mr. Stanley--who could speak to 
this. Very concerned about the differences in how people now 
look at the workforce for transportation. Mr. Clark spoke about 
registered apprenticeship.
    Now, you know, young men whose fathers or grandfathers were 
in the industry, you know, sitting at computers, they don't 
even have to be very skilled to do that. Don't we need to do 
more than look at registered apprenticeship? Because they don't 
even get to the apprenticeship in the first place.
    How do we draw people to this very important industry to do 
the work that needs to be done?
    Both of you, I would like to hear what you have to say on 
that.
    Mr. Clark. I will start. I think one of the things--several 
things we need to do. One thing that we clearly need to do is 
talk differently about what the workforce looks like. Quite 
often, when we have discussions about the workforce--and I 
focused very much on the frontline workforce--and in rooms full 
of people, one of the things I often do is ask how many people 
here have a bachelor's degree or more. And usually in those 
discussions, almost all hands go up.
    Actually, only about one-third of adults have a bachelor's 
degree. And if we keep communicating to young people that the 
only way you get ahead is by getting a 4-year college 
education, it is a self-defeating strategy. The jobs, skilled 
jobs in transit, are good, family-supporting jobs. That is true 
of jobs in highway construction and a lot of others. They tend 
to be neglected, because people just don't think about them, 
they think they are going away.
    The same is true of a lot of high-tech manufacturing. We 
need to be communicating that there are abilities to get those 
jobs. We also need to be equipping people with the skills to 
function in those jobs. The jobs are no longer simply heavy 
lifting. They are extremely skilled jobs with a lot of 
diagnostic skills, a lot of mental work. People need to come in 
with strong math abilities.
    People have referred to STEM, career technical education, 
and I mentioned specific peer apprenticeship for people who are 
a little bit older and need to make up some skill deficits to 
make this work. But I think there are strategies that can get 
people there. We need to start rethinking about how we 
communicate to people about what the labor market actually 
looks like.
    Ms. Norton. Well, my time has expired, so thank you very 
much. I am going now to the ranking member, Mr. Davis, for his 
5 minutes.
    Mr. Davis. Thank you, Madam Chair.
    Mr. Mayor, the mayor of San Antonio, right? You served on 
the city council before that?
    Mr. Nirenberg. Yes, sir.
    Mr. Davis. Can you tell me how many times my colleague and 
good friend, Joaquin Castro, tried to sit in for his twin 
brother at city council meetings?
    [Laughter.]
    Mr. Nirenberg. No, sir, I can't. He was busy up here.
    Mr. Davis. I will ask him about that. But thank you. 
Welcome, and thanks for being here.
    Mr. Millar, I pinch-hit for Leader Graves today at the ASCE 
event this morning just across town. They told me you were 
coming here on behalf of them, too, and to take it easy on you. 
But I will not do that today. I am going to start you with a 
question. Actually, it will be a question I think will provide 
a lot of us on this committee some information that expands a 
little bit on your opening statement.
    You mentioned expanding categorical exclusions across 
Federal agencies. Can you expand on that a little bit? And in 
particular, how do we make them more interchangeable?
    Mr. Millar. Yes. Again, as I mentioned in my opening 
remarks, about 94 percent of the work that we do happens 
through categorical exclusions. The categorical exclusions are 
a provision in the National Environmental Policy Act that allow 
for projects to move forward that have been demonstrated to 
have no significant impact on the environment--the environment 
being the economy, social and the natural environment.
    Different agencies have different rules for that. We found 
in the work that we do that the key to moving forward is making 
sure that the resource agencies are adequately funded to 
respond to our requests for, you know, permits, for approvals, 
for reviews and the like. That is what works for us.
    There are some in AASHTO that would like for 
transportation-related projects for other agencies to be able 
to use a list of categorical exclusions that the Department of 
Transportation, Federal Highway Administration has adopted. We 
don't have to do that in Washington State because, again, we 
find that by working with the resource agencies upfront, we 
don't have that problem.
    Mr. Davis. Well, thank you. My 6\1/2\ years on this 
committee, any chance we can reduce what I call the paperwork 
process to get to construction faster to make the Federal 
dollar stretch further, I am always interested in that. So 
thank you for your testimony and your responses.
    Mr. Stanley, thank you. Are you aware that your 
Representative on the Hill had his ribs broken in a 
congressional hockey game by our colleague on this committee, 
Mr. Katko?
    [Laughter.]
    Mr. Stanley. I have heard rumors. Yes, sir.
    Mr. Davis. Have you? You may want to rethink your 
representation there.
    [Laughter.]
    Mr. Davis. Can you tell me, Mr. Stanley, how do we balance 
the surface transportation investments needs that we are 
experiencing today with what we may need in the future?
    Mr. Stanley. I think the balancing is a balancing act, as 
you said. The funding has got to be short-term and it has got 
to be long-term. A lot of your State DOTs don't do long-term 
projects because of short-term funding.
    So in the past, the continuing resolutions have delayed 
projects caused for cost increases and things like that. So we 
definitely need to look at the short-term needs, but then look 
further out in the future. Because as different types of 
transportation come online with automated cars, potentially, 
and things like that, we have all got to share the road.
    We have got more large trucks that are transporting more 
goods each year by year. So we have to work on multimodal 
corridors, as well. So basically, that money needs to be 
looking at a lot of different modes of transportation, as well 
as expanding capacity and advancing new technologies, as well.
    Mr. Davis. Great, thank you.
    Mr. Anderson, I know you represent the great State of 
Texas. Thank you for being here today. I ask you the same 
question.
    Mr. Anderson. Well, yes, in our priorities relative to the 
FAST Act we also echo stable, predictable, and sustainable 
funding streams. We ask for updated data relative to lane miles 
and census data as it relates to our core funding programs.
    But we are also very fortunate in Texas because we have 
passed prop 1 and prop 7, and our people then identified 
additional transportation needs that they wanted to have, and 
they looked at the State to provide funding for those. So we 
looked, you know, both at the Federal Government, but also to 
our State to identify ways to achieve better funding revenue, 
and then put that towards the priorities of our local and 
regional partners.
    Mr. Davis. Great. Well, thank you all for your time today. 
Thanks for your testimony and your responses. I look forward to 
hearing more.
    I yield back.
    Ms. Norton. Thank you very much, Mr. Davis.
    Chairman DeFazio?
    Mr. DeFazio. Thank you, Madam Chair.
    Mayor Nirenberg, you talked here about ConnectSA. And I 
would be interested in hearing a brief description of how you 
are going to do that.
    Mr. Nirenberg. Yes. Well, we are working on an integrative 
strategy that takes all of the different planning elements in 
place, from our land use strategies to our bus routes, to our 
pedestrian pathways, even our linear creekway systems, and 
tries to create an effective and intermodal transportation 
system.
    On top of that we are looking at developing our first-ever 
advanced rapid transit system. And San Antonio is a 500-square-
mile city, fast-growing city. We have an underfunded bus system 
that needs to increase frequency. And all the elements in place 
are the only way we believe we can keep our economic vibrancy 
and be able to meet the demands of moving San Antonians around 
inside of our city.
    Mr. DeFazio. OK, thank you.
    Secretary Millar, you talked about how you couldn't build 
your way out of it. So what are the tools that we should 
highlight, incentivize, or create in the next transportation 
bill that would give people what they need to look at more 
innovative ways to mitigate congestion?
    Mr. Millar. Thank you, Mr. Chairman, for the question. Yes, 
we can't build our way out of congestion. When I was first 
appointed secretary I got an email from a constituent, 
``Congratulations. By the way, your speed limit signs say 60 
miles an hour. I can't drive 60 miles an hour on your freeways. 
Your agency is a failure.''
    [Laughter.]
    Mr. Millar. I thanked that constituent and then I asked, 
``What would it take to be able to drive 60 miles an hour all 
the time on our freeways?'' A $115 billion investment. Doing 
that over 20 years is a $2.50-a-gallon gas tax. And that did 
not accommodate any growth in our region, it didn't accommodate 
any growth in the local road system, and the like.
    The fact that we cannot build our way out of congestion is 
not a failure of Government, it is an economic and 
environmental and demographic reality. So we are talking about 
moving forward in a congested world, and that involves first 
taking care of the system we have in place. So preservation is 
hugely important to us.
    We have today in Washington State a $700 million-a-year 
unfunded preservation backlog.
    Mr. DeFazio. OK, basically state of good repair.
    Mr. Millar. State of good repair.
    Mr. DeFazio. OK.
    Mr. Millar. Then safety----
    Mr. DeFazio. OK.
    Mr. Millar. When you look at the $3.5 billion that is--
impacts our economy, congestion costs our economy in Washington 
State about $3.5 billion. The deaths and serious injury 
accidents in Washington State cost our economy $8.5 billion. We 
talk about congestion all the time. We are not talking about 
the safety issues on our roadways. So making our transportation 
system safe is important.
    Transportation system management and operations, 
recognizing that if you think about the transportation system 
that is going to be in place 20 years from now, most of it is 
there today. But we need to get more throughput out of the 
system we have through things like express toll lanes, managed 
lanes, automated transportation management systems, investing 
in incident response to clear crashes and get roads back open. 
Investing in the relationships between land use and 
transportation, so we don't continue to make stupid decisions 
that necessitate investments that we can't afford to make any 
more.
    And then, as a last resort, targeted system expansion. 
Typically, in our world, you see a problem, the answer is 
``more.'' That should be the last thing we do, not the first 
thing we do. And that is the progression of decisionmaking that 
we are making in Washington State.
    Mr. DeFazio. OK, thank you. Any suggestions any of you have 
that are specific to ways Federal funds are restricted that 
don't allow you to take reasonable steps to get better 
throughput on our existing infrastructure would be very welcome 
in this committee.
    And then I just want to observe, Mr. Terry--thanks for your 
testimony about Indianapolis. But when you talked about--and a 
number of other people have recommended the 55555. The fact is 
if we do 55555, it is 6\1/2\ years before we increase spending 
above the current levels, which I think is too long to wait. We 
need to be looking at leveraging whatever we do with gas and 
diesel tax with bonds, so that we get that money upfront more 
quickly.
    I would observe--and you probably--I don't know how old 
your bus fleet is, but part of the reason in some places people 
are abandoning transit is because it is not reliable because it 
is worn out. And just bringing transit up to a state of good 
repair, I believe would attract a lot of people back to the 
system. Do you agree?
    Mr. Terry. Very much so. The rider experience is very 
important. Our fleet is--44 percent is past its useful life. So 
you are exactly correct. State of good repair is extremely 
important.
    Mr. DeFazio. OK, thank you.
    Thank you, Madam Chair.
    Ms. Norton. Thank you.
    Mr. Balderson?
    Mr. Balderson. Thank you, Madam Chair. Good morning, 
everyone, and thank you to the panel for being here this 
morning. My first question is for Mr. Anderson.
    Mr. Anderson, according to the most recent census data, 
Columbus is the fastest growing major city in the Midwest, 
which is in my district. As a result, Columbus has undertaken 
major initiatives to reduce such congestion, such as the CMAQ 
bus line, which I have gone and visited, which syncs buses with 
traffic signals to improve efficiency and reduce traffic.
    As the winner of the Department of Transportation's Smart 
City Challenge, Columbus is also implementing smart mobility 
hubs and state-of-the-art multimodal trip planning apps for 
residents. How has the Texas Department of Transportation 
collaborated with its colleagues in other States to share and 
build on emerging technologies and ideas?
    Mr. Anderson. Well, through a number of measures: the 
AASHTO committees, the transportation research board 
organization.
    We also--our Texas Innovation Alliance, along with a number 
of other smart cities, including Columbus, are in a larger 
smart city consortium. And those cities and regional partners 
are sharing the best practices and the capabilities that they 
are developing, real time. And it runs the gamut. It looks at 
data management, it looks at what is a better integrated 
traffic management system, what additional ITS sensors or 
technologies better enable them to manage that system or to 
provide information out to the public.
    And then in the case of multimodal, you mentioned, you 
know, multimodal integrated applications that make it easier 
for a person to move between modes and know what the optimum 
movement is for them. Those are all being shared across 
multiple cities, not only in Texas, but in a larger nationwide 
capability.
    Mr. Balderson. OK, thank you very much. My next question is 
for Ms. McMillan.
    Good morning, Ms. McMillan, thank you for being here today. 
Like most planning organizations, the Mid-Ohio Regional 
Planning Commission is currently working on their 2020 to 2050 
transportation plan to identify deficiencies, strategies, and 
projects the group will oversee for decades to come.
    In your experience, how does the uncertainty at the Federal 
level impact regional planning organizations when developing 
these long-term plans?
    Ms. McMillan. Well, I think you hit the nail on the head, 
that certainty of funding is critical when you are trying to 
anticipate very difficult resource choices. And with all 
sources of funding, you know, having some sense of what exists 
today and how it may be growing into the future as reliable--it 
is hard to do a 40-year plan when you are only looking at 
Federal funds in 6- or 5-year increments. And that puts you in 
a position of having to extrapolate some pretty significant 
assumptions with respect to that partnership.
    But I would add that, you know, another part of the funding 
picture there is knowing at the Federal level what 
flexibilities you have to use those dollars, knowing it is 
going to be a piece of a leverage package for almost any major 
infrastructure that is going to go forward.
    So some sense of where the dollars can be used, how they 
can be used, the timing that is available to them, the 
restrictions that may be attached. If we can build more 
flexibility into that, it also helps us in looking to those 
uncertain areas of where we might put them, and how they can be 
best leveraged with a State or Federal dollar.
    Mr. Balderson. Thank you very much.
    Madam Chair, I yield back the remaining time.
    Ms. Norton. Thank you.
    Mr. Lowenthal?
    Dr. Lowenthal. Thank you, Madam Chair.
    Mr. Millar, I have a question for you. I represent the Long 
Beach side of the L.A.-Long Beach Port complex. And I am really 
pleased that you are here, because in many ways Washington is a 
great model for the country, in terms of the importance of 
strategic freight investment, and I really want to talk about 
freight.
    You have had in your State a freight investment program and 
a freight mobility strategic investment board to oversee these 
investments in freight, especially dealing with the linkages, 
the intermodal linkages. And as I understand, because of the 
coordination between all the freight stakeholders, your DOT, 
your local government, Washington has been able to leverage 
State investments in freight infrastructures by more than six 
to one. But that doesn't mean your State doesn't have major 
challenges.
    And so this is what I want to ask, also. You have 
identified Washington--a pipeline of highway, rail, grade 
crossings in congested corridors that are really going to need 
separation to manage the flow of people and goods. And your 
Northwest Seaport Alliance continues to set records for cargo 
volume being up, I believe, 27 percent, from January of 2018 to 
January of 2019. So this is going to stress any freight 
infrastructure, as it is.
    What I am getting to is I am going to be reintroducing my 
freight legislation that provides a dedicated revenue stream 
for needed freight improvements, and a yearly dedicated revenue 
stream that has both formula funding and also competitive 
funding. It makes critical multimodal and intermodal 
investments. Just in the formula funding, Washington State 
would get over somewhere between $120 and $150 million a year 
in just formula funding, and with great anticipation of that 
going up as freight volumes will continue to go up.
    What kind of investments, the question is, would your State 
be able to make if there were additional dedicated revenues for 
freight infrastructure? What would you need now to help 
accelerate your freight investments that are going on already 
in Washington?
    Mr. Millar. Thank you for that question. It is a great one. 
And I do sit on our Freight Mobility Strategic Investment 
Board. I am also--just stepped down as the chair of AASHTO's 
Special Committee on Freight. So these are issues that are 
important to States other than Washington.
    More money would be great. How would we spend it? First-
last mile connections are hugely important, enhancing those. 
Changing the make-up of our fleet. One of our principal sources 
of greenhouse gas emissions in Washington State is the 
transportation industry. It is 40 percent plus. Our drayage. 
Converting it to something that was electric or alternative 
fuel would be a great enhancement to make.
    Grade crossings, we are a part of the Great Northern 
Corridor Coalition between the ports in Washington and Oregon 
and Chicago and all the States in between, working with 
Burlington Northern Railroad and others. Being able to move 
freight fast and safely on our system, those grade crossings 
are important.
    Preservation is hugely important. Interstate 90, Interstate 
5, if we have to low-grade bridges so that full trucks can't 
operate, we have got a problem. If we have to reduce speeds 
because pavement quality doesn't allow us to run that speed, we 
have got a problem. Those are things we are looking at.
    Truck parking is a huge issue. The safety of our citizens, 
the safety of our truckers, they are required to stop and 
sleep. They need a place to stop. There aren't in those places. 
And you mix that with our ports and warehousing and 
distribution facilities kind of working bankers hours, we have 
got all these trucks around the region waiting to come into 
town in the morning when the gates open with the commuters. So 
we need to work on that.
    We also need to work on the whole issue of freight 
logistics. Our departments typically do interchange-to-
interchange planning for freight. And what we need to do is 
door-to-door and think about what is in those trucks.
    If I have 1,000 trucks leaving the Port of Seattle or the 
Port of Tacoma and all of them are half full, I have the 
opportunity to move that same freight with half the trucks, or 
move twice the freight. And so working with the private sector 
on optimizing freight logistics is something that Washington 
State DOT is looking at, and something that DOTs around the 
country are looking at.
    Dr. Lowenthal. Thank you. And I just--as I end, and just 
before I yield back, I would like to thank Ms. McMillan for 
really talking about the impact of climate change--and you 
talked about that.
    And any of our investments--those roads may not be there in 
30 years, and we--you were the first panelist to really 
identify that, and talk about that. And so at some point I 
would like to talk to you about--also, about more investments 
in this. But I don't think I have enough time, so I am going to 
yield back. Thank you.
    Ms. Norton. Good question.
    Mr. Pence?
    Mr. Pence. Thank you, Chair Norton, Ranking Member Davis, 
and the panel, for being here today. The discussion of a 
surface transportation reauthorization bill can be sorted into 
two buckets: what the needs of the system are, and how the 
Nation will pay for them.
    It is no secret that our Nation's infrastructure is in 
critical need of repair, expansion, and modernization. However, 
in Indiana, the crossroads of America, we have always 
recognized the importance of modernizing and investing in our 
aging infrastructure, and we have made progress that we are 
proud of.
    For the most part, we can all agree on the needs of our 
transportation system. It is how our Nation will pay for them 
that Hoosiers are particularly concerned about. The National 
Academies committee estimates that renewing and modernizing the 
interstate will require doubling or tripling the amount of 
current spending on interstates. In Indiana we have used State 
and Federal dollars as seed money to encourage additional 
infrastructure investments by localities like IndyGo and 
private partners.
    I ask whoever wishes to comment on this. If we are to 
consider new sources of revenue, it is my fear that Hoosiers 
will not receive a fair share of funds, as Ms. McMillan stated. 
How can we ensure States like Indiana, who have been good 
stewards of Federal and State tax dollars, get their fair 
share, their fair slice of the pie?
    Mr. Nirenberg. I will go ahead and start. I would say that 
formula funding at the Federal level has, I think, justifiably 
encouraged infrastructure investment in the most populated 
centers. The most congested highway corridors in our Nation are 
located in population centers, and that is very much needed.
    I think we should continue to incentivize local communities 
and local decisionmaking, providing local investments, and that 
is what we have done in Texas with investments of local bond 
programs, for instance. We have passed sales tax revenue 
projects that fund transportation. But we need a balanced 
approach that has a Federal partner that makes long-term 
investments in our community.
    Mr. Millar. Congressman, I would add to that that the key 
to us is the flexibility of the program. It is a Federal 
program administered by the States. Whether it is a gas tax or 
a road user charge or some other means of funding the system, 
that funding needs to come to the States so that it can be 
allocated again between State needs, local needs, and the like, 
as we have done successfully in the past.
    So I would encourage the Congress, regardless of the 
mechanism of raising the funds, that we maintain the 
partnerships we have between the Federal Government, State 
government, and local governments moving forward.
    Mr. Terry. If I could add, too, thank you, Congressman 
Pence. And, as a Hoosier, I appreciate those comments.
    I think it does start with planning, too. But what is the 
highest and best use of the funds, how we can work 
collaboratively across all modes to make sure these are good 
plans. And also, land use. As Ms. McMillan had pointed out, 
that is very important.
    But I think we want to make an effective transportation 
network across all modes, and I think the formula grants that 
are going into the rule providers is of critical importance, 
and particularly in some of the areas that you represent. And 
in the urban areas, as well, how do we create the most 
effective transportation in multimodal?
    Mr. Pence. Thank you.
    I yield back, Madam Chairman.
    Ms. Norton. Thank you.
    Ms. Davids?
    Ms. Davids. Thank you, Madam Chair. I represent the Kansas 
Third Congressional District, which has a lot of--we are the 
heartland for a lot of reasons. One of those is that we are a 
major hub for transportation of goods, particularly, across the 
country.
    And Mayor, I thank you for making sure to acknowledge the 
National League of Cities is going on. I have had the chance, 
not just because of that, but over the course of the couple of 
months I have been serving I have had the chance to meet with a 
lot of the local county and city officials because I think it 
is really, really important to have those voices involved, as 
we are here making decisions about funding--and hopefully we 
will make some decisions about funding.
    You know, I can tell you that the folks from Kansas City, 
Kansas and Olathe and Lenexa and Shawnee, I mean, everybody is 
coming in, as soon as they sit down, ``Infrastructure.'' First 
thing they say. And, you know, it is because we have a lot of 
needs.
    And I read through everyone's testimony. I appreciated the 
fact that, you know, we have to acknowledge that we have got to 
be investing in infrastructure, and we have got to do it now.
    So putting--taking the view of--actually, Ms. McMillan, I 
appreciated the comments you were making earlier about 
addressing the disconnect between having to make these long-
term, 10-, 20-, 30-year plans on infrastructure when we, as a 
body, are providing, you know, 5-year authorizations and 
shorter appropriations than that.
    So you brought up flexibility. And then, Mr. Millar, I 
would like to come to you after this. Can you talk a little bit 
about what does that flexibility look like, and how do we make 
sure that the local and State-level governments are giving us 
the information we need to make it as flexible as possible?
    Ms. McMillan. Thank you so much for the question. You know, 
in representing the metropolitan planning organizations around 
the country, there are 408 of them. And I think the one thing 
we can say is that each one of them is different.
    And so a core part of the flexibility is recognizing that 
you first start with--at least, you know, in the metropolitan 
planning partnership model--you work with your cities and 
counties, and you come up with a plan that deals not only with 
very localized impacts and needs, but also those that, again, 
cross across those boundaries and impact the regional economy 
that is going to lift everyone, if it is well invested in. And 
so that is really the beginning of that.
    But once you have the plan, if the funding sources aren't 
flexible enough to invest in the solutions you have identified, 
then it makes it really difficult to actually take a plan into 
implementation and do improvements on the ground.
    So the notion of the flexibility is not only multimodal 
going across, you know, the different investments--you may need 
transit heavily in a particular area, you may want to invest in 
bike and pedestrian in another. Freight, of course, in your, 
you know, arena is incredibly important. But I think it is also 
necessary to be flexible enough to adapt to changes as they 
happen.
    So, taking a look, as some of the speakers pointed out, is 
the regulatory framework that wraps around those needs--you 
want things in place to make things as safe as possible, for 
example, all the time. But then there is under areas where 
perhaps we need to think about the dollars being flexible 
enough and nimble enough to invest in something that wasn't 
evidenced 5 years ago. And I think we are seeing those kinds of 
technological and other changes happening that quickly.
    Ms. Davids. OK, thank you.
    And then, Mr. Millar, you mentioned flexibility. And you 
also, I--in the testimony, when I was reading through it, one 
of the things that popped into my mind, partly because Mr. 
Clark's testimony included a listing of metrics that we could 
be thinking about, and I think that is a place where we miss 
out and could figure out ways to be more flexible--do you have 
any kind of ideas or thoughts on metrics that we should be 
thinking about that can help us move toward a more flexible 
system?
    Mr. Millar. This is a great question. And I think the 
metrics that have been put in place with MAP-21 and the FAST 
Act have just been put in place. The rulemaking has just been 
completed. And we need a little time to work with those rules 
before we look at changing them.
    Something that I look at in Washington State, the Federal 
funding that comes to our State makes up approximately 20 
percent of our State transportation budget. And it goes 
primarily to preservation, because that is not a particularly 
flexible source of funding. We allocate the Federal funding 
that comes to the State--to our organization and the cities and 
counties.
    Something that we are looking at--you know, we talk about 
trucks, and trucks--you know, freight is really important to 
your community. We anticipate we are going to have 30 percent 
more truck traffic in Washington State in the next 20 years. We 
are not going to have 30 percent more places to put those 
trucks.
    So we are thinking about it kind of like the energy 
industry thinks about it. What is the best source of power to 
sell to industry? Well, power that residential customers don't 
use. So how do we come up with a transportation equivalent of 
CFLs and low-flow shower heads to encourage people to try 
something different?
    And to have funding coming from the Federal Government that 
could be used for stuff other than the good old-fashioned 
adding capacity to the system, to be used on transportation 
system management and operations, to be used on demand 
management, to be flexed, as we do today, to other modes when 
that makes more sense--if you think about most of the trips 
that people take today, 40 percent of the trips that 
Washingtonians take are less than 1 mile in length. Of those 
trips that are less than 1 mile in length, 60 percent of them 
are taken driving a car. And the reason people drive a car is 
it is the only safe way they can make that trip, because we 
haven't invested in the pedestrian infrastructure, we haven't 
invested in the bicycle infrastructure, we haven't invested in 
the transit infrastructure to make that possible.
    So I can't tell you how many people jump on the freeway for 
one exit, because we haven't made the investment in other ways 
to get around that don't involve getting behind the car seat 
and turning the key. That kind of flexibility would be very 
helpful to us.
    Ms. Norton. Thank you very much.
    Ms. Davids. Thank you, I yield back.
    Ms. Norton. Mr. Gallagher?
    Mr. Gallagher. Thank you. I think there is a shared sense 
on the committee that we need to do more to invest in our 
infrastructure. There is disagreements about how we pay for it, 
dramatic disagreements at times.
    I tend to think one of the fundamental divides that I am 
trying to wrap my head around is how we incentivize or get the 
balance right between new projects versus maintenance of 
existing projects. And CBO suggests that 73 percent of Federal 
spending goes towards new projects, and a lot of maintenance 
over time is left to State and local governments.
    So if our infrastructure is crumbling right now, which we 
all seem to agree upon, and the Highway Trust Fund is 
insolvent, what can we do to get this balance right? How should 
the Federal Government think about incentivizing new projects 
versus maintenance of existing projects?
    And I just would love the local and State perspective on 
that question. I don't even know where to begin, though. So any 
takers?
    No one wants to be the first student to raise their hand?
    Mr. Millar. I will start----
    Mr. Gallagher. Sir, I appreciate that.
    Mr. Millar [continuing]. Congressman. I think you have to 
start with good data. I mean the performance measures that were 
put in place, again, in MAP-21 and in the FAST Act are just now 
coming into place. We are going to be reporting for the first 
time, many of us, on those measures.
    So knowing what is actually happening out there, knowing 
what the condition of our National Highway System is, the 
condition of our bridges, we have some of that. We need to keep 
reporting that. Rather than directly connecting performance to 
funding, though, for us in Washington State we are making the 
decisions that make sense for our State, our economy, our 
community, our geographic uniqueness.
    I wouldn't want to see Federal money tied strictly to 
performance. I think, though, having those performance measures 
gives us the data we need to make those smart decisions.
    As I indicated, most of our Federal money goes into 
preservation. And where we add to the system, we are adding to 
the system with State dollars. And that preservation investment 
is hugely important to us. If the Federal Government were to 
double the gas tax today, we would have the purchasing power we 
had with that gas tax in 1993.
    So we would love to see significantly more investment, we 
would love to see it come to the States through the formula 
program. And each of us has unique situations that we would not 
want to have a one-size-fits-all, you know, Federal 
prescription get in the way of.
    Mr. Gallagher. Sure. Ms. McMillan and then Mayor Nirenberg 
was--quickly, because I am going to run out of time, but----
    Ms. McMillan. Yes, just very quickly, the only thing I 
would add there is that we also need to think about not just 
how the Federal money gets split, but the capacity of States 
and locals to partner to bring additional money to the table to 
put together what needs to be delivered.
    So, in that case, that capability may also dictate--it 
could be very different in California than it might be, say, in 
Minnesota. And so thinking about how the Federal dollar could 
also respond to helping in combination with other sources----
    Mr. Gallagher. Sure.
    Ms. McMillan [continuing]. To bundle together to deal with 
that could be one way of thinking about a way forward.
    Mr. Gallagher. Thank you.
    Mayor Nirenberg?
    Mr. Nirenberg. Diversify the revenue streams, allow for 
local options, and also encourage and build in resiliency as we 
move forward. That is the reason why many urban communities 
like ours, which is 300 years old, are emphasizing transit.
    Mr. Gallagher. I appreciate that. And I think the bottom-up 
perspective is critical as we consider big action here at the 
Federal level.
    I confess, I am still trying to wrap my head around this 
and get the balance correct. I understand the outcry at the 
local and the State level in the White House's plan, which 
should increase the financial burden on States and local 
governments, but I also think the intent behind it is one that 
we shouldn't reject out of hand, right?
    To the extent I understand it--and I don't speak for the 
White House--it was to force us at the State and local level to 
prioritize projects and think on a 30-year time horizon about 
how we maintain projects effectively, or fix the projects that 
are crumbling right now.
    And so I really appreciate your perspective. Thank you for 
being here.
    Ms. Norton. Mr. Pappas?
    Mr. Pappas. Thank you very much, Madam Chair, and thank you 
to our panel for the expertise that you provided for us all 
today. And I think you all see a broad commitment in this 
committee to getting something done this year.
    One of my concerns--and we heard this at an earlier hearing 
as we talked about the cost of doing nothing--is the incredible 
downshifting that we have seen from the Federal Government to 
States and municipalities when it comes to transportation 
spending over the last many years. We have seen a 19-percent 
decrease in the Federal share of transportation investment 
since the early 2000s, and I think that is alarming. So I think 
we have got to make sure we create some predictability, and 
make sure that the Federal Government has some more skin in the 
game here.
    I am wondering, as I talk to regional planning commissions, 
my own State DOT, I hear concern about how they are going to be 
able to plan for the future in fiscal year 2021 and beyond. I 
am wondering, at the State level for those States that are 
represented here, how you are handling this. How are you 
handling the uncertainty of what will happen beyond the FAST 
Act?
    We are all assuming something is going to get done here, 
but there is the reality that potentially there could be less 
money available from the Federal Government for States, going 
forward.
    Mr. Anderson. I will answer for Texas. We work with our 
State comptroller, we work with all of our local and regional 
partners, and we talk about what is a reasonable projection. We 
don't want to be overly conservative, because then we find 
ourselves at times facing a huge need and not being prepared 
enough to deliver on a long-range transportation program.
    By the same token, we don't want to overplan and 
overpromise, and then find ourselves short. So it is an art, 
working with the comptroller and working with other elements of 
the State to actually look at what are all the funding sources 
that we have available to us currently, what is in the toolbox, 
and then which ones do we have most confidence in to the least 
confidence, and then establish projections for each one of 
those.
    Mr. Millar. And from Washington State's perspective, again, 
Federal funding is about 20 percent of our program. It is 
vitally important to us, but it is--most of the money that we 
are spending is generated right there in the State. And the 
State of Washington has stepped up. Our gas tax has gone from 
26 cents a gallon to 49.4 cents a gallon. And that has made a 
significant difference.
    For us, as we plan, you know, we look at these 6-year 
increments. The problem with the 6-year increments is more in 
the programming and the short-term spending of the money. We 
can look back 50 years at trend. In Washington State, when you 
look at our transit investment, the voters passed and we are 
building a $54 billion transit investment in the central Puget 
Sound area. During that same 30-year period where we are going 
to be spending that $54 billion, if historic trends play out, 
we are going to be spending $90 billion at the State level.
    What we are looking for from the Federal Government is, 
again, the strong Federal partnership that we had in the 1960s 
and the 1970s to give us the capacity to catch up with our 
economy and take our transportation system from where it is 
today to the 21st-century system that we need to really be 
globally competitive.
    Mr. Pappas. And if there is an increase, on the flip side, 
in State highway dollars, are there projects in the short term 
that are prepared to move more quickly and advance in the plan?
    Mr. Millar. Absolutely, absolutely.
    Mr. Pappas. Great. I don't see that is a problem anywhere I 
travel.
    One further question for Mr. Millar. I know that there will 
be a $7.6 billion rescission of unobligated highway contract 
authority on July 1, 2020. I have heard about this from my own 
State DOT, who tells me this is going to make their budgeting 
more difficult, reduce their ability to move money between 
accounts, as projects are ready between different pots of 
money.
    I am wondering if you can walk me through the real-world 
effects of these rescissions in your State, and how AASHTO 
feels about this.
    Mr. Millar. Well, the--not in--it would take the day to get 
through the details of that. And I think the folks on AASHTO's 
staff would be happy to meet with you and your team to get into 
the details of it.
    But basically, the concern we have is we are moving 
projects forward in a complicated world, and some projects 
advance and some don't. And at the end of the fiscal year, we 
have to balance the books. So the projects that advance, we are 
moving monies around. And it takes obligation authority to be 
able to do that.
    Rescission ties our hands. And what that can mean for us is 
that, even with the actual appropriation being available, we 
are not able to flex it and get work out the door. And what 
that means is projects don't get built. What that means is 
contractors don't get employed. What that means is that the 
people we serve don't see the benefits of the investments we 
are making.
    Mr. Pappas. Thank you very much.
    I yield back.
    Ms. Norton. Thank you.
    Mr. Woodall?
    Mr. Woodall. Thank you, Madam Chair, and thank you all for 
being here. I represent the Metropolitan Atlanta area. We have 
been out to Texas more than once, Mr. Anderson, to check out 
the DART system, to see how it is we can build mass transit in 
the middle of an already-thriving metropolitan area.
    I want to pick up where Mr. Pappas left off on financing. 
New Hampshire is a donor State. Texas is the only true donor 
State in the transportation sense of the word, sending more 
transportation taxes than you get back in transportation 
dollars. But every single State represented here today is a 
donor State once you factor in the general fund revenues that 
are subsidizing the Highway Trust Fund. So it is a different 
conversation we have today than we did in the 1990s, because 
everybody is getting back more than they think that they are 
paying in, with the exception of Texas.
    I can't find an account that my local DOT or my local 
mayors or my local county commissioners tell me they receive 
from the Federal Government that they find easier to spend than 
those dollars that they raise locally. But I have got a very 
diverse panel here, so can someone tell me about a pot of money 
that you get from Washington that you find easier to spend than 
the matching funds that you are raising locally?
    And I only ask that because, since the Federal commitment 
hasn't increased since 1993, you have been doing more and more 
and more and more locally, and our estimation in Georgia is we 
are doing it better and better and better locally. We just 
passed a new transportation tax in Georgia, too, to the tune of 
about $1 billion a year. And we are succeeding in ways that the 
Federal Government would not have allowed us to succeed.
    And I ask that question--if nobody has got a particular 
pot, I ask that question to question the merit of raising the 
Federal commitment. If the only place I have to receive those 
Federal revenue dollars are from your citizens, and you are 
already raising taxes on your citizens--I heard it from 
Indiana, heard it from Alabama, heard it from Washington, heard 
it from Texas--you are already raising additional revenues from 
your citizens. What is the merit of me placing Federal burdens 
on them, only to give you your own money back again?
    I want to keep the Federal commitment that we have got. I 
don't want to weaken the Federal commitment at all. I want to 
be a partner, and a stable partner. But I want to understand 
the merit of taking money from your citizenry to return it to 
you.
    You said from Washington State's perspective, Mr. Millar, 
you are doing the same thing that Florida is doing and Georgia 
is now doing: committing those dollars to maintenance, because 
these are inflexible dollars you are getting back from 
Washington, and you are using them in the most efficient way 
that you can. But it might not be your first priority if you 
had more flexible dollars.
    Who can help me? Why should I take 20 more cents a gallon 
from your citizens to give it back to you is my question. I am 
happy to do it if you ask me to.
    [Laughter.]
    Mr. Millar. Well----
    Mr. Woodall. I just want to understand why it is 
meritorious.
    Mr. Millar. And, Congressman, I would ask you to do it.
    What we are looking at in our State is addressing our 
problems. But we got to also think about the Federal role in 
transportation. The Federal role in transportation from the 
1950s to, basically, today has been building out the Eisenhower 
Interstate System. We are done.
    Something that we need to think about as a people is what 
is the Federal role in surface transportation, moving forward. 
And for me, I look at the containers that come in to the Port 
of Seattle and the Port of Tacoma. Most of those are not going 
to Washington State. They are going somewhere else. But they 
are going somewhere else on an interstate highway that we 
operate and maintain and preserve.
    We need more capacity there. Moving that freight from our 
ports to other States may involve getting some of our citizens 
out of the way by incentivizing them to take transit or do 
something else. There is a key Federal role in this. And we 
need, one, the policy guidance from the Congress, and the 
revenue stream to keep that Federal role in play.
    Mr. Woodall. Yes, my experience is policy guidance is 
easier to provide than revenue stream. So let me commit to the 
first, and we are going to start working on the second.
    Mr. Nirenberg?
    Mr. Nirenberg. What I would say is it requires a 
partnership. It requires a partnership from the local level to 
the State level, from the State level to the Federal level. And 
I don't think that we are suggesting that anyone can do it 
alone.
    In fact, what we are providing is ways that we can do it 
better. It has been since----
    Mr. Woodall. Well, because----
    Mr. Nirenberg. Yes.
    Mr. Woodall [continuing]. You are so close, you are the 
closest to the people here----
    Mr. Nirenberg. Sure.
    Mr. Woodall [continuing]. Let me just drill down on that. 
We are going to raise more money for transportation, as a 
Nation.
    Mr. Nirenberg. Yes.
    Mr. Woodall. The Federal commitment to your community is 
rock solid. What is the merit of taking an additional dime from 
your city and bringing it to Washington before sending it back? 
Does that improve the plight?
    And if it does, I want to partner with you on that.
    Mr. Nirenberg. Well, if the dime that was taken out in 1993 
were worth the same amount that was taken out in 2019 I would 
say you are right. But the fact is that those revenue streams 
have not scaled up as time has gone on. So we have had to fill 
in the gaps. And we know that there is an extraordinary gap 
with the Highway Trust Fund.
    But that is not where it ends, either. We are suggesting 
also in local communities that we can't continue to do the same 
thing over and over again and get different results. What we 
are trying to focus on is now moving people in high-density, 
urban communities, which includes multiple modes: transit, 
bicycles, pedestrian pathways, and, of course, our roadways. 
And we have more and more infrastructure need, but less and 
less dollar power at the Federal level and the local level to 
deal with that.
    We have funding constraints at the local level, as well.
    Mr. Woodall. I will be interested to hear what those 
restraints are.
    Thank you for your indulgence, Madam Chair.
    Ms. Norton. Thank you.
    Mrs. Craig?
    Mrs. Craig. Thank you so much, Madam Chairman. I wanted to 
start by just saying I represent a district that is probably 
one-third suburban, one-third exurban, and one-third rural, 
from a voter perspective, constituent perspective. But over 
half of my District in Minnesota's Second Congressional is 
rural.
    So I wanted to start with Mr. Stanley, and just ask you. 
You spoke in your testimony to higher highway fatalities on 
rural, non-interstate routes because of things like narrow 
lanes or limited shoulders, et cetera. How can Federal funding 
be structured to better target the needs of rural Americans?
    And how can we better consider small communities that often 
don't have the necessary resources or grant writers, or things 
like that to be as successful as other communities?
    Mr. Stanley. Excuse me. I think it is a partnership with 
the Federal level, as well, the planning organizations and 
things like that, to get those resources out to those 
communities that need them.
    The problems are readily identifiable, as we point out in 
our written testimony, that are causing the problems: narrow 
lanes, shoulder drop-offs, things that are easily rectified 
with proper finance and then proper design, and things like 
that. But too oftentimes those revenue dollars don't stream 
down to those communities for the reason that you provided.
    So I think that we, as a Nation, we just need to figure out 
how to disseminate those dollars down the pipeline, and then 
give them the tools they need, whether it is a Federal help 
center for smaller communities, or something like that, to 
actually help them see where the dollars are and address them 
to the specific issues. But that would be helpful.
    Mrs. Craig. Thank you very much. And I wanted to address my 
next question to Mr. Clark.
    So my background is in corporate HR. I spent 4 years as the 
head of HR for a major U.S. company. And I was interested in 
the section of your testimony that spoke to workplace training 
as a percentage of payroll. According to studies you cited, 
transit agencies spend significantly less than suggested.
    Can you speak to the efficiencies that could be created if 
transit had a better trained workforce and more opportunities? 
And what do you think the Federal Government should do to help?
    Mr. Clark. Thank you very much for that question. And I 
should have expanded on that more in my testimony. I think that 
there is substantial evidence that better training leads to 
better results, that more training leads to better on-time 
performance, fewer accidents.
    A lot of people have talked about state of good repair and 
the maintenance of the system. It is hard to keep all that 
stuff up if you don't have the skills of the workforce at the 
level you need to have them. And I actually have some data I 
could provide on that. There are some great anecdotes, but also 
some very solid data, in terms of Albany reducing its need for 
spare buses, for example, or SEPTA getting over 700 percent 
return on its investment over a 4-year period by increasing 
training. I think there are very, very substantial benefits 
there.
    And as I indicated, I think part of the Federal role here 
is that the Federal Government spends a lot on capital, but 
doesn't spend nearly as much as it needs to on human capital. 
Secretary Millar talked about metrics and people just starting 
to pay attention to them. In my testimony I said Dr. Beverly 
Scott, who is a former chair of APTA and a leader in the 
industry--and one of the mantras she often comes back to is if 
you are not measuring it and if you are not holding people 
accountable on it, it doesn't happen.
    So one of the things that the Federal Government clearly 
can do is say we want some good data on what is happening with 
your workforce. What are your projected retirements? How many 
people do you have in apprenticeship? What is the period of 
time it takes to get people trained? And getting--it is going 
to take some time for that data to accumulate and be a useful 
tool, but good data is a good tool.
    I would also urge that something--National Transit 
Institute does some very good work. By their own admission, 
they focus almost entirely on the white collar side of the 
workforce. I think some kind of Federal resource for the 
frontline workforce could make a big difference. Thank you.
    Mrs. Craig. Thank you so much. I couldn't agree with you 
more. I think as we are investing in the infrastructure in this 
country, part of that has got to be work skill development.
    And the apprenticeship institute idea and a partnership 
between the Government and the private sector is something that 
is very, very appealing to me, and long overdue. So thank you 
so much.
    Madam Chairwoman, I yield the remainder of my time.
    Ms. Norton. Mr. Babin?
    Dr. Babin. Yes, ma'am. Thank you, Madam Chair. Thank you, 
witnesses, as well.
    Mr. Terry, let me start off with a little history lesson. 
Almost 100 years ago most major cities began implementing 
motorized coach buses to provide their citizens with affordable 
and reliable public transportation. It worked like this. The 
rider pays a single flat fare to board a bus that goes around 
all day in a big loop, sometimes with 5 people aboard, 
sometimes overflowing with 50 or more. And to reach their final 
destination, riders have to either walk great distances or 
switch to another bus line, costing them time and productivity 
on a daily basis.
    Fast forward to today, and this model pretty much remains 
the very same. A number of cities and transit agencies are 
deploying new services powered by innovative technologies that 
hold the promise of improving economic mobility at a much lower 
cost to the American taxpayer than a traditional public 
transit.
    For example, in my home State of Texas, Arlington, Texas 
has become the first city in the country to run a transit 
service comprised exclusively of on-demand, dynamically routed 
shuttles, otherwise known as microtransit. According to the 
mayor in Arlington, the city has ``hit on something that is 
tremendously successful, that is getting the ridership that we 
have all been hoping for at a fraction of the cost of 
traditional transportation like buses or light rail.''
    Mr. Terry, how can the Federal Government encourage public-
private partnerships to bring innovation to the public transit 
sector?
    Mr. Terry. I would say in Indianapolis, which is an urban 
area, densely populated, we are focusing on where mass transit 
is the highest and best use, the highest productivity. Sprawl 
can be a problem. We don't have the topography or geography 
that limits that.
    The microtransits are, I think, proving to be very 
successful. The ones I think would work very effectively 
integrated into a more robust regional transit plan, especially 
for our edge communities.
    I think the operating costs that we have now that are 
funded mostly on the local and State level, and the investments 
we are doing from mostly the Federal capital dollars that we 
are receiving are utilizing the technologies from fare 
modernization to make a more account-based system for 
multimodal use, integrating not just our transit system, but 
a--we have an electric car-share program, utilizing Ubers or 
Lyft, or bike-shares to maximize the mobility options for 
individuals, and not making mass transit a one-size-fits-all.
    Dr. Babin. Thank you very much.
    I would also like to welcome--we have two fellow Texans 
here, I see, Mr. Anderson and Mayor Nirenberg. Thank you for 
being here. Welcome to DC.
    But Mr. Anderson, you work for TxDOT. Thank you for being 
here. As you may know, my district, 36, I represent 9 counties, 
from Houston over to Louisiana. We suffered greatly from the 
devastation of Hurricane Harvey just a couple of years ago. All 
nine of my counties were Federal disaster zones.
    Are there ways that new and innovative transportation 
technologies can help during disasters like Hurricane Harvey?
    Mr. Anderson. Texas Innovation Alliance members, as well as 
TxDOT, have been working on a number of those, not only post-
Harvey, but prior to that.
    And as an example, during the Hurricane Harvey event--we 
have a DriveTexas.org website that maintains our system that--
you know, the part that TxDOT is responsible for, and the 
conditions on that system, be it construction or water on the 
road. And that map became the de facto map, the operational 
map, for the Federal agencies and for all the State agencies to 
bring logistics into the affected areas, as well as to evacuate 
across the entirety of that swath, which was roughly 300 miles 
wide and 150 miles deep.
    Dr. Babin. Right.
    Mr. Anderson. And that same tool, or the information that 
feeds that tool, we are looking to expand over the coming 
years, based upon lessons learned, to incorporate the State and 
city roads, and then bring that data and share it more broadly 
to other solutions, such as----
    Dr. Babin. OK. And then, to follow that up, what can 
Congress do to assist the State departments of transportation 
in preparing for extreme weather like we suffered during 
Hurricane Harvey?
    Mr. Anderson. They can work with us to examine what are the 
challenges that we most likely expect, especially at a regional 
and local level. What are the extreme weather events that are 
the ones that we are most concerned about, and then what are 
our plans to deal with those? And then, how can we work with 
them to develop a national strategy and address those within 
our formula funding?
    Dr. Babin. I am sure everybody out there on the panel could 
answer that in some form or fashion, but I am running out of 
time. So I need to yield back. Thank you very much.
    Mr. Anderson. Thank you, Congressman----
    Ms. Norton. Thank you.
    Ms. Titus?
    Ms. Titus. Thank you, Madam Chairman. As we look at surface 
transportation as an opportunity to see what we focused on in 
the past and what we need to focus on in the future, and one of 
the things that seems striking to me is that we have not paid 
much attention to the movement of people. And by people I mean 
tourists.
    We considered road miles, we have looked at population, we 
look at freight movement, all when we are considering resources 
or revenue, but not actually the movement of people. Now, this 
is important to me. I represent the heart of the Las Vegas 
Valley. We welcome over 42 million tourists every year. Now, 
some of them drive from Utah, Arizona, southern California. 
Some of them fly into McCarran, which is the seventh-busiest 
airport. Hopefully, some will be coming by speed train some 
time in the future.
    So we have to deal with getting them there, and then moving 
them around, once they get there. Our MPO and the Las Vegas 
Convention Authority RTC all work together to try to plan how 
to accommodate them. So it is part of our planning process, but 
we don't have the resources to take into account all these 
visitors.
    So I would ask Mayor Nirenberg and Ms. McMillan to address 
this. I know, Mayor, I have had the pleasure of welcoming the 
Visit San Antonio folks. They have come to my office. I cochair 
the Congressional Travel and Tourism Caucus. So they describe 
some of the same problems--I believe I saw you had 37 million 
visitors a year. And then San Francisco welcomes about 26 
million visitors a year, and that doesn't count Napa Valley. So 
again, you have some of the same kind of problems.
    So I would ask you two to talk a little bit about how you 
meet the needs of moving visitors around, and if you would 
support including visitors as a metric for determining funding. 
That is the first question.
    And then, question, what do you think about the possibility 
of having a national travel mobility program, kind of like we 
have the freight mobility program, that takes into account some 
alternative projects that enhance travel and moving tourists 
around, and look at connectivity among major tourist 
destinations?
    Mr. Nirenberg. Well, thank you very much for making that 
note. Visitors are--and the visitor industry, certainly, is a 
bedrock of San Antonio's economy, and will remain that way, and 
has impacts on our transportation system. I think that is an 
extension of how we are trying to build a multimodal 
transportation system for the future that actually--our vision 
for success is how we move people around and give consumers 
choice in how they move around.
    We are integrating last-mile transit, as the gentleman said 
earlier, from scooters to bike-share to other elements, and 
being able to build walkable communities and plan our land use 
around that. But we also have to give people options on how 
they can move from the main halls, whether it is via public 
transportation, transit lines, a rental car, Uber and Lyft 
rideshare types of modes. But we are trying to integrate 
everything. Our philosophy on transportation for the future, 
whether it is a visitor or resident, is all of the above.
    Ms. Titus. Well, you didn't answer my question, though. 
Would you support including visitors as part of a metric for 
funding?
    Mr. Nirenberg. Absolutely would. Yes, ma'am.
    Ms. Titus. And you think it is a good idea to have a 
national travel plan, as well as a freight plan?
    Mr. Nirenberg. Obviously, we would have to learn more about 
that, but it sounds good to me.
    Ms. Titus. Thank you.
    Ms. McMillan. You know, I agree with a lot of what was 
observed and said here. I think I would note that, actually, 
under the FAST Act, one of the things that changed under the 
planning rules was that we need to look at tourism----
    Ms. Titus. Yes.
    Ms. McMillan [continuing]. Part of the----
    Ms. Titus. That was part of my bill. I remember it very 
well.
    [Laughter.]
    Ms. McMillan. Right, OK. Well, I am coming back to it, so I 
apologize, and give you----
    Ms. Titus. Glad you noticed.
    Ms. McMillan [continuing]. Kudos for adding that in. But I 
think one of the things that is--you know, that whole idea of 
choice is really important, particularly for tourists. Because, 
unlike the type of planning we would do when we can anticipate 
who has jobs, and where the jobs are located, at least to some 
degree have a predictability about where they want to go, I 
think with our tourist community that is really different.
    So things that we are beginning to tackle now, and have to 
think about how funding dollars can best accommodate it are the 
very information-driving improvements that we are thinking 
about. We have all these choices, but how do we get the 
information out to people to use it, in terms of the apps and 
the new technologies related to that?
    What--I am beginning to see, certainly when I was with FTA, 
is these new needs of how we use what we have differently, and 
particularly, again, the choices and availability and 
nimbleness to move or adjust them to peaks that might, you 
know, accommodate seasonal or tourist travel is something that 
is a very different funding source than building a lot of 
infrastructure. And sometimes our Federal, as well as State, 
you know, dollars have been designed on eligibilities that are 
linked to that more traditional infrastructure structure. And 
we have to rethink that, in terms of overlays on infrastructure 
that are much more nimble and fast-moving.
    So this is something I think, overall, we need to look to 
in our investment programs.
    Ms. Titus. Thank you, and I yield back.
    Ms. Norton. Thank you. Mr. Spano?
    Mr. Spano. Thank you so much, Madam Chair, and thank you 
for being here. We appreciate your presence and your expertise. 
You have been very helpful for us. I have a couple questions 
for Mr. Anderson, specifically.
    You all have really served as a model, I think, for the 
rest of the country. And we are grateful for that, number one. 
There are a couple programs you guys--and projects you guys 
have undertaken, and I would like you to just explain and tell 
me what benefits you have derived from those programs.
    The first is the Texas connected freight corridors project, 
and then the second would be the truck platooning 
demonstration. If you could, just detail those projects, and 
then maybe tell us how you think the rest of the country could 
benefit by implementing similar programs.
    Mr. Anderson. The connected vehicle freight program is 
actually an ATCMTD grant that we received about a year ago. And 
it is focused on what we call a Texas triangle, running from 
Houston up to Dallas and then back down to Austin, San Antonio, 
and on to Laredo, and then connecting over between San Antonio 
and Houston. And that is a preponderance of a lot of the 
freight movement in our State coming from both our land and 
gulf ports.
    And so the focus there is to enhance the movement of 
freight along those corridors, and then to expand those lessons 
learned to a lot of our east-west corridors, such as I-10 and 
I-20. And in doing that, we are going to look at different 
connected vehicle systems and the information it provides to 
freight that could help freight be more safe and to move more 
effectively and efficiently across the system. And then, as we 
find which ones are most successful, we are going to scale that 
across the State. And we begin to implement it, we are working 
with Federal highways on the project, and we believe we are 
going to have a lot of success with doing that.
    Related to that, then, we did do research on truck 
platooning. We maintained that for several years, looking at 
the capability of full 18-wheelers and their ability to platoon 
and, in some cases, to be automated and share operations 
between the two. And looking at the safety of that, and looking 
at the impacts as a passenger vehicle interacts with that. And 
all of those have been successful and have begun to feed the 
department--and not only our department, but agencies such as 
the DMV and the DPS, to inform them about how those might 
operate on the system.
    And recently, last session, the House passed a bill that 
allowed a certain version of truck platooning in the State. So 
the capability exists now, and a number of companies are 
looking to start doing that.
    Mr. Spano. And then I would also ask you if you could just 
give us your opinions on how other States might be able to 
replicate what the Texas Innovation Alliance is doing.
    Mr. Anderson. Well, I mentioned earlier the larger 
organization. It is called the Smart Cities Lab. And we teamed 
with a number of the other cities that applied for the smart 
cities grant back--almost 4 years ago now. And we share that 
information amongst each other as each city or region develops 
these smart technologies.
    And as I mentioned earlier, both the Texas Innovation 
Alliance, but with the Smart Cities Lab--and I think any other 
State could do this organically--I mean it was a grassroots 
effort. This is not something that was directed by the State. 
This followed the smart cities competition.
    And a number of the mayors said, you know, they had 
supported Austin's proposal, even though they weren't the 
winner. And following that, they said, ``You know, we had 
something really working well, in terms of teaming, and we want 
to continue that.'' So with their lead and with their staffs 
and combined with TxDOT and some of our research institutions, 
we agreed to just, you know, federate, essentially, and work on 
it together in a combined effort.
    And we have spread that to other States and talked to them. 
I believe Colorado actually announced last week that they have 
something similar to that. I think it is focused more in the 
Denver area. But I think it is replicable and it can be done 
not with a lot of top-driven demands, but more from a group 
effort.
    Mr. Spano. Thank you, Mr. Anderson.
    Madam Chair, I yield the remainder of my time.
    Ms. Norton. Thank you, Mr. Spano.
    Mr. Espaillat?
    Mr. Espaillat. Thank you, and thanks to the witnesses for 
being here. We have the opportunity today to have our first 
hearing on a major part of our infrastructure, just as the 
Trump administration released a budget that will divest the 
Federal Government from infrastructure.
    And, in fact, the administration had the gall to say that a 
major project of regional and national significance, and 
perhaps of even national security importance, such as the 
Gateway Project and the replacement of the Hudson River 
Tunnels, is a State issue. And, therefore, that the Federal 
Government should not be involved.
    Despite a chilling recent report by the Regional Plan 
Association showing that if the tunnels had to be shut down it 
would cost the Federal Government $1.5 billion in tax revenue, 
and it would rob the national economy of $16 billion.
    Madam Chair, I ask unanimous consent to enter the RPA 
report titled, ``A Preventable Crisis'' into the record.
    Ms. Norton. So ordered.
    [The information follows:]

                                 <F-dash>
 a preventable crisis: the costs of a hudson river rail tunnel shutdown
    [The report is retained in committee files and is available at: 
http://library.rpa.org/pdf/RPA-HRT_Impact_Study_20190225.pdf]

    Mr. Espaillat. Thank you, Madam Chair. Now, this is just 
one area where the administration is failing to meet our 
infrastructure needs, but there are many more.
    For example, the Trump budget, again, calls for eliminating 
capital improvement grants. This program includes the New 
Starts and Small Starts, provides critical Federal funding to 
help get major local projects underway.
    In New York City, funding through the New Starts program is 
absolutely vital for extending the Second Avenue subway into my 
district in East Harlem. The project would tie a new line of 
the subway system into the Metro-North Commuter Rail, 
alleviating the long, overcrowded Lexington Avenue line, as 
well. It would also better connect the East Side to a direct 
bus to LaGuardia Airport. So the project has regional and 
multimodal significance, and it would eliminate a serious 
transit desert that has persisted in the Nation's largest city 
for decades.
    My question to the panel is how critical have the capital 
improvement grants such as New Starts and Small Starts been in 
making sure projects get off the ground, and in helping local 
governments cope with growing population?
    [No response.]
    Mr. Espaillat. Anybody from the panel? Yes?
    Mr. Terry. So--Mike Terry--yes, we have been awarded 
recently a CIG grant, and it is under the Small Starts, for our 
first electrification of a bus rapid transit corridor, it is 13 
miles. And it is the beginning of the spine for our whole 
transit system. We don't have subways, but this is as close as 
we are getting right now. And it is vital for the density, to 
support the density. It is already proven corridors.
    So, from the Federal Government's side, I think these are 
competitive grants going through a very rigorous and lengthy 
process. But it is vital to our success of our build-out of our 
transit system in Indianapolis.
    Mr. Espaillat. Additionally, these efforts are not only 
good for transportation and infrastructure, but they are also 
an important window of opportunity for economic development in 
our cities and across our country. And I have a question for 
Mr. Clark.
    I know that you have mentioned programs, training programs 
that you have seen work for--apprenticeship programs and also 
minority- and women-owned business opportunities. What model is 
there out there that we can rely on to ensure that folks would 
be ready at the starting line?
    I mean often what happens is these projects take off, and 
the local population is not ready to compete for these jobs. So 
what training programs will you advocate for that will help 
people be ready at the starting line?
    Mr. Clark. I think you start early, and the--working on 
career technical education and good contextual learning skills 
as early as middle school, and career arenas, and all that kind 
of stuff helps.
    I think there are some really good models. Los Angeles did 
some really dramatic work in increasing its transit capacity. 
And they did that some time ago. Using tools like the 
multicraft core curriculum that the building trades have 
developed, and working with organizations like the Los Angeles 
Alliance for a New Economy, there was really dramatic impact in 
terms of reaching impacted communities. There were tough 
targets to make sure that people from historically 
disadvantaged groups got represented. And it got down to zip 
code levels, in terms of trying to get people into those jobs. 
And there was great success.
    I think Los Angeles had some unique advantages in doing 
that, but I think there were a lot of elements of that that can 
be implemented nationally. And I think the building trades, 
nationally, I think, deserve a lot of credit for the multicraft 
core curriculum, which has been an extremely successful 
apprenticeship program. And I don't have the numbers at my 
fingertips, but a very large majority of the people graduating 
from those MC3 programs are women and people of color.
    Mr. Espaillat. Thank you so much. Thank you, Madam Chair.
    Ms. Norton. Thank you, Mr. Espaillat.
    Mr. Garcia?
    Mr. Garcia. Thank you, Madam Chair Norton and Ranking 
Member Davis, for organizing this hearing to begin the work of 
addressing our urgent surface transportation needs. And I want 
to thank all of the panelists who have presented this morning.
    As the testimony thus far has made clear, we need to 
establish a more stable, long-term, and sustainable revenue 
source to both meet the needs of our growing economy, adapt to 
the adoption of more energy-efficient vehicles, and close the 
growing funding gap to bring our current assets to a state of 
good repair.
    Madam Chair, as we endeavor to draft a FAST Act 
reauthorization, I look forward to working with you, Chairman 
DeFazio, and all the other colleagues to seek more equity for 
historically underserved communities and populations like the 
ones that I represent. To add to the testimony today I submit 
just some of those needs specific to the Chicago region.
    According to the Regional Transportation Authority, which 
oversees the Chicago land transit systems, we need an 
additional $32 billion just to bring our assets to a state of 
good repair. The Illinois Department of Transportation 
estimates that we will need another $30 billion, fully, to 
maintain our road and highway network.
    Today I would like to focus on two specific issues: one, 
the need for better transit-oriented development that breaks 
down the silos in which planning for transit and housing 
projects currently occur; and two, the need to address our 
transit workforce safety and training needs, and especially for 
front-line workers like the bus drivers for Pace and the 
Chicago Transit Authority in Chicago.
    Director McMillan, Director Anderson, and Secretary Millar 
or others, a neighborhood in my district, Logan Square, has 
lost over 23,000 long-term Hispanic and African-American 
residents, due to the rising home costs, increasing problems in 
transit access, and increasing congestion. Some of this is 
rooted in poor planning that ultimately results in 
gentrification, or displacement.
    The National Association of Counties--and mind you, I was a 
former county commissioner--produced a 2018 report entitled, 
``Planning Ahead,'' and I would like to request unanimous 
consent to enter that report into the record.
    Madam Chair?
    Ms. Norton. So ordered.
    [The information follows:]

                                 <F-dash>
  planning ahead: county planning, land use and zoning strategies for 
                           affordable housing
    [The report is retained in committee files and is available at: 
https://www.naco.org/sites/default/files/documents/Planning%20Ahead%20-
%20County%20
Planning%2C%20Land%20Use%20and%20Zoning%20Strategies%20for%20
Affordable%20Housing.pdf.]

    Mr. Garcia. Thank you. The report describes many of the 
pressures that counties and local authorities face to attract 
higher tax bases to increase revenues. The result is higher 
home costs, rents, and gentrification. This unintended and 
sometimes intended consequence can be avoided by better land 
use planning.
    If affordable housing is an after-thought in transit-
oriented development, cost per square foot increases and 
affordable housing construction can become cost-prohibitive. In 
title 23 of U.S. Code 134, and title 49 of the U.S. Code 
section 5303 MPOs are instructed to consult with various local 
agencies for responsible land use. Is there something that we 
can adjust to more explicitly require the consideration of low-
income for affordable housing as part of the planning process?
    And a brief answer would be very welcome.
    [Laughter.]
    Ms. McMillan. Well, I will be--maybe I can start 
representing the MPOs and the planning processes you just 
cited. And I think there--very briefly, a couple of things.
    One, we need to get much better in data, particularly in 
our underserved communities, understanding what is happening on 
the ground in those communities, in terms of socio-demographics 
and availability of--you know, housing vulnerability and those 
type of things is really important.
    I think we also need to work very closely on these 
intersecting issues. Transportation and housing, at least 
certainly in the bay area--and I would say across California--
you can't solve one without the other at this point in our 
metro areas. And we are working very aggressively to do the 
type of coordinated planning and then coordinated investments--
and this is where we could explore more of how Federal 
programs, for example, at HUD and Federal flexible 
transportation programs under USDOT can recognize joint 
criteria or performance metrics to allow those investments to 
work better together. That might be one area to explore.
    Mr. Garcia. Well, thank you.
    I am about to run out of time, so I will submit some 
additional questions for followup. I yield back, Madam Chair.
    Ms. Norton. Thank you very much, Mr. Garcia.
    Mr. Carbajal?
    Mr. Carbajal. Thank you, Madam Chair, and welcome to all 
the witnesses today.
    Ms. McMillan, thank you for your testimony. As many of us 
are aware, the administration released their so-called 
infrastructure proposal last year. It would have required 
States and local governments to pay a larger share of the costs 
of infrastructure--80 percent, to be exact. However, States and 
local governments are already financing infrastructure projects 
at higher levels than the Federal Government. And, let's face 
it, if the locals had 80 percent of the funds, they would 
already be doing a lot more.
    As a matter of fact, when I served in local government in 
Santa Barbara County, county residents voted in support for 
renewing a self-help tax in order to finance larger regional 
infrastructure projects.
    So I have a couple questions: one, how can the Federal 
Government be a better partner for local governments to bring 
our infrastructure to a state of good repair; and two, what are 
the pros and cons for local governments to have access to 
different financing tools, such as the infrastructure bank or 
an infrastructure corporation?
    Ms. McMillan. Well, I would like to comment first--observe, 
Congressman, your observation that is really important. While 
State and local governments--I think particularly in our home 
State of California--have stepped up with a greater share of 
investment, it was never to replace the Federal dollar, it was 
to augment the Federal dollar in a continuing partnership. At 
no point have we ever, in stepping forward, not recognized that 
our Federal investment needs to remain and needs to remain 
robust.
    And so I think, you know, your observations there of 
partnership are so critical. And I think that theme needs to 
carry forward in whatever discussions we have associated with 
reauthorization.
    With respect to financing, I think we generally--given the 
complexity of the problems we have, maybe one overarching view 
is that the more tools we have, the more we are going to be 
able to apply them to whatever problems may arise--again, 
avoiding that one-fits-all scenario. Financing is incredibly 
important to deliver our projects faster and, you know, allow 
for improvements to get to the public more quickly.
    But financing is not funding. There always needs to be a 
revenue stream that is underlying whatever financing we do. And 
so I think that is a key reminder, as we talk about the value 
of those tools we would like to see in place.
    Mr. Carbajal. So a public infrastructure bank would be a 
good tool to have, nonetheless?
    Ms. McMillan. I think any amount of tools available to us 
is something we should explore. More tools are better than 
fewer.
    Mr. Carbajal. Thank you so much.
    Mayor Nirenberg, thank you for your service in local 
government, and thank you for being here on behalf of the 
National League of Cities. We all know that congestion is a 
huge issue for commuters, an issue I also experienced in my 
district. It takes a toll also on our economy.
    Our committee's website, under Chairman DeFazio's 
leadership, estimates that congestion has cost our economy over 
$342 billion since 2017. What are some of the ways that we can 
leverage different modes of transportation, such as regional 
rail, to minimize congestion?
    Mr. Nirenberg. Well, thank you very much for that question. 
I think you are absolutely right. We need to provide people 
options. Not everyone would choose to get behind a single-
occupancy vehicle if they had other choices, which is why, in 
San Antonio, we are working on a comprehensive, multimodal 
strategy that allows people options from the first mile to the 
last mile, and everything in between.
    Many people will choose to continue to drive their own 
vehicle, but we need to make sure that we have a fully funded 
public transportation system for people who don't have the 
choice have now an option to get to and from work, get to and 
from school.
    And then, from a regional standpoint, providing, you know, 
ways to move around what is now the fastest growing corridor in 
the country, and probably the spark of Texas economy right now, 
which is the I-35 corridor. And largely, the Texas Triangle, 
which will be home to about 40 million people by 2050.
    So the bottom line for us is we need to provide options, we 
need them to be multimodal, and that requires a broad 
partnership with the Federal Government, the State government, 
and the local government to provide diverse revenue streams 
and, really, as many tools as possible to fund them.
    Mr. Carbajal. Thank you, Mayor.
    Madam Chair, I yield back.
    Ms. Norton. Mrs. Miller?
    Mrs. Miller. Thank you, Chairwoman Norton, and thank you 
all for being here today.
    Improving our Nation's roads and bridges is imperative to 
increasing safety, as well as connecting our Nation. My own 
district faces issues connecting our rural communities with 
larger, more populous areas. Good infrastructure helps us 
preserve the all-important rural way of life, while also 
ensuring my constituents in small towns can have easy access to 
goods and services in our larger cities. I believe, if we 
invest in our Nation's roads now, we will see long-term 
economic benefits, nationwide.
    The King Coal Highway and the Tolsia Highway in my district 
have been under construction since 1999, and are nowhere close 
to completion. Finishing this highway would increase safety and 
cut travel times in half in the mountainous southern West 
Virginia, and bring much-needed economic development to this 
region. For 20 years there has been talk of completing this 
project, but no action.
    I also have a bridge to nowhere in my district, where 
construction has been stalled since 2007. It is totally 
unacceptable that the bridge has been completed for over a 
decade, but is still wholly unusable, since there are no paved 
roads connecting it to my State's highway system. When 
completed, this bridge will be a shining example of 
infrastructure connecting communities. But until then it 
represents the millions of dollars wasted on incomplete 
projects across the country.
    Further, the Coalfields Expressway abruptly changes from a 
paved, four-laned highway to a dirt road. This is another 
example of a highway that has been in the works for far too 
long. Route 2 and Route 10 also need enhancement and 
modernization. These projects, when taken on, will breathe 
commerce, jobs, and economic growth into our southern counties, 
connecting West Virginia to Virginia and beyond.
    West Virginia is in dire need of infrastructure investment. 
I was sent here to Congress to improve the lives of my 
constituents in West Virginia who are forced to commute for 
hours on dangerous and damaged rural mountain roads, just to 
get to work in the nearest town. Building and maintaining our 
major road system is essential for exporting West Virginia's 
abundant resources, and encouraging economic prosperity. I do 
hope that this subcommittee is able to find solutions for the 
Highway Trust Fund in order to promote West Virginia's economic 
development.
    Mr. Millar, the Highway Trust Fund allocates billions of 
dollars every year. What kind of oversight does the Federal 
Government have over how money from the Highway Trust Fund is 
used to make sure it is not wasted?
    Mr. Millar. Congresswoman, that is a great question. In the 
State of Washington I work closely with the Division 
Administrator for the Washington division of the Federal 
Highway Administration, which provides oversight of everything 
we do with Federal highway dollars. I also work with the Region 
Administrator of the FTA region, region 10, on the transit 
dollars that get spent.
    The oversight is in place. I think the nature of our 
transportation investment, where you have a Federal program 
that is administered by the States, gives each of the States 
the individual authority to make decisions about how the 
Federal money that comes to that State gets spent.
    So in Washington State we have a great relationship with 
our Federal partners. The money comes to the State, the money 
gets spent, the projects get built, our people move.
    Mrs. Miller. Thank you. With increased traffic volume 
overall, as well as increased ownership of high mileage and 
electric vehicles, what are we doing to properly fund the 
Highway Trust Fund? What more could we be doing? And please be 
as comprehensive as possible.
    Mr. Millar. Back at me, great.
    Mrs. Miller. Yes.
    Mr. Millar. Yes, Congresswoman. The way we are funding the 
Highway Trust Fund now is with fuel tax and our grandchildren's 
money. We are borrowing. The fuel tax, because of the more 
efficient vehicles we have because of alternative fuels coming 
on to the market, it is a flat funding source. And it does not 
have a sustainable future.
    The alternatives to the motor fuel tax are all unpopular. 
But how many popular taxes do you know of?
    Whether it is a road user charge or congestion pricing or 
some other way of funding the transportation system, I think 
what all of us agree on is that it should be user-based, it 
should be a fee for service. It should be--you know, that is 
the notion behind the fuel tax, it is the notion behind what we 
should do, going forward.
    We are testing these ideas around the country. I am the 
vice chair of the Western Road Usage Charge Alliance. States 
all over the American West are looking at how they would 
administer a road user charge, the mechanics of it. Taking this 
on nationally is something we are going to have to do at some 
point. We are looking forward to continuing the conversation.
    Ms. Norton. Thank you very much.
    Mr. Brown?
    Mr. Brown. Thank you, Madam Chair. It is clear to me that 
the--and so many--that the Federal Government must invest in a 
resilient, modern infrastructure that communities around our 
country desperately need, and Congress needs to act.
    But additional investments, I believe, will be meaningless 
without a capable workforce prepared for tomorrow's shovel-
ready projects. Congress has acknowledged our workforce 
challenges and the need for more apprenticeships, internships, 
and vocational training for our manufacturing and construction 
sectors.
    The private sector has struggle to provide the job training 
necessary, and we cannot depend solely on our high schools, 
community colleges, and universities to train and sustain a 
modern, competitive workforce. That is why we must bring both 
industry, labor, and education to the table and ensure that we 
are working hand in glove to meet the workforce demands of 
tomorrow.
    Mr. Clark, a question for you. In your testimony you talk 
about the value of registered apprenticeship. I have a bill 
called the Hard Hat Act that would require 20 percent of 
workers on a federally funded construction project to complete 
a registered apprenticeship program. You spoke about the idea 
of utilizing this model for maintenance and other skilled labor 
positions in the industry.
    Can you elaborate on your comments as to why it makes sense 
to have these high-standard, joint labor-management 
apprenticeship programs for all aspects within the transit 
industry? And what are some pre-apprenticeship options that can 
be used to help address workforce pipeline challenges?
    Mr. Clark. Thank you. You have answered much of your own 
question, but I welcome the opportunity.
    Mr. Brown. As long as it looks good on camera.
    Mr. Clark. It does.
    [Laughter.]
    Mr. Clark. The--apprenticeship really does involve--the 
technical learning needs to be there. You don't go out and deal 
with high-voltage electricity without learning something in the 
classroom about principles of electricity. But to work well in 
those blue collar settings--and, indeed, in most settings--
people learn most of what they do by doing it, not by passively 
absorbing information.
    An apprenticeship takes that principle of learning and 
implements it fully. And that works very well. I think your 
bill is a great idea. We also have some experience starting 
these apprenticeship programs in some places in transit, and 
the results are phenomenal. People pick up the skills.
    And, as I indicated in my testimony, if you get to the 
highest end of this--and I think Southeastern Pennsylvania 
Transportation Authority in Pennsylvania, in Philadelphia, has 
reached some of this at times--we get engineers and front-line 
workers taking on a problem, seeing something, and saying, hey, 
we are paying a lot of money to get this particular element 
from a vendor. We can do that in-house if we re-jigger the 
systems a little bit.
    There are, really, a lot of benefits here, including the 
workforce becoming more engaged, people enjoying their jobs 
more, but also just delivering better, more efficient service.
    Mr. Brown. Thank you.
    Secretary Millar, in your testimony you talk about the need 
for Congress to support initiatives that create new 
opportunities for high school and college students, including 
internships in STEAM fields to ensure an adequate workforce 
pipeline. I have a bill that looks at dual enrollment programs 
with a focus on private-sector buy-in.
    How can we better prepare the high school junior and senior 
that is about to graduate for a family-supporting career in the 
transportation industry? And what are ways that State 
departments of transportation are engaged in the next 
generation of workers? And what can we learn from them?
    Mr. Millar. That is a great, great question, Congressman.
    We are doing a lot in Washington State. We could do more, 
if we were resourced to do more. We are reaching out in high 
schools and middle schools across the State to engage those 
children in thinking of the construction trades as a way 
forward. As we talked about earlier today, a lot of folks 
figure that 4-year degree is the way to go.
    I have a friend in the development industry that said, 
``What I tell kids is go to community college, get some skills, 
go out, do an apprenticeship, learn a trade. By the time your 
friends graduate from college, you will be ready to hire them 
as employees.''
    [Laughter.]
    Mr. Millar. So we require today 15 percent of our labor 
hours worked on our contracts be done by apprentices. We are at 
18.6 percent, as an agency. And 44 percent of those apprentice 
hours are worked by women and people of color.
    Providing a pipeline to that apprenticeship program through 
pre-apprenticeship support and on-the-job training is the place 
where we need help. We have a State-funded program--it started 
at $750,000, it is up to $3 million--that we are spending on 
things like daycare and lunch money and equipment, tools, so 
that young men and women can get into these apprenticeship 
programs.
    We are not doing that work, we are getting that money out 
to labor, to faith-based groups, to community groups to bring 
people from the community in.
    Another thing I am doing--to wrap this up--is working with 
the secretary of corrections in Washington State in the prison 
population to bring that same set of pre-apprenticeship skills 
together, so that people can leave the prison population--when 
they come back into their communities, they come back into the 
community with a full-time job with the Washington State DOT.
    Mr. Brown. Thank you to the panel. Thank you, Madam Chair.
    Ms. Norton. Thank you, Mr. Brown.
    Mr. Malinowski.
    Mr. Malinowski. Thank you, Madam Chair.
    Mr. Anderson, you mentioned in your testimony the 
experience of Texas with autonomous vehicles, the experiment 
that is just beginning. And I wanted to ask you to leap forward 
a bit and imagine the brave new world.
    Imagine a day, you know, a few years from now, when you and 
I own a vehicle that we can summon at any time, we can jump 
into it not having to drive it. We can read a book, watch a 
movie, eat a meal, take a nap. It can take us wherever we want 
to go. We don't have to worry about parking it, because we can 
let it circle the block or go somewhere else while we are doing 
our thing, and we can summon it back any time.
    In that world, what incentive do you and I have to take 
public transportation or get on a bike? And if I am right about 
the answer to that question, what is the impact on congestion? 
What is the impact on pollution, especially if some of these 
vehicles are not zero-emissions vehicles? What is the impact on 
some of the bigger challenges that we are already facing in our 
transportation system?
    Mr. Anderson. So we have talked a lot about this with both 
startup-level autonomous vehicle companies, as well as the OEMs 
and the transit community, as well, because they are looking at 
AV buses and other solutions similar to that--microtransit was 
mentioned earlier.
    I don't think it is a one-size-fits-all solution. There has 
been discussion of having services, almost like you have cable 
subscriptions. You subscribe to a particular manufacturer's 
vehicle, or its system and its service that it provides, and 
you don't own that car whatsoever. It shows up when you need 
it, and delivers you to where you want to go. But where you 
want to go may not be, you know, door to door. It may be door 
to a multimodal hub that might involve other transit services, 
as well.
    So the mix and the solutions that are being driven, you 
know, back to the Texas Innovation Alliance are locally 
identified. The problems that they have--and each region has 
disparate--you know, they have similar problems, but they have 
regional challenges that are different, and each transportation 
system is different. So they are looking at what fits best with 
what they project over the next 20, 30 years, what they 
currently have, and how they can get to that point. And a mix 
of those solutions, typically, is what they are seeing as the 
first best option, rather than trying to select what the only 
option is going to be in the near future.
    Mr. Malinowski. OK. So I am wrong to be worried about that?
    Mr. Anderson. I am not saying you are wrong to be worried. 
I think that there are a lot of people, including the mayor's 
team and others in the State--and I mentioned the Smart Cities 
Labs and a number across the Nation in ITS America, and AASHTO, 
and the Transportation Research Board have communal discussions 
on this on a regular basis, and are looking at what can be done 
to address that specific challenge, and what is the 
reliability, the safety, the security, the privacy, which are 
all concerns that we have, and that we communicate regularly to 
the industry that is developing it to make sure that all of 
those things are addressed, and deliver the quality of life 
that would be imagined in that kind of future.
    Mr. Malinowski. And what is--what do you see--and I will 
invite anybody to answer this question--is the Federal role in 
regulating, overseeing driverless vehicles with respect to the 
questions I raised: safety, privacy, other issues that you 
mentioned?
    Mr. Anderson. Well, the Federal Highway Administration has 
had a number of meetings, national-level dialogues, and they 
have published autonomous vehicle guidance over the past 
several years. And that has served as a catalyst and an enabler 
to the States, especially those States that have moved forward 
on passing autonomous vehicle and connected vehicle-related 
laws. And I think that that has been a positive and natural 
relationship between the two.
    And to date, the regulation hasn't been necessary. However, 
the work that was being done on the previous autonomous vehicle 
bill mirrored, in many cases, our State's laws, and Michigan 
DOT's State's laws, and several others. There were very common 
themes in those, and it seemed like that was going in the right 
direction before. That didn't make it through the last session.
    Mr. Millar. And Congressman, if I could add to it, I am on 
the board of the Intelligent Transportation Society of America. 
And at AASHTO I cochair with the secretary from Delaware, the 
Cooperative Automated Transportation Coalition Executive 
Committee, which is a joint effort of AASHTO, ITS America, the 
Institute of Transportation Engineers, and FHWA and FTA are at 
both of those tables.
    When you look at the automated vehicle, the SAE level 4, 
level 5 vehicle that is 99.9 percent of the way there, a 
colleague of mine from Germany points out that--imagine you are 
climbing Mount Everest. If you fly to New Delhi, you are 99 
percent of the way there. If you fly from there to Kathmandu, 
99.9 percent. Go to the base camp, you still have to climb the 
mountain.
    Something that we are looking at, in terms of mobility, is 
the notion of mobility on demand, and the ability to say I am 
here, I want to go there, what are my options? You have trip 
planning done for you, you pick the trip you want to take, 
knowing the cost, knowing the time, knowing perhaps the 
environmental consequences or the health benefits, what have 
you. And then that app does the transactions for you and gives 
you the permissions to go where you are going.
    ITS America is standing up a mobility on demand alliance 
next month--in Seattle, because I am cochairing that effort. 
That kind of work is going on, and the Federal Government has 
been a great partner in that and in developing policy. We are 
working together to determine what are the questions that need 
to be asked and answered.
    We are hearing a lot from our friends in industry that--you 
know, start with a light touch, and that is what we are doing.
    But the conversations are ongoing. The Federal role is much 
appreciated. The seed money, the mobility on demand sandbox and 
other things that agencies are doing are helping make our jobs 
easier as we enter into this brave new world.
    Mr. Malinowski. Thank you.
    Ms. Norton. Mr. Payne?
    Mr. Payne. Thank you, Madam Chair.
    Mr. Stanley, in your testimony you discuss the economic 
benefits of transportation infrastructure investment. How can 
we better ensure that infrastructure projects benefit local 
economies?
    You know, I would specifically like your opinion on how we 
can ensure the inclusion of minorities, women, veterans, and 
other small businesses, as primes or subcontractors on these 
infrastructure projects, thereby creating a more diverse 
workforce.
    Mr. Stanley. Thank you, sir. Transportation projects are 
often--if you look at the breakdown of our members as 
associated general contractors, we are made up of some large 
companies, but a lot of them are smaller, family-owned or 
individual-owned businesses. A lot of those businesses will go 
out and are investing in capital and infrastructure to actually 
get those projects done.
    There is structure in place in the Federal projects right 
now, as you are aware, with the DBE program for disadvantaged 
business enterprises, and that has tended to work well in some 
areas. There are some improvements that we think that can be 
made to make it more accessible to others.
    There are some issues with the registration and situation 
with the DBE program. The cost, if you are a startup company to 
go into the registration process and to get certified, some of 
those things tend to be cost-prohibitive to some of those 
communities, as well.
    The second thing that we think needs to be done is--and we 
definitely advocate, there is diversity and inclusion through 
all levels of the construction process, not only just in the 
prime contract or the subcontractor, but what we see and what 
is--my experience personally has been--is that a lot of your 
DBEs haven't experienced the mid-level and high-level jobs in 
your major corporations. A lot of construction companies are 
actually started by people who have worked for larger 
businesses for 5, 10 years, learned the planning, the financial 
expertise, the scheduling expertise that are needed to make the 
process and the job go smoothly.
    So when minorities and people that are disadvantaged aren't 
in those positions in majority corporations, when they go out 
to start new companies, a lot of those skills aren't there. So 
I think the DBE supports services--things that the--that are in 
the Federal program now need to be taken advantage of more to 
help people that start the businesses with the tools to be 
successful.
    But then I think the diversity inclusion, which--AGC has a 
document that our board of directors has voted on and approved 
that calls for diversity inclusion throughout the process, not 
just meeting our DBE goals, but let's diversify our companies. 
Let's get more disadvantaged people or constituents through all 
levels of the construction process, from engineers to 
architects to business owners to project managers. And I think 
that will help the program be more successful over the future.
    Mr. Payne. And how do we--you feel the Federal Government 
can bolster and support that effort to ensure that the 
disadvantaged can meet the criteria needed in order to compete?
    Mr. Stanley. Right. So I think the oversight that is being 
done now through the DBE program is a good starting point. I 
mean, obviously, you need to have certain financial stability, 
and things of that nature. So that would be one of my main 
ways, I think, that--I would suggest that.
    Mr. Payne. OK, thank you.
    And Ms. McMillan, given all the new technological advances 
in transportation, such as with ride-sharing companies, how do 
we balance the new technology with local community needs, 
specifically with the potential displacement of local 
workforces?
    Ms. McMillan. Yes, I think that is an excellent question, 
Congressman. And part of certainly what we are doing in the San 
Francisco Bay area is aggressively bringing that consideration 
of impact on our historically underserved communities at the 
forefront of our planning.
    One of the things that we have recently engaged in, 
importantly, was a very detailed, 10-point plan housing 
analysis. Referring back to what I observed before, that the 
housing and transportation demands in our communities are 
inextricably linked, including the challenge of gentrification 
or displacement around a new piece of transportation 
infrastructure that suddenly makes a neighborhood much more 
viable.
    One of the things included in there were tenant protections 
and policies to--you know, to specifically speak to that need. 
The idea of identifying and preserving naturally affordable 
housing and not seeing it flip, in terms of that--of 
development that is happening around the areas, ensuring that 
affordable housing is incorporated not, you know, as a target, 
but a requirement as part of the development that happens in 
the areas around our transit stations. All of those elements 
need to come into play, I think, importantly.
    We are also recognizing a one-size-fits-all doesn't really 
work in those circumstances, understanding each community. We 
are seeing higher levels of poverty in our suburban areas, as 
well as traditionally urbanized pockets of economic distress.
    So I think maybe the answer to your question is bringing 
this in at the front end of the planning process, not at the 
back end, is the best way of identifying the problems and 
coming up with the solutions, and bringing the tools to bear to 
solve them.
    Ms. Norton. Thank you very much.
    Mr. Payne. Thank you, I yield back.
    Ms. Norton. Mr. Rouda?
    Mr. Rouda. Thank you, Madam Chairman.
    Hi, I am Harley Rouda, I am from Orange County, 
California's 48th District. And I appreciate all of you being 
here. And I also apologize that--we serve on multiple 
committees, so if I ask questions that have already been asked 
and answered, I apologize.
    I also want to thank Chairman DeFazio and Ranking Member 
Graves for having this hearing, because I do believe that 
infrastructure is a key component in our ability to fight 
climate change, and having this hearing is so important.
    As I mentioned, I am from California. California is known 
for many things, including its traffic. In fact, 16.9 percent 
of California's roads are in poor condition, 6.2 percent of our 
bridges are deficient, 53 percent of our dams are at high risk. 
So we recognize how important it is to have the interaction of 
the Federal Government work with States and local 
municipalities in addressing these issues.
    I want to read a couple facts with you and then get into 
some questions.
    It is shown that personal cars are unused 95 percent of the 
time. So a wasting asset 95 percent of the time. In densely 
populated cities like Los Angeles, 15 percent of urban land is 
used for parking, yet estimates by 2035 is that parking spaces 
will decline by 5.7 million square meters. If we get to a point 
where we actually have 90 percent driverless cars, it would 
result in $447 billion in savings and productivity.
    So if we assume for a minute that we had level 5 auto 
automation, supporting high levels of autonomous vehicles, we 
had ride sharing, we had mobility on demand as you mentioned, 
Mr. Millar, how is that going to impact--this is an open 
question for all of you--infrastructure design?
    Because if population is expected to grow by--your 
respective cities--by 25 percent in the next 25 years, that 
doesn't mean we need 25 percent increase in the highways, and 
so on, if we have these. So I am just curious how you guys are 
working this into your long-term planning for infrastructure.
    Mr. Nirenberg. Well, we are considering--and actually have 
been implementing--flexible plans for some of that 
infrastructure. You know, it is my dream one day that we built 
our last structured parking garage at some point. But as we 
build those structures, we are also considering future use in 
them, knowing that there is some time off.
    But it also really depends. I mean--and there is a great 
potential for urban recapture. And we know we have a great need 
for housing and things like that in our urban communities. But 
how we build the transition phase between where we are today 
and a more multimodal and perhaps autonomous future is very 
much in the balance. And that is why we are working towards 
better land use, coordinated with housing and transportation, 
and also including public transportation.
    Mr. Millar. Just to add to that, one of the things that we 
are hoping to see is more flexibility in the funding that comes 
to us to allow us to adapt to these things.
    A specific example, we are building bus rapid transit on 
the east side of the central Puget Sound area. The suburban 
mayors along that route come to the Sound Transit board that I 
sit on and beg for more park-and-ride. ``Give us more park-and-
ride, give us more park-and-ride.'' Fifty-thousand-plus a space 
to build those. The best park-and-ride is your own garage.
    [Laughter.]
    Mr. Millar. If we could invest money in working with the 
private sector, working with labor and public transit to get 
people from their home to the transit center----
    Mr. Rouda. Right.
    Mr. Millar [continuing]. And leave their car at home, we 
would be better off----
    Mr. Rouda. You would solve that problem.
    Mr. Millar. That land could be used for housing at the 
transit center, instead of parking cars.
    Mr. Rouda. And I know that is a whole other topic, and you 
started to touch on that, as well, the intersection of 
affordable housing and transportation.
    I also want to ask you, too, there is always a large debate 
about how to fund infrastructure needs, and whether it is a 
gasoline tax or miles traveled. And, you know, when we talked 
about miles traveled and congestion pricing, and with the 
growing use of ride-share ride apps and so on, don't we--there 
is always this question. Can we even measure miles traveled?
    And I believe we can, right now, to a large degree, with 
certain aspects of what we are seeing in these developing 
technologies and these ride-share techniques. Is that being 
discussed at your level on how to use those existing 
applications to help monitor miles traveled, and use that as a 
tax base?
    Mr. Millar. How to measure it is being discussed. A more 
interesting discussion is who measures it, and who shares it.
    We, as an agency--I have 9,000 sensors around Seattle alone 
measuring traffic volumes and traffic speeds. I know that data. 
We know that data--I don't have the technical experience--we 
know that data, we know how it has been generated, we know the 
problems with it. We have private-sector entities that are 
creating data from different places. We don't know as much 
about the black box that they use to turn that data into 
information.
    As this all evolves, a place where we could use some 
Federal guidance, some Federal support, is what are the 
relationships, what data gets shared, how does it get shared, 
how are trade secrets protected, how--if the public sector 
enables this to happen on its system, what do we get back from 
the private sector, in terms of the data streams that they 
collect?
    It is not just us at the DOT or the city or the county, 
there are lots of players in that. So what we measure is 
important, who measures it, and how we get access to that 
information is critically important.
    Mr. Rouda. Thank you, Madam Chairman.
    Ms. Norton. Thank you.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Madam Chair. I would like to go 
on a different route.
    Mr. Clark, thank you for highlighting the issue on assault 
on bus drivers. My legislation with Mr. Katko, H.R. 1139, the 
Transit Worker and Pedestrian Protection Act, requiring transit 
agencies to work with labor on implementing safety plans to 
protect bus driver assault, and also requires the transit 
agencies and the USDOT to collect better data on this growing 
problem, which is inadequate at times.
    And as you point out, anecdotal data from newspaper stories 
every day show it is a growing problem. It is discouraging new 
bus driver applicants. Can you further discuss how assaults on 
bus drivers--and the deterrent to hiring new drivers, 
especially when the new bus drivers get the dregs?
    Mr. Clark. Yes. Thank you. Thank you very much. Yes.
    I think, obviously, if the data is not collected 
nationally, obviously, it is known locally. And people--and 
stories spread. And you are right. You are absolutely right. 
Driving a bus is, under the best circumstances, a difficult 
job. And there used to be--if you are starting at $15 an hour 
20 years ago, that was an extraordinarily--that is about what 
the wage was 20 years ago, and that was an extraordinarily 
competitive wage in that labor market. It is much less so right 
now.
    And if the likely--if people--it is not likely, 
statistically it is not a likelihood. But if the specter of 
those attacks looms large, people will stay away.
    I applaud your bill because it--there may be barriers to 
the right answer, there may be other things with the right 
answer, but the Federal Government is not trying to mandate 
what the right answer is. The Federal Government is saying 
solve it at the level where you can solve it, and the 
represented workforce--or unrepresented workforce, as the case 
may be--and local management come together to plan around it. 
And I think that is a good model for training, that is a good 
model for labor relations in transit, that is a good model 
for--the safety management system that is being implemented 
rests on that involvement of that front-line workforce. And I 
think your bill addresses that well.
    Mrs. Napolitano. Thank you, sir.
    And Ms. McMillan, I recall meeting you when you were in 
Federal Transit Administration a while ago, and when you worked 
at the L.A. Metro. We will miss you in L.A., but 
congratulations, ma'am, for your new role. I want to ask you 
about the ability of local transportation agencies to hire 
local workers.
    The Trump administration budget calls for more State and 
local investment in transportation, but prohibits local 
governments from hiring local preference on infrastructure 
projects. Most taxpayers believe that when you are--they are 
paying for a public transportation project, they should be 
given a preference on jobs associated with that project.
    As a local transportation leader, do you believe that you 
and other local transportation agencies should be allowed to 
set a local hire preference for your citizens? And how can this 
Federal law hinder those local hiring?
    Ms. McMillan. I want to be careful, Congresswoman, to speak 
to my experience, where there was a very clear, you know, 
position there. But I think the intent behind it and the spirit 
behind it would extend to many other communities.
    As we build our infrastructure, it has impacts on the 
communities. It brings a lot of benefits, in terms of access to 
opportunities, and it also can have--at least certainly while 
it is happening--a major impact on the local businesses and a 
number of other things.
    One of the ways of giving back to the community and having 
them be able to own and buy into the entire life package of 
that project would be to have those employment opportunities 
offered to community members. And I think, in this case, we 
want the option to be available. For communities that want to 
do that, where they see a powerful benefit in giving back to 
their community in a number of different ways with these 
investments, that should be on the table. I think it is the 
option to have that available for communities that want to use 
it is where, I think, the core of certainly the pilot program 
that was done, you know, with FTA.
    And when I was with Los Angeles, that was something that 
was incredibly important to them, and they grabbed it. And so 
the option is the importance.
    Mrs. Napolitano. Thank you very much.
    Anybody else?
    Ms. Norton. There is going to be a vote between 1 o'clock 
and 1:30, so I would like to get everybody in.
    Mr. Stanton?
    Mr. Stanton. Madam Chair, thank you for hosting this 
hearing, having these outstanding representatives from a broad 
range of industry on this important topic. And yes, I will try 
to keep it tight so we can get to our votes, which are very 
important.
    Before serving in Congress--I am a freshman Member--I was 
mayor of Phoenix, Arizona, one of the fastest growing cities in 
America, kind of like San Antonio. And so the dynamic in a lot 
of communities, where the urban center wants more money for 
transit, and the suburban communities want more money for roads 
and highways, that kind of gets turned on its head in a city 
like Phoenix, where, as a mayor, you got to be supportive of 
all of it, because we are over 500 square miles, but a growing 
center city.
    So we passed a major infrastructure investment plan that 
did have--tripling the amount of money for our light rail 
system, increasing support for our bus and bus rapid transit 
system, bikeability, walkability, and more money for roads on 
the more suburban parts of our community.
    And, Mayor, I am sure it is very similar to what is going 
on in San Antonio, also one of the fastest growing. So I want 
to get your thoughts, you know, as we make important decisions 
in this committee, about a transportation infrastructure 
investment plan for America. For a city like yours, thinking 
beyond roads and bridges, what kind of investments are you 
looking for?
    Mr. Nirenberg. Yes, well, I certainly appreciate your 
perspective, Congressman. And absolutely right. I think there 
is urban/rural issues at play here.
    But what we found--and there is a great study by the 
National League of Cities that shows that when we have a proper 
balance, the results create great synergies for everybody, 
including, you know, supply chains from the economic 
development side to more quality of life for those who seek to 
live inside or outside of the city.
    We are seeking a balanced approach to multiple modes of 
transportation, and sustainable sources of funding that 
recognize the local leveraging that is taking place already. We 
applaud the work of our Congress on many things, including 
fully funding transit projects in years past. We would like to 
see a return to that.
    We are also working on partnerships with regard to new 
technologies and how we regulate those technologies, and 
autonomous vehicles comes up, and making sure that we have 
respective local authorities when it comes to, you know, 
regulating the design and maintenance of traffic infrastructure 
and traffic management systems, and so forth.
    You have a partner in local governments, because we 
represent the same constituents who have the same concerns and 
who rely, from an equity standpoint, on an efficient 
transportation system.
    Mr. Stanton. I appreciate you saying that. You haven't had 
as good of a partner as cities deserve in the Federal 
Government over the last few decades, where the support for 
projects like what you described have been eroding. Both of our 
cities have grown so fast, but at a period of time when Federal 
support has been going in the opposite direction, which has 
forced cities like ours more and more to kind of go it alone.
    Phoenix first passed our transit election in the early 
2000s. We came to the table with 50 percent support for the 
project. When I was mayor just a few years ago we went to the 
voters to do that significant infrastructure investment. We 
calculated that we would only get a 30-percent match from the 
Federal Government, 70 percent for the local government. We are 
not going to keep up with infrastructure in America if the 
Federal Government doesn't up its game, if you will, and be a 
much better partner to local government. So I really appreciate 
your perspective.
    Mr. Nirenberg. Yes, and I would just add we are working on 
our first-ever rapid transit system. You had great city 
management there in Phoenix to bring that online. We do, too, 
here, in San Antonio. But we are working on our first-ever 
rapid transit system in San Antonio.
    I can tell you that my community will pass it. We are going 
to bring it to the ballot in 2020 if we can show that we have 
funding available long-term to make it happen. And that is only 
going to be--that can only happen if we have a partner in the 
Federal Government.
    Mr. Stanton. That is great. And one final question. I don't 
know if we have had a chance to talk about public-private 
partnerships. For a lot of mayors, sometimes the mirage of 
public-private partnerships versus the reality--so maybe, Mr. 
Stanley, you may be the best one on the panel to talk a little 
bit about--in addition to the funding that cities deserve from 
this Federal Government when it comes to major infrastructure 
and transportation projects, looking at also opportunities for 
public-private partnership. Because, as a practical matter, 
that is the only way we are going to get a bipartisan bill. And 
I think we need to get a bipartisan bill to make this happen.
    Mr. Stanley. Thank you, sir. So I think the issue of 
public-private partnerships is much like the other issues that 
have been discussed today. It should just be one of the tools 
in the toolbox.
    I think the outstanding and the ongoing commitment of the 
Federal Government to the highway program and transportation 
program is still the main key. But still, having the public-
private partnerships is a tool to allow some private investment 
where it makes sense.
    And so, some of the issues you have with a public-private 
partnership are in some of the transportation modes in transit 
and things like that, that are not financially sustainable. You 
are not going to get public-private partnerships to take on 
those projects. So you are--still have to have that Federal 
investment. But there are some things--toll roads, toll 
bridges--where the public-private partnerships make sense. And 
so, allowing that to be a tool in the tool kit is important.
    Mr. Stanton. Thank you very much.
    Madam Chair----
    Ms. Norton. Thank you.
    Mr. Stanton [continuing]. I ask for consent to enter into 
the record a letter from my friend, the mayor of Tempe, 
Arizona, which is now in my district, as well, lamenting the 
lack of a strong Federal partner in public transportation, and 
we need more of it. So I would like to enter it into the 
record.
    Ms. Norton. So ordered.
    [The information follows:]

                                 <F-dash>
    Letter from Mark W. Mitchell, Mayor, City of Tempe, AZ, et al., 
                Submitted for the Record by Hon. Stanton
                                                  February 1, 2019.
Hon. Greg Stanton
U.S. House of Representatives, 128 Cannon HOB, Washington, DC 20515
    Dear Representative Stanton:
    As leaders in the City of Tempe, Arizona and the National League of 
Cities, we are writing today to ask for your commitment to address one 
of our country's most pressing challenges--rebuilding America's 
infrastructure. As we emerge from an extended partial government 
shutdown and return to a working, stable federal government, we are 
joining leaders from the 19,000 cities, towns and villages across the 
country calling on our federal leaders to not repeat this crisis and to 
work in a bipartisan manner to pass comprehensive legislation that 
rebuilds and reimagines America's infrastructure in partnership with 
local governments.
    Infrastructure investments are the foundation that connects us as a 
country, improves the quality of life for our residents, supports jobs 
for thousands of workers, strengthens our nation's economic 
competitiveness, and keeps our communities safe. Unfortunately, the 
federal partnership for infrastructure investments has eroded over the 
last two decades, putting America at risk of falling behind on an ever-
increasing list of potential hazards that undermine our economy and 
threaten our standard of living. Today, our transportation network is a 
knot of congestion and disrepair, our broadband lags behind other 
countries and families drink from bottled water in the absence of safe 
tap water. Moving a bipartisan infrastructure package would demonstrate 
to the country that Congress is focused on delivering results that will 
improve the daily lives of our constituents.
    Cities like ours will continue doing our share, but it is time for 
Congress to act and rebuild with us. Across the country, much of our 
infrastructure is at a breaking point. We need a strong federal-local 
partnership to upgrade the 100-year-old leaking pipes, to replace the 
50-year-old crumbling bridges and to install modern and resilient 
solutions for the next 100 years. Congress must prioritize a long-term 
infrastructure plan early in 2019 that will work holistically to 
improve our nation's water, broadband, and transportation systems and 
create well-paying jobs for our nation's workforce that will build and 
maintain these important assets.
    For our economy and for our future, addressing America's 
infrastructure challenges is a shared priority in 2019. We look forward 
to meeting with you soon to discuss how we can work together.
        Sincerely,
                    Mark W. Mitchell, Mayor
                    Robin Arredondo-Savage, Councilmember
                    Joel Navarro, Councilmember

    Ms. Norton. Ms. Finkenauer?
    Ms. Finkenauer. Thank you, Madam Chair, and thank you all 
for being here today. This is, obviously, an incredibly 
important topic for States all over the country. And one of the 
things I want to touch on came up in my time as a State 
representative in Iowa.
    See, I sat on the transportation committee for 3 years in 
Iowa in my 4 years in the statehouse. And, you know, I remember 
looking back on 2016 and the idea that we heard from the 
administration, our current administration now, and Democrats, 
and Republicans all across the country talking about caring 
about the same things, like Made in America and making sure our 
workers are paid fair wages and we have opportunities for 
working-class families. We heard that again across all sides of 
the aisle.
    However, you can imagine my surprise, then, just a few 
months later, when I went back to the statehouse in early 2017 
and I was sitting on the transportation committee, and one of 
the first bills that gets brought up was H.F. 203. And it was a 
bill that would authorize the use of primary road funds for 
secondary road funds, and--I mean and municipal systems.
    So, basically, this was a tool to bring in the Federal 
dollars that would typically have gone just directly to our 
cities and our counties, which would have Davis-Bacon and Made 
in America attached to them, instead go through our State 
first--and I am from Iowa, where we do not have prevailing wage 
or Made in America provisions--and then those dollars would go 
out to our cities and our counties. You can imagine my concern, 
and the concern of a lot of the folks that I worked with in 
Iowa.
    Now, you know, I know one of the arguments was that our 
cities and our counties needed the help, especially with the 
paperwork and, you know, what comes with that for getting 
Federal dollars. And I want to make sure that we are addressing 
that, making that easier for our cities and our counties to be 
able to--regardless if you are in a big city or in a rural 
community--to access those dollars. And I want to know if there 
is anything that you guys are looking at to be able--so that we 
should be adding to this transportation bill to make sure that 
we do that.
    Secondly, I want to know if you have any ideas--
specifically, Mr. Clark or Mr. Millar, I know this may be 
something that you have looked into a little bit--about how do 
we make sure that if we are making a very large investment in 
Federal dollars going out to our States, which I hope we are 
doing--we desperately need it--how do we make sure that those 
dollars are 100 percent then going with those Davis-Bacon 
provisions and also those Made in America provisions?
    Because, quite frankly, our economy depends on it. Our 
States depend on it. And I just want to make sure that we are 
doing this the right way.
    So if you all have any comments, I would appreciate that.
    Mr. Clark. I think that is an excellent question, thank 
you.
    Some of it is just insisting on things like Davis-Bacon. 
But I think there is a larger set of issues here. People have 
talked about ride-handling services a lot. There was a piece in 
the Washington Post op-ed page just a couple of days ago that 
was amusing, but also very instructive, written by--I think, I 
believe--by a writer from the Cato Institute, which is a fairly 
conservative group of people. And her point was--she told a 
story about people selling their cars because they are going to 
rely on the ride-handling services, saying that just isn't 
going to work.
    And her ultimate point was the ride-handling services are 
losing money hand over fist, and they are doing it because they 
have got deep venture capital pockets to support it. But in the 
meantime, they are depressing the wages of what traditionally 
were not great jobs, but decent jobs for taxi drivers and other 
kinds of people.
    I don't know what the answer is for the Federal 
Government's role there, but I think we have got to pay 
attention, because there--you are absolutely right, there are 
lots and lots of forces driving us to race to the bottom, in 
terms of working-class living standards.
    And transportation traditionally has been a sector where 
people make a decent living. And I think the Federal Government 
needs to look carefully at how we make sure transportation 
continues to provide decent livings for people, and it doesn't 
become how we play a beggar-thy-neighbor policy to drive 
working-class living standards down further and further to 
provide an inexpensive utility to middle-class people.
    Ms. Finkenauer. Thank you.
    And Mr. Millar, do you have anything to add, especially in 
regards to the State part of it?
    Mr. Millar. Well, I would, one, what Mr. Clark said.
    And I think what we look at--quite often we are asked by 
local governments, ``Would you take the Federal money that we 
get--because it is so difficult to administer, would you take 
it and spend it at the State level and send State money to 
us?'' The problem we have is that we need our State dollars to 
match the Federal dollars that comes to us. You know, it is--
there--it is a very constrained pot of money.
    I think with--what comes to us from the Federal Government 
comes to us with Davis-Bacon, you know, Buy America. Those 
provisions are in it. The State money that we have--we have 
many of the same provisions. We don't have that particular 
issue.
    I think it is important that we are all contributing--
again, the partnership, the Federal, the State, the local--and 
I would encourage you to look at it maintenance of effort. We 
are investing heavily, as the State. You know, our gas tax has 
gone up. We are making heavy investments. If more Federal money 
comes, that doesn't give us the ability--it shouldn't give us 
the ability to take our foot off the throttle. We need to be 
doing that, and the local government needs to be doing that, as 
well. We are today. Increased Federal investment should come 
with an assurance that State and local partnership is going to 
maintain its--be in place.
    Ms. Norton. Thank you very much.
    Ms. Finkenauer. Thank you, I appreciate it.
    Ms. Norton. Finally, Mr. Allred.
    Mr. Allred. Thank you, Madam Chair. And I guess we have 
saved the best for last.
    [Laughter.]
    Mr. Allred. I wanted to just begin by thanking my fellow 
Texans for being here. I have the honor of representing the 
only donor State to the highway fund, the great State of Texas, 
and Dallas, in particular.
    Mayor Nirenberg, I want to thank you for being here as a 
representative of the second best city in Texas.
    [Laughter.]
    Mr. Allred. I have questions for all of you, but we don't 
have enough time to get into it. And I want to thank you for 
your testimony. I have read through all of your written 
testimonies, and this has been a very informative hearing, and 
I think that it is an important one for us to talk about, where 
we are going from here.
    Dallas is, like San Antonio, one of the most rapidly 
growing cities in the country. We have all of the issues that 
have been talked about here today. We are urban, suburban, we 
have congestion. I think we are the seventh most contested city 
in the country now. We have some exciting things that are going 
on with DART, which is doing, I think, a very good job.
    And we also have, of course, TxDOT and the Texas Innovation 
Alliance, which has done some great work, Mr. Anderson, so 
thank you for all of your hard work.
    I wanted to quickly get into your written testimony, where 
you mentioned the Federal Highway Administration's automated 
driving systems demonstration grant program. And I just wanted 
to see if you could describe some of the projects that the 
alliance would like to pursue, if you are awarded that grant.
    Mr. Anderson. Well, I talked about, as a whole, the 
alliance has been working in addition to several other 
technologies, and relative to solutions or challenges that they 
had. But autonomous vehicles are a part of that.
    And across many of the cities in Texas--and, as I mentioned 
earlier in my testimony, starting with the passage of senate 
bill 2205, which opened the doors for that innovation in the 
State--all of those cities have been looking at first- and 
last-mile solutions, looking at movement on universities, 
movement between universities and housing areas, medical center 
movement for--especially for disabled or elderly that need to 
move in and around, for example, Houston and some of Dallas' 
medical complexes, and who can't do the walking, for example.
    And they are also looking at freight movement, both within 
the urban areas and then moving, you know, outside of the urban 
areas along our corridors. So several of those.
    We know that we are going to have many of those actually 
happening in the next year, beyond the ones that currently are 
occurring in Arlington and Frisco, where we have circulators of 
autonomous vehicles. In the case of Arlington, it is in the 
entertainment district, and in the Frisco area it is between a 
business district and a restaurant area, and it is limiting the 
amount of vehicles that have to be moving nearing lunch time, 
and things like that.
    But also in Austin, San Antonio, Houston, Bryan-College 
Station, Coastal Bend area, and El Paso, they all have either 
microtransit solutions or circulator routes that they are 
looking to deploy in the next year. And all of those are a part 
of that proposed autonomous driving system grant.
    Mr. Allred. Right.
    Mr. Anderson. They are offering those to be data sets for 
what is happening--you know, not a pilot, but something that is 
happening now, and providing that data to the Federal highways.
    Mr. Allred. Thank you, Mr. Anderson.
    Mr. Terry, I am interested in how you increased ridership. 
I know you discussed it briefly previously there. As I have 
spoken with our DART officials, obviously, that is the 
challenge for our local regional transit folks. And if you 
could, just very quickly go into how you approach doing that.
    Mr. Terry. Sure, thank you. It is putting the frequency, 
the reliability that people can count on, the hours of service. 
We are focusing on the density, where the employment centers 
are.
    Mr. Allred. Did you have to decrease the area that you were 
serving to get that----
    Mr. Terry. We have an increase of local funding through a 
referendum to support. And we were increasing our system by 
over 70 percent. But it is not adding a lot of more routes, it 
is more focusing on that frequency----
    Mr. Allred. Right.
    Mr. Terry [continuing]. The hours, and the--starting 
earlier every route, every day. So now you have that 
dependability that people can count on. And when you have the 
frequency--we are creating a 15-minute frequency grid that 
feeds into, eventually, three rapid transit corridors--people 
start using it.
    So we already invested in several routes this past year 
with some of the new funding, and immediately we started seeing 
an increase in ridership. So it is starting to validate our 
planning.
    Mr. Allred. Well, thank you. I think when we say frequency, 
we should also say just convenience.
    Mr. Terry. Yes.
    Mr. Allred. And Mr. Mayor, just really quickly, you talked 
about the importance of the Federal Government investing in 
regional transportation solutions in your written testimony. We 
have a promising high-speed rail project between Dallas and 
Houston. Probably get San Antonio in on that, eventually. If 
you could, just very quickly, just touch on how that would be 
helpful.
    Mr. Nirenberg. Yes. Well, the regional rail between Austin 
and San Antonio has been a long sought-after dream. We have had 
a couple of committees, organizations set up to support it. But 
we really are reliant on leveraging existing infrastructure in 
the corridor.
    But certainly that project is not going to be enabled 
unless we have Federal support, so it is vital to our State's 
economy, as you know. The Texas Triangle is where our State's 
economy runs, will for the foreseeable future. And Texas is one 
of the leading economies in the world now, so it is very 
important for us in our economic sustainability to see that 
corridor connected with something other than just our highway 
system.
    Mr. Allred. Thank you, Madam Chair.
    Ms. Norton. Thank you very much for that answer. And I want 
to thank each and every one of the witnesses for this 
informative testimony. We have kept you a long time, but we 
have learned a lot, if that is any recompense.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing, and unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    If no other Members have anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 1:23 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              


     Letter from Shailen P. Bhatt, President and CEO, Intelligent 
  Transportation Society of America, Submitted for the Record by Hon. 
                                 Norton
                                                    March 13, 2019.
Hon. Eleanor Holmes Norton
Chair
Hon. Rodney Davis
Ranking Member
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC 
        20515
    Dear Chair Norton and Ranking Member Davis:
    In anticipation of the Subcommittee on Highways and Transit 
upcoming hearing entitled ``Aligning Federal Surface Transportation 
Policy to Meet 21st Century Needs,'' the Intelligent Transportation 
Society of America (``ITS America'') urges the Subcommittee to 
prioritize the research and deployment of intelligent mobility and 
smart infrastructure in the reauthorization of Fixing America's Surface 
Transportation (FAST) Act and an infrastructure package.
    This hearing takes place at an important time. Just as 
transportation infrastructure was critical to the development of our 
economy in the 20th century, maintenance of existing infrastructure and 
deployment of intelligent mobility and smart infrastructure will be 
critical for our global competitiveness in this century. Advances in 
robotics, artificial intelligence, and wireless communications have 
inspired a race to make the next generation of transportation and 
infrastructure a reality. We are entering a technology revolution that 
will define the way people, goods, services, and information move in 
the 21st century. Part of that revolution includes new technologies 
that allow freedom of movement for those who have limited mobility 
access, such as people with disabilities, older adults, and people 
living in transit deserts. And most importantly, these technology 
advancements will finally help us begin to reduce the epidemic of 
fatalities on our roadways.
    Members of ITS America are state and city departments of 
transportation, metropolitan planning organizations, automotive 
manufacturers and suppliers, technology companies, engineering firms, 
and research universities. We are united around a shared vision of a 
better future transformed by intelligent mobility that is safer, 
greener, and smarter. ITS America looks forward to working with you on 
a FAST Act reauthorization and an infrastructure package that increases 
federal commitments to intelligent transportation technologies that 
save lives, improve mobility, promote sustainability, and increase 
efficiency and productivity.
    ITS America is developing our FAST Act reauthorization policy, 
which we look forward to sharing with the Subcommittee early this 
summer. In the meantime, the following are our high-level 
transportation infrastructure policies that will frame the 
association's FAST Act reauthorization platform:
    FAST Act Reauthorization: In the 20th century, transportation was 
about moving cars. In the 21st century, the transportation landscape is 
rapidly evolving. New forms of mobility are being deployed even as 
others are being developed. A century ago with the invention of the 
car, Departments of Roads were created to deal with this new form of 
transportation. Those agencies are now Departments of Transportation, 
having grown to include other modes of transportation. Now those same 
agencies need to evolve again to provide seamless mobility. Instead of 
just moving cars, transportation is about moving people, data and 
freight. To keep pace with these advances in technology, which are 
transforming transportation, ITS America supports a FAST Act 
reauthorization that prioritizes federal policy and programs that make 
intelligent transportation deployment the rule rather than the 
exception and provides federal funding that encourage the rapid 
deployment of intelligent transportation technologies.
    Increase Federal Investment in Transportation by Prioritizing 
Safety through Research and Deployment of Intelligent Mobility and 
Smart Infrastructure: Support increased revenue for intelligent 
mobility and smart infrastructure; ensure the solvency of the Highway 
Trust Fund; and transition to long-term and sustainable revenue for 
America's transportation system. Only with such certainty will the 
nation finally see the research and the large-scale transformational 
deployments of intelligent transportation technologies--and most 
importantly, finally help us begin to reduce the epidemic of fatalities 
on our roadways.
    Saving the Spectrum for Transportation Critical Safety 
Communications: New and developing vehicle to everything (V2X) 
technology that depends on the 5.9 GHz band is allowing us to finally 
address the lives lost and ruined on our nation's roads. Our members 
are actively developing and deploying such technologies, which send 
hazard alerts to vehicles, bicyclists, pedestrians, and traffic lights. 
These technologies can also enhance automated driving systems, which 
hold the promise to provide numerous economic, environmental, and 
societal benefits, such as decreased congestion and fuel consumption, 
and increased access for the elderly and disabled. These safety 
innovations require dedicated spectrum to ensure they work every time 
without signal interference. Millions of dollars have already been 
invested in this effort, including incorporating connected vehicle 
technologies into infrastructure by states and cities. ITS America 
strongly supports preserving the entire 5.9 GHz band for transportation 
safety applications. Speed matters when safety information is involved; 
sharing the band could compromise the speed and put lives as risk. With 
all the advancements and technology deployments, we are finally on the 
cusp of turning the corner to reduce deaths, but we need the spectrum 
to do that.
    Increase Buildout of Alternative Fuel Vehicle Infrastructure: 
Transportation is now the largest source of carbon emissions in the 
United States, and carbon emissions from cars and light trucks account 
for almost one-sixth of the nation's total emissions. ITS America 
supports policies in the transportation infrastructure sector that will 
help reduce transportation emissions. Given that automakers are 
committing to alternative fuel vehicles that will reduce greenhouse gas 
emissions, ITS America supports standalone legislation and language in 
the reauthorization of the FAST Act and an infrastructure package that 
would provide increased federal funding to rapidly buildout alternative 
fuel vehicle infrastructure and new technologies such as inductive 
charging to speed the deployment of electric vehicles.
    New Technology Grants to Support Congestion Relief: ITS America 
urges Congress to create a new emerging technology grant program to 
support congestion relief in metropolitan and urban cores as well as 
heavily traveled regions and freight corridors. Eligible projects would 
include capital and operational investments that improve system safety 
and performance such as priced-managed lanes; transportation demand 
management programs; strategic transit investments; advanced parking, 
freight delivery, and incident management systems; and programs to 
support the deployment of connected and autonomous vehicles, including 
vehicle-to-vehicle and vehicle-to-infrastructure communications 
technologies.
    Mobility on Demand: Mobility on Demand (``MOD'') facilitates a 
transportation ecosystem in which consumers can research, book, and pay 
for all parts of their daily journeys--no matter the form of 
transportation (e.g., transit, rideshare/bikeshare, personal vehicles, 
micromobility, etc.)--on one integrated platform accessible on request. 
Developing the policy conditions for MOD to flourish will better enable 
consumers to identify and use the transportation options that best meet 
their mobility needs at any time. MOD promotes societal benefits such 
as a less congested, less costly, and more sustainable transportation 
system. Leveraging the insights gained from MOD data, new business 
models can be developed to enhance mobility and address unmet 
transportation needs. ITS America advocates for policies that promote 
MOD and remove roadblocks that limit or restrict federal funding for 
MOD and supports an increased national commitment to public transit as 
it will be a key component in any successful implementation of MOD. To 
that end, ITS America supports policies that promote arrangements 
between public transit agencies and other shared modes of 
transportation to help promote first mile/last mile solutions as well 
as policies that foster alternative transportation modes. Additionally, 
we support increased funding levels for the MOD Sandbox program 
administered by the FTA Office of Research, Demonstration and 
Innovation.
    We look forward to working with the Subcommittee on Highways and 
Transit on a reauthorization of the FAST Act and an infrastructure 
package that prioritize investments in intelligent mobility and smart 
infrastructure.
        Sincerely,
                                          Shailen P. Bhatt,
   President and CEO, Intelligent Transportation Society of America
    The ITS America Board is represented by the following companies: 
AAA, AECOM, Arizona Department of Transportation, California Department 
of Transportation, California PATH UC Berkeley, Conduent, Central Ohio 
Transit Authority, Crown Castle, Cubic, Delaware Department of 
Transportation, District of Columbia Department of Transportation, 
Econolite, Ford Motor Company, General Motors, Gridsmart, HELP, Inc., 
HNTB, Iteris, Kapsch TraffiCom North America, MCity, Michael Baker 
International, San Francisco Bay Area Metropolitan Transportation 
Commission, National Renewable Energy Lab, New York City Department of 
Transportation, Panasonic North America, Pennsylvania Department of 
Transportation, Qualcomm, Southwest Research Institute, State Farm 
Insurance, Toyota, Texas Transportation Institute, Utah Department of 
Transportation, Washington State Department of Transportation.

                                 <F-dash>
 Letter from James D. Ogsbury, Executive Director, Western Governors' 
          Association, Submitted for the Record by Hon. Norton
                                                    March 11, 2019.
Hon. Eleanor Holmes Norton
Chair
Hon. Rodney Davis
Ranking Member
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC 
        20515
    Dear Chair Norton and Ranking Member Davis:
    Terrain and landownership patterns in the West underscore the 
purpose and vital need for a federal role in surface transportation. 
Western states are responsible for vast expanses of national highways 
and interstates that serve as critical freight and transportation 
routes for the nation. The infrastructure in the region, especially in 
rural areas, is under strain from increased movement of goods and 
people and from underinvestment in infrastructure needed to keep pace 
with this growth and change.
    Thank you for examining this important topic at the Subcommittee's 
March 13 hearing on Aligning Federal Surface Transportation Policy to 
Meet 21st Century Needs. To inform your consideration of this subject, 
I request that the Subcommittee include the following attachments in 
the permanent record of the hearing:
    <bullet>  WGA Policy Resolution 2018-06, Transportation 
Infrastructure in the Western United States, which emphasizes the 
importance of a state-federal partnership in improving our nation's 
surface transportation and of a long-term federal funding mechanism for 
the maintenance and expansion of surface transportation networks.
    <bullet>  WGA Policy Resolution 2018-15, Modernizing Western 
Infrastructure, which sets forth the Western Governors' support for 
more efficient infrastructure permitting and environmental review 
processes without shortening timelines for state input and consultation 
or compromising natural resource, environmental, or cultural values. 
Early, meaningful and ongoing state consultation on infrastructure will 
help prevent delays, reduce duplication, and streamline the process.
    Thank you for your consideration of this request.
        Sincerely,
                                          James D. Ogsbury,
                 Executive Director, Western Governors' Association
    Attachments
Policy Resolution 2018-06--Transportation Infrastructure in the Western 
                             United States
A. Background
    1.  The American West encompasses a huge land mass representing 2.4 
million square miles or over two-thirds of the entire country. Over 116 
million people live in these states and they reside in large, densely 
populated cities, smaller cities and towns and in rural areas.
    2.  Perhaps more than any other region, terrain and landownership 
patterns in the West underscore the purpose and vital need for a 
federal role in surface transportation. Western states are responsible 
for vast expanses of national highways and interstates that often do 
not correlate with population centers but serve as critical national 
freight and transportation routes for the nation.
    3.  Western states ports are national assets, moving needed parts 
and retail goods into the country, while also providing the gateway for 
our nation's exports. Although they benefit the entire country, the 
financial burden of developing, expanding and maintaining them to meet 
the demands of growing trade is almost entirely borne at the state and 
local level.
    4.  Jobs, the economy and quality of life in the West depend on 
high quality transportation infrastructure that efficiently, 
effectively and safely moves goods and people. Western transportation 
infrastructure is part of a national network that serves national 
interests. Among other things, transportation infrastructure in the 
West: moves agricultural and natural resource products from source to 
national and world markets; carries goods from western ports on western 
highways and railroad track to eastern and southern cities; and enables 
travelers to visit the great National Parks and other destinations in 
the West.
    5.  The transportation and transit needs in the West differ 
significantly from our eastern counterparts. Western states are 
building new capacity to keep up with growth, including new 
interstates, new multimodal systems including high-speed passenger rail 
and transit systems and increased capacity on existing infrastructure.
    6.  The infrastructure in the region is under strain from both 
increased movement of goods and people and from underinvestment in 
repair and new infrastructure needed to keep pace with this growth and 
change.
    7.  The vast stretches of highways and railroad track that connect 
the West to the nation do not have the population densities seen in the 
eastern United States.
    8.  Raising private funds to carry forward infrastructure projects 
in the rural West will be extremely challenging. The low traffic 
volumes in rural states will not support tolls, even if one wanted to 
impose them. Projects in rural areas are unlikely to generate revenues 
that will attract investors to finance those projects, even if the 
revenues are supplemented by tax credits.
B. Governors' Policy Statement
    1.  Western Governors believe there is a strong federal role, in 
partnership with the states, for the continued investment in our 
surface transportation network--particularly on federal routes and in 
multimodal transportation networks throughout the West that are 
critical to interstate commerce and a growing economy. These routes and 
networks traverse hundreds of miles without traffic densities 
sufficient to either make public-private partnerships feasible or allow 
state and local governments to raise capital beyond the historic cost 
share.
    2.  Western Governors believe the current project decision-making 
role of state and local governments in investment decisions should 
continue. Western Governors desire additional flexibility to determine 
how and where to deploy investment in order to maximize the use of 
scarce resources.
    3.  Western Governors believe regulation accompanying Federal 
Transportation programs should be reduced by expediting project 
delivery and streamlining the environmental review process without 
diminishing environmental standards or safeguards.
    4.  Western Governors believe that a viable, long-term funding 
mechanism is critical to the maintenance and expansion of our surface 
transportation network and encourage Congress to work together to 
identify a workable solution that adequately funds the unique needs of 
the West.
    5.  Western Governors believe in enhancing the ability to leverage 
scarce resources by supplementing traditional base funding by creating 
and enhancing financing mechanisms and tools that are appropriate for 
all areas of the United States, including those with low traffic 
densities where tolling and public private partnerships are not 
feasible.
    6.  Western Governors believe using the historic formula-based 
approach for the distribution of funds would ensure that both rural and 
urban states participate in any infrastructure initiative and it would 
deliver the benefits of an infrastructure initiative to the public 
promptly.
    7.  Western Governors believe the Highway Trust Fund (HTF) and the 
programs it supports are critically important to success in efforts to 
maintain and improve America's surface transportation infrastructure. 
Currently, the HTF will not be able to support even current Federal 
surface transportation program levels and will not meet the needs of 
the country that will grow as the economy grows. Congress must provide 
a long-term solution to ensure HTF solvency and provide for increased, 
sustainable federal transportation investment through the HTF.
    8.  Western Governors strongly encourage western states port 
operators and their labor unions to work together to avoid future work 
slowdowns by resolving labor issues well before contracts are set to 
expire. In recent years protracted disagreement in bargaining between 
parties has had an adverse impact on the American economy that should 
not be repeated.
    9.  Western Governors believe modern ports infrastructure is 
essential to strong national and western economy and urge Congress to 
fully fund the Harbor Maintenance Trust Fund and to reform the Harbor 
Maintenance Tax to ensure western ports remain competitive. 
Furthermore, Western Governors believe the Federal government must work 
collaboratively with states, along with ports, local governments and 
key private sector transportation providers like the railroads, to 
ensure the necessary public and private investments to move imports and 
exports efficiently through the intermodal system.
C. Governors' Management Directive
    1.  The Governors direct WGA staff to work with Congressional 
committees of jurisdiction, the Executive Branch, and other entities, 
where appropriate, to achieve the objectives of this resolution.
    2.  Furthermore, the Governors direct WGA staff to consult with the 
Staff Advisory Council regarding its efforts to realize the objectives 
of this resolution and to keep the Governors apprised of its progress 
in this regard.
     Policy Resolution 2018-15--Modernizing Western Infrastructure
A. Background
    1. Western states depend on a safe, reliable and resilient network 
of infrastructure to move goods, people, energy, and agricultural 
products to meet growing demands across our nation and world. 
Investments to modernize our state's infrastructure, including ports, 
water systems, bridges, pipelines, highways, airports, electric 
generation and transmission, communications facilities, recreational 
assets and railways not only support the economic well-being of our 
communities, they also serve to position our economies to attract and 
retain investment through maintaining our competitive advantage in a 
growing global marketplace. Because a significant portion of the West 
is federally-owned, federal processes impact the region's 
infrastructure.
    2.  Modernizing and maintaining the West's network of 
infrastructure relies upon permitting and review processes that require 
close coordination and consultation among state, federal and tribal 
governments. State and federal coordination is necessary to ensure that 
infrastructure projects are designed, financed, built, operated and 
maintained in a manner that meets the needs of our economies, 
environment, public health, safety and security. Early, ongoing, 
substantial, and meaningful state-federal consultation can provide 
efficiency, transparency, and predictability for states, as well as 
prevent delays, in the federal permitting and environmental review 
process.
    3.  Western Governors applaud the principles and intent of the 
National Environmental Policy Act (NEPA) which, since its enactment in 
1970, has required that federal agencies consider how proposed federal 
actions may impact natural, cultural, economic and social resources for 
present and future generations of Americans. The process by which NEPA 
is implemented has been defined over time through regulations and 
guidance issued by the Council on Environmental Quality (CEQ).
    4.  Congress recognized the need for improved state-federal 
coordination in the NEPA process in the Fixing America's Surface 
Transportation (FAST) Act, passed in December 2015, which implements 
reforms regarding cooperating agency status and coordination with state 
and local governments. This statute should be consistently implemented.
    5.  NEPA mandates federal agency cooperation with state and local 
governments through the designation of qualified ``cooperating 
agencies.'' Under existing law, an entity shall: (i) participate in the 
NEPA process at the earliest possible time; (ii) participate in the 
NEPA scoping process; (iii) assume, at the lead agency's request, 
responsibility for developing information and preparing environmental 
analyses; (iv) provide staff support upon request of the lead agency; 
and (v) use its own funds in its participation as a cooperating 
agency.\1\
---------------------------------------------------------------------------
    \1\ 40 CFR Sec.  1501.6(b).
---------------------------------------------------------------------------
    6.  The manner in which cooperating agencies are selected by a lead 
agency to participate in the NEPA process is unclear and inconsistently 
implemented. Additionally, a lead agency's determination of whether or 
not to grant cooperating agency status to a federal or non-federal 
governmental entity is not subject to judicial review.
    7.  State and local governments often have the best available 
science, data and expertise related to natural resources within their 
borders. In cases where the states have primary management authority, 
such as wildlife and water governance, states also possess the most 
experience in managing those resources and knowledge of state- and 
locality-specific considerations that should inform infrastructure 
siting decisions.
B. Governors' Policy Statement
    1.  Western Governors support improved infrastructure permitting 
and environmental review processes that result in more efficient 
reviews without shortening timelines for state input and consultation, 
or compromising natural resource, wildlife, environmental quality or 
cultural values.
    2.  Western states have a diverse mix of infrastructure needs 
spanning rural and urban areas and across multiple sectors of our 
economies. Infrastructure financing reforms should recognize this 
diversity and should avoid shifting costs to states or creating undue 
or disproportionate impacts to the infrastructure that connects the 
West's cities and rural communities with the nation and world. Federal 
infrastructure financing appropriations should acknowledge and support 
the diverse infrastructure needs facing western states.
    3.  The federal infrastructure permitting and environmental review 
process must be transparent, predictable and consistent for states and 
project developers. Federal processes must ensure that agencies set, 
and adhere to, timelines and schedules for completion of reviews and 
develop improved metrics for tracking and accountability.
    4.  Federal programs that increase bottom-up coordination among 
agencies, state and local governments and that foster collaboration 
among diverse stakeholders and project proponents can create efficiency 
and predictability in the NEPA process, including reducing the risks of 
delays due to litigation.
    5.  State, local and tribal governments, as well as their political 
subdivisions, have unique and critical duties to serve their citizens 
and should not be considered ordinary ``stakeholders'' for purposes of 
the NEPA process.
    6.  Federal agencies should be required to engage with states and 
state agencies in early, meaningful, substantive and ongoing 
consultation. Federal agencies should be required to invite all 
qualified state governmental entities to participate in the NEPA 
process as ``cooperating agencies'' and promulgate regulations to 
clarify consultation procedures and states' roles as cooperating 
agencies. The denial of any bona fide request for cooperating status 
should be accompanied by a clear and thorough explanation from the lead 
agency denying such request, citing specific factors the agency used in 
its determination. Such information should be recorded and maintained 
by the lead federal agency and collected by the Office of Management 
and Budget.
    7.  Western Governors encourage consistency in the implementation 
of NEPA within and among agencies and across regions. The federal 
government should identify and eliminate inconsistencies in 
environmental review and analysis across agencies to make the process 
more efficient.
    8.  Federal NEPA regulations should allow for existing state 
environmental review processes to supplement and inform federal 
environmental review under NEPA. Federal agencies, in their NEPA 
implementation guidelines, should encourage joint reviews with the 
states where possible.
    9.  The federal government should consider and apply peer-reviewed 
environmental science in a consistent manner across agencies as each 
undertake their NEPA reviews of different projects' impacts on and 
contributions to environmental quality. Federal agencies should work 
directly with states to obtain and use up-to-date state data and 
analyses as critical sources of information in the NEPA process.
C. Governors' Management Directive
    1.  The Governors direct WGA staff to work with Congressional 
committees of jurisdiction, the Executive Branch, and other entities, 
where appropriate, to achieve the objectives of this resolution.
    2.  Furthermore, the Governors direct WGA staff to consult with the 
Staff Advisory Council regarding its efforts to realize the objectives 
of this resolution and to keep the Governors apprised of its progress 
in this regard.

Western Governors enact new policy resolutions and amend existing 
resolutions on a bi-annual basis. Please consult www.westgov.org/
policies for the most current copy of a resolution and a list of all 
current WGA policy resolutions.

                                 <F-dash>
  Letter and Congestion Maps from Tori Emerson Barnes, Executive Vice 
    President, Public Affairs and Policy, U.S. Travel Association, 
                Submitted for the Record by Hon. Norton
                                                       May 7, 2019.
Hon. Peter A. DeFazio
Chairman
Hon. Sam Graves
Ranking Member
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC 20515
Re: Hearing: ``Aligning Federal Surface Transportation Policy to Meet 
21st-Century Needs''

    Dear Chairman DeFazio and Ranking Member Graves:
    On behalf of America's travel and tourism industry, I am pleased to 
submit the findings of a new U.S. Travel Association study for this 
important hearing on ``Aligning Federal Surface Transportation Policy 
to Meet 21st Century Needs.''
    Travel to and within the United States is one of the largest and 
most important aspects of interstate commerce. Travel generates $1.1 
trillion in direct spending, produces $2.5 trillion in total economic 
output and supports 15.7 million--or one out of every 10--American 
jobs. Each of the 2.3 billion business and leisure trips that take 
place to and within the United States each year, and every dollar of 
economic output generated by the travel industry depends on our 
nation's transportation network.
    Unfortunately, inadequate federal investment in America's travel 
infrastructure has increased congestion across all modes of 
transportation, reduced national and regional connectivity, and 
restricted travel demand. Every day, whether commuting to work, 
traveling for business, visiting family or taking a vacation, Americans 
feel the consequences of Congressional inaction.
    The U.S. Travel Association recently conducted a study on the 
``time toll'' that Americans pay due overcrowded, underfunded, 
crumbling bridges, tunnels and highways. Using data from INRIX 
Research, the study examines travel times along major Interstate 
corridors under three conditions:
    <bullet>  Ideal: driving with no congestion;
    <bullet>  Summer: driving under summer traffic conditions; and
    <bullet>  Peak: driving during peak holiday conditions.
    The results show that in the time it takes to drive between major 
U.S. cities during summer and peak hours, Americans could travel 
hundreds of miles farther if they had the efficient, safe and modern 
transportation network that our nation deserves.
    For example, along the I-95 corridor from Washington, DC to New 
York, NY, the study found that:
    <bullet>  During the summer months, travelers could drive an 
additional 68 miles--or the equivalent distance to New Haven, CT--under 
ideal conditions; and
    <bullet>  During peak holidays, travelers could drive an additional 
109 miles--or the equivalent distance to Hartford, CT--under ideal 
conditions.
    To better illustrate these findings, U.S. Travel developed maps of 
the United States where the distances between cities are based on 
average drive times, rather than mileage. As drive times increase, the 
distances between cities grows.
    These maps tell a troubling story of how Congressional inaction to 
boost investment in our nation's infrastructure is pushing America's 
cities, businesses, and citizens farther apart. When our commutes get 
longer, our jobs get farther away from our homes. As the time to 
deliver goods grows, businesses get farther away from their customers, 
and prices become higher than what families can afford. As the hours 
traveling between cities pile up, our families, friends, and 
communities grow farther apart.
    Congestion takes a toll on more than just our time--it also takes a 
toll on our economy. According to a U.S. Travel survey, highway 
congestion caused 38 percent of Americans to avoid at least one 
business or leisure trip by car during the previous year. This resulted 
in $23 billion in lost travel spending, which is enough to support 
208,000 American jobs.
    Without significant policy changes to provide increased, 
sustainable investment in our nation's infrastructure, travel's vital 
role in interstate commerce and the future growth and competitiveness 
of America's travel industry are at risk.
    Please find enclosed examples of the ``congestion maps'' described 
above, along with an outline of the U.S. Travel Association's 
recommendations for aligning federal surface transportation policy with 
America's 21st Century needs.
    Thank you for your leadership in identifying policy solutions that 
increase investment in the nation's transportation infrastructure. We 
look forward to working with you to solve our infrastructure investment 
crisis and support American jobs in every corner of the country.
        Sincerely,
                                        Tori Emerson Barnes
  Executive Vice President, Public Affairs and Policy, U.S. Travel 
                                                        Association
   u.s. travel association--transportation and infrastructure policy 
                            recommendations
<bullet>  Increase federal user fees: Adjust federal user fees 
    dedicated to the HTF, to finance surface transportation 
    improvements needed to maintain and modernize our nation's travel 
    infrastructure network. Congress should consider all user fee 
    options, including (but not limited to):
    <bullet>  Federal gas tax;
    <bullet>  Federal taxes on heavy vehicles;
    <bullet>  A vehicle sales tax based on fuel economy or emissions;
    <bullet>  Registration Fees;
    <bullet>  Federal bonds, loans, and tax credits back by user fees; 
or
    <bullet>  A value-added gas tax, with a progressive rebate for 
certain consumers
<bullet>  Establish a Projects and Corridors of National Significance 
    Program. Authorize a Projects and Corridors of National 
    Significance (PCNS) program within U.S. DOT that provides funding 
    for major multimodal projects that cannot be supported by current 
    formula programs. The PCNS program should include the following 
    elements:
    <bullet>  Multi-state planning and operations. Award funding to 
multi-state organizations that promote cross-jurisdictional cooperation 
in project planning and construction, and conduct activities that 
improve operations along critical travel corridors. Eligible activities 
should include:
    <bullet>  Projects of National Significance (PNS): Provide funding 
for major multimodal surface transportation projects that generate 
economic benefits that accrue beyond local areas and states, but cannot 
otherwise be supported through existing formula programs. Selection 
criteria should prioritize funding for:
      <bullet>  Projects along critical corridors that support 
significant volumes of long-haul passenger travel, ensure the 
resiliency of travel infrastructure, improve access to major travel 
destinations and attractions, and enhance the economic contributions of 
business, leisure and international travel; and
      <bullet>  Projects that were planned and developed through 
multistate corridor coalitions or achieve the goals of the National 
Travel and Tourism Infrastructure Strategic Plan (Sec. 1431(e) of P.L. 
114-94).
<bullet>  Authorize a National Travel Mobility Program. Establish a 
    National Travel Mobility Program funded at $1.2 billion per year 
    for the development of long-term plans and capital improvements 
    that ensure the efficient movement of people on the national 
    transportation network. Funds would be distributed to States by 
    formula for eligible projects that:
    <bullet>  Alleviate congestion, provide mobility options and 
accommodate future growth along major corridors for long-haul travel;
    <bullet>  Improve safety, efficiency and reliability of the surface 
transportation system; and
    <bullet>  Enhance connectivity between modes and to major 
destinations; or
    <bullet>  Improve mobility within destinations; and
    <bullet>  Achieve the goals of the National Travel Infrastructure 
Strategic Plan.
Program Elements:
    <bullet>  Authorization Period: 5 years
    <bullet>  Obligation Limitation: Obligations would be reimbursed 
from the Highway Account of the Highway Trust Fund. Funds would come 
with contract authority and be subject to the annual obligation 
limitation imposed on the Federal-aid Highway Program.
    <bullet>  Federal Share: 80 percent
    <bullet>  Establishment of National Multimodal Travel 
Infrastructure Network: Direct the Secretary of Transportation 
designate a NMTIN made up of the NHS, rail, National Parks, Federal 
lands access, Scenic Byways, transit systems, and other surface 
transportation assets that are critical to facilitating a majority of 
long-haul travel (50 miles or more) to and within the United States.
    <bullet>  Long-Term Planning: Consistent with current STIP and TIP 
planning requirements, States and MPOs would identify projects and 
strategies for enhancing national and regional travel mobility. Funds 
provided under the program could be used to conduct long-term planning 
activities related to enhancing national and regional travel mobility.
    <bullet>  Project Eligibility: Project eligible to be carried out 
under Title 23 U.S.C.
    <bullet>  Formula: Direct the Secretary of Transportation to 
develop a methodology for determining the annual number of non-local 
visitors to each State (definition: anyone taking a trip of more than 
50 miles from that includes at least one overnight stay). For each 
state, apportion $1.50 for each out-of-state visitor and $.50 for each 
in-state visitor.
congestion maps--washington, dc-new york, ny / portland, or-seattle, wa 
                  / los angeles, ca-san francisco, ca
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                Appendix

                              ----------                              


      Questions from Hon. Peter A. DeFazio for Hon. Ron Nirenberg

Highway Fatalities
Question 1. Mayor Nirenberg, in your testimony you raise the appalling 
fact that roadway accidents are the leading cause of death for youth 
ages 5-24, but you go on to note that cities like San Antonio are 
leading efforts to reduce deaths on our Nation's roadways through 
Vision Zero and related efforts.
    What methods have been most effective in your city for lowering 
traffic fatalities?
    Answer. In 2015, San Antonio began a Vision Zero program led by the 
City's Transportation & Capital Improvements (TCI) to take a citywide 
systems-level and multi-faceted approach to protect people on our 
roads. Cities across the country have also recognized this unmet need 
and more than 40 have formed their own programs [https://
visionzeronetwork.org/resources/vision-zero-cities/]. Vision Zero is 
different than past safety efforts because the focus lies on using a 
multi-faceted approach to make the roadway safe for all users. Our 
approach uses the five essential elements for a safe transportation 
system: Engineering, Education, Encouragement, Enforcement and 
Evaluation. By focusing on the 5 ``E'' approach, San Antonio brings 
community awareness to the epidemic of traffic fatalities while 
evaluating crashes and identifying the areas in most need of enhanced 
infrastructure. We want San Antonio roadways to be safe for everyone: 
whether they choose to walk, bike or drive.

    Question 2. What are the biggest hurdles to implementing safety 
measures?
    Answer. Vision Zero efforts are generally being funded locally or 
through competitive grants, but more could be done with federal support 
for both planning and implementation according to organizations such as 
the National Transportation Safety Board, Governors Highway Safety 
Association, and the Vision Zero Network. Additionally, many changes 
with proven results, such as lowering speed limits or using automated 
enforcement to modify driver behavior, require onerous special 
permission from state DOTs or state legislatures; we must put all 
safety tools to work to prevent deaths on the roads. Incentives for 
cooperation should be pursued in all safety programs. Lastly, state 
DOTs have traditionally had a singular focus on congestion reduction 
and need to expand the focus to safety improvements and other modes of 
transportation.

    Question 3. What can Congress do to direct Federal investments to 
move the needle on safety?
    Answer. Congress should ensure that federal programs are data-
driven and promote and support changes to best practices to reduce 
roadway fatalities, particularly those identified in the Toward Zero 
Deaths National Strategy. While FARS continues to be the data of record 
on fatalities, state and local government data is more readily 
available and actionable much more quickly; federal platforms and 
systems to collect and analyze data that will generate the information 
needed to target safety interventions must catch up. We hope that 
Congress will also explore opportunities to align safety research and 
development funding with fatalities and trends to improve return on 
investment.
    Additionally, the National League of Cities concurs with GHSA's 
latest 2019 report, ``Speeding Away from Zero: Rethinking a Forgotten 
Traffic Safety Challenge,'' [https://www.ghsa.org/resources/Speeding19] 
which calls for increased attention to speeding as one of the most 
forgotten safety challenges. With approximately 1 out of every 3 
crashes involving speed, Congress could consider calling out speeding 
in a similar way that drunk driving, an issue with unfortunate and 
similar crash risk, is focused on in legislated programs. GHSA's 
recommendation is to focus on speeding with ``comprehensive public 
awareness campaigns, traditional and automated enforcement efforts, and 
traffic calming infrastructure'' and take ``successful approaches to 
speeding, including the implementation of Vision Zero concepts in urban 
areas.'' Proven countermeasures to manage speed would also move the 
needle to zero traffic deaths.
    Finally, for the High-Risk Rural Roads program, Congress should 
allow for quicker safety interventions if the number of fatalities on a 
rural road reaches a certain threshold prior to the end of the 
reporting period [Reference: 23 U.S.C. 148(g)(1)]. Waiting to act where 
data supports action is not prudent. We would also recommend that 
states work in coordination with local governments in regard to setting 
their high-risk rural roads within their road safety program 
[Reference: 23 U.S.C. 148(a)(1)].

    Question 4. Would it be helpful to require Federal safety dollars--
that are currently allocated to State DOTs--to be spent in specific 
areas of a State where the most fatalities occur?
    Answer. Yes, in order to reach our vision of zero fatalities, we 
should be allocating federal dollars directly to the corridors and 
transportation systems where fatalities are occurring based on the 
data, but also where risk is greatest for the most vulnerable road 
users who are biking and walking. For example, with 76 areas of high 
crash concern in San Antonio, it will take us nearly 20 years to 
address the simple pedestrian infrastructure need we have. The city 
currently has committed $1M for infrastructure, education, and 
outreach, but this does not even address the education, outreach and 
innovative programs that are needed to make a difference in traffic 
safety for all our modes of transportation. We would welcome more 
support from our state and federal partners to continue to take action 
to save lives.

Mobility and Connectivity
Question 5. Mayor Nirenberg, your testimony states that the mobility of 
our citizens should be our measure of success in the next surface 
transportation reauthorization bill.
    Do you feel it is necessary for the Federal government to support 
both the Interstate Highway System as well as local transit in order to 
increase mobility?
    Answer. Transportation should be about the safe mobility of all of 
our residents, whether walking, bicycling, taking transit or driving, 
and every region will have different needs to improve their 
transportation network. We should be investing in the transportation 
options that best support moving people through our regions safely 
whether that is a highway or transit investment. The innovation that's 
happening in transportation today is changing out views on what is 
possible, but just proceeding with the status quo of programs and 
funding ratios is not leaning into that innovation happening in 
mobility, transportation data, or rapid transit networks. Now more than 
ever do flexible and accountable transportation programs, like the 
Surface Transportation Block Grant and the Mobility on Demand Sandbox, 
need to be embraced as the right tools for the federal government to 
unlock the potential of mobility innovation and strive for greater 
equity among our modes.

    Question 6. Are local transit options and broader regional 
connectivity closely related?
    Answer. Yes, mobility is central to individual prosperity, as well 
as to commerce and to the growth of communities, and both local transit 
and regional connectivity options have a role to play in our future 
planning. In San Antonio, 79% of our residents commute by single 
occupancy vehicles. We know that this is not sustainable, especially as 
we are experiencing such rapid growth and expected to have nearly 
double our population by 2040. In order to have an effective, 
sustainable transportation system, we need to have realistic choices 
for our residents.

    Question 7. How does this connectivity affect the overall strength 
of our national transportation system?
    Answer. Transportation is about flow and also, for growing areas 
like San Antonio, about what is keeping that from happening. As a 
country, our national transportation system should not be slowed to a 
crawl in our most productive urban economic centers. To create flow, we 
must make system-level decisions like investing in transit options and 
investing in regional connectivity with fast and reliable trains, as 
well as walkable communities that support local businesses and healthy 
activity. America must invest in the performance of our system for our 
residents.

Questions from Hon. Peter A. DeFazio for Roger Millar, PE, FASCE, FAICP

Multimodal Investment
Question 1: Secretary Millar, as the head of Washington State's 
Department of Transportation, you have a unique perspective on the 
importance of multimodal transportation. As you mention, your agency 
oversees everything from ferries to airports, and rail systems to 
public transit.
    Can you give an example or two of how your agency makes multimodal 
investments in the transportation system?
    Answer. Like many states, Washington has an amendment to our state 
constitution that limits the use of gas tax revenue to highway uses. 
However, we have other sources of revenue that can be used for 
multimodal investments, including some federal funding, and we make 
full use of those revenues.
    Through our practical solutions approach to solving transportation 
challenges, we work to first understand what the problem is and don't 
presuppose what the solution to a transportation challenge should be. 
It might be that widening a highway or updating an interchange is the 
appropriate solution. But it might also be investments in our local 
partner's system, increased transit service, adding managed lanes or 
improving bike and pedestrian connectivity that will best address the 
transportation challenge that's been identified. We strive to work with 
our local partners, our state legislature, USDOT modal administrations, 
and within our funding constraints to identify and fund the best 
solutions to complex transportation challenges and needs.
    We also support the transportation system through a series of 
multimodal grants and loans to cities, counties, transit agencies, 
ports and nonprofits. These transportation projects create access for 
those who have no other transportation options, reduce delay for 
people, improve goods movement, lessen demand, reduce carbon emissions, 
create safe routes to schools, and improve sidewalks and bike lanes for 
all Washingtonians. For example, we award over $250 million in public 
transportation grants per biennium, and we award nearly $15 million in 
rail loans and grants per biennium to help support freight rail capital 
needs.
    Washington has also led the nation in design and implementation of 
our rural intercity bus network. It is designed as a system so that 
people can make timed connections with multiple providers on multiple 
routes. Our public-private partnership with the industry opened up new 
ways of ensuring that people can get to wherever it is they need to go 
throughout the country. We should note our thanks to both the Federal 
Transit Administration for allowing us to pilot this partnership and 
Congress for codifying it in subsequent surface transportation 
authorizations.
    Our I-405 Renton to Bellevue Widening and Express Toll Lanes 
project [https://www.wsdot.wa.gov/Projects/I405/RentontoBellevue/home] 
is a good example of an investment in a highway expansion and 
congestion management project that also supports a bus rapid transit 
(BRT) investment by our regional transit partner, Sound Transit. The 
new express toll lanes between Renton and Bellevue will connect to the 
existing express toll lane system between Bellevue and Lynnwood to the 
north, as well as the SR 167 HOT lanes to the south, to create a 40-
mile system of express toll lanes. This project is designed to improve 
speeds and trip reliability for all travelers and support the new I-405 
BRT line between Lynnwood and Tukwila included in the voter-approved 
Sound Transit 3 package. It's the state's investment in widening I-405 
to finish the express toll lanes that will enable Sound Transit to make 
its BRT investment in the corridor. Without the state's investment, BRT 
would not work as the buses would be stuck in congestion and wouldn't 
have a reliable trip.
    As a part of the I-405 Corridor Master Plan, we are also working 
with King County to add 16.7 miles of new regional trail in the 
corridor that will connect the ``Eastside'' of Lake Washington like 
never before and provide the cities of Renton, Bellevue, Kirkland, 
Woodinville, and Redmond with new opportunities for non-motorized 
recreation and transportation. This trail investment is being linked to 
our earlier multi-use trail investments in the Interstate 90 and State 
Route 520 corridors, connecting the Eastside with Seattle over our 
floating bridges and to Eastern Washington via the Mountains to Sound 
Greenway corridor.
    Even before we finish the Renton to Bellevue express toll lanes, on 
the existing Bellevue to Lynnwood segment, we're moving more than 25 
percent more people and giving transit riders a faster and more 
reliable ride. King County Metro ridership is up 9 percent in the 405 
corridor and Community Transit ridership is up 2 percent.
    As a final example, the Alaskan Way Viaduct Replacement Program in 
Seattle replaced a seismically vulnerable highway with a safer roadway 
and tunnel under downtown. After the nearly 60-foot-tall viaduct is 
removed, the central business district will be reconnected to the 
historic waterfront with new streets that provide connections for 
people who drive, bike, walk and roll. The City of Seattle is also 
building out 20 acres of public space and a new promenade for people to 
enjoy. Additionally, WSDOT built a new shared use path that links 
neighborhoods with downtown Seattle and the state's largest ferry 
terminal. A second shared use path will be connected in 2020. Later 
this year, two surface streets that were severed by the old highway 
will be rebuilt--one is a green street--reconnecting several vibrant 
neighborhoods for many modes of travel.

    Question 2: In your opinion, how important is it that the Federal 
government invest in multimodal transportation options?
    Answer. Federal investment in multimodal transportation options is 
critical. People need choices when it comes to transportation. Not 
everyone is able to drive or can afford a car, yet they need a reliable 
way to get to work, to doctor appointments and other important 
destinations. In Washington state, I-5 is the backbone of our 
transportation system and goods movement on the west coast is dependent 
upon it. Transit and active transportation give viable and well-used 
choices to driving alone, freeing up space on I-5 for trucks to get 
goods to market. It also frees up space for those that prefer or have 
no choice but to drive. Similarly, our Amtrak Cascades intercity 
passenger rail service that we sponsor along with the Oregon DOT 
reduces vehicle demand on I-5 and gives both business and leisure 
travelers another option. More than 800,000 passengers rode Amtrak 
Cascades in 2018. Without that service most of those passengers would 
have had to drive on I-5.

    Question 3: Can you speak to the impact having a strong multimodal 
system has on both passengers as well as the movement of goods?
    Answer. Per the answer to question number two above, when people 
have safe, direct, and convenient alternatives to driving alone, it 
frees up critical space on the Interstate for trucks to get goods to 
market. Not everyone in Washington state can or wants to drive, and 
there are many that can't afford a car, yet they still have a right to 
access to opportunity and to have a viable way to get where they need 
to go. Having transportation options is integral to having a strong 
economy.

Rural Versus Urban Needs
Question 4: Secretary Millar, your State is unique in that it has major 
urban areas which are home to some of the largest companies in the 
Nation, while also having extremely rural populations as well.
    How can we ensure that as we modernize our Federal highway and 
transit programs we address the needs of both urban and rural 
populations equally?
    Answer. Transit and active transportation programs are just as 
important to urban and rural communities as are the federal-aid highway 
programs. In urban areas, transit and active transportation provide a 
critical option to avoiding congestion. In rural areas, transit often 
provides a critical lifeline for those who cannot drive or who cannot 
afford to drive. Agriculture is a major part of our state's economy and 
those commodities must get to market, using our roads, railways, 
waterways and airports. As you work on reauthorization of the FAST Act, 
we encourage you to increase investment in all of the formula programs, 
highways, transit and ferries, as well as the rail programs and allow 
state DOTs the flexibility to continue to work with our local partners 
to invest those funds in both our urban and rural areas depending on 
our most critical needs. When it comes to urban and rural, it's not an 
either/or, it's both. Everyone deserves transportation choices and all 
parts of Washington state need safe and efficient transportation 
options.

Technological Advancements
Question 5: Secretary Millar, in your testimony, you mention AASHTO's 
recently established Cooperative Automated Transportation (CAT) 
coalition which will help leverage emerging technologies. You also 
mention that State DOTs are planning now for a future which integrates 
new technological advancements with existing systems, such as connected 
vehicles and multimodal trip planning.
    In your opinion, how soon will we begin to see technological shifts 
in local transportation systems to this degree?
    Answer. Advances in vehicle automation, connectivity, 
electrification, and shared mobility are already impacting the state's 
transportation system and have begun to radically change the movement 
of people, data and goods. The private sector has made significant 
advances in the development and deployment of automated vehicles (AV) 
and connected transportation technology. Opinions differ about the 
deployment level, rate and timing of AVs. However, it is expected that 
some level of vehicle automation will be widespread by 2025, and fully 
automated cars are anticipated to be more broadly adopted by 2030. 
Currently, most new vehicles are equipped with a range of driver 
assistive options. This may include adaptive cruise control, blind spot 
detection, forward collision warning, lane departure warning, rearview 
video systems, vehicle and pedestrian automatic emergency braking, 
pedestrian protection, rear cross traffic alert, and lane centered 
assist. At this time, ten technology companies and original equipment 
manufacturers (OEMs) are registered to conduct on-road testing on 
Washington's public roadways. This number is expected to increase as is 
the number of initial automated vehicle pilot and deployment projects 
conducted in Washington state. Transportation network companies such as 
UBER and Lyft and cloud computing and data integration companies such 
as Amazon, Google, Atos, and INRIX have already begun deployment of 
Mobility on Demand (MOD) services. These services provide multimodal 
traveler information, scheduling and payment platforms which are 
already impacting the way transportation agencies develop and deliver 
services and the way people and goods are moved.

    Question 6: What are the risks and benefits associated with 
utilizing these new technologies?
    Answer. Automated and connected transportation has the potential 
for significant mobility and societal benefits. This includes safety, 
system efficiency, reduced congestion, environmental sustainability and 
improved equity and access. At the same time, without careful policy 
guidance and management, these technologies could also have less 
desirable effects such as increased trips, congestion and emissions.
Safety
    In 2017, there were 560 fatalities and more than 2,200 serious 
injuries due to crashes on Washington state roadways, resulting in an 
$8.4 billion impact to Washington's economy. Ninety-four percent of 
these crashes are assumed to be related to human error. Vehicle 
automation that provides driver assistive systems now or driverless 
options later have the potential to drastically reduce crashes and 
fatalities. By minimizing or eliminating human error from the operation 
of cars and trucks, automation can support Washington's Target Zero 
goal (reduce traffic fatalities and serious injuries on Washington's 
roadways to zero by the year 2030). While technology is not infallible 
and government agencies need to ensure deployments of automated 
vehicles are safe, it is important to note that, on average in the 
United States, 100 people lose their lives on our roadways every day. 
In addition, according to the National Highway Traffic Safety 
Administration (NHTSA), connected, Vehicle to Infrastructure (V2I) 
technology helps drivers safely negotiate intersections and could help 
prevent 41 to 55 percent of intersection crashes. Another connected 
vehicle safety application that helps drivers with left turns at 
intersections could help prevent 36 to 62 percent of leftturn crashes, 
according to NHTSA. In addition to the lives saved, just these two 
applications alone could prevent up to 592,000 crashes and 270,000 
injuries each year.
Congestion and System Efficiency
    According to the 2017 Global Traffic Scorecard from INRIX, U.S. 
drivers spent an average of 41 hours a year in traffic during peak 
hours, which cost drivers nearly $305 billion, an average of $1,445 per 
driver. According to the Texas Transportation Institute (TTI), 
congestion produced 56 billion pounds of carbon dioxide (CO2) pollution 
and contributed to 3.1 billion gallons of wasted fuel in 2015. Without 
stewardship and active engagement, there are also risks that automation 
can further increase the number of trips, traffic congestion and urban 
sprawl. Automated technology can potentially reduce the cost of 
transportation and therefore increase access and demand. This would add 
pressure to state and local transportation systems, many of which are 
already operating beyond capacity. However, if emphasis is placed on 
shared automated vehicles and Mobility on Demand solutions that 
leverage investment in public transportation and active transportation 
networks, the transportation system could be used more efficiently, 
resulting in less demand for roadway expansion projects.
Environmental Sustainability
    Automated electric vehicles have the potential to reduce carbon 
dioxide (CO2) pollution and our nation's dependence on oil. However, to 
maximize the environmental benefits of automated transportation, it 
should be both electric and shared. Fossil-fueled automated vehicles 
could increase emissions if the convenience of automated vehicles 
results in selecting a single-occupancy AV travel over transit or other 
modes, traveling longer distances to home and work, and letting empty 
AVs circulate until a ride is needed. Research conducted by UC Davis 
projected that if vehicles are automated but not electrified or shared, 
greenhouse gas emissions from the transportation sector could rise 50 
percent by 2050 compared to current levels. However, if autonomous 
vehicles are electrified and shared, transportation sector emissions 
could decline by 80 percent.
Access and Equity
    Connected and automated vehicle technologies coupled with Mobility 
on Demand applications and supportive policies have the potential to 
expand access to transportation for everyone and especially the 
disadvantaged populations, including older Americans and people with 
disabilities. According to the U.S. census, residents age 65 and over 
grew from 35.0 million in 2000, to 49.2 million in 2016, accounting for 
12.4 percent and 15.2 percent of the total population, respectively; 
and nearly one in five people have a disability. Similarly, it is hoped 
that automation will provide more options and access for people in 
underserved communities to support better work opportunities, better 
education, and access to better healthcare. These communities need to 
be actively engaged as stakeholders in the development and deployment 
of these new technologies.
Infrastructure
    At this time, infrastructure investments that may be needed to 
support automation are still being defined. For competitive reasons, 
the various Original Equipment Manufacturers (OEMs) are hesitant to 
define specific infrastructure modification needs. However, it is 
understood that a minimum level of infrastructure systems, conditions 
and maintenance levels will be needed for automated vehicles to operate 
properly. Most automated vehicles analyze real-time inputs from a 
combination of active sensors. Ideally, supervised and/or unsupervised 
``machine learning'' occurs to improve performance of these processes 
over time, extending and expanding safety capabilities across vehicle 
models. Consistency in the implementation and maintenance of traffic 
control devices is important. Signage and markings provides direction, 
guidance and warnings to drivers. Some states elect to follow the 
federal Manual of Uniform Traffic Control Devices (MUTCD), while other 
states may generate different iterations of the MUTCD. Even if a road 
sign design is not the easiest to perceive or assimilate for a human 
driver, for an automated vehicle vision detection and classification 
system, it is likely easier to learn how to interpret a single but 
ambiguous traffic sign as opposed to having to learn to interpret a 
large number of different but more easily identifiable signs. Not only 
is consistency important, maintenance is also vital. In some 
circumstances, poorly maintained markings and signage can be worse than 
having no markings and signage at all, as they can result in unintended 
responses by the automated driving system Road surface conditions are 
also important. Poorly maintained roadway surfaces (buckled asphalt, 
potholes, etc.) could increase the risk of damaging vehicle sensors. 
Damage to sensors can compromise vehicle performance and may force a 
vehicle into a degraded state where automation must be deactivated.

  Questions from Hon. Mark Meadows for Roger Millar, PE, FASCE, FAICP

Question 7: Part of meeting 21st Century needs is making sure we are 
addressing the current maintenance backlog plaguing our roads and 
bridges. For instance, the National Park Service has almost $6 billion 
in overdue needs, including almost $275 million for the Blue Ridge 
Parkway that runs right through my district.
    How do we make sure that we are adequately addressing the needs of 
our federal lands roads as we consider policy proposals?
    Answer. Lack of funding to keep transportation infrastructure in a 
state of good repair is a problem nationwide and at all levels of 
government. Like other western states, Washington has a large amount of 
federal lands, including three national parks, which are important to 
tourism and our economy. The Federal Lands Access Program is an 
important source of revenue to ensure these important national 
treasures are open and safe for the public to access. As the Committee 
works on reauthorization of the FAST Act, we encourage you to make 
investing in preserving and maintaining our existing infrastructure in 
a state of good repair--at all levels of government--a top priority.

        Questions from Hon. Peter A. DeFazio for Darran Anderson

Technology Applications for Rural Communities
Question 1: Mr. Anderson, your testimony gave great insight into how 
States can harness emerging technologies to solve mobility and other 
transportation issues through applications such as connected vehicles 
and data sharing across modes. However, most of these examples seem to 
be geared toward large, metropolitan areas.
    Can you provide some examples of technology applications that Texas 
has used to benefit rural or underserved communities?
    Answer. Transportation has been identified as a barrier to jobs, 
medical care, schools and other critical services. In Texas, as in a 
number of other states, car ownership is often essential to access 
economic opportunity. The challenge is widespread: it exists for 
vulnerable and underserved communities in regions where affordability, 
displacement, and rapid growth are applying pressure. But it is also 
impacting smaller or more rural communities that are particularly 
limited in their budgets to meet their residents' needs. To combat 
this, the Texas Innovation Alliance has identified a number of 
strategies and action items. These are (1) to improve access to jobs, 
medical care, schools, and critical services, (2) to explore innovative 
paratransit partnerships, and (3) to assess affordability and 
livability. As new developments in technology emerge, it will be 
critical for public agencies to develop a mobility system that 
continues serving all communities.
    For example, in Bryan-College Station, the Brazos Valley Center for 
Independent Living has purchased SimpliTransport, an on-line software 
package that allows trips to be coordinated by multiple agencies. In 
the past year, they have introduced the software to the human service 
agencies in their area and have met with local hospitals to determine 
how best to serve those who need transportation for medical services 
but do not have access to a vehicle.
    Another example is in Arlington, Texas. Although Arlington is 
located between two very large metropolitan areas, there are people who 
live in nearby suburban communities that depend on these bigger cities 
for access to medical care, jobs, education, and even groceries. The 
Via Rideshare Service in Arlington provides a flexible and personalized 
on-demand transportation solution to those services. Via Transportation 
shares extensive data with the City of Arlington to allow informed 
decision making regarding transportation in the future. The city is 
also exploring possibilities to coordinate existing paratransit 
services within the Via platform and service to improve access and 
efficiencies.

    Question 2: Do you believe there is a disparity in how 
technological advancements can benefit varying populations, and if so, 
how can we level the playing field so everyone shares the benefits?
    Answer. Research has indicated clear economic benefits of access to 
opportunity provided by transportation mobility--including affordable 
public transportation. As emerging technologies advance transportation 
mobility, we should consider that many low-income people and households 
either do not have access to a vehicle nor do they live near public 
transportation. This can significantly limit their access to 
opportunity, healthcare, food, and steady employment. Moreover, many 
elderly or low-income individuals do not have access to a smart phone 
or even a computer from which they could access rideshare opportunities 
such as Uber or Lyft. As technology innovations to mobility systems 
advance, we should continue to work with private stakeholders to 
develop options that offer all communities affordable, accessible, and 
convenient transportation options.

Promoting Innovation
Question 3: Your testimony lays out examples of successful innovations 
based on your experience in Texas.
    Can you provide some examples of successful innovations in local 
infrastructure?
    Answer. There are a number of projects which are active and funded 
or active pilots in Texas that provide examples of successful 
innovations in local infrastructure. Many of them are in the early 
stages and data is still being collected and analyzed to assess the 
performance of the projects. Here are some examples:
    <bullet>  Arlington, Texas--Applied Information Test Deployment: 
The City of Arlington has initiated a pilot program with Applied 
Information for a test deployment of a Connected Vehicle (CV) 
application. The application can provide travelers with alerts and 
information for pedestrian/bicycle proximity, signal phase and timing, 
fire truck approaching, school zone, etc., through a wireless network. 
The test site is located from UTA Boulevard to Randol Mill Road along 
the Cooper Street corridor that includes high pedestrian/bike activity, 
a railroad crossing, and a school zone.
    <bullet>  Arlington, Texas--Developing a Standard for Construction/
Lane Closure/Incident Information: The City has enrolled in the Waze 
Connected Citizen Program and become a partner in the Waze Global Event 
Partner Program. The traffic engineering division of the Public Works 
and Transportation (PWT) Department programs closures for events, 
construction, incidents, etc., into the Waze Road Closure tool. PWT 
staff use Waze traffic alerts to identify traffic congestion areas and 
adjust signal timing as needed. The North Central Texas Council of 
Governments (NCTCOG) became a partner with Waze and created the data 
exchange path between Waze and 511DFW. The residents of the City are 
informed with the current road closure information at their fingertips 
through Waze or the 511DFW app. Developing this standard will allow for 
efficient management of traffic diverted due to incidents on highways 
or arterials.
    <bullet>  Frisco, Texas--Real Time Data Sharing: Frisco partners 
with Traffic Technology Services to provide Vehicle to Infrastructure 
(V2I) technology to Audi vehicles at all of the city's signals. They 
are starting to collect and process the reciprocal data from these 
vehicles to help optimize their signal system.
    <bullet>  Houston, Texas--ConnectSmart: The Houston District of the 
Texas Department of Transportation received an $8.9 million grant under 
FHWA's Advanced Transportation and Congestion Management Technologies 
Deployment (ATCMTD) program to deploy advanced technologies as part of 
Houston's ConnectSmart. The project integrates transportation 
management systems across the various modes of transportation to 
benefit drivers and carpoolers, transit riders and bicyclists. The 
system will provide additional real-time information on carpooling, 
ridesharing and the availability of shared electric bicycles. 
ConnectSmart's mobility-as-a-service platform will help to manage 
congestion in the Houston metro area. It will provide transportation 
stakeholders with data to improve their operational efficiency with the 
goal of encouraging multi-modal transportation based on data-driven 
rider recommendations.
    <bullet>  Dallas, Texas--Dallas Area Rapid Transit (DART)+Uber: 
DART recently awarded an RFP to Uber for providing first/last mile 
solutions. The initiative enables riders to request an Uber ride using 
DART's GoPass mobile ticketing application. The DART and Uber 
partnership emerged after a successful trial during the Dallas St. 
Patrick's Day parade that encouraged people to ride transit and 
overcome first/last mile obstacles.

    Question 4: What obstacles do you feel are the most significant to 
promoting innovation in our Federal transportation programs?
    Answer. Funding is always an obstacle, but indecision, not keeping 
pace with technological innovations, and outdated and inconsistent 
procurement regulations are as well. Some examples are:
    <bullet>  The continued delay on a decision on technology 
deployment. It is challenging for states and localities to invest in 
certain technology when we don't know when or if the federal government 
is going to choose to employ Dedicated Short-Range Communications or 
opt to use 5G for Connected Vehicles (CVs). Many technology experts say 
the two solutions will never be able to fully integrate and be 
interoperable, so it would require multiple redundant devices to have a 
dual-mode solution. We appreciate that the USDOT wants an interoperable 
system, but we don't want to invest in a Betamax if a VCR will be the 
standard.
    <bullet>  The lack of passing and implementing an Automated Vehicle 
law or declaring a national Connected and Automated Vehicle strategy 
for several years has created uncertainty and encourages inconsistency 
and incongruity as state and local officials design their own 
solutions.
    <bullet>  The slow speed at which the MUTCD keeps pace with new 
technology, industry innovation, and transportation readiness to 
implement new capabilities. MUTCD advancement could be tied directly 
into national connected and automated vehicle (CAV) and other research 
programs, so that as states and national entities complete research 
projects, the new standards are immediately allowed.
    <bullet>  Some federal agencies seem tied to the ``way things have 
always been done'' and deny proven concepts such as allowing an 
alternative font on highway signs, or considering the use of 
sponsorship logos on Dynamic Message Signs to rapidly deploy and 
improve our Traffic Management System. We see dynamic billboards along 
highways, but we are refused the opportunity to conduct a limited test 
on public roads of a public-private sponsorship concept that places a 
logo on part of a DMS during non-emergency situations.
    <bullet>  Inconsistency in the application of procurement laws for 
grant programs. For example, the Federal Highway Administration's 
Advanced Transportation and Congestion Management Technologies 
Deployment (ATCMTD) grant program encourages public sector applicants 
to include private sector interests in their grant application. If 
awarded an ATCMTD grant, the public sector awardee is then charged with 
holding an open procurement for the functions meant to be handled by 
their private sector partners. Yet, the Federal Transit 
Administration's MOD Sandbox grant treats private sector partners that 
are part of a public sector application as a sole source contract. 
There is no incentive for the private sector to partner with a public 
institution on a grant proposal if they are going to have to recompete 
for the partnership after the grant is awarded.
    <bullet>  The federal government should also allow state and local 
DOTs to allow broader flexibility in public-private partnership 
arrangements. Using public-private partnerships can assist with 
deploying, operating, and maintaining innovative technology solutions, 
like CV, and make these technologies available to the public faster 
than if they are exclusively funded by traditional public programs that 
require a local match (CMAQ, STBG, etc.). Often, however, these 
arrangements can bring additional and unnecessarily federal regulatory 
oversight into the mix that can stymie innovation and efficiency.

    Question 5: Do you think Congress should make substantial changes 
to how we approach Federal surface transportation policy, or should we 
focus on improvements to how things work currently? If you do favor 
innovating our policies, what is the most important change Congress can 
make?
    Answer. The most substantial action Congress can take in the next 
surface transportation bill is to use current data to inform the 
formulas used to allocate funds, and ensure this remains the case going 
forward. As population changes continue across the country, it is 
critical that the allocation of federal fuel taxes keep pace with 
changing system demands and performance. Since the current formula for 
the distribution of federal motor fuel taxes uses 2000 Census data and 
a formula last updated in 2005, it is important that the federal 
government provide each state with an amount equal to what it 
contributed in federal fuel taxes. TxDOT's current federal priorities 
document, enclosed with this letter, provides additional thoughts on 
this and other changes we believe would benefit the nation's surface 
transportation system.

          Questions from Hon. Mark Meadows for Darran Anderson

Question 6: The current Administration states its goal is to ``seek 
long-term reforms on how infrastructure projects are regulated, funded, 
delivered, and maintained.'' It directed agencies ``whenever feasible, 
to specify performance objectives, rather than behavior, in crafting 
new regulations.'' A recent report from the Government Accountability 
Office (GAO) states that although ``agencies may design their 
regulations in different ways to achieve intended policy outcomes,'' 
agency ``officials reported a preference for `performance' designs that 
establish an outcome. . .''.
    In your experience with Texas Department of Transportation, do you 
believe the use of outcome-based performance standards both in Texas 
and nation-wide will be less prescriptive, as required by Executive 
Order 12866, while facilitating less costly, safer regulatory outcomes 
that do not stifle innovation?
    Answer. One of many challenges for Texas continues to be the 
increasing disparity between demand and available capacity. Since 1990, 
the state's population has increased by 55 percent. During the same 
period, daily vehicle miles traveled have increased 70 percent and 
daily truck miles traveled have increased 110 percent on TxDOT-
maintained roadways, while roadway centerline miles have increased at a 
disproportionate rate of 7 percent. This demand is only expected to 
increase for Texas. To address needs amid increasingly constrained 
resources it is critical to understand investment trade-offs and 
maximize the impact of every dollar spent. Outcome-based performance 
standards provide a path for TxDOT to align transportation investment 
decisions to address passenger and freight needs and demands amid 
unprecedented growth and declining revenues. TxDOT uses performance-
based planning to determine strategic direction and performance 
outcomes to evaluate and improve strategies going-forward.
    TxDOT wants the federal government to use a consistent set of 
performance measures, considering the most currently available data and 
performance factors. With that, we do need the flexibility in 
implementation of federal programs and projects to achieve the desired 
outcome as established by Texas, not federal regulations. Because each 
state's circumstances are unique and their ability to achieve a desired 
outcome is just as varied, it is not appropriate to prescribe specific 
regulations for a single outcome for all states. Additionally, 
technological advancements in transportation can quickly outdate 
regulations, even upon passage.
    Every state and political subdivision faces different constraints 
and opportunities affecting their transportation system. Stable, 
reliable, and predictable funding is a particularly important variable 
for states in planning and target setting, but there are other factors 
(as described above for Texas), including economic conditions, 
environmental conditions, population growth trends, legislative and 
gubernatorial mandates and priorities, and issues identified in the 
public involvement process. Consequently, it is essential that states 
and MPOs have the flexibility to determine the best approach for 
achieving outcome-based performance targets, including targets that 
have performance holding steady or, in some situations, declining. 
Regulations pertaining to performance reporting should focus on 
providing the public and interested parties clear, concise, and easily 
available information on transportation system performance in the state 
as determined by the state.
    Texas understands and appreciates the federal desire to hold states 
accountable for progress toward achieving desired federal outcomes; 
however, we believe that states are in the best position to understand 
the needs of our state and, therefore, states--in partnership with MPOs 
and regional leaders--should be the ones to decide program and project 
funding within the state. It is essential that any federal regulations 
do not compromise flexibility, delay project delivery, or create 
redundancies in requirements. It is also important to clarify language 
and definitions to avoid future variances in interpretation and 
guidance.

    Question 7: What is Texas' experience with applying outcome-based 
performance standards and how can the federal government best apply 
outcome-based performance standards?
    Answer. As noted in response to Question 6, TxDOT wants the federal 
government to use a consistent set of performance measures, considering 
the most currently available data and performance factors. TxDOT has 
applied outcome-based performance standards in select programs for many 
years and, in doing so, has developed measures (in some cases very 
detailed measures) that evaluate objectives and results. Texas' 
experience has led to a greater use of performance measures--from the 
performance-based annual planning cycle to the state's first 
performance-based long-range transportation plan (Texas Transportation 
Plan 2040 adopted on February 26, 2015) to MAP-21/FAST Act and Texas' 
Legislative Budget Board performance measures and set targets.
    Visit the Texas Transportation Commission's Performance Dashboard 
[http://www.dot.state.tx.us/dashboard/index.htm] for examples of some 
of the high-level, strategic performance measures, targets, and results 
that TxDOT uses to help monitor and shape transportation policy 
efforts.
    Texas believes that it is extremely important that states set their 
own performance targets, although we understand that the federal 
government should retain oversight to ensure that state metrics are 
reasonable, realistic and data-driven. Texas would prefer a program 
that does not include the federal agencies both establishing and 
evaluating state performance measure targets. Furthermore, any 
performance management structure should support meaningful 
transportation investment decisionmaking by establishing target and 
reporting timeframes that are realistic and appropriate for the 
measures being used.

   Questions from Hon. Peter A. DeFazio for John Kevin ``Jack'' Clark

Workforce Training
Question 1: Mr. Clark, your testimony highlights the importance of 
apprenticeship programs as well as other frontline training programs. 
You make the case that Federal investment in infrastructure should be 
accompanied by investments in training programs.
    How can Congress specifically target Federal dollars to help 
transit agencies overcome the ``skills crisis'' in transit you mention, 
as well as a rapidly aging workforce? Should Congress set aside 
dedicated workforce training funds from the urban and rural transit 
formula funds, so every transit agency has a small amount of workforce 
training dollars?

    Question 2: What is the most efficient way for Federal investments 
in human capital to result in on-the-ground worker training?

Workforce Training Resource Center
Question 3: Mr. Clark, one of your policy proposals for reauthorization 
of the FAST Act is to create a ``national resource center'' devoted to 
frontline transit worker training.
    Can you elaborate on what role you see this resource center 
playing? What would be the center's objectives? What authority would it 
have and how would it advance solutions?
    Answers to Questions 1-3. At this time, I would not propose a 
federal mandate on a portion of federal grants that needs to be spent 
on training. As the question makes explicit, the resulting formula 
would lead to a ``small amount of workforce training dollars'' for each 
agency. Transit managers are likely to resist another mandate for 
already scarce capital funds, and it does make sense to push through 
that resistance for a small set-aside that isn't up to the scale of the 
problem.
    I would reiterate the absolute need for a national resource center 
for the frontline workforce. There is a long history of authorizing and 
appropriating funds to support the National Transit Institute. NTI does 
invaluable work. By its own admission, NTI focuses on training for the 
15-20 percent of the transit workforce in management and front-office 
roles.
    The national resource center that is urgently needed now, on the 
other hand, would focus on identifying and quantifying the shortcomings 
of current training for the frontline workforce, developing training 
materials for agencies to implement, assisting agencies in improving 
their training, and developing registered apprenticeship programs. As 
the new frontline workforce center grows, it can and will work to 
develop recruitment and training strategies for the next generation of 
technical workers. Registered apprenticeship and pre-apprenticeship 
will be part of that strategy. Reaching out to Career and Technical 
Education schools at the secondary and post-secondary levels will also 
be part of that recruitment effort. Conscious strategies to diversity 
the transit workforce need to be central to addressing the workforce 
skills crisis. Representative Brown from Maryland asked during the 
hearing if there is any successful history of training programs that 
have helped previously disadvantaged and excluded populations enter 
skilled transit jobs. I cited the experience in Los Angeles. I would 
like to enter into the record a 2013 study that the Transportation 
Learning Center submitted to the Leadership Conference on Civil and 
Human Rights Education Fund, entitled ``Pathways to Equity: Effective 
Transportation Career Partnerships.'' That study also highlights some 
innovative work by both union and management leaders in Philadelphia to 
reach out to inner-city high school youth. An effective frontline 
workforce center could identify and help to replicate successes like 
these.
    Transit labor needs to have a full and equal voice in oversight of 
this frontline workforce center, and the entity housing this new 
frontline workforce center needs to have demonstrated experience in 
working with labor-management partnerships to improve training. I will 
return to the potential functions of a frontline workforce center in 
some closing comments and in some specific challenges confronting 
transit now.
    It is useful to recall the scale of the challenge on workforce 
training. Take one very dramatic current example: the transition to 
battery electric buses (BEBs). FTA continues to place large sums of 
money in the no-low emissions grant program. California and a handful 
of other states have set timelines for zero emission buses. More states 
are following suit, and federal legislation has been filed to create a 
mandate for zero emission transit fleets. Substantial private funding 
is accelerating the transition. Even Cummins, the sole manufacturer of 
bus diesel engines, is entering a partnership with Gillig to produce an 
electric bus. FTA will continue to fund no-low procurement. Investors, 
responding to those procurements and to their own projections on the 
likelihood of BEBs, will continue to increase the capacity of the BEB 
vendors. Agencies will use the federal money to purchase this new 
technology. Reducing airborne pollution by deploying BEB's achieves 
many good outcomes.
    Who is paying attention to the need for training frontline workers 
to be ready to understand and maintain BEBs?
    We know from a 2002 Transit Cooperative Research study (Training 
for On-Board Bus Electronics) that electric and electronic skills 
presented and still present a major challenge for current technicians. 
My own organization, the Transportation Learning Center, has conducted 
skills gap surveys at dozens of agencies large and small. Consistently, 
the skills gap shows up most prominently in electrical and electronic 
skills. The industry needs a major mobilization to make sure that 
current workers have the proper skills. We know enough to know that 
mobilization is not occurring.
    A funded resource center dedicated to the frontline workforce, with 
leadership from both labor and management, could provide needed focus 
on training for this and many other new technologies.
    Question 2 asks how we can ensure that federal funds result in on 
the ground training.
    The federal government can have a powerful influence in ensuring 
that training reaches the frontline workforce. The Federal Transit 
Administration (FTA) monitors transit agencies on safety, on state of 
good repair, on grants management and fiscal capacity. Currently, the 
federal government does not ask agencies to report on what training is 
taking place or who is receiving training. Congress can and should 
mandate that FTA include training in its oversight of agencies. FTA's 
review of system safety requires a level of workforce engagement. How 
much safety training occurs? FTA has been dogged in reviewing state of 
good repair in vehicle fleets. Is there adequate training for 
maintenance staff to achieve and hold that state of good repair? At 
many industry meetings and conferences, discussions center on the need 
for succession planning in the executive suite. Is anyone paying 
attention to succession for the next generation of mechanics and 
operators? Speaking of operators, some of the dramatic numbers in 
hiring needs come from very high attrition rates among new operators. 
Are agencies taking steps to reduce that rate of attrition?
    Metrics need to be developed on workforce so that FTA has a proper 
framework for its oversight role. One piece of data that should be on 
that list is spare staffing ratio for maintenance. Maintaining a spare 
bus ratio is long-standing good practice for agencies. Accidents occur; 
breakdowns happen. Having spare buses ensures that you can maintain 
service. As we know, you need maintenance staff to keep the buses 
running, too. The Transit Cooperative Research Program (TCRP) released 
a study in 2016 on ``Maintenance Technician Levels for Modern 
Transportation Fleets,'' complete with a tool for calculating a proper 
ratio of technicians to buses. FTA needs to adapt and revise that ratio 
to allow for some spare capacity so that agencies can make daily bus 
turnout and be able to devote time for training. That ratio will vary 
over time. When an agency needs to recruit and train a large number of 
mechanics, those apprentices need classroom time. In addition, 
experienced mechanics will spend time coaching and mentoring 
apprentices through on the job learning. That needs to happen, and it 
needs to be included in the calculation for appropriate maintenance 
training. A mature workforce with few apprentices will still require 
time for training and new learning, but it will be a smaller ratio.
    In addition to improved monitoring and oversight by FTA, Congress 
can look at how capital funds currently support--or fail to support--
good frontline workforce training.
    Federal funds support capital spending in two ways.
    1.  Current law allows states to give agencies leeway to divert up 
to 0.5 percent of federal capital funds to workforce development 
activities. Congress can and should increase that flexibility so that 
agencies can use up to 5 percent of capital funds for workforce 
development. Congress can and should ask for reports from FTA on the 
use of that provision to fund workforce development and on what 
workforce development activities it supports. In general, in transit 
and in the economy more generally, training funds are spent 
disproportionately to support training for employees with higher levels 
of education and more managerial responsibilities. Congress has an 
interest in ensuring that any federal funds support training for the 
frontline workforce.
    2.  Because the federal government is paying 85 percent of the 
cost, most agencies include training in the bid process for new 
equipment. For the agencies and especially for the vendors selling the 
equipment, that training comes as an afterthought, not as a key 
deliverable in the bid process. The Transportation Learning Center 
worked with a wide range of transit rail subject matter experts to 
develop a 2014 study on ``Establishing a National Transit Industry Rail 
Vehicle Technician Qualification Program Building for Success. To quote 
directly from the study:
                OEM-provided training that comes packaged with new 
                capital equipment is an important source of training, 
                but it can fall short of the training needs of agencies 
                for this new equipment. In a 2012 survey conducted by 
                the Transportation Learning Center, SMEs on the 
                National Rail Vehicle Training Standards Committee 
                identified 50 distinct training areas on which OEMs 
                provide training materials. The named OEMs include 
                leading vendors in the industry. In 35 (70 percent) of 
                these areas, the SMEs rated OEM training materials as 
                poor or fair. Among the topics covered by the OEM 
                training materials, rail vehicle troubleshooting and 
                communications were found to be the most problematic. 
                Not one subject area had an average score that put it 
                in the ``Very Good'' Category across all vendors.
    Anecdotally, some ``training'' consists of OEM sales personnel 
coming to tout how great their equipment is. That is an extreme 
example, but it happens. Training from the vendor more often is 
developed late without much thought on how to deliver it to people 
charged with doing the actual work. Frontline technicians then sit 
through a course written by an engineer that might--or might not--work 
for other engineers. Another common problem is that even if the vendor 
training is excellent, it's not timely. Technicians get good background 
on equipment that's covered by an extended warranty. They won't touch 
that equipment for five years. Can Congress cut through this thick 
underbrush of problems with OEM-training? Once again, there could be a 
substantial role for a frontline workforce center to conduct more 
research like the example from the TCRP Rail Car study. On capital 
purchases, a number of agencies have established best practice 
procurement where representatives of the maintenance and operator 
workforce have a direct voice in design. Frontline workforce 
representatives could help develop guidelines in the original bid for 
what OEM training needs to include. The American Public Transportation 
Association has developed detailed industry-standard recommended 
practices for what constitutes good training in most technical areas. 
OEM's might be required to identify how the training on the new 
equipment they are providing relates to the recommended practices for 
training in rail or bus maintenance.
    So far have this note has addressed some core mandates and 
potential benefits of a resource center focused on the frontline 
workforce. Let me elaborate a bit more on some key functions for such a 
center:
    <bullet>  Promoting apprenticeship in public transportation. In 
recent years, apprenticeship has won bipartisan support in Congress and 
the strong backing of successive Administrations of different parties. 
Quite simply, apprenticeship combines technical learning in a classroom 
setting with a lot of structured on the job learning. Transit needs to 
adopt and adapt apprenticeship to meet its need to upgrade current 
workers and to recruit a new generation.
    <bullet>  Supporting agencies and local unions, particularly with 
``Train the Trainer'' and ``Train the Mentor'' programs. Mentoring 
provides the basis for structured on the job learning. Workers who have 
mastered the skills teach those willing to learn. A frontline workforce 
center can develop effective training to help those mentors communicate 
more effectively. Similarly, very experienced technical experts may be 
ready and willing to become technical trainers. An intensive train the 
trainer program can give those works the skills to come into the 
classroom ready to help working adults learn.
    <bullet>  Broadening the reach of transit recruitment. By 
maintaining strong ties to Career Technical Education programs, 
programs like Job Corps, Tradeswomen networks and community-based 
training providers, a national frontline workforce training center can 
help the transit industry reach well-qualified candidates for jobs who 
might not otherwise be considered.
    <bullet>  Creating and sustaining cross site interaction of 
frontline subject matter experts, especially for developing strong 
training materials. Working with multiple agencies and unions, a 
frontline workforce center can create and update excellent, classroom-
ready training materials in a range of technical areas.
    <bullet>  Documenting the return on investment for good training. 
Like most employers, transit managers tend to see training as a cost. 
It's really an investment that can pay for itself many times over. A 
well-resourced frontline workforce center can do the needed legwork and 
analysis to make this case.
    <bullet>  Sharing current best practices in training. Surprisingly, 
there is too little of this in transit now. Part of the problem grows 
from the fact that most cross-site sharing in the industry occurs among 
senior managers and doesn't involve frontline workers. By creating and 
funding a center that functions like NTI but with a focus on frontline 
workers, that dynamic starts to change. TCRP in a two-volume study 
released in 2018 (Guide To Developing Best Practices and Sharing 
Resources for Transit Technical Training) documented the lack of 
sustainable work in developing and sharing best practices. On a level 
of small but crucial detail, this two-volume study noted the lack of an 
institution capable of maintaining and curating good training material 
on a shared internet platform. That finding alone provides an adequate 
case for the creation of a frontline workforce center.
    In summary, I oppose the idea of a mandated training set-aside, and 
I favor increasing from 0.5 to 5 percent the funds that can be used 
flexibly from capital funds to support workforce development. I propose 
that Congress insist that FTA include both data collection and direct 
accountability from agencies on workforce needs as part of its ongoing 
oversight and monitoring of transit agencies. That oversight will 
ensure that needed training occurs regularly. Finally, I urge an 
authorization and appropriation for a resource center for the frontline 
workforce funded at a level equal to the National Transit Institute.
    In my original testimony and in response to these questions, I have 
made specific reference to studies published by the Transit Cooperative 
Research Program (TCRP) and to one specific study the Transportation 
Learning Center did on behalf of the Leadership Conference on Human and 
Civil Rights Education Fund. I am including here the Transportation 
Learning Center paper and a few TCRP studies relevant to the topics 
covered with a brief explanation of the study.

National Academies of Sciences, Engineering, and Medicine 2005. A 
Guidebook for Developing and Sharing Transit Bus Maintenance Practices. 
Washington, DC: The National Academies Press. https://doi.org/10.17226/
13562.

Transportation Learning Center 2013. Pathways to Equity: Effective 
Transportation Career Partnerships. http://www.transportcenter.org/
images/uploads/publications/LCCHR_FINAL112013.pdf

    This report focuses on two local case profiles for transit Career 
Pathways: a Project Labor Agreement in Los Angeles providing expanded 
access to jobs and training for public transportation capital 
construction, and a youth Career Pathways partnership in Philadelphia 
linking career and technical education with future transit careers. 
Both of these models, if taken to scale in the transit industry, can 
have positive impacts, locally and nationally, for improving access to 
family-sustaining careers and training and for improving educational 
outcomes for disadvantaged groups--urban low-income and minority groups 
as well as women--who have previously been under-represented in these 
occupations.

National Academies of Sciences, Engineering, and Medicine 2013. 
Building a Sustainable Workforce in the Public Transportation 
lndustry--A Systems Approach. Washington, DC: The National Academies 
Press. https://doi.org/10.17226/22489.

National Academies of Sciences, Engineering, and Medicine 2014. 
Establishing a National Transit Industry Rail Vehicle Technician 
Qualification Program--Building for Success. Washington, DC: The 
National Academies Press. https://doi.org/10.17226/22346.

National Academies of Sciences, Engineering, and Medicine. 2003. The 
Transportation Workforce Challenge: Recruiting, Training, and Retaining 
Qualified Workers for Transportation and Transit Agencies--Special 
Report 275. Washington, DC: The National Academies Press. https://
doi.org/10.17226/10764.

National Academies of Sciences, Engineering, and Medicine 2018. Transit 
Technical Training, Volume 1: Guide to Applying Best Practices and 
Sharing Resources. Washington, DC: The National Academies Press. 
https://doi.org/10.17226/25157.

National Academies of Sciences, Engineering, and Medicine. 2018. 
Transit Technical Training, Volume 2: Guide to Overcoming Barriers to 
Implementing Best and Innovative Training. Washington, DC: The National 
Academies Press. https://doi.org/10.17226/25158.

National Academies of Sciences, Engineering, and Medicine 2002. 
Training for On-Board Bus Electronics, A Synthesis ofTransit Practice. 
TCRP Synthesis 44. Washington, D.C.: National Academy Press. http://
onlinepubs.trb.org/onlinepubs/tcrp/tcrp_syn_44.pdf

      Questions from Hon. Peter A. DeFazio for Therese W. McMillan

Federal-State-Local Partnership
Question 1: Ms. McMillan, as Executive Director of a transportation 
commission overseeing seven million residents in nine counties, you 
have a unique perspective on the need for Federal investment in 
transportation and the Federal-State-local partnership.
    Can you describe for this Committee briefly how MTC accesses 
Federal dollars? What portions of the Federal-aid highway and transit 
program, do you have access to, and do you get the funds directly or 
does it flow through the State?
    Answer. The Metropolitan Transportation Commission (MTC), the San 
Francisco Bay Area's federally designated metropolitan planning 
organization (MPO), invests around $180 million in surface 
transportation block grant program (or STP, as we continue to call it 
in our region) and congestion mitigation and air quality improvement 
program (CMAQ) funding each year. In California, direct suballocation 
to MPOs of the population-based STP funds (23 USC 133 (d)) and CMAQ 
funds are provided for in state law. While these funds technically 
remain with the state department of transportation, rather than being 
formally transferred to the MPOs, the MPOs have full control over the 
expenditure of the funds, including establishing the criteria for how 
we distribute the funding. Because the funds are distributed at the 
metro area level, we are able to invest these funds to provide 
innovative regional solutions that span jurisdictional boundaries. 
Projects such as the Clipper card (our multioperator transit-fare 
payment card) or our Bay Bridge Forward initiative (an effort to 
relieve congestion and transit crowding in the San Francisco-Oakland 
Bay Bridge corridor) are harder to pay for with funds that are awarded 
to specific transit operators or to local jurisdictions for specific 
projects (if voter approved) or for mode-siloed investments. This 
regional perspective also helps us prioritize funding for local 
projects that are consistent with regionwide goals, including our 
federal performance goals.
    MTC also works with the Bay Area's 23 transit operators to identify 
our region's federal transit program spending priorities.\1\ MTC is the 
designated recipient of the Federal Transit Administration (FTA) 
Section 5307 Urbanized Area, Section 3357 State of Good Repair and 
Section 5339 Bus and Bus Facilities formula funds for our region's 
large urbanized areas. The California Department of Transportation 
(Caltrans) has further authorized MTC to select projects and recommend 
funding allocations for our region's small urbanized areas' Section 
5307 and 5339 funds and for the Section 5311 Rural Area Formula 
programs. MTC works cooperatively with our region's transit operators, 
cities, counties and Caltrans to establish transit capital project 
priorities and to fund those priority projects. As an example, the 
region is currently experiencing a time of major reinvestment with the 
replacement of the BART car fleet. MTC, working with our regional and 
federal partners, developed a funding plan using our federal transit 
dollars to deliver this $2.6 billion project.
---------------------------------------------------------------------------
    \1\ There are 25 transit operators in the Bay Area, 23 of which are 
FTA grantees. MTC works with those 23 FTA grantees to identify our 
region's federal transit program spending priorities.
---------------------------------------------------------------------------
    Additionally, federal metropolitan transportation planning funds 
are allocated by the state to MTC to fund our federally mandated 
metropolitan transportation planning activities.

Resiliency
Question 2: Ms. McMillan, your testimony encourages us to prioritize 
resiliency of our infrastructure as we begin consideration of a new 
surface transportation bill.
    Do you feel that the current Federal approach under the FAST Act 
allows for prioritization of resiliency? What has the Federal 
government done well in encouraging resiliency, and what can we improve 
upon?
    Answer. No, the FAST Act does not provide states and regions with 
sufficient resources to both invest in the longstanding federal 
priorities of state of good repair and improved mobility while also 
adapting our transportation assets and services to be more resilient to 
extreme weather and a changing climate. The core FAST Act highway and 
transit programs are structured to support important national 
performance goals such as improved safety and infrastructure condition, 
congestion reduction, and economic vitality. While many resiliency 
improvements are eligible under the core programs, the current 
performance-based approach--which MTC has long-supported--encourages 
states, locals and transit agencies to prioritize investments in order 
to make progress toward those national goals.\2\ Even with a strong 
local partnership--in the Bay Area we match our FAST Act funds 9-to-1 
with state and local dollars--adapting our infrastructure to a changing 
climate in addition to investing in the above-mentioned priorities will 
require significant resources that simply are not available at the 
scale of the investment authorized in the FAST Act. For example, MTC 
estimates that at the current scale of investment, the Bay Area would 
receive nearly $30 billion in federal transportation funds between 2016 
and 2040. Preliminary cost estimates for one regional adaptation 
priority--the 20-mile State Route 37 corridor that, as I referenced in 
my testimony, is highly vulnerable to complete inundation due to sea 
level rise--are upwards of $5 billion.
---------------------------------------------------------------------------
    \2\ We consider the following to be the core highway and transit 
programs: the Surface Transportation Block Grant Program, the 
Congestion Mitigation and Air Quality Improvement Program, the Highway 
Safety Improvement Program, the National Highway Performance Program 
the National Highway Freight formula and discretionary programs, the 
Capital Investment Grant Program, the 5307 and 5311 Urban and Rural 
transit formula programs, the 5337 State of Good Repair Program, the 
5339 Bus and Bus Facilities Program and the 5310 Enhanced Mobility for 
Seniors and Individuals with Disabilities Program. While not part of 
the core program, the FAST Act structure specifically supports disaster 
recovery through the highway and transit emergency relief programs. We 
are encouraged that these programs may be used, to a limited extent, to 
harden infrastructure. However, resiliency improvements are only 
eligible post-disaster--dedicated resources are not broadly available 
to proactively adapt our nation's infrastructure to a changing climate.
---------------------------------------------------------------------------
    We encourage the committee to create a new flexible program that 
will make our transportation networks resilient in the face of a 
changing climate. Fifty percent of the funding should flow via formula 
to metropolitan areas--our nation's population and job centers--which 
house much of the nation's critical at-risk infrastructure. 
Discretionary grant funding (the remaining 50 percent of the funds) 
should additionally support states, local governments, transit agencies 
and ports in efforts to upgrade freight corridors and other critical 
infrastructure. The discretionary component should have a 25 percent 
rural set-aside to ensure such communities have access to program 
funds. To be most effective, the program should be mode-neutral and 
have broad project eligibility so that states and regions can 
prioritize the road, bridge, bus, rail or other resiliency upgrades 
that are most critical to keep their economies moving.
    In lieu of a new program, the committee could also prioritize 
resiliency through substantially growing the existing FAST Act 
programs--including the Surface Transportation Block Grant program; the 
Capital Investment Grant (CIG) program, the federal transit urban, 
rural and state of good repair formula programs; and the freight 
formula and discretionary programs--and revising programs like CIG so 
that transit capital investments intended primary to improve resiliency 
are eligible for grant funding.
    From a planning perspective, the FAST Act took a step in the right 
direction by expanding the scope of state and metropolitan long range 
plans to include resiliency. We would also like to see an increase in 
planning funds to help regions and states better address complexities 
around climate change. Increased planning funding also will support 
states and MPOs in fulfilling current performance-based planning 
mandates, which were added in the 2012 transportation authorization 
without a commensurate increase in planning resources. Importantly, we 
do not recommend new mandates with respect to resiliency planning. The 
current federal planning framework enables planners to innovate and 
determine precisely how to incorporate resiliency considerations and 
other uncertainties, such as those posed by transformative 
transportation technologies, into transportation planning and near-term 
investment decisions.

          Questions from Hon. Peter A. DeFazio for Al Stanley

Workforce Pilot Program
Question 1: Mr. Stanley, you mention in your testimony that AGC has 
partnered with the Federal Highway Administration and AASHTO on a 
highway construction worker pilot program.
    Can you provide additional details about the program and elaborate 
on what you hope will come from the pilot program?
    Answer. For the past two years, AGC has worked with the Federal 
Highway Administration (FHWA), AASHTO, state DOTs and the Department of 
Labor's Education and Training Administration on a highway construction 
worker pilot program to identify ways to interest workers in careers in 
highway construction. The idea grew out of discussions in the AASHTO-
AGC-ARTBA Joint Committee on construction industry work force needs. 
AGC members routinely identify worker recruitment, training and 
placement as a significant challenge. The Joint Committee noted that 
the cost and inefficiencies of these continuing workforce challenges 
compromise highway project delivery and efforts to provide for a safe 
and effective highway system. The pilot was established to address this 
serious and on-going workforce development issue in the highway 
construction industry.
    Six cities and six states were selected to examine these issues 
from urban--rural, union-non-union perspectives. In these locations the 
different stakeholders looked at available resources including 
training, outreach and placement programs to determine where there were 
gaps and how industry and the public sector could work together to fill 
these gaps. The coordination proved very successful. What was key was 
the realization that there was not one solution but many different 
approaches. The two-year pilot program effort ended on December 31, 
2018. A ``Playbook'' was developed to identify best practices and 
successful strategies that AGC chapters and other industry groups can 
take to implement a program. Follow-on webinars are also being planned 
to continue the progress and highlight accomplishments. In some most 
cases coordination was the key to success. A well-attended educational 
session was held during AGCs 2019 convention to present the results and 
lessons learned.
    FHWA was able to make some grant funds available to support these 
pilots. This financial support was used to take good ideas and make 
them more widely available. For example, through this initiative AGC's 
Pittsburgh area chapter (Contractors Association of Western 
Pennsylvania) received grant funding to make its Future Road Builders 
app more generally available to others in the industry with 
modifications to make it applicable to other areas.
    The pilot is now transitioning to a Highway Construction Workforce 
Partnership (HCWP) that will encourage other city and state highway 
industry and workforce system partners to work together to identify, 
train and place individuals into highway construction jobs. The 
``Playbook'' will be used as the centerpiece for further outreach. FHWA 
has also developed a ``Roads to Your Future'' website to house all of 
the resources.

            Questions from Hon. Mark Meadows for Al Stanley

Question 2: The Federal Highway Administration (FHWA) is currently 
considering reforms which would provide greater flexibility to States 
to use propriety or patented materials in Federal-aid highway projects.
    What is your experience with FHWA's patented and proprietary 
products rule and what, if any, reforms would you recommend?
    Answer. In comments to the Federal Highway Administration 
(attached), AGC expressed contractors' strong opposition to its 
proposal to eliminate or significantly modify the long-standing 
restriction prohibiting states from specifying the use of proprietary 
or patented products in federal-aid highway contracts. AGC believes 
that the existing policy has worked well over time by providing a 
balanced approach ensuring competition while creating a process for 
patented and proprietary products to be used. AGC maintains that the 
arguments put forth to make this drastic change are insufficient to 
justify this action.
    To date, there has been no lack of new materials, products or 
processes used in highway and transportation construction. The history 
of the highway program is replete with examples of new and innovative 
products being adopted. For example, significant advancements have been 
made in pavement technology--both in the materials and placement 
processes that have made pavements smoother, longer lasting and more 
skid resistant. Bridge construction techniques and the technology 
incorporated into these structures has made significant paradigm shifts 
over the years in how bridges are built. Many of these changes started 
out as proprietary products or processes. Materials such as composites, 
disc bearings for bridges, movable traffic barriers, high visibility 
signage and breakaway sign posts are all examples of good ideas that 
have been adopted and brought into the mainstream. All this occurred 
with the current rule in place.
    AGC is very concerned that altering the rule will have a 
detrimental impact on competition by allowing suppliers of patented 
products to determine the costs that State DOTs pay for products rather 
than through the open competitive bid system. AGC is also concerned 
that altering the rule could allow suppliers of proprietary products to 
determine which company is ultimately the low bidder by deciding which 
contractors to provide quotes and at what price. AGC also believes the 
proposed rule change gives an advantage to product suppliers with the 
most aggressive sales force or political influence without necessarily 
having the best product.
    Numerous state departments of transportation weighed in on the rule 
both for and against it. AGC notes that state Departments of 
transportation are mixed in their response to this proposed change. 
Because of the disparity in their members opinions on the change, 
AASHTO responded to the proposed rule change by pointing out some of 
the problems with the rule change without taking a position.
    AGC's full set of comments are attached for your information and 
review.
       attachment--comments to the federal highway administration
                                                  January 14, 2019.
Mr. John Huyer
Federal Highway Administration, U.S. Department of Transportation, 1200 
        New Jersey Ave., SE, Washington, DC 20590
RE: FHWA Docket No. FHWA-2018-0036 ``Construction and Maintenance--
Promoting Innovation in Use of Patented and Proprietary Products''

    Dear Mr. Huyer:
    The Associated General Contractors of America (AGC) is a national 
organization representing more than 27,000 businesses involved in every 
aspect of construction activity in all 50 states, Puerto Rico and 
Washington, D.C. AGC members perform contracts for the Federal Highway 
Administration (FHWA), state departments of transportation (DOTs), 
local agencies and other entities that receive funding through the 
Federal-aid highway program and are therefore directly impacted by 
FHWA's policy on the Use of Patented and Proprietary Products.
                           executive summary
    Thank you for the opportunity to provide the contractor's point of 
view on the Notice of Proposed Rulemaking (NPRM) ``Construction and 
Maintenance--Promoting Innovation in Use of Patented and Proprietary 
Products.'' AGC strongly opposes FHWA's proposal to rescind or 
significantly modify its long standing and effective policy on the use 
of patented and proprietary products on Federal-aid highway projects as 
detailed in 23 CFR 635.41. AGC recommends that the current regulation 
not be changed and that it be retained ``as is.''
    The arguments put forth in this NPRM to make this drastic change 
are insufficient to justify this action. The petitioners assert, 
without providing any data, that the rule has somehow stifled the 
introduction of new and innovative products. AGC believes that the 
existing policy is a balanced approach to ensuring competition while 
creating a process for patented and proprietary products to be used.
    AGC is very concerned that altering the rule will have a 
detrimental impact on competition by allowing suppliers of patented 
products to determine the costs that State DOTs pay for products rather 
than through the open competitive bid system. AGC is also concerned 
that altering the rule could allow suppliers of proprietary products to 
determine which company is ultimately the low bidder by deciding which 
contractors to provide quotes and at what price. AGC also believes the 
proposed rule change gives an advantage to product suppliers with the 
most aggressive sales force or political influence without necessarily 
having the best product.
                        rule has been effective
    For almost 70 years, the Federal-aid highway program has 
successfully delivered transportation improvement projects that are of 
the highest quality and at the best cost primarily through the 
competitive bidding/competitive proposal process. The Federal-aid 
Highway Act directs that the Transportation Secretary shall require 
such plans and specifications and such methods of bidding as shall be 
effective in securing competition. This system has served the nation 
and taxpayers well.
    The current proprietary product rule is part of the competitive 
bidding requirements. It is based on the concept that allowing bidders 
the maximum flexibility to select materials and/or products to meet the 
contract specifications will result in the lowest bid prices for the 
project. Limiting the range of possible materials/products will result 
in higher bid prices. Through the competitive bid process contractors 
are incentivized to look for improvements in means, methods, equipment, 
materials and other factors that make their business operations more 
cost effective than their competitors. Limiting competition forproducts 
and processes in the bidding process will undermine the competitive bid 
system and limit the use of alternative and equally effective products 
from being used on specific projects.
    To date, there has not been a lack of new materials, products or 
processes used in highway and transportation construction. The history 
of the highway program is replete with examples of new and innovative 
products being adopted. For example, significant advancements have been 
made in pavement technology--both in the materials and placement 
processes that have made pavements smoother, longer lasting and more 
skid resistant. Bridge construction techniques and the technology 
incorporated into these structures has made significant paradigm shifts 
over the years in how bridges are built. Many of these changes started 
out as proprietary products or processes. Materials such as composites, 
disc bearings for bridges, movable traffic barriers, high visibility 
signage and breakaway sign posts are all examples of good ideas that 
have been adopted and brought into the mainstream. All this occurred 
with the current rule in place.
    While the current rule prohibits the use of proprietary products it 
does permit an exception which allows for the use of such products. In 
fact, proprietary products are used widely on Federal-aid Highway 
projects using exceptions permitted by the rule. States can use 
proprietary products: (1) if they are purchased through competitive 
bidding with equally suitable unpatented items; (2) if a State 
certifies either that such proprietary item is essential for 
synchronization with existing highway facilities, or that no equally 
suitable alternate exists; or (3) if a proprietary item is used for 
research or for a distinctive type of construction on relatively short 
sections of road for experimental purposes.
    In addition, States may specify a proprietary product by 
demonstrating that there is a public interest served by using that 
product. Many States have been delegated the authority to approve 
public interest findings without the direct involvement of FHWA. States 
have a common understanding of the certification required for a public 
interest finding and have developed streamlined implementation 
processes to allow the determinations to move forward expeditiously.
    States may also choose to use a proprietary product and not be 
reimbursed by FHWA for the cost of that product, instead paying with 
state dollars.
    This exception process that FHWA has adopted over the years has 
worked well and not limited the development of new materials, equipment 
or methods, or discouraged innovative utilization of them. New 
materials, equipment or methods that show sufficient promise may be 
(and have been) approved for inclusion and evaluated as appropriate 
pursuant to 23 CFR 635.411. Also, in accordance with 23 CFR 635.411, 
State DOTs may specify a higher standard of performance (i.e., above 
what would normally be set) on certain construction projects even 
though it would result in a single product being available. The 
established Approved Product Lists and Qualified Products Lists allows 
DOTs to use products that are demonstrated to be better or have 
specific properties that DOTs desire.
                   case for change has not been made:
    Petitioners make the argument that the rule is a relic of the past 
that was adopted in 1916 and needs to be modernized. However, the 
longevity of the rule's life does not necessarily undermine its 
reasonableness and effectiveness. As FHWA points out in the NPRM, 
``Over the years, the regulation was clarified through various policy 
and guidance memoranda, and subsequent Federal Register Notices, 
including 25 FR 4162 published on May 11, 1960.'' Most recently, FHWA 
looked at its rule and issued new guidance for the use of patented and 
proprietary products in 2006 and again in 2011 to further clarify the 
steps that DOTs can take to use these products.
    AGC maintains that these requirements have not stifled innovation 
in products, equipment, processes or methods. The rule provides a good 
balance that allows new products and processes to be adopted while at 
the same time protecting the competitive bidding process, eliminating 
undue influence over state specification writers and providing the most 
cost-effective delivery of the final transportation construction 
project.
    Petitioners also argue that the existing rule prevents safer and 
innovative products from being used. It then goes on to cite a list of 
products that are currently being widely used in highway construction 
applications. As their own list shows, safer and innovative products 
have been approved and are being used under the current rule. While the 
time line for adoption may not provide manufacturers with the return on 
investment as quickly as desired it nevertheless ensures that new 
products and processes receive the scrutiny and testing necessary to 
determine how effective they will be long term. AGC recognizes that 
there needs to be an opportunity for new products/processes to come 
into the marketplace. While petitioners claim that the current rule 
stifles this from happening, AGC maintains that the existing process 
for adopting new materials and processes has been effective.
                  problems with such a radical change:
    AGC believes the negatives far outweigh the positives associated 
with eliminating the current rule, which has proven efficient, 
effective and flexible over the years. We outline below a host of 
problems that can come from such a radical change.
PROBLEM: Suppliers of patented products will determine the costs that 
        State DOTs will pay for products rather than through the open 
        competitive bid system
    Requiring use of proprietary and/or patented products will increase 
costs to State DOTs. Just as prescription drug producers have 
exponentially increased the costs of name-brand medicines over 
generics, so too would suppliers of their name-brand products specified 
in Federal-aid highway contracts. While generic drugs have the same 
chemical makeups, side-effects, and results as the namebrand drugs, 
they do not have the advertising and sales force budgets the name-
brands may have. As a result, patients bear the cost for the marketing 
of the name-brand when prescribed but would otherwise receive the same 
medical benefit from generic drugs at a fraction of the cost. The 
Federal-aid highway program would very likely experience a similar to 
the name-brand drug impact if this radical change is adopted.
    In addition, once a proprietary product is included in state 
construction specifications they often remain there for years. Since 
contractors are not able to use an alternative product that has similar 
characteristics there is no competition for those products or processes 
and they stifle efforts by other manufacturers to develop a similar and 
potentially mproved product. In this way there is no competition on 
price and manufacturers can charge what they please. When comparable 
products can be used, prices remain competitive and innovation is 
increased due to competition with the proprietary product.
    Suppliers are naturally advocates for their products. Suppliers 
believe them to be the best available and have a strong monetary 
incentive to get their product specified. The sales force for product 
suppliers can be very persuasive in convincing state officials 
responsible for project design to include their product in the 
specifications. This can create the circumstances for undue pressure on 
state officials to adopt the proprietary product.
PROBLEM: Eliminating the general prohibition on the use of proprietary 
        products can lead to manipulation in the bidding process.
    As noted above, if this radical change is adopted, a significant 
shift in the marketplace could occur where suppliers would be able to 
dictate not only price, but competition within the bidding process. How 
this would occur is explained below:
PROBLEM: Federal-aid highway contractors may not have equal access to 
        specified proprietary products
    Suppliers can require that contractors sign exclusivity contracts, 
be licensed by the supplier or pay royalty fees to the supplier to be 
able to purchase or use their proprietary products. Such arrangements 
would enable one or a limited pool of contractors access to the 
supplier's proprietary product. As a result, a small and limited number 
of contractors--where such a product is specified in a Federal-aid 
highway contract--would be able to bid on the contract. This would 
restrict competition and increase costs to State DOTs.
PROBLEM: Supplier quotes on proprietary products may not be competitive 
        for all bidders
    Suppliers do not necessarily provide the same price quote for their 
products equally to all potential purchasers. For a variety of reasons 
suppliers may choose to favor one contractor over another by providing 
better pricing. In doing so, some contractors may be priced out of the 
market, particularly if the proprietary product is a significant part 
of the overall contract value and the price quoted is significantly 
higher than the price quoted to another contractor. When the product is 
proprietary the contractor has no other source to get a more 
competitive quote. In this way the product supplier can become the 
determining factor in which contractor is the low bidder rather than 
the competitive bid system.
PROBLEM: The proprietary product may not be available in the quantities 
        needed
    When new products come to the marketplace the necessary 
manufacturing infrastructure is not always in place to provide the 
product in the quantities needed to meet market demand. This can be a 
significant problem when demand for the product increases substantially 
because a product manufacturer convinces a major client, like a state 
DOT, to use their product exclusively. This can have a negative impact 
on completion time for transportation projects and increase the cost.
PROBLEM: The proprietary product may not stand up to the test of time
    There needs to be some assurance for states and contractors that 
new and proprietary products have been field tested and are judged to 
be of an acceptable quality and longevity and that they have some value 
added to the transportation system. This happens best through the 
existing process rather than subjecting public officials to the 
influence of product sales people behind closed doors.
    The state certification process should be open and transparent and 
based on the documented analysis and professional judgment of qualified 
state transportation officials that the patented or proprietary item 
will contribute to the accomplishment of one or more of the goals set 
forth in the state's strategic highway improvement plan.
PROBLEM: Liability for the use of proprietary products in 
        specifications is uncertain
    If or when a specified proprietary product fails, what entity is 
liable for that failure may be unclear. Assuming the contractor 
incorporates the proprietary product into the project properly, subject 
to industry standards and the manufacturer's specifications, it is 
unlikely that the contractor would be liable. The issue would be if the 
State DOT fails to properly test and examine the product--as is done 
under the current process and rule. The State DOT could be subject to 
gross negligence if it does not undertake the same rigorous process for 
vetting such products use as a matter of public safety. In addition, 
determining who is at fault can lead to disputes and possibly 
litigation.
                       option one not acceptable
    FHWA also proposes an alternative option in the NPRM that would be 
short of total repeal. Option one suggests allowing states to specify 
proprietary products but require each state DOT to: (1) Implement 
procedures and specifications that provide for fair, open, and 
transparent competition awarded only by contract to the lowest 
responsive bid. It is unclear how this option would improve the 
existing process for allowing states to specify proprietary products. 
AGC believes this option muddles the existing successful process. Under 
this option, instead of having one well tested and proven process used 
by all states to justify the use of a proprietary product, each state 
would instead set up its own process and FHWA would have to make a 
state-by-state determination as to whether these new, undefined 
standards are being met. This creates confusion and uncertainty 
nationwide for manufacturers and contractors. AGC believes that this 
option should also be rejected.
                              conclusion:
    Competition requirements in the Federal-aid highway program have 
served states, material suppliers, product manufacturers, contractors 
and, most importantly, taxpayers well over the years and should remain 
an important factor in the program moving forward. AGC believes that 
the current regulation on patented and proprietary products as 
implemented provides a good balance allowing new products to be 
utilized while maintaining strong support for competition in the 
delivery of construction projects.
    AGC strongly encourages FHWA to leave the current rule in place.
        Sincerely,
                                                Brian Deery
         Senior Director, Highway and Transportation Division, The 
                          Associated General Contractors of America

          Questions from Hon. Peter A. DeFazio for Mike Terry

Account Based Fare System
Question 1: Mr. Terry, your testimony talks about IndyGo's efforts to 
build an account based fare system allowing for seamless connections to 
other modes.
    How much is that costing IndyGo to set up an account based fare 
system?
    Answer. Flowbird's contract to modernize our fare system is $4.3 
million. The new system will allow our users to utilize mobile devices 
and allows IndyGo to implement daily and weekly fare capping, which 
will improve our customer experience. This amount includes capital 
investments that are necessary to modernize our system, such as ticket 
vending machines. Based on the improved customer experience, including 
fare capping, IndyGo considers the modernized fare system a wise 
investment.

    Question 2: Can you elaborate on the impact this will have on 
riders, congestion, and reduced emissions?
    Answer. Ease of ticketing, purchase, transfers, and cost of 
frequent riding are all variables that impact ridership. Introducing 
fare capping allows current and future riders to pay the best value for 
their trip-nature, and IndyGo anticipates this will increase ridership 
(both new riders and more frequent). Additionally, the account-based 
system allows more seamless partnerships with other agencies, 
organizations, universities, social services, large employers, and 
schools: All improving rider experience, building a generation of 
future riders, reducing single occupancy vehicle (SOV) miles driven, 
and allowing an integration with other mobility means.
    Broadly incorporating enhancements to the fare collection system 
throughout the IndyGo service area will allow IndyGo to reduce cash 
collection on-board, offering air quality benefits that are twofold: 
direct and indirect. Direct air quality benefits are achieved through 
shorter dwell times which reduces fuel consumption on diesel buses, and 
thus reduced emissions from IndyGo vehicles. Indirect air quality 
benefits will be achieved through attracting new ridership to IndyGo's 
local routes, thus reducing (SOV) trips and associated emissions.

Electric Buses
Question 3: Mr. Terry, your testimony mentions IndyGo's goal of 
replacing all your diesel buses with electric buses in the next 14 
years.
    What are the obstacles to accomplishing that goal?
    Answer. New technology comes with stops and start. Electric 
vehicles provide an overall reduction in operating costs over the 
lifetime of the vehicle, but the upfront costs can be an obstacle. When 
we began planning to replace our diesel vehicles with electric 
vehicles, the two initial concerns were the upfront capital costs of 
the vehicles and the cost of the charging infrastructure. The 
commitment of Indianapolis residents to the Marion County Transit Plan 
allows us to implement the vision for an all-electric fleet. However, 
reductions in funding commitments from our local, state, or federal 
sources would be a potential obstacle.
    Beyond capital needs, the other obstacles we face include training 
our fleet maintenance staff to work on all-electric vehicles, including 
special training to be safe around high-voltage equipment. 
Additionally, we are working closely with vendors to address concerns 
or issues that may arise (range, heating/cooling). Balancing and 
transitioning vehicle maintenance personnel with diesel training and 
experience to a workforce of trained and experienced high voltage 
technicians to maintain vehicles in a state of good repair and 
performance will be challenging. In the full employment market that we 
are currently experiencing in our region, recruiting, training and 
retaining experienced and qualified employees will continue to be a 
barrier to our operation.
    A final challenge is the length of time between ordering a vehicle 
and placing that vehicle in revenue service--an 18-month delay. While 
IndyGo and other transit agencies plan for this reality, an increase in 
orders for electric vehicle manufacturers may create backlogs, further 
delaying the vehicles.
    IndyGo is committed to reducing the negative impact on the 
environment from diesel engines and the use of fossil fuels by 
transitioning to a fully electric fleet.

    Question 4: How much capital will these bus purchases require and 
do you anticipate the current Federal No/Low bus program will be able 
to fund your request and every other agency trying to achieve a similar 
goal?
    Answer. Each 40-foot electric vehicle costs approximately $850,000. 
IndyGo's fleet replacement schedule is one-twelfth of the fleet per 
year. With 160 vehicles, IndyGo anticipates purchasing approximately 12 
vehicles a year, at a total expense of $10.2 million. IndyGo funds 
vehicle purchases from a combination of sources: FTA Section 5307 
formula grants; FTA Section 5339 competitive grant funding, Surface 
Transportation Block Grant funding through the Indianapolis 
Metropolitan Planning Organization (MPO), and local sources, including 
bonds.
    Low/No funding is a vital program for transit agencies to shift 
their fleets to hybrid orelectric vehicles. However, even fully funded, 
the program is not adequate to meet the needs of the nation's transit 
providers. As evidence, the FY2018 Low/No program received 149 
proposals from 42 states requesting $557 million in Federal funds; but 
only $85 million was available to award. As additional manufacturers 
recognize the ethical and business sense of electric vehicles and 
transit agencies become more comfortable with electric vehicles in 
their fleet, we can only assume that this demand will increase.

    Question 5: As your electric vehicle fleet increases, will your 
charging needs require higher capacity electrical infrastructure and 
who pays for that infrastructure?
    Answer. With the purchase of battery electric buses for the rapid 
transit line, we increased our electrical infrastructure on site. This 
was partially funded through a competitive FTA State of Good Repair 
grant award. Moving forward, we will continue to seek federal 
assistance to support necessary infrastructure additions to meet our 
goal of electrification. We will also engage local public, private, and 
philanthropic partners in meeting electric needs.

    Question 6: As your electric vehicle fleet increases, could IndyGo 
benefit from technical assistance to help determine how to restructure 
routes to optimize them for electric buses and their charging needs?
    Answer. As electric vehicle technology for transit buses 
accelerates, we believe that the range and reliability will improve, 
limiting the need to assign or design around electric vehicles. Having 
resources available to support transit system planning would be helpful 
and especially beneficial learning from subject matter experts in 
electric vehicle technology and network design. With the variety of 
range capabilities for electric vehicles, battery and charging options, 
and transit network topography, climate and operational plans, 
utilizing technical expertise and experience would be very helpful.

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
